No. 19-_____
IN THE

Supreme Court of the United States
VALERO ENERGY CORPORATION AND
AMERICAN FUEL & PETROCHEMICAL MANUFACTURERS,
Petitioners,
v.
ENVIRONMENTAL PROTECTION AGENCY,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
PETITION FOR A WRIT OF CERTIORARI
VOLUME II OF II
CLARA M. POFFENBERGER
CLARA POFFENBERGER
ENVIRONMENTAL LAW
AND POLICY, LLC
2933 Fairhill Road
Fairfax, Virginia 22031
(703) 231-5251

EVAN A. YOUNG
Counsel of Record
ELLEN SPRINGER
JOSHUA MORROW
BAKER BOTTS L.L.P.
98 San Jacinto Boulevard
Suite 1500
Austin, Texas 78701
(512) 322-2506
evan.young@bakerbotts.com

Counsel for Petitioner Valero Energy Corporation
(additional counsel on inside front cover)
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – W ASHINGTON, D.C. 20002

SAMARA L. KLINE
BAKER BOTTS L.L.P.
2001 Ross Avenue
Dallas, Texas 75201
(214) 953-6825
MEGAN H. BERGE
BAKER BOTTS L.L.P.
The Warner
1299 Pennsylvania Ave., N.W.
Washington, D.C. 20004
(202) 639-1308
BRITTANY M. PEMBERTON
BRACEWELL LLP
2001 M Street N.W.
Suite 900
Washington, D.C. 20036
(202) 828-1708
Counsel for Petitioner
Valero Energy Corporation

RICHARD MOSKOWITZ
AMERICAN FUEL &
PETROCHEMICAL
MANUFACTURERS
1800 M Street, NW
Suite 900 North
Washington, D.C. 20036
(202) 457-0480
Counsel for Petitioner
American Fuel &
Petrochemical Manufacturers

TABLE OF CONTENTS
VOLUME I
Appendix A – Opinion of the D.C. Circuit
(August 30, 2019) ................................................................ 1a
Appendix B – Opinion of the D.C. Circuit
(September 6, 2019) .......................................................... 91a
Appendix C – Statutory Provisions Involved .............. 156a
VOLUME II
Appendix D – U.S. Environmental Protection
Agency, Renewable Fuel Standard Program Standards For 2017 And Biomass-Based Diesel
Volume For 2018: Response To Comments,
EPA-420-R-16-019 (November 2016) ........................... 187a
Appendix E – U.S. Environmental Protection
Agency, Renewable Fuel Standard Program:
Standards for 2017 and Biomass-Based Diesel
Volume for 2018, 81 Fed. Reg. 89,746
(December 12, 2016) (“2017 Rule”) ............................... 189a
Appendix F – U.S. Environmental Protection
Agency, Denial of Petitions for Rulemaking to
Change the RFS Point of Obligation,
EPA-420-R-17-008 (November 2017) ........................... 356a
Appendix G – U.S. Environmental Protection
Agency, Notice of Denial of Petitions for Rulemaking To Change the RFS Point of Obligation,
82 Fed. Reg. 56,779 (November 30, 2017) .................... 531a
Appendix H – U.S. Environmental Protection
Agency, Renewable Fuel Standard Program:
Standards for 2018 and Biomass-Based Diesel
Volume for 2019 (Proposed Rule) 82 Fed. Reg.
34,206 (July 21, 2017) ..................................................... 538a
(i)

ii
Appendix I – U.S. Environmental Protection
Agency, Renewable Fuel Standard Program:
Standards for 2018 and Biomass-Based Diesel
Volume for 2019; Availability of Supplemental
Information and Request for Further Comment,
82 Fed. Reg. 46,174 (October 4, 2017) .......................... 541a
Appendix J – U.S. Environmental Protection
Agency, Renewable Fuel Standard Program Standards for 2018 and Biomass-Based Diesel
Volume for 2019: Response to Comments,
EPA-420-R-17-007 (December 2017) ........................... 550a
Appendix K – U.S. Environmental Protection
Agency, Renewable Fuel Standard Program:
Standards for 2018 and Biomass-Based Diesel
Volume for 2019, 82 Fed. Reg. 58,486
(December 12, 2017) (“2018 Rule”) ............................... 552a

187a
APPENDIX D
U.S. ENVIRONMENTAL
PROTECTION AGENCY
OFFICE OF TRANSPORTATION
AND AIR QUALITY
ASSESSMENT AND STANDARDS DIVISION
————
EPA-420-R-16-019
————
Renewable Fuel Standard
Program Standards For 2017
And Biomass-Based Diesel
Volume For 2018:
Response To Comments
————
NOVEMBER 2016
————
[Content Omitted]
In the proposed rule, EPA did not propose any
changes to the definition of an obligated party, nor
did we specifically seek comment on this issue. EPA
received comments requesting that we change the point
of obligation in the RFS program primarily from parties that are obligated under the current regulations.
We also received comments from several parties opposed
to changing the point of obligation. These comments
are beyond the scope of this rulemaking.
In a separate action EPA has proposed to deny the
petitions we have received to change the point of obligation in the RFS program. EPA has opened a public

188a
docket (EPA-HQ-OAR-2016-0544) to receive comments
on our proposed denial of these petitions.72 Our proposed response to the petitions we have received,
together with the petitions, comments received to-date
on the petitions, and EPA’s draft analysis can also be
found in this docket.
[Content Omitted]

72

The EPA Administrator signed the Proposed Denial of
Petitions for Rulemaking to Change the RFS Point of Obligation
on November 10, 2016. More information about this proposed
rule can be found at https://www.epa.gov/renewable-fuel-standardprogram/response-petitions-reconsideration-rfs2-rule-changepoint-obligation

189a
APPENDIX E
ENVIRONMENTAL PROTECTION AGENCY
40 CFR Part 80
————
[EPA–HQ–OAR–2016–0004; FRL–9955–84–OAR]
RIN 2060–AS72
————
Renewable Fuel Standard Program:
Standards for 2017 and Biomass-Based
Diesel Volume for 2018
————
AGENCY: Environmental Protection Agency (EPA).
ACTION: Final rule [December 12, 2016].
SUMMARY: Under section 211 of the Clean Air Act,
the Environmental Protection Agency (EPA) is required
to set renewable fuel percentage standards every year.
This action establishes the annual percentage standards for cellulosic biofuel, biomass-based diesel, advanced biofuel, and total renewable fuel that apply to
all motor vehicle gasoline and diesel produced or imported in the year 2017. Relying on statutory authority
that is available when projected cellulosic biofuel production volumes are less than the applicable volume
specified in the statute, the EPA is setting volume
requirements for cellulosic biofuel, advanced biofuel,
and total renewable fuel that are below the statutory
applicable volumes, but which are nevertheless significantly higher than past requirements. The final rule
also establishes the four percentage standards applicable to obligated parties, namely producers and
importer of gasoline and diesel, based on the corresponding volume requirements. The final standards

190a
are expected to continue driving the market to overcome constraints in renewable fuel distribution infrastructure, which in turn is expected to lead to substantial growth over time in the production and use of
renewable fuels. In this action, we are also establishing the applicable volume of biomass-based diesel for
2018.
DATES: This final rule is effective on February 10,
2017.
ADDRESSES: The EPA has established a docket for
this action under Docket ID No. EPA–HQ–OAR–
2016–0004. All documents in the docket are listed on
the http://www.regulations.gov Web site. Although
listed in the index, some information is not publicly
available, e.g., CBI or other information whose disclosure is restricted by statute. Certain other material,
such as copyrighted material, is not placed on the Internet and will be publicly available only in hard copy
form. Publicly available docket materials are available
electronically through http:// www.regulations.gov.
FOR FURTHER INFORMATION CONTACT:
Julia MacAllister, Office of Transportation and Air
Quality, Assessment and Standards Division, Environmental Protection Agency, 2000 Traverwood Drive,
Ann Arbor, MI 48105; telephone number: 734–214–
4131; email address: macallister.julia@epa.gov.
SUPPLEMENTARY INFORMATION:
Entities potentially affected by this final rule are those
involved with the production, distribution, and sale of
transportation fuels, including gasoline and diesel fuel
or renewable fuels such as ethanol, biodiesel, renewable diesel, and biogas. Potentially regulated categories
include:

191a

1,2

This table is not intended to be exhaustive, but
rather provides a guide for readers regarding entities
likely to be regulated by this final action. This table
lists the types of entities that EPA is now aware could
potentially be regulated by this final action. Other
types of entities not listed in the table could also be
regulated. To determine whether your entity would be
regulated by this final action, you should carefully
examine the applicability criteria in 40 CFR part 80.
If you have any questions regarding the applicability
of this final action to a particular entity, consult the
person listed in the FOR FURTHER INFORMATION
CONTACT section.

1

North American Industry Classification System (NAICS).

2

Standard Industrial Classification (SIC) system code.

192a
Outline of This Preamble
I. Executive Summary
A. Purpose of This Action
B. Summary of Major Provisions in This
Action
1. Approach to Setting Volume
Requirements
2. Cellulosic Biofuel
3. Advanced Biofuel
4. Total Renewable Fuel
5. Biomass-Based Diesel
6. Annual Percentage Standards
7. Assessment of Aggregate
Compliance
II. Authority and Need for Waiver of Statutory Applicable Volumes
A. Statutory Authorities for Reducing
Volume Targets
1. Cellulosic Waiver Authority
2. General Waiver Authority
3. General Comments Related to
Waiver Authorities
B. Treatment of Carryover RINs
1. Updated Projection of Carryover
RIN Volume
2. EPA’s Decision
III. Cellulosic Biofuel Volume for 2017

193a
A. Statutory Requirements
B. Cellulosic Biofuel Industry Assessment
1. Potential Domestic Producers
2. Potential Foreign Sources of Cellulosic Biofuel
3. Summary of Volume Projections
for Individual Companies
C. Projection From the Energy Information Administration
D. Cellulosic Biofuel Volume for 2017
IV. Advanced Biofuel Volume for 2017
A. Volumetric Limitation on Use of the
Cellulosic Waiver Authority
B. Determination of Reasonably Attainable and Appropriate Volumes
1. Imported Sugarcane Ethanol
2. Biodiesel and Renewable Diesel
3. Other Advanced Biofuel
4. Total Advanced Biofuel
V. Total Renewable Fuel Volume for 2017
A. Volumetric Limitation on Use of the
Cellulosic Waiver Authority
B. Assessing Adequacy of Supply
1. Ethanol
i. E0
ii. E15
iii. E85

194a
iv. Total Ethanol
2. Biodiesel and Renewable Diesel
i. Feedstock Availability
ii. Biodiesel and Renewable Diesel
Production Capacity
iii. Biodiesel and Renewable Diesel
Import Capacity
iv. Biodiesel and Renewable Diesel
Distribution Capacity
v. Biodiesel and Renewable Diesel
Retail Infrastructure Capacity
vi. Biodiesel and Renewable Diesel
Consumption Capacity
vii. Biodiesel and Renewable Diesel
Consumer Response
viii. Projected Supply of Biodiesel
and Renewable Diesel in 2017
3. Total Renewable Fuel Supply
C. Market Responses to the Advanced
Biofuel and Total Renewable Fuel Volume Requirements
D. Impacts of 2017 Standards on Costs
VI. Biomass-Based Diesel Volume for 2018
A. Statutory Requirements
B. Determination of Applicable Volume
of Biomass-Based Diesel
1. BBD Production and Compliance
Through 2015

195a
2. Interaction Between BBD and Advanced Biofuel Standards
3. BBD Volume for 2018
C. Consideration of Statutory Factors for
2018
VII. Percentage Standards for 2017
A. Calculation of Percentage Standards
B. Small Refineries and Small Refiners
C. Final Standards
VIII. Assessment of Aggregate Compliance
A. Assessment of the Domestic Aggregate
Compliance Approach
B. Assessment of the Canadian Aggregate
Compliance Approach
IX. Public Participation
X. Statutory and Executive Order Reviews
A. Executive Order 12866: Regulatory
Planning and Review and Executive
Order 13563: Improving Regulation
and Regulatory Review
B. Paperwork Reduction Act (PRA)
C. Regulatory Flexibility Act (RFA)
D. Unfunded
(UMRA)

Mandates

Reform

Act

E. Executive Order 13132: Federalism
F. Executive Order 13175: Consultation
and Coordination With Indian Tribal
Governments

196a
G. Executive Order 13045: Protection of
Children From Environmental Health
Risks and Safety Risks
H. Executive Order 13211: Actions Concerning Regulations That Significantly
Affect Energy Supply, Distribution, or
Use
I. National Technology Transfer and
Advancement Act (NTTAA)
J. Executive Order 12898: Federal Actions To Address Environmental Justice in Minority Populations, and LowIncome Populations
K. Congressional Review Act (CRA)
XI. Statutory Authority

197a
I. Executive Summary
The Renewable Fuel Standard (RFS) program began
in 2006 pursuant to the requirements in Clean Air Act
(CAA) section 211(o) that were added through the
Energy Policy Act of 2005 (EPAct). The statutory
requirements for the RFS program were subsequently
modified through the Energy Independence and Security Act of 2007 (EISA), resulting in the publication of
major revisions to the regulatory requirements on
March 26, 2010.1 EISA’s stated goals include moving
the United States toward “greater energy independence and security, to increase the production of clean
renewable fuels.” Today, nearly all of the approximately 142 billion gallons of gasoline used for transportation purposes contains 10 percent ethanol (E10),
and a substantial portion of diesel fuel contains biodiesel.
Renewable fuels represent an opportunity for the U.S.
to move away from fossil fuels towards a set of lower
lifecycle GHG transportation fuels, and the RFS program provides incentives for these lower lifecycle GHG
fuels to grow and compete in the market. While renewable fuels include non-advanced (conventional) corn
starch ethanol, which is the predominant renewable
fuel in use to date, Congress envisioned the majority
of growth from 2014 forward to come from advanced
biofuels, as the conventional volumes remain constant
in the statutory volume tables starting in 2015 while
the advanced volumes continue to grow.2

1
2

75 FR 14670, March 26, 2010.

In this document we follow the common practice of using the
term “conventional” renewable fuel to mean any renewable fuel
that is not an advance biofuel.

198a
The statute includes annual volume targets, and
requires EPA to translate those volume targets (or
alternative volume requirements established by EPA
in accordance with statutory waiver authorities) into
compliance obligations that refiners and importers must
meet every year. In this action, we are establishing the
annual percentage standards for cellulosic biofuel,
biomass-based diesel, advanced biofuel, and total renewable fuel that would apply to all gasoline and diesel
produced or imported in 2017. We are also establishing
the applicable volume of biomass-based diesel for 2018.
The standards we are setting are designed to
achieve the Congressional intent of increasing renewable fuel use over time in order to reduce lifecycle GHG
emissions of transportation fuels and increase energy
security, while at the same time accounting for the
real-world challenges that have slowed progress
toward these goals. Those challenges have made the
volume targets established by Congress for 2017 beyond
reach for all fuel categories other than biomass-based
diesel (BBD), for which the statute specifies only a
minimum requirement of 1.0 billion gallons. In setting
these standards for 2017, we have used the cellulosic
waiver authority provision provided by Congress to
establish volume requirements that will be lower than
the statutory targets for fuels other than biomass-based
diesel, but nevertheless represent significant growth
from past years.
The 2017 volume requirements for advanced biofuel
and total renewable fuel are higher than the levels we
proposed in the NPRM, reflecting our assessment of
updated information and a review of comments
received. We are also finalizing the proposed volume
requirement for BBD for 2018. This BBD volume
requirement will continue to provide support for the

199a
BBD industry, and we expect that larger volumes of
this fuel type are likely to be used to comply with the
advanced biofuel requirement. The final volume requirements are shown in Table I–1 below. These final volumes, when considered together with the volumes established over the past several years of the RFS program,
indicate that the RFS program is working to deliver
steady, ambitious growth in the total amount of renewable fuel produced and used in the United States,
consistent with Congressional intent.
TABLE I–1—PROPOSED AND FINAL
VOLUME REQUIREMENTSa
2017
2018
Proposed Final Proposed Final
Cellulosic biofuel
(million gallons)
Biomass-based
diesel (billion
gallons)
Advanced biofuel
(billion gallons)
Renewable fuel
(billion gallons)

312

311

n/a

n/a

b

b

2.0

2.1

2.1

4.0

4.28

n/a

n/a

18.8

19.28

n/a

n/a

2.0

Despite significant increases in renewable fuel use
in the United States, real-world constraints, such as
the slower than expected development of the cellulosic
biofuel industry and constraints in the marketplace
related to supply of certain biofuels to consumers, have
made the timeline laid out by Congress for the growth
a

All values are ethanol-equivalent on an energy content basis,
except for BBD which is biodiesel-equivalent.
b

The 2017 BBD volume requirement was established in the
2014–2016 final rule (80 FR 77420, December 14, 2015).

200a
in renewable fuel use (other than for BBD) impossible
to achieve. These challenges continue, and are largely
the same for 2017 as they were for 2016. However, a
careful review of the comments we received in response
to the May 31, 2016 Notice of Proposed Rulemaking
(NPRM) and other information that has become available since May has led us to conclude that volume
reductions for 2017 need not be as great as we had
proposed. In light of the lower reductions necessary, in
this final rule we rely exclusively on the cellulosic waiver
authority to provide reductions in both advanced biofuel and total renewable fuel volumes. That is, we have
determined that it is not necessary to provide an additional increment of volume reduction for total renewable fuels through use of the general waiver authority
based on a finding of inadequate domestic supply,
as we had done in the final rule establishing annual
standards for 2014–2016 (“Renewable Fuel Standard
Program: Standards for 2014, 2015, and 2016 and
Biomass-Based Diesel Volume for 2017,” (hereinafter
referred to as the “2014–2016 final rule”),3 and as we
also proposed to do in establishing standards for 2017.4
We believe that the RFS program can and will drive
renewable fuel use, and we have considered the ability
of the market to respond to the standards we set when
we assessed the amount of renewable fuel that can be
reasonably attained in 2017. Therefore, while this
final rule applies the tools Congress provided to make
adjustments to the statutory volume targets in recognition of the constraints that exist today, we believe the
standards we are setting in this action will drive growth
in renewable fuels, particularly advanced biofuels,
3

80 FR 77420, December 14, 2015.

4

81 FR 34778, May 31, 2016.

201a
which achieve substantial lifecycle GHG emissions. In
our view, while Congress recognized that supply challenges may exist as evidenced by the waiver provisions, it did not intend growth in the renewable fuels
market to be stopped by those challenges, including
those associated with the “E10 blendwall.”5 The fact
that Congress chose to mandate increasing and substantial amounts of renewable fuel clearly signals that
it intended the RFS program to create incentives
to increase renewable fuel supplies and overcome constraints in the market. The standards we are setting
in this action will provide those incentives.
The standards we are setting in this final rule are
part of a collection of actions, in both the government
and private sectors, to increase the use of renewable
fuels. In addition to ongoing efforts to evaluate new
pathways for RIN generation for advanced biofuels,
we have recently proposed regulatory provisions that
we believe will enhance the ability of the market to
increase not only the production of advanced and cellulosic biofuels, but also the use of higher-level ethanol
blends such as E15 and E85.6 DOE and USDA are
continuing to provide funds for the development of new
technologies and expansion of infrastructure for higher
ethanol blends, and the ethanol industry has also made
efforts to expand the use of higher ethanol blends
5

The “E10 blendwall” represents the volume of ethanol that
can be consumed domestically if all gasoline contains 10% ethanol
and there are no higher-level ethanol blends consumed such as
E15 or E85.
6

See the recently proposed Renewables Enhancement and
Growth Support (REGS) Rule (81 FR 80828, November 16, 2016).
More information about this proposed rule can be found at
https://www.epa.gov/renewable-fuel-standard-program/proposed
-renewables-enhancement-and-growth-support-regs-rule.

202a
through its Prime the Pump program. These actions
are expected to continue to help clear hurdles to support the ongoing growth in the use of renewable fuels
in future years.
A. Purpose of This Action
The national volume targets of renewable fuel that
are intended to be achieved under the RFS program
each year (absent an adjustment or waiver by EPA)
are specified in CAA section 211(o)(2). The statutory
volumes for 2017 are shown in Table I.A–1. The cellulosic biofuel and BBD categories are nested within the
advanced biofuel category, which is itself nested within the total renewable fuel category. This means, for
example, that each gallon of cellulosic biofuel or BBD
that is used to satisfy the individual volume requirements for those fuel types can also be used to satisfy
the requirements for advanced biofuel and total renewable fuel.
TABLE I.A–1—APPLICABLE 2017 VOLUMES
SPECIFIED IN THE CLEAN AIR ACT
[Billion Gallons]a
Cellulosic biofuel
Biomass-based diesel
Advanced biofuel
Renewable fuel

5.5
≥1.0
9.0
24.0

Under the RFS program, EPA is required to determine and publish annual percentage standards for
each compliance year. The percentage standards are
calculated to ensure use in transportation fuel of the
national “applicable volumes” of the four types of bioa

All values are ethanol-equivalent on an energy content basis,
except values for BBD which are given in actual gallons.

203a
fuel (cellulosic biofuel, BBD, advanced biofuel, and total
renewable fuel) that are set forth in the statute or
established by EPA in accordance with the Act’s requirements. The percentage standards are used by obligated
parties (generally, producers and importers of gasoline
and diesel fuel) to calculate their individual compliance obligations. Each of the four percentage standards is applied to the volume of non-renewable gasoline
and diesel that each obligated party produces or imports during the specified calendar year to determine
their individual volume obligations with respect to the
four renewable fuel types. The individual volume
obligations determine the number of RINs of each
renewable fuel type that each obligated party must
acquire and retire to demonstrate compliance.
EPA is establishing the annual applicable volume
requirements for cellulosic biofuel, advanced biofuel,
and total renewable fuel for 2017, and for BBD for
2018.7 Table I.A–2 lists the statutory provisions and
associated criteria relevant to determining the national
applicable volumes used to set the percentage standards in this final rule.

7

The 2017 BBD volume requirement was established in the
2014–2016 final rule.

204a

This page was intentionally left blank.

TABLE I.A—2—STATUTORY PROVISIONS FOR DETERMINATION OF APPLICABLE VOLUMES
Applicable
Clean air act
Criteria provided in statute for
volumes
reference
determination of applicable volume
Cellulosic biofuel ........... 211(o)(7)(D)(i) ............ Required volume must be lesser of volume specified in CAA
211(o)(2)(B)(i)(III) or EPA’s projected volume.
211(o)(7)(A) ................ EPA in consultation with other federal agencies may waive the
statutory volume in whole or in part if implementation would
severely harm the economy or environment of a State, region, or
the United States, or if there is an inadequate domestic supply.
Biomass-based
211(o)(2)(B)(ii)
Required volume for years after 2012 must be at least 1.0 billion
8
diesel ............................ and (v) ........................ gallons, and must be based on a review of implementation of the
program, coordination with other federal agencies, and an analysis
of specified factors.
211(o)(7)(A) ................ EPA in consultation with other federal agencies may waive the statutory volume in whole or in part if implementation would severely
harm the economy or environment of a State, region, or the United
States, or if there is an inadequate domestic supply.
Advanced biofuel ........... 211(o)(7)(D)(i) ............ If applicable volume of cellulosic biofuel is reduced below the statutory volume to the projected volume, EPA may reduce the advanced
biofuel and total renewable fuel volumes in CAA 211(o)(2)(B)(i)(I)
and (II) by the same or lesser volume. No criteria specified.
211(o)(7)(A) ................ EPA in consultation with other federal agencies may waive the statutory volume in whole or in part if implementation would severely
harm the economy or environment of a State, region, or the United
States, or if there is an inadequate domestic supply.
Total renewable
211(o)(7)(D)(i) ............ If applicable volume of cellulosic biofuel is reduced below the statufuel .................................
tory volume to the projected volume, EPA may reduce the advanced
biofuel and total renewable fuel volumes in CAA 211(o)(2)(B)(i)(I)
and (II) by the same or lesser volume. No criteria specified.
211(o)(7)(A) ................ EPA in consultation with other federal agencies may waive the statutory volume in whole or in part if implementation would severely
harm the economy or environment of a State, region, or the United
States, or if there is an inadequate domestic supply.
8

Section 211(o)(7)(E) also authorizes EPA in consultation with other federal agencies to issue a temporary waiver of applicable volumes
of BBD where there is a significant feedstock disruption or other market circumstance that would make the price of BBD fuel increase
significantly.

205a

206a

This page was intentionally left blank.

207a
As shown in Table I.A–2, the statutory authorities
allowing EPA to modify or set the applicable volumes
differ for the four categories of renewable fuel. Under
the statute, EPA must annually determine the
projected volume of cellulosic biofuel production for
the following year. If the projected volume of cellulosic
biofuel production is less than the applicable volume
specified in section 211(o)(2)(B)(i)(III) of the statute,
EPA must lower the applicable volume used to set the
annual cellulosic biofuel percentage standard to the
projected production volume. In Section III of this final
rule, we present our analysis of cellulosic biofuel production and the final applicable volume for 2017. This
analysis is based on information provided by the
Department of Energy’s Energy Information Administration (EIA), an evaluation of producers’ production
plans and progress to date following discussions with
cellulosic biofuel producers, and is informed by comments we received in response to the NPRM.
With regard to BBD, Congress chose to set aside a
portion of the advanced biofuel standard for BBD, and
CAA section 211(o)(2)(B) specifies the applicable volumes of BBD to be used in the RFS program only
through year 2012. For subsequent years the statute
sets a minimum volume of 1 billion gallons, and directs
EPA, in coordination with the U.S. Departments of
Agriculture (USDA) and Energy (DOE), to determine
the required volume after review of implementation of
the renewable fuels program and consideration of a
number of factors. The BBD volume requirement must
be established 14 months before the year in which it
will apply. In the 2014–2016 final rule we established
the BBD volume for 2017. In Section VI of this preamble we discuss our assessment of statutory and other
relevant factors and our final volume requirement for
BBD for 2018, which has been developed in coordina-

208a
tion with USDA and DOE. We are increasing the
required volume of BBD so as to provide continued
support to that important contributor to the pool of
advanced biofuel while at the same time setting the
volume requirement in a manner anticipated to provide continued incentive for the development of other
types of advanced biofuel.
Regarding advanced biofuel and total renewable fuel,
Congress provided several mechanisms through which
those volumes could be reduced if necessary. If we
reduce the applicable volume of cellulosic biofuel below
the volume specified in CAA section 211(o)(2)(B)(i)(III),
we also have the authority to reduce the applicable
volumes of advanced biofuel and total renewable fuel
by the same or a lesser amount. We refer to this as the
“cellulosic waiver authority.” We may also reduce the
applicable volumes of any of the four renewable fuel
types using the “general waiver authority” provided in
CAA section 211(o)(7)(A) if EPA, in consultation with
USDA and DOE, finds that implementation of the
statutory volumes would severely harm the economy
or environment of a State, region, or the United States,
or if there is inadequate domestic supply. Sections II,
IV, and V of this final rule describe our use of the
cellulosic waiver authority alone to reduce volumes of
advanced biofuel and total renewable fuel, and our
assessment that the resulting volumes are reasonably
attainable. As described in the NPRM, and consistent
with the views that we expressed in the 2014–2016
final rule, we continue to believe that reductions in the
statutory targets for 2017 are necessary. However, in
light of our review of updated information and consideration of comments, we are making those reductions
under the cellulosic waiver authority alone and are not
finalizing an additional increment of reduction for total
renewable fuel based on a finding of inadequate domes-

209a
tic supply under the general waiver authority as we
had proposed. Despite the reductions we are finalizing
today, we continue to be mindful that the primary
objective of the statute is to increase renewable fuel
use over time. While progress has taken longer than
Congress anticipated, we note that today’s rule provides for 15 billion gallons of conventional renewable
fuel, the implied level envisioned under the statute for
2017, while also providing for a substantial increase in
the required volume of advanced biofuel over past
volume requirements.
B. Summary of Major Provisions in This Action
This section briefly summarizes the major provisions of this final rule. We are establishing applicable
volume requirements and associated percentage standards for cellulosic biofuel, advanced biofuel, and total
renewable fuel for 2017, as well as the percentage standard for BBD for 2017, and the applicable volume requirement for BBD for 2018.
1. Approach to Setting Volume Requirements
The approach we have taken in this final rule is
essentially the same as that presented in the NPRM
and in the 2014–2016 final rule with regard to establishing the cellulosic biofuel volume requirement, and
the use of the cellulosic waiver authority to reduce
advanced biofuel and total renewable fuel. However, it
differs in that we have not found it necessary to also
use the general waiver authority to provide an additional increment of reduction with respect to total
renewable fuel. While in the NPRM we proposed to
determine the maximum reasonably achievable supply of total renewable fuel, consistent with the general
waiver authority’s “inadequate domestic supply” crite-

210a
rion, in this final rule we have instead identified the
total renewable fuel volume that results from use of
the cellulosic waiver authority, and have determined
that this volume of total renewable fuel is reasonably
attainable. In this assessment, we took into account
the same constraints in the supply of renewable fuel
we noted in the NPRM, but have come to a different
result with respect to necessary volume reductions in
light of updated information and consideration of comments.
Section II provides a general description of our
approach to setting volume requirements in today’s
rule, including a review of the statutory waiver authorities and our consideration of carryover RINs. Section
III provides our assessment of the 2017 cellulosic
biofuel volume based on a projection of production that
reflects a neutral aim at accuracy. Sections IV and V
describe our assessment of reasonably attainable volumes of advanced biofuel and total renewable fuel,
respectively. Finally, Section VI provides our determination regarding the 2018 BBD volume requirement,
and reflects an analysis of a set of factors stipulated in
CAA section 211(o)(2)(B)(ii).
2. Cellulosic Biofuel
In the past several years the cellulosic biofuel industry has continued to make progress towards increased
commercial scale production. Cellulosic biofuel production reached record levels in 2015, driven largely
by compressed natural gas (CNG) and liquefied natural gas (LNG) derived from biogas, and is expected to
exceed these volumes in 2016. Cellulosic ethanol, while
produced in much smaller quantities than CNG/LNG
derived from biogas, was produced consistently on a
commercial scale for the first time in 2015. Cellulosic
ethanol production levels increased from existing facil-

211a
ities in 2016, and significant work continues to be done
to enable the production of cellulosic ethanol at new
facilities in 2017 and beyond. Available data suggest
that the production levels for both cellulosic CNG/LNG
and cellulosic ethanol in 2016 will exceed by a significant margin the levels produced in 2015. In this rule
we are establishing a cellulosic biofuel volume requirement of 311 million ethanol-equivalent gallons for 2017
based on the information we have received regarding
individual facilities’ capacities, production start dates
and biofuel production plans, information received in
public comments, input from other government agencies, and EPA’s own engineering judgment.
As part of estimating the volume of cellulosic biofuel
that will be made available in the U.S. in 2017, we considered all potential production sources by company
and facility. This included facilities still in the commissioning or start-up phases, as well as facilities
already producing some volume of cellulosic biofuel.9
From this universe of potential cellulosic biofuel sources,
we identified the subset that is expected to produce
commercial volumes of qualifying cellulosic biofuel for
use as transportation fuel, heating oil, or jet fuel by
the end of 2017. To arrive at projected volumes, we
collected relevant information on each facility. We
then developed projected production ranges based on
factors such as the status of the technology being used,
progress towards construction and production goals,
facility registration status, production volumes
achieved, and other significant factors that could poten9

Facilities primarily focused on research and development
(R&D) were not the focus of our assessment, as production from
these facilities represents very small volumes of cellulosic biofuel,
and these facilities typically have not generated RINs for the fuel
they have produced.

212a
tially impact fuel production or the ability of the
produced fuel to qualify for cellulosic biofuel Renewable Identification Numbers (RINs). We also used this
information to group these companies based on production history and to select a value within the aggregated
projected production ranges that we believe best represents the most likely production volume from each
group of companies in 2017. Further discussion of
these factors and the way they were used to determine
our final cellulosic biofuel projection for 2017 can be
found in Section III.
3. Advanced Biofuel
The conditions that compelled us to reduce the 2016
volume requirement for advanced biofuel below the
statutory target remain relevant in 2017. As for 2016,
we investigated the ability of volumes of non-cellulosic
advanced biofuels to backfill unavailable volumes of
cellulosic biofuel in 2017, through domestic production
or import. We took into account the substantial GHG
emissions reduction required of advanced biofuels, the
various constraints on supply of advanced biofuels, the
ability of the standards we set to bring about market
changes in the time available, and the potential impacts
associated with diverting some feedstocks from current use to the production of biofuel. Based on these
considerations and review of the comments received in
response to the NPRM and other information that has
become available, we have determined that a portion
of the shortfall in cellulosic biofuel may appropriately
be backfilled with advanced biofuel. We are exercising
our cellulosic waiver authority to reduce the statutory
applicable volume of advanced biofuel to a final volume requirement of 4.28 billion gallons for 2017. This
is somewhat higher than the proposed level of 4.0 billion gallons. The applicable volume for advanced bio-

213a
fuel that we are establishing for 2017 will result in
significant volume growth over the volume requirement for 2016, and will require the use of more noncellulosic advanced biofuel (3.97 billion gallons) than
would have been required under the statutory targets
(3.50 billion gallons).
4. Total Renewable Fuel
Following our determination of the appropriate
volume reduction for advanced biofuel for 2017 using
the cellulosic waiver authority, we applied the same
volume reduction to the statutory target for total renewable fuel, resulting in a volume requirement of 19.28
billion gallons. We then evaluated this total renewable
fuel volume to determine if it is reasonably attainable
given assessments of attainable volumes of individual
fuel types, including biodiesel, renewable diesel, ethanol (in the form of E10 or higher ethanol blends such
as E15 or E85, taking into account demand for E0),
and other renewable fuels. Based on comments received
in response to the NPRM and other information that
has become available, we have determined that a total
renewable fuel volume of 19.28 billion gallons is reasonably attainable in 2017. There is, therefore, no need
to use the general waiver authority to further reduce
the total renewable fuel volume requirement due to a
finding of inadequate domestic supply.10

10

The general waiver authority can also be used under a determination that the RFS volumes would cause “severe economic or
environmental harm.” As described in Section II.A.2 and in more
detail in the response to comments document accompanying this
rule, EPA does not believe that the record supports a finding of
severe economic or environmental harm with respect to the volume requirements we are finalizing today.

214a
5. Biomass-Based Diesel
In EISA, Congress specified increasing applicable
volumes of BBD through 2012. Beyond 2012 Congress
stipulated that EPA, in coordination with other agencies, was to establish the BBD volume taking into consideration implementation of the program to date and
various specified factors, providing that the required
volume for BBD could not be less than 1.0 billion gallons. For 2013, EPA established an applicable volume
of 1.28 billion gallons. For 2014 and 2015 we established the BBD volume requirement to reflect the
actual volume for each of these years of 1.63 and 1.73
billion gallons.11 For 2016 and 2017, we set the BBD
volume requirements at 1.9 and 2.0 billion gallons
respectively.
Given current and recent market conditions, the
advanced biofuel volume requirement is driving the
use of biodiesel and renewable diesel volumes over and
above volumes required through the separate BBD
standard, and we expect this to continue. Nevertheless,
we continue to believe for 2018 that it is appropriate
to set increasing BBD applicable volumes to provide a
floor to support continued investment to enable
increased production and use of BBD. In doing so we
also believe in the importance of maintaining opportunities within the advanced biofuel requirement for
growth in other types of advanced biofuel, such as
renewable diesel co-processed with petroleum, renewable gasoline blend stocks, and renewable heating oil,
as well as others that are under development.

11

The 2015 BBD standard was based on actual data for the
first 9 months of 2015 and on projections for the latter part of the
year for which data on actual use was not available at the time.

215a
Thus, based on a review of the implementation of
the program to date and all the factors required under
the statute, and in coordination with USDA and DOE,
we are finalizing an increase in the applicable volume
of BBD by 100 million gallons, to 2.1 billion gallons for
2018. We believe that this increase will support the
overall goals of the program while also maintaining
the incentive for development and growth in production of other advanced biofuels. Establishing the volumes at this level will encourage BBD producers to
manufacture higher volumes of fuel that will contribute to the advanced biofuel and total renewable fuel
requirements, while also leaving considerable opportunity within the advanced biofuel mandate for investment in and growth in production of other types of
advanced biofuel with comparable or potentially superior environmental or other attributes.
6. Annual Percentage Standards
The renewable fuel standards are expressed as a
volume percentage and are used by each producer and
importer of fossil-based gasoline or diesel to determine
their renewable fuel volume obligations. The percentage standards are set so that if each obligated party
meets the standards, and if EIA projections of gasoline
and diesel use for the coming year prove to be accurate,
then the amount of renewable fuel, cellulosic biofuel,
BBD, and advanced biofuel actually used will meet the
volume requirements used to derive the percentage
standards, required on a nationwide basis.
Four separate percentage standards are required
under the RFS program, corresponding to the four separate renewable fuel categories shown in Table I.A–1.
The specific formulas we use in calculating the renewable fuel percentage standards are contained in the
regulations at 40 CFR 80.1405. The percentage stand-

216a
ards represent the ratio of renewable fuel volume to
projected non-renewable gasoline and diesel volume.
The volume of transportation gasoline and diesel used
to calculate the final percentage standards was provided by the Energy Information Administration (EIA).
The final percentage standards for 2017 are shown in
Table I.B.6–1. Detailed calculations can be found in
Section VII, including the projected gasoline and
diesel volumes used.
TABLE I.B.6–1—FINAL 2017
PERCENTAGE STANDARDS
Cellulosic biofuel ........................
Biomass-based diesel .................
Advanced biofuel ........................
Renewable fuel ...........................

0.173%
1.67%
2.38%
10.70%

7. Assessment of Aggregate Compliance
By November 30 of each year we are required to
assess the status of the aggregate compliance approach
to land-use restrictions under the definition of renewable biomass for both the U.S. and Canada. In today’s
action we are providing the final announcements for
these administrative actions.
As part of the RFS regulations, EPA established an
aggregate compliance approach for renewable fuel producers who use planted crops and crop residue from
U.S. agricultural land. This compliance approach
relieved such producers (and importers of such fuel) of
the individual recordkeeping and reporting requirements otherwise required of producers and importers
to verify that such feedstocks used in the production of
renewable fuel meet the definition of renewable
biomass. EPA determined that 402 million acres of
U.S. agricultural land was available in 2007 (the year
of EISA enactment) for production of crops and crop

217a
residue that would meet the definition of renewable
biomass, and determined that as long as this total
number of acres is not exceeded, it is unlikely that new
land has been devoted to crop production based on historical trends and economic considerations. We indicated that we would conduct an annual evaluation of
total U.S. acreage that is cropland, pastureland, or
conservation reserve program land, and that if the
value exceeds 402 million acres, producers using domestically grown crops or crop residue to produce renewable fuel would be subject to individual recordkeeping
and reporting to verify that their feedstocks meet the
definition of renewable biomass. As described in Section VIII.A, based on data provided by the USDA and
using the methodology in place since 2014, we have
estimated that U.S. agricultural land totaled approximately 380 million acres in 2016 and thus did not exceed
the 2007 baseline acreage. This assessment means that
the aggregate compliance provision can continue to be
used in the U.S. for calendar year 2017.
On September 29, 2011, EPA approved the use of a
similar aggregate compliance approach for planted
crops and crop residue grown in Canada. The Government of Canada utilized several types of land use data
to demonstrate that the land included in their 124 million acre baseline is cropland, pastureland or land equivalent to U.S. Conservation Reserve Program land that
was cleared or cultivated prior to December 19, 2007,
and was actively managed or fallow and non-forested
on that date (and is therefore RFS2 qualifying land).
As described in Section VIII.B, based on data provided
by Canada, we have estimated that Canadian agricultural land totaled approximately 118.4 million acres in
2016 and thus did not exceed the 2007 baseline acreage. This assessment means that the aggregate com-

218a
pliance provision can continue to be used in Canada
for calendar year 2017.
II. Authority and Need For Waiver of Statutory Applicable Volumes
The statute provides the EPA with the authority to
reduce volume requirements below the applicable volume targets specified in the statute under specific circumstances. This section discusses those authorities and
our use of the cellulosic waiver authority alone to set
2017 volume requirements for cellulosic biofuel,
advanced biofuel, and total renewable fuel that are
below the statutory volume targets.
A. Statutory Authorities for Reducing Volume
Targets
In CAA section 211(o)(2), Congress specified increasing annual volume targets for total renewable fuel,
advanced biofuel, and cellulosic biofuel for each year
through 2022, and for biomass-based diesel through
2012, and authorized EPA to set volume requirements
for subsequent years in coordination with USDA and
DOE, and after consideration of specified factors. However, Congress also recognized that under certain circumstances it would be appropriate for EPA to set
volume requirements at a lower level than reflected in
the statutory volume targets, and thus provided waiver
provisions in CAA section 211(o)(7).
1. Cellulosic Waiver Authority
Section 211(o)(7)(D)(i) of the CAA provides that if
EPA determines that the projected volume of cellulosic
biofuel production for a given year is less than the
applicable volume specified in the statute, that EPA
must reduce the applicable volume of cellulosic biofuel
required to the projected production volume for that

219a
calendar year. In making this projection, EPA must
take a “neutral aim at accuracy.” API v. EPA, 706 F.3d
474 (D.C. Cir. 2013). Pursuant to this provision, EPA
has set the cellulosic biofuel requirement lower than
the statutory volumes for each year since 2010. As
described in Section III.D, the projected volume of
cellulosic biofuel production for 2017 is less than the
5.5 billion gallon volume target in the statute. Therefore, for 2017, we are setting the cellulosic biofuel volume requirement at a level lower than the statutory
applicable volume, in accordance with this provision.
Section 211(o)(7)(D)(i) also provides that “[f]or any
calendar year in which the Administrator makes . . . a
reduction [in cellulosic biofuel volumes], the Administrator may also reduce the applicable volume of
renewable fuel and advanced biofuels . . . by the same
or a lesser volume.” Using this authority, the reductions in total renewable fuel and advanced biofuel can
be less than or equal to, but no more than, the amount
of reduction in the cellulosic biofuel volume. EPA used
this authority to reduce applicable volumes of advanced
biofuel in 2014–16, and to reduce the total renewable
fuel volumes in those years by an equal amount. We
refer to authority in Section 211(o)(7)(D)(i) to waive
volumes of advanced and total renewable fuel as the
“cellulosic waiver authority.”
The cellulosic waiver authority was discussed by the
United States Court of Appeals for the District of
Columbia Circuit, in the context of its consideration of
a judicial challenge to the rule establishing the 2013
annual RFS standards. As the court explained,
The Clean Air Act provides that if EPA
reduces the cellulosic biofuel requirement, as
it did here, then it ‘may also reduce’ the advanced biofuel and total renewable fuel quotas

220a
‘by the same or a lesser volume.’ 42 U.S.C.
7545(o)(7)(D)(i). There is no requirement to
reduce these latter quotas, nor does the statute prescribe any factors that EPA must consider in making its decision. See id. In the
absence of any express or implied statutory
directive to consider particular factors, EPA
reasonably concluded that it enjoys broad
discretion regarding whether and in what
circumstances to reduce the advanced biofuel
and total renewable fuel volumes under the
cellulosic waiver provision. Monroe v. EPA,
750 F.3d 909, 915 (D.C. Cir. 2014).
Some stakeholders have commented that EPA may
only exercise the cellulosic waiver authority to reduce
total and advanced volumes in circumstances described
in CAA section 211(o)(7)(A) (that is, where there is
inadequate domestic supply or severe harm to the
environment or economy), or that it must in using the
cellulosic waiver authority consider the factors specified in section 211(o)(2)(B)(ii) that are required considerations when EPA sets applicable volumes for years
in which the statute does not do so. Contrary to these
comments, the Court found in the Monroe case that the
statute does not prescribe any factors that EPA must
consider in making is decision; EPA has broad discretion under 211(o)(7)(D)(i) to determine when and under
what circumstances to reduce the advanced and total
renewable fuel volumes when it reduces the statutory
applicable volume of cellulosic biofuel.
When using the cellulosic waiver authority, we believe
that there would be substantial justification to exercise our discretion to lower volumes of total and
advanced biofuels in circumstances where there are
questions regarding the sufficiency of production or

221a
import of potentially qualifying renewable fuels, and
where there is evidence of constraints that would limit
the ability of those biofuels to be used for purposes
specified in the Act (i.e., in transportation fuel, heating
oil, or jet fuel). In addition, we believe that it is appropriate in exercising the cellulosic waiver authority for
EPA to consider the Congressional objectives reflected
in the volumes tables in the statute, and the environmental objectives that generally favor the use of
advanced biofuels over non-advanced biofuels. For
example, in light of the larger GHG emissions reductions required for advanced biofuels as compared to
conventional biofuel, and the Congressional objective
to dramatically increase their use in the time period
between 2015 and 2022, we believe that it is generally
appropriate for reasonably attainable volumes of
advanced biofuel that are sourced in a manner expected
to provide significant GHG reduction benefits to backfill for shortages in cellulosic biofuel. On the other
hand, we do not believe it would be appropriate for the
gap in the availability of cellulosic biofuel in 2017 to
be filled or partially filled with non-advanced biofuel,
taking into consideration both the substantially lower
greenhouse gas emissions reductions required for nonadvanced biofuel12 and the Congressional intent
reflected in the statutory tables that use of these
biofuels in this time period would be limited.13 These
12

Non-advanced biofuel must meet the 20% reduction in
lifecycle GHG emissions described in CAA section 211(o)(2)(A)(i),
unless they qualify for an exemption under 40 CFR 80.1403.
13

Since the advanced biofuel volume requirement is nested
within the total renewable fuel volume requirement, the statutory implied volume for conventional renewable fuel in the statutory tables can be discerned by subtracting the applicable volume
of advanced biofuel from that of total renewable fuel. Performing
this calculation with respect to the tables in CAA section

222a
considerations are consistent with EPA’s past interpretation of the cellulosic waiver authority as envisioning equivalent reductions in the applicable volumes of advanced biofuels and total renewable fuels.14
See 74 FR 24914; 78 FR 49810.
We believe, as we did in setting the volumes in the
past, that the circumstances justifying use of our cellulosic waiver authority and thus a reduction in statutory
volumes are currently present, and we are again using
our cellulosic waiver authority under 211(o)(7)(D)(i) to
reduce volume requirements for advanced biofuel and
total renewable fuel. Congress envisioned that there
would be 5.5 billion gallons of cellulosic biofuel in 2017,
while our production projection, described in detail
in Section III, is for 311 million gallons. Under
211(o)(7)(D)(i), EPA must lower the required cellulosic
volume to the projected production volumes. See also
API v. EPA, 706 F.3d 474 (D.C. Cir. 2012). Doing so
also provides EPA with authority to lower advanced
and total renewable fuel volumes by the same or a
lesser amount.
211(o)(2)(B) indicates a Congressional expectation that in the
time period 2015–2022, advanced biofuel volumes would grow
from 5.5 to 21 billion gallons, while the implied volume for
conventional renewable fuel would remain constant at 15 billion
gallons.
14

Our consistent view has been that the provision is best interpreted and implemented to provide for equal reductions in advanced
biofuel and total renewable fuel. We believe that this approach is
consistent with the statutory language and best effectuates the
objectives of the statute, in that it allows for EPA to determine
an appropriate volume of advanced biofuel providing meaningful
GHG emissions reductions to backfill missing cellulosic volumes,
while also resulting in an implied volume for conventional
renewable fuel of no greater than 15 billion gallons as envisioned
in the statutory time period for 2015–2022.

223a
We have determined, as described in Section IV, that
the applicable volume for advanced biofuels specified
in the statute for 2017 cannot be achieved and, consistent with the principles described above, we are
exercising our cellulosic waiver authority to lower the
applicable volume of advanced biofuel to a level that is
both reasonably attainable and appropriate, and to
provide an equivalent reduction in the applicable volume of total renewable fuel. In addition, we have
determined that there is adequate supply to satisfy the
total renewable fuel volume derived through applying
an equal volume reduction as for advanced biofuel.
Therefore, no further reductions of the total renewable
fuel volume requirement are necessary to address concerns of inadequate supply. The resulting volume
requirements provide the benefits associated with the
use of reasonably attainable and appropriate volumes
of advanced biofuels to partially backfill for missing
volumes of cellulosic biofuel in 2017, while also providing for an implied volume requirement for conventional biofuel equal to that envisioned by Congress for
2017.
2. General Waiver Authority
Section 211(o)(7)(A) of the CAA provides that EPA,
in consultation with the Secretary of Agriculture and
the Secretary of Energy, may waive the applicable volume specified in the Act in whole or in part based on
petition by one or more States, by any person subject
to the requirements of the Act, or by the EPA Administrator on her own motion. Such a waiver must be
based on a determination by the Administrator, after
public notice and opportunity for comment that (1)
implementation of the requirement would severely
harm the economy or the environment of a State, a
region or the United States, or (2) there is an inade-

224a
quate domestic supply. Because the general waiver
provision provides EPA the discretion to waive the
statutory applicable volume “in whole or in part,” we
interpret this section as granting EPA authority to
fully or partially waive any of the four applicable volume requirements in appropriate circumstances. For
the years 2014–2016, EPA determined that there was
an inadequate domestic supply of total renewable fuel,
and used the general waiver authority to reduce the
total renewable fuel volumes further than the reductions obtained using the cellulosic waiver authority. In
the notice of proposed rulemaking for this rule, EPA
proposed to use the general wavier authority in a similar way, and for the same reason, in establishing the
2017 total renewable fuel volume requirement.
Based on further evaluation of the availability of
renewable fuel in the market, in the interim between
the NPRM and this final rule, and review of public
comment, EPA has determined that it is not necessary
to use the general waiver authority. That is, we have
determined that use of the cellulosic waiver authority
alone will be sufficient to yield a volume requirement
that is consistent with available supply.15

15

Some commenters noted that in addition to the authority to
reduce applicable volumes under the general waiver authority on
the basis of an “inadequate domestic supply” that EPA possesses
the ability to use the general waiver authority where it finds that
the RFS volumes would cause “severe economic or environmental
harm in a State, region, or the United States.” As described in
more detail in the response to comments document accompanying
this rule, EPA does not believe that the record supports a finding
of severe economic or environmental harm with respect to the
volume requirements we are finalizing today.

225a
3. General Comments Related to Waiver
Authorities
Many commenters suggested that EPA should only
use the cellulosic waiver authority to reduce volumes
of total renewable fuel in 2017. While we do not believe
this would have been possible under the circumstances
described in the proposal, in light of EPA’s re-evaluation
of available supplies, as discussed in Sections IV and
V, we are today following the approach suggested by
these commenters in using the cellulosic waiver authority exclusively to reduce volumes of both advanced
biofuel and total renewable fuel.
Some commenters said that EPA should not reduce
the volume requirements for advanced biofuel and total
renewable fuel at all and should instead set standards
for 2017 based on the statutory targets. In most cases,
these commenters based their positions on the availability of carryover RINs and an expectation that “letting the market work” would be sufficient to overcome
all constraints related the production and distribution
of fuels that can be used to satisfy these standards. As
described in Section II.B below, we continue to believe
that, in light of the expected volume of carryover RINs,
it would be inappropriate for 2017 to intentionally
draw down the bank of carryover RINs for the purposes
of increasing the volume requirements above levels
that can be satisfied with physical volume. As for “letting the market work,” we believe that this view is dismissive of the market constraints discussed in the
NPRM, Table II.E. 1–1 of the 2014–2016 final rule and
in Sections IV.B and V.B of this final rule. The market
is not unlimited in its ability to respond to the standards EPA sets. While setting the standards at the
statutory targets would undoubtedly produce a significant increase in RIN prices, doing so in light of the

226a
combined actions of all constraints shown in Table
II.E.1–1 of the 2014–2016 final rule and discussed in
Sections IV.B. and V.B. of this rule would nevertheless
create a shortfall in supply in 2017 that would likely
lead to a complete draw-down in the bank of carryover
RINs, noncompliance, and/or additional petitions for a
waiver of the standards. As described in Sections IV
and V, we are authorized to use the cellulosic waiver
authority in 2017 to reduce volumes of advanced and
total renewable fuel, and believe it is appropriate to do
so for the reasons noted in those sections.
B. Treatment of Carryover RINs
Consistent with our approach in the 2014–2016 final
rule, we have also considered the availability and role
of carryover RINs in our decision to exercise our cellulosic waiver authority in setting the advanced and
total volume requirements for 2017.16 Although the statute requires a credit program and specifies that the
credits shall be valid for a 12-month time period, neither the statute nor EPA regulations specify how or
whether EPA should consider the availability of carryover RINs in exercising its cellulosic waiver authority.17
16

The discussion of the role of carryover RINs as they relate
to the cellulosic volume standard for 2017 can be found in Section
III.D.
17

CAA section 211(o)(5) requires that EPA establish a credit
program as part of its RFS regulations, and that the credits be
valid to show compliance for 12 months as of the date of generation. EPA implemented this requirement though the use of RINs,
which can be used to demonstrate compliance for the year in
which they are generated or the subsequent compliance year.
Obligated parties can obtain more RINs than they need in a given
compliance year, allowing them to “carry over” these excess RINs
for use in the subsequent compliance year, although use of these
carryover RINs is limited to 20% of the obligated party’s RVO.
For the bank of carryover RINs to be preserved from one year to

227a
As noted in the context of the rule establishing the
2014–16 RFS standards, we believe that a bank of
carryover RINs is extremely important in providing
obligated parties compliance flexibility in the face of
substantial uncertainties in the transportation fuel
marketplace, and in providing a liquid and well-functioning RIN market upon which success of the entire
program depends.18 Carryover RINs provide flexibility
in the face of a variety of circumstances that could limit
the availability of RINs, including weather-related damage to renewable fuel feedstocks and other circumstances potentially affecting the production and distribution of renewable fuel.19 On the other hand, carryover RINs can be used for compliance purposes, and in
the context of the 2013 RFS rulemaking we noted that
an abundance of carryover RINs available in that year,
together with possible increases in renewable fuel production and import, justified maintaining the advanced
and total renewable fuel volume requirements for that
year at the levels specified in the statute.20
In the 2017 NPRM, EPA estimated that the likely
volume of the carryover RIN bank for 2017 would be
approximately 1.72 billion carryover RINs (including
all D codes). We proposed that in light of this relatively
the next, individual carryover RINs are used for compliance
before they expire and are essentially replaced with a newer
vintage RIN that is then held for use in the next year. For
example, if the volume of the RIN bank is unchanged from 2016
to 2017, then all of the vintage 2016 carryover RINs must be used
for compliance in 2017, or they will expire. However, the same
volume of 2017 RINs can then be “banked” for use in the next
year.
18

See 80 FR 77482–77487 (December 14, 2015).

19

See id., and 72 FR 23900 (May 1, 2007).

20

See 79 FR 49794 (August 15, 2013).

228a
limited volume and the important functions provided
by the RIN bank, that we would not set the volume
requirements for 2017 in a manner that would intentionally lead to a drawdown in the bank of carryover
RINs. In their comments on the 2017 NPRM, parties
generally expressed two opposing points of view. Commenters representing obligated parties supported EPA’s
proposed decision to not assume a drawdown in the
bank of carryover RINs in determining the appropriate level of volume requirements. These commenters
reiterated the importance of maintaining the carryover RIN bank in order to provide obligated parties
with necessary compliance flexibilities, better market
trading liquidity, and a cushion against future program uncertainty. Commenters representing renewable fuel producers, however, contended that carryover
RINs represent actual supply and should be accounted
for when establishing the annual volume standards
and, in particular, in any determination under the
general waiver authority that there is an “inadequate
domestic supply.” They expressed concern that obligated parties could use carryover RINs as an alternative to RINs generated for renewable fuel produced in
2017, leading to less demand for their product and
inadequate return on investment.21
1. Updated Projection of Carryover RIN
Volume
In the NPRM, EPA estimated that the carryover
RIN bank available in 2017 would be approximately
1.72 billion carryover RINs. Since that time, obligated
parties have submitted their compliance demonstra21

A full description of comments received, and our detailed
responses to them, is available in the Response to Comments document in the docket.

229a
tions for the 2014 compliance year and, based on that
information, we now estimate that there will at most
be 1.54 billion carryover RINs available for possible use
in complying with the standards for 2017, a decrease of
nearly 200 million RINs from the previous estimate.22
This is approximately 8 percent of the final 2017 total
renewable fuel volume standard and less than half of
the 20 percent limit permitted by the regulations to be
carried over for use in complying with the 2017 standards. However, there remains considerable uncertainty
surrounding this number since compliance demonstrations still need to be made for the 2015 and 2016 RFS
standards, and it is unclear at this time whether some
portion of the 1.54 billion carryover RINs we estimate
will be available for the 2017 compliance demonstrations will be used for compliance prior to 2017. In
addition, we note that there have been enforcement
actions in past years that have resulted in the retirement of RINs that were fraudulently generated and
were therefore invalid, and parties that relied on those
invalid RINs for compliance were required to acquire
valid substitutes to true up their past compliance
demonstrations. Future enforcement actions could
have similar results, and require that obligated parties
settle past enforcement-related obligations in addition
to the annual standards, thereby potentially creating
demand for RINs greater than can be accommodated
through actual renewable fuel blending in 2017.
Collectively, the result of satisfying RFS obligations
in 2015 and 2016 and settling enforcement-related
accounts could be an effective reduction in the size of
the collective bank of carryover RINs to a level below
22

The calculations performed to estimate the number of carryover RINs available in 2017 can be found in the memorandum,
“2017 Carryover RIN Bank Calculations,” available in the docket.

230a
1.54 billion RINs. Thus, we believe there is considerable uncertainty that a RIN bank as large as 1.54 billion
RINs will be available in 2017.
2. EPA’s Decision
EPA has decided to maintain the proposed approach,
and not set the volume requirements in the final rule
with the intention or expectation of drawing down the
current bank of carryover RINs. In finalizing this
approach, we carefully considered the many comments
received, including on the role of carryover RINs under
our waiver authorities and the policy implications of
our decision. While we have not assumed an intentional drawdown in the overall bank of carryover RINs
owned by obligated parties collectively in establishing
the volume requirements for 2017, we understand that
some obligated parties may choose to sell or use all or
part of their individual banks of carryover RINs. To
the extent that they do so, other obligated parties
would be in a position to bank carryover RINs by using
available renewable fuel or purchasing RINs representing such fuel, with the expected net result being
no effective change in the size of the overall bank of
carryover RINs that is owned collectively by obligated
parties.
In response to those parties who argued that carryover RINs must be considered part of the “supply” when
EPA uses the general waiver authority on the basis of
a finding of “inadequate domestic supply,” we note that
we are not using the general waiver authority in this
final action, so these arguments are irrelevant. We
believe that a balanced consideration of the possible
role of carryover RINs in achieving the statutory volume objectives for advanced and total renewable fuels,
versus maintaining an adequate bank of carryover
RINs for important programmatic functions, is appro-

231a
priate when EPA exercises its discretion under the
cellulosic waiver authority, and that the statute does
not specify the extent to which EPA should require a
drawdown in the bank of carryover RINs when it exercises this authority.
An adequate RIN bank serves to make the RIN market liquid and to avoid the possible need for adjustments to the standards. Just as the economy as a whole
functions best when individuals and businesses prudently plan for unforeseen events by maintaining inventories and reserve money accounts, we believe that the
RFS program functions best when sufficient carryover
RINs are held in reserve for potential use by the RIN
holders themselves, or for possible sale to others that
may not have established their own carryover RIN
reserves. Were there to be no RINs in reserve, then
even minor disruptions causing shortfalls in renewable
fuel production or distribution, or higher than expected
transportation fuel demand (requiring greater volumes
of renewable fuel to comply with the percentage standards that apply to all volumes of transportation fuel,
including the unexpected volumes) could lead to the
need for a new waiver of the standards, undermining
the market certainty so critical to the long term success of the RFS program. Furthermore, many obligated
parties lack the ability to separate one or more types
of RINs through blending. With a functioning liquid
RIN market this is not a problem because we expect
that these obligated parties will be able to comply by
securing these RINs on the open market. However, a
significant drawdown of the carryover RIN bank leading to a scarcity of RINs may stop the market from
functioning in an efficient manner, even where the
market overall could satisfy the standards. For all of
these reasons, the collective carryover RIN bank provides a needed programmatic buffer that both facili-

232a
tates individual compliance and provides for smooth
overall functioning of the program.23 With volume
requirements increasing annually, and the size of the
carryover RIN bank shrinking through use of carryover RINs in both 2013 and 2014, we believe it is
prudent not to intentionally draw down the RIN bank
for 2017 that we have determined will not likely be
larger than 1.54 billion carryover RINs, and which
could in fact be smaller.
For the reasons noted above, and consistent with the
approach we took in the 2014–2016 final rule, we have
determined that under current circumstances, an intentional drawdown of the carryover RIN bank should not
be assumed in establishing the 2017 volume requirements. The current bank of carryover RINs will provide
an important and necessary programmatic buffer that
will both facilitate individual compliance and provide
for smooth overall functioning of the program. Therefore, we are not setting renewable fuel volume requirements at levels that would envision the drawdown in
the bank of carryover RINs. However, we note that we
may or may not take a similar approach in future years;
we will assess the situation on a case-by-case basis
going forward, and take into account the size of the
carryover RIN bank in the future and any lessons
learned from implementing past rules.
[Content Omitted]
V. Total Renewable Fuel Volume for 2017
The national volume targets of total renewable fuel
to be used under the RFS program each year through
23

Here we use the term “buffer” as shorthand reference to all
of the benefits that are provided by a sufficient bank of carryover
RINs.

233a
2022 are specified in CAA section 211(o)(2)(B)(i)(I).
For 2017 the statute stipulates that the volume of total
renewable fuel should be 24 billion gallons. Since we
have determined that the statutory volume target for
cellulosic biofuel must be reduced to reflect the projected production volume of that fuel type in 2017, we
are authorized under CAA section 211(o)(7)(D)(i) to
reduce the advanced biofuel and total renewable fuel
targets by the same or a lesser amount. We also have
the authority to reduce any volume target under the
general waiver authority under specific conditions as
described in Section II.A.2. Although in the NPRM we
had proposed to use a combination of the cellulosic
waiver authority and the general waiver authority to
reduce the statutory volume target for total renewable
fuel for 2017, we have determined, based on comments
received in response to the NPRM and a review of
updated information, that 2017 supply is adequate to
meet a total renewable fuel volume requirement of
19.28 billion gallons resulting from the use of the
cellulosic waiver authority alone. The use of the
general waiver authority for 2017 to further reduce
the total renewable fuel standard is therefore not necessary. As a result, the implied volume for conventional (non-advanced) renewable fuel will be 15.0
billion gallons.
Today’s standards are significantly higher than
have been achieved in the past and will drive significant growth in renewable fuel use beyond what would
occur in the absence of the requirements. The final volume requirements for both advanced biofuel and total
renewable fuel recognize the ability of the market to
respond to the standards we set, thereby accomplishing the goals of the statute to increase renewable fuel
use.

234a
We investigated whether the market is on track to
meet the 2016 total renewable fuel volume requirement of 18.11 billion gallons, which EPA projected to
be the maximum achievable volume for that year in
the context of our use of the general waiver authority.
As described in a memorandum to the docket, supply
through the end of September coupled with a projection based on consideration of seasonal variations in
supply for previous years indicate that compliance
with the 2016 standards is indeed within reach.100 We
believe these results support the assessment conducted
for purposes of establishing the 2016 total renewable
fuel standard. For this final rule, we have taken a similar approach to assessing the adequacy of supply of
total renewable fuel that differs in some particulars as
described below.
A. Volumetric Limitation on Use of the Cellulosic
Waiver Authority
In Section IV.B we explained our use of the cellulosic
waiver authority to reduce the statutory volume target
for advanced biofuel to a level that we have determined is reasonably attainable and appropriate given
a consideration of factors related to the likely constraints on imports, distribution and use, and global
GHG impacts of incremental growth in advanced biodiesel and renewable diesel. This did not require a
reduction as large as the reduction in the statutory
volume target for cellulosic biofuel, and so this reduction was within the authority provided by CAA section
211(o)(7)(D)(i).

100

“Comparison of 2016 availability of RINs and 2016 standards,” memorandum from David Korotney to docket EPA–HQ–
OAR–2016–0004.

235a
As discussed in Section II.A.1, we believe that the
cellulosic waiver provision is best interpreted to require
equal reductions in advanced biofuel and total renewable fuel. We have consistently articulated this interpretation.101 Having determined that we should establish the advanced biofuel volume at a level requiring a
reduction of 4,719 million gallons from the statutory
target, applying an equal reduction to the statutory
target for total renewable fuel yields the results shown
below.
TABLE V.A–1—APPLYING EQUAL VOLUME
REDUCTIONS TO TOTAL RENEWABLE FUEL
AS FOR ADVANCED BIOFUEL UNDER
CELLULOSIC WAIVER AUTHORITY
[Million gallons]

Statutory target ...................
Reduction under the cellulosic waiver authority ............
Resulting volume .................

Advanced
Total
biofuel renewable
fuel
9,000 24,000
4,719
4,719
4,281

19,281

If we were to determine that there is an inadequate
domestic supply to satisfy the total renewable fuel volume resulting from use of the cellulosic waiver authority alone, we could use the general waiver authority,
described in Section II.A.2, to provide further reductions. Indeed, we proposed such an approach. However,
we have re-evaluated the situation in light of new data
and consideration of comments, and as described below
we have determined that there will be adequate supply
101

For instance, see discussion in the final rule setting the
2013 standards: 78 FR 49809–49810, August 15, 2013.

236a
to meet a total renewable fuel volume requirement of
19.28 billion gallons in 2017.102 As a result of this assessment, we have determined that further reductions in
the total renewable fuel applicable volume using the
general wavier authority are not necessary.
B. Assessing Adequacy of Supply
As noted above, the applicable volume of total renewable fuel was derived by applying the same volume
reduction to the statutory volume target for total
renewable fuel as was determined to be appropriate for
advanced biofuel, using the cellulosic waiver authority. This section describes our assessment that there is
adequate supply to meet an applicable volume requirement of 19.28 billion gallons. The objective of our
assessment is different than our analysis in the
NPRM, where we sought to identify the maximum
reasonably achievable volume of total renewable fuel
based on the sum of estimates of each type of renewable fuel, such as total ethanol, biodiesel and renewable
diesel, biogas, and other non-ethanol renewable fuels.
In this final rule, in contrast, we instead are evaluating those sources to determine if in the aggregate it
appears that there is adequate supply to meet the total
renewable fuel volume shown in Table V.A–1. Based
on our conclusion that there is sufficient supply as discussed below, it is unnecessary to address any inadequate domestic supply through use of the general
waiver authority.
Despite the different objective, we face much the
same challenges that we noted in the NPRM: It is a
102

Stakeholder comments most directly impacting our assessment of the adequacy of supply of total renewable fuel were directed
at distribution issues associated with biodiesel and renewable
diesel. See Section V.B.2 for further discussion.

237a
very challenging task to estimate the adequacy of supply
in light of the myriad complexities of the fuels market
and how individual aspects of the industry might change
in the future, and also because we cannot precisely
predict how the market will respond to the volumedriving provisions of the RFS program. This is the type
of assessment that is not given to precise measurement and necessarily involves considerable exercise of
judgment.
Our investigation into whether there is adequate
supply to meet the total renewable fuel volume shown
in Table V.A–1 was driven primarily by a consideration of the total amount of ethanol that can be reasonably attained in light of various constraints, and the
total volume of biodiesel and renewable diesel that can
be reasonably attained. We also considered smaller
contributions from non-ethanol cellulosic and other
non-ethanol renewable fuels (i.e. naphtha, heating oil,
butanol, and jet fuel). With regard to the more dominant contributors, the information that is available has
allowed us to make a relatively more precise estimate
of total supply of ethanol than of biodiesel/renewable
diesel. This is due to the fact that the primary constraints in the supply of ethanol in 2017 are readily
identifiable, although still challenging to quantify, while
there are many different factors that could potentially
constrain the supply of biodiesel and renewable diesel
in 2017. As a result, we did not attempt to derive a
specific estimate of reasonably attainable supply of
total biodiesel and renewable diesel. Instead, after
estimating what we consider to be reasonably attainable supply of ethanol in 2017, and taking into account
the estimates of non-ethanol cellulosic biofuel supply
discussed in Section III.D above and estimates of other
non-ethanol renewable fuel supply discussed in Section
IV.B.3, we considered whether the supply of total

238a
biodiesel and renewable diesel would be adequate to
satisfy a requirement of 19.28 billion gallons.103 The
following sections provide our assessment of ethanol
and biodiesel/renewable diesel volumes.
1. Ethanol
Ethanol is the most widely produced and consumed
biofuel, both domestically and globally. Since the beginning of the RFS program, the total volume of renewable fuel produced and consumed in the United States
has grown substantially each year, primarily due to
the increased production and use of corn ethanol.
However, the rate of growth in the supply of ethanol
to the U.S. market has decreased in recent years as
the gasoline market has become saturated with E10,
and efforts to expand the use of higher ethanol blends
such as E15 and E85 have not been sufficient to maintain past growth rates. Although we believe ethanol
use is growing and can continue to grow, the low number of retail stations selling these higher-level ethanol
blends, along with poor price advantages compared to
E10, and a limited number of FFVs, among others, represent challenges to the rate of growth of ethanol as a
transportation fuel in the United States.
In the 2014–2016 final rule we discussed in detail the
factors that constrain growth in ethanol supply and
the opportunities that exist for pushing the market to

103

As noted earlier, “reasonably attainable” volumes may be
less than the “maximum achievable” volumes we would seek to
identify when using the general waiver authority based on a
finding of inadequate domestic supply. It follows that if there are
sufficient reasonably attainable volumes of renewable fuel to
satisfy a total renewable fuel requirement of 19.28 billion gallons,
that there is no basis for a finding of inadequate domestic supply.

239a
overcome those constraints.104 That discussion generally remains relevant for 2017, though we believe that
the supply of ethanol can be somewhat higher in 2017
than in 2016.
Ethanol supply is not currently limited by production and import capacity, which is in excess of 15 billion gallons.105 Instead, the amount of ethanol supplied
is constrained by the following:


Overall gasoline demand and the volume
of ethanol that can be blended into gasoline as E10 (typically referred to as the
E10 blendwall).



The number of retail stations that offer
higher ethanol blends such as E15 and
E85.



The number of vehicles that can both
legally and practically consume E15 and/or
E85.



Relative pricing of E15 and E85 versus
E10 and the ability of RINs to affect this
relative pricing.



The supply of gasoline without ethanol (E0).

The applicable standards that we set under the RFS
program provide incentives for the market to overcome
many of these ethanol-related constraints.
While in the short term the RFS program is unlikely
to have a direct effect on overall gasoline demand or
the number of vehicles designed to use higher ethanol
104
105

80 FR 77456–77465.

“RFA 2016 Annual Industry Outlook,” docket EPA–HQ–
OAR–2016–0004.

240a
blends, it can provide incentives for changes in some
other market factors, such as the number of retail stations that offer higher ethanol blends and the relative
pricing of those higher ethanol blends in comparison
to E10. The RFS program complements other efforts
to increase the use of renewable fuels, such as the
following:


USDA’s Biofuel Infrastructure Partnership (BIP) program which has provided
$100 million in grants for the expansion of
renewable fuel infrastructure in 2016 (supported by additional State matching funds)



USDA’s Biorefinery Assistance Program
which has provided loan guarantees for
the development and construction of
commercial-scale biorefineries with a number of the new projects focused on producing fuels other than ethanol.



The ethanol industry’s Prime the Pump
program, which has committed more than
$45 million to date for retail refueling
infrastructure106

In response to the NPRM, many stakeholders
repeated their views from the 2014–2016 rulemaking
regarding the existence and nature of the E10 blendwall. Ethanol proponents generally regard the blendwall
as a fictional idea created by refiners, and said or
implied that increases in ethanol supply beyond the
blendwall are only limited by refiners’ unwillingness
to invest in the necessary infrastructure. Some also
said that EPA’s approach to setting standards, in
106

“Email dialogue with Robert White on Prime the Pump,”
docket EPA–HQ–OAR–2016–0004.

241a
which constraints on the supply of ethanol are used as
justification for reducing the volume requirement below
the statutory targets, was a self-fulfilling prophecy
that guaranteed that the blendwall would never be
exceeded. Refiners and marketers typically viewed the
constraints associated with the blendwall as representing a firm barrier that could not or should not be crossed,
with costs for necessary infrastructure changes being
prohibitively high and the associated opportunities for
greater profits at retail being inconsequentially low. In
their views, higher level ethanol blends such as E15
and E85 would be negligible in 2017 and standards
that required higher ethanol blends to increase dramatically would compel refiners to reduce domestic supply
of gasoline and diesel or risk non-compliance.
As stated in the 2014–2016 final rule and in the
NPRM, our view of the E10 blendwall falls between
these two viewpoints. We continue to believe that there
are real constraints on the ability of the market to
exceed an average nationwide ethanol content of 10%.
However, these constraints do not have the same
significance at all ethanol concentrations above 10%.
Instead, for the state of infrastructure that can be
available in 2017, the constraints represent a continuum of mild resistance to growth at the first increments above 10% ethanol and evolve to significant
obstacles at higher levels of ethanol. In short, the E10
blendwall is not the barrier that some stakeholders
believe it to be, but neither are increases in poolwide
ethanol concentrations above 10% unlimited in the
2017 timeframe.
We continue to believe that the constraints associated with the E10 blendwall do not represent a firm
barrier that cannot or should not be crossed. Rather,
the E10 blendwall marks the transition from rela-

242a
tively straightforward and easily achievable increases
in ethanol consumption as E10 to those increases in
ethanol consumption as E15 and E85 that are more
challenging to achieve. Comments received in response
to the NPRM provided no compelling evidence that the
nationwide average ethanol concentration in gasoline
cannot exceed 10.0%.
However, we also recognize that the market is not
unlimited in its ability to respond to the standards we
set. This is true both for expanded use of ethanol and
for non-ethanol renewable fuels. The fuels marketplace
in the United States is large, diverse, and complex,
made up of many different players with different, and
often competing, interests. Substantial growth in the
renewable fuel volumes beyond current levels will
require action by many different parts of the fuel
market, and a constraint in any one part of the market
can act to limit the growth in renewable fuel supply.
Whether notable constraints are in the technology development and commercialization stages, as has been the
case with cellulosic biofuels, the development of distribution infrastructure as is the case with ethanol, or in
the distribution and use of biodiesel, the end result is
that these constraints limit the growth rate in the
available supply of renewable fuel as transportation
fuel, heating oil, or jet fuel. These constraints were discussed in detail in the 2014–2016 final rule, and we
believe that the same constraints will operate to limit
supply for 2017 as well.107 Other factors outside the
purview of the RFS program also impact the supply of
renewable fuel, including the price of crude oil and
global supply and demand of both renewable fuels and
their feedstocks. These factors add uncertainty to the
107

See 80 FR 77450.

243a
task of estimating the adequacy of supply of renewable
fuel in the future.
While the constraints are real and must be taken
into account in our evaluation of whether there is adequate supply to meet 19.28 billion gallons of total
renewable fuel, none of those constraints represent
insurmountable barriers to growth. Rather, they are
challenges that are in the process of being addressed
and will be overcome in a responsive marketplace given
enough time and with appropriate investment. The
speed with which the market can overcome these constraints is a function of whether and how effectively
parties involved in the many diverse aspects of renewable fuel suppl respond to the challenges associated
with transitioning from fossil-based fuels to renewable
fuels, the incentives provided by the RFS program, and
other programs designed to incentivize renewable fuel
use.
i. E0
We based the proposed total renewable fuel volume
requirement in the NPRM on the same expectation
from the 2014–2016 final rule regarding supply of E0:
The RFS program would result in all but a tiny portion—
estimated at 200 million gallons—of gasoline to contain at least 10% ethanol. We based this determination on the following two considerations:
1. The RFS program will continue incentivizing the market to transition from E0 to
E10 and other higher level ethanol blends
through the RIN mechanism.
2. Recreational marine engines represent a
market segment that we believe would be
particularly difficult to completely transition from E0 since they are used in a water

244a
environment where there is a greater potential for water contamination of the fuel.
Some consumers are concerned that there
could be a potential for consequent engine
damage following phase separation of the
water and fuel.108
Based on the analysis conducted for the 2014–2016
final rule, it is most likely that any recreational marine
engines refueled at retail service stations (i.e., not at
marinas) would use only E10 since E0 is not typically
offered at retail. Moreover, only a small minority of
recreational marine engines refuel at marinas where
E0 is more likely to be available, catering to that
particular market. In a memorandum to the docket,
we evaluated the information that had been supplied
to us by stakeholders, highlighting the uncertainty in
that information and concluding that about 200
million gallons of E0 was a reasonable estimate of the
volume likely to be consumed by recreational marine
engines.109 In the NPRM, we expressed our belief that
this analysis also reflected reasonable expectations for
2017.
In response to the proposal for the 2017 standards,
some stakeholders said that we had significantly underestimated the volume of E0 used by recreational marine
108

We note that a recent report from the National Renewable
Energy Laboratory calls into question the significance of water
contamination for recreational marine engines. See “Gas becomes
stale before water uptake becomes a concern,” Ethanol Producer
Magazine, September 21, 2016. See also original report “Water
Uptake and Weathering of Ethanol-Gasoline Blends in Humid
Environments,” by Christensen & McCormick, National Renewable Energy Laboratory, September, 2016.
109

“Estimating E0 use in recreational marine engines,” memorandum from David Korotney to docket EPA–HQ–OAR–2015–0111.

245a
engines. However, no new information was provided
that was not already considered in the 2014–2016 final
rule and discussed in the aforementioned memorandum and, as before, no stakeholders provided any data
on actual consumption of E0 by recreational marine
engines. Moreover, the anecdotal information suggesting that most if not all recreational marine engines are
fueled on E0 does not represent an appropriate basis
for increasing our estimate since it was not based on
any form of data and moreover appears highly unlikely
given our expectation that only a small minority of
recreational marine engines refuel at marinas where
E0 is likely to be more prevalent.
Other stakeholders said that we had ignored significant demand for E0 in our determination of the total
volume of ethanol that can be supplied. They pointed
beyond recreational marine engines to other small
engines where there is demand for E0, and to Web
sites like Pure-gas.org, which claim to list more than
11,000 stations which offer E0. Several stakeholders
pointed to a report from EIA suggesting that 5.3 billion
gallons of E0 was consumed in 2015.110 Several refiners reiterated their comments responding to the 2014–
2016 proposal which used EIA data to conclude that
there is ongoing demand for E0 at a level of at least 3%
of the total gasoline pool. This estimate of E0 demand
was the primary basis for their request that the 2017
standards be set in such a way that the poolwide
gasoline ethanol concentration is no higher than 9.7%.
Other than references to data and analyses collected
by EIA, no stakeholder provided any data on actual E0
110

“Almost all U.S. gasoline is blended with 10% ethanol,”
Energy Information Administration, Today In Energy, May 4,
2016.

246a
consumption. With regard to data from EIA, in the
2014–2016 final rule we addressed refiners’ claim that
3% of the gasoline pool has been E0 for several years,
concluding that those estimates were generated from
incomplete EIA gasoline supply data which overestimated the potential demand for E0 at retail.111 Comments from refiners in response to the 2017 proposal
did not provide any new or different information that
would change our conclusions with regard to that 3%
estimate.
With regard to EIA’s more recent estimate that 5.3
billion gallons of E0 was consumed in 2015, we do not
believe that this value represents consumption of E0
at the retail. EIA’s estimate was based on survey data
from most U.S. terminals, which include information
about domestic distribution from the terminal level
and exports of ethanol-free gasoline, with the difference representing domestic disposition. EIA combines
this information with estimates of available ethanol,
assuming that the ethanol is used in a 10% blend with
ethanol-free gasoline. As described in a memorandum
to the docket, our analysis of EIA’s estimate of 5.3
billion gallons of E0 concludes that it would require
E85 volumes significantly higher than the volumes
likely to have been supplied in 2015.112 In our view, the
5.3 billion gallons of E0 estimated by EIA must include
volumes that are blended with ethanol downstream of
terminal prior to dispensing from retail and centralized fleet refueling stations where additional ethanol
blending can and does occur in excess of the blending
used in EIA’s estimate. The calculations are very
111
112

See discussion at 80 FR 77462.

“Ethanol Consumption in 2015 and Estimates of E0 Use,”
memorandum from David Korotney to Docket EPA–HQ–OAR–
2016–0004.

247a
sensitive to the exact volume of total ethanol available
for blending, with EIA and EPA estimated volumes of
total ethanol used differing by about 1 percent. We
believe that EMTS data provides more accurate information on actual use of ethanol in motor fuel than
EIA’s survey data on ethanol production, blending,
imports, and exports because it accounts for every gallon of ethanol produced but not exported, and is verified by the purchaser in the transaction within EMTS.
Based on our analysis, we estimate that E0 consumption at the retail level in 2015 would have been closer
to about 700 million gallons.
Some stakeholders pointed out that it would be difficult for the market to transition about 5 billion gallons
of E0 to E10 within one year. However, since we believe
that actual consumption of E0 in 2015 was much closer
to 700 million gallons than 5.3 billion gallons, continuing to transition away from E0 since then to 200 million gallons of E0 by the end of 2017 is achievable. As
a result, we continue to believe that 200 million gallons of E0 is a reasonable value to assume for purposes
of assessing the adequacy of supply of total renewable
fuel, based on our prior assessment that this volume
dedicated to recreational marine engine use may not
be significantly influenced by the standards we set in
this time period, and our expectation that the RFS program will continue to incentivize all but this small
portion of the gasoline pool to be blended with ethanol.
Stakeholders representing boat owners expressed
concern that by including only 200 million gallons of
E0 in the proposed derivation of maximum achievable
total renewable fuel volumes, EPA anticipated effectively limiting the availability of E0 to 200 million
gallons. This is not the case. The standards that EPA
sets are not specific to ethanol nor to specific ethanol

248a
blends. Once the standards are set, the market has the
flexibility to choose the mix of fuel types used to meet
those standards. If, for instance, the demand for E0 in
2017 is higher than 200 million gallons, the market
can compensate by providing higher volumes of E15
and/or E85, or additional non-ethanol renewable fuels.
ii. E15
In the NPRM, we proposed that a total ethanol volume of 14.4 billion gallons could be reached in 2017
based on the expectation that somewhat larger increases
in ethanol supply were possible in 2017 than we had
estimated for 2016. We did not provide specific estimates of E15 or E85 use in 2017, but instead said that
we generally expected the RFS program to influence
sales of E0, E15, and E85 in such a way as to produce
this increase in ethanol volume. For this final rule, we
have undertaken a more detailed estimate of the volumes of E15 and E85 that are possible in 2017, so as
to more confidently assess whether there is adequate
supply to reach a total renewable fuel volume requirement of 19.28 billion gallons.
Most comments in response to the NPRM repeated
viewpoints they had expressed in response to the
2014–2016 proposal. Refiners and their associations,
as well as parties representing fuel marketers and
retail, expressed doubt that the number of stations offering E15 could increase significantly in 2017 and pointed
to vehicle warranties that they believed would hinder
many owners of 2001+ model year vehicles from refueling on E15. They also repeated their concerns about
engine damage and liability for misfueling. Ethanol
proponents generally pointed to the large number of
in-use vehicles that are legally permitted to use E15
and information suggesting that many existing retail
stations are already compatible with E15, or can be

249a
inexpensively upgraded. They also pointed to incentives for expanded infrastructure provided by programs
such as USDA’s Biofuels Infrastructure Partnership
(BIP) program and the ethanol industry’s Prime the
Pump program. A more detailed discussion of our
views of these comments can be found in the 2014–
2016 final rule and in the Response to Comments document for this final rule.113
Consistent with our assessment for the 2014–16
final rule, we believe that neither the number of vehicles that are legally permitted to use E15, nor the
number of owners of such vehicles who would choose
to use it, are the predominant factors in determining
the volume of E15 that is reasonably attainable in
2017. Instead, we believe that it is the number of retail
stations offering E15 in 2017 that is more likely to
determine how much E15 is actually consumed. The
number of retail stations registered to offer E15 has
grown to about 400 in the fall of 2016 based on information collected by the RFG Survey Association, more
than doubling from the previous year. However, this is
still a very small fraction of the approximately 150,000
retail stations currently operating. Based on comments
received from retail station owners and their associations, this low number of retail stations offering E15 is
most likely due to liability concerns and low expectations for a return on an investment in new or upgraded
infrastructure.
We do not believe, based on past experience, that the
core concerns retailers have with liability over equipment compatibility and misfueling would change if the
RFS volume requirements were increased significantly. Similarly, while higher RFS volume require113

See discussion at 80 FR 77462–77464.

250a
ments could make it incrementally more attractive for
retailers to upgrade infrastructure to offer E15, the
concerns they expressed in their comments about high
capital costs and opportunities for return on their
investment would remain. As a result, setting higher
volume requirements would be unlikely to result in
dramatic increases in the number of additional retail
stations offering E15 in 2017 beyond those that may
be upgraded through existing grant programs. As a
result, we do not believe that E15 infrastructure expansion can occur on the much larger scale and faster
timeframe that ethanol proponents believe it can. However, we do believe that retail infrastructure can and
will change to offer more E15 in 2017. We have estimated the expansion that is possible in 2017 based on
information on both the BIP and Prime the Pump programs, as well as an expectation that independent
efforts to expand infrastructure will continue. As
described in a memorandum to the docket, we believe
that the number of stations will increase during the
course of the year, and that an annual average of about
1,640 retail stations will be able to offer E15 in 2017.114
Since actual experience with E15 sales is so limited,
and commenters provided little information on actual
E15 sales volumes, we have made an estimate of possible E15 use in 2017 using the same methodology that
was presented in the 2014–2016 final rule, supplemented by additional information about E15 that is
expected to be supplied by terminals.115 That estimate

114

“Projections of retail stations offering E15 and E85 in
2017,” memorandum from David Korotney to docket EPA–HQ–
OAR–2016–0004.
115

“Estimates of E15 and E85 volumes in 2017,” memorandum
from David Korotney to docket EPA–HQ–OAR–2016–0004.

251a
was based on the following equation, which was also
used in the 2014–2016 final rule:
E15 volume = (Total gasoline throughput per station)
(Number of stations offering E15) (Fraction
of total gasoline sales which are E15)
We have updated the values used in this calculation
based on comments provided by stakeholders and additional information that has become available since
release of the NPRM. First, we have updated the number of retail stations that may offer E15 in 2017, as
discussed above. Second, some stakeholders said that
retail stations being targeted under the BIP program
had greater total annual gasoline sales than average,
such that it would be inappropriate to assume that the
total gasoline throughput per retail service station in
the above equation is equal to the nationwide average,
currently about 0.95 million gallons per station per
year. Available information on the BIP program does
not include gasoline throughput, but larger retail stations would be more likely to produce the matching
funds necessary as a condition of receiving BIP grant
funds. One stakeholder that is actively and directly
working with many of the retailers using funds from
the BIP and Prime the Pump programs indicated that
the average total gasoline throughput for affected
retail stations is 2.8 billion gallons per year. Therefore,
we have used this value in our determination of E15
supply for 2017. Further discussion can be found in a
memorandum to the docket.116
Finally, in the 2014–2016 final rule we used a value
of 50% for the fraction of total gasoline sales which are
E15 at stations offering both E10 and E15 based on
the expectation that E10 and E15 could be priced
116

Ibid.

252a
equally on a volumetric energy basis. While we continue to believe that 50% is possible, a number of refiners pointed out reasons that 50% may be too high in
the near term, including the fact that there are likely
to be fewer dispensers at a given retail station offering
E15 than those offering only E10, and customer familiarity with E10. One party indicated that in Iowa in
2015, per-station E15 sales were 15% of per-station
E10 sales, though the data on which this conclusion
was based did not rely on retail stations selling both
E10 and E15; the per-station estimate for E10 was
based on all stations offering E10, regardless of whether
they also offered E15. Not only are the Iowa data not
necessarily representative of stations offering both
E10 and E15, we have no information to indicate
whether the experience in Iowa is representative of
conditions that could exist under the increasing RFS
standards in 2017. Nevertheless, we agree that the
fraction of total gasoline sales which is E15 at stations
offering both E15 and E10 is likely to be considerably
less than 50% for the reasons described earlier (e.g.,
number of dispensers offering E15 at a given station,
consumer unfamiliarity with E15), at least in 2017.
Since we only have one source of data upon which to
base our estimate, we are using that 15% value in our
assessment.
Although E15 has historically been produced at
retail stations in blender pumps, since release of the
NPRM we have become aware of new activities to
produce E15 at terminals.117 This E15 could be used in
retail equipment that has been certified to be compatible with E15, and so would expand the use of E15
beyond that available through blender pumps, includ117

“HWRT & RFA Announce First-Ever Offering of Pre-blended
E15,” docket EPA–HQ–OAR–2016–0004.

253a
ing those targeted by the BIP and Prime the Pump
programs. Based on currently available information,
four out of the approximately 1,400 terminals in the U.S.
would produce E15 in 2017, and we expect that E15
production at those four terminals would be small in
comparison to E10 production. As described in a memorandum to the docket, we estimate the E15 produced
through terminals would be 41 million gallons in 2017.118
Based on the above discussion, we have estimated
that total E15 supply in 2017 could reach 728 million
gallons, resulting in about 38 million gallons of ethanol more than would be supplied if that portion of the
gasoline pool were E10. We have included this in our
discussion of total ethanol volumes in Section V.B.1.iv
below.
iii. E85
As described previously, the NPRM did not provide
specific estimates of E15 or E85 use in 2017, but
instead indicated that we generally expected the RFS
program to influence sales of E0, E15, and E85 in such
a way as to produce a total ethanol supply of 14.4 billion gallons. Nevertheless, stakeholders provided comments on a variety of topics related to the estimation
of achievable volumes of E85.119 Many of these comments
focused on an analysis of the relationship between E85
sales volumes and E85 price discount derived from pub118

“Estimates of E15 and E85 volumes in 2017,” memorandum
from David Korotney to docket EPA–HQ–OAR–2016–0004.
119

We note that, in the 2014–2016 final rule, the estimation
of E85 volumes was made in the context of determining the
volume that constituted inadequate domestic supply under our
general waiver authority. For this final rule, we are using the
cellulosic waiver authority alone, and are estimating reasonably
attainable volumes of E85.

254a
lically available data from six states, which was provided with the 2014–2016 final rule.120
As for many other aspects of this rule, stakeholders
were strongly divided on the volumes of E85 that are
achievable in 2017. Refiners typically said that E85
volumes are likely to reach little more than around 100
million gallons in 2017 based on their own estimates
of E85 in previous years using data collected by EIA
from refiners, blenders, and ethanol production facilities. For instance, refiners suggested that E85 use in
2015 reached only 87 million gallons. However, as discussed in the 2014–2016 final rule, the EIA sources on
which this estimate was based do not capture all E85
that is actually used; not all production at terminals,
ethanol production facilities, or blenders with less than
50,000 barrels of product storage capacity are included,
nor is E85 captured which is produced using reformulated gasoline or natural gasoline as the petroleum
based component. Also, reported E85 production at
ethanol production facilities is likely to represent net
rather than total finished fuel production given the
occasional negative values reported in the past.121
These stakeholders provided no new information on
historical E85 supply beyond what these EIA sources
120

“Correlating E85 consumption volumes with E85 price,”
memorandum from David Korotney to docket EPA–HQ–OAR–
2015–0111.
121

Reported values for ethanol production facilities represent
net finished fuel produced. Insofar as finished fuel brought into
the facility (i.e., gasoline) exceeds finished fuel produced by the
facility (i.e., E85), a net negative value will result. This would
occur if gasoline brought into the facility is used as a denaturant
only, or as both a denaturant and in the production of E85. As a
result, the values reported by EIA do not capture actual E85
produced and made available by these facilities, which would be
the relevant value to use in our assessment.

255a
capture. As described in a memorandum to the docket,
our own estimate of actual E85 use in 2015 based on
E85 supply data from six states is approximately 186
million gallons.122 Moreover, we also do not believe it
would be appropriate to merely extrapolate 2017 E85
supply from trends in the past several years as some
stakeholders suggested. Doing so would ignore the ability of the market to respond to the standards that we
set.
In contrast, ethanol proponents said that E85 volumes could reach at least 500 million gallons in 2017,
and some provided estimates considerably higher. Several pointed to E85 supply projections from EIA’s
Annual Energy Outlook 2016 (AEO2016), which projects 735 million gallons for 2017. However, we do not
believe that the AEO is an appropriate basis for projecting E85 supply in 2017 for the purposes of setting
the applicable volume requirements under the RFS
program. For instance, the same modeling that projected 735 million gallons for 2017 also projected 326
and 508 million gallons, respectively, for 2014 and 2015.
These volumes are far higher than what we believe the
actual supply was in these years.123 And AEO2016
projects that total ethanol use in 2017 would be 13.8
billion gallons, far lower than the 14.4 billion gallons
that we proposed as the maximum achievable, and
also considerably lower than EIA’s own projections for
2017 in their Short-Term Energy Outlook (STEO). As
the STEO projections are based on more current information and are focused on more near-term outcomes,
122

“Final estimate of E85 consumption in 2015,” memorandum
from David Korotney to docket EPA–HQ–OAR–2016–0004.
123

For instance, as described in the 2014–2016 final rule (80
FR 77460), we estimate that E85 use in 2014 was about 150 mill
gal.

256a
and the STEO also forms the basis for the gasoline and
diesel demand projections that EIA has indicated should
be used for determining the applicable percentage
standards, we do not believe that AEO is an appropriate basis for estimating the E85 supply in 2017 that is
reasonably attainable, nor, as another commenter suggested, total gasoline energy demand for 2016. We
have used the STEO for the projection of 2017 total
gasoline demand, combined with our own projections
of total ethanol supply based on our estimates of reasonably attainable volumes of E15 and E85, along with
a small amount of E0.
For those stakeholders who provided detailed comments on how E85 supply might best be projected for
2017, those comments typically focused on three areas:


The number of flex-fueled vehicles (FFVs)
in the 2017 fleet that can use E85



The retail infrastructure that can be made
available in 2017 to supply E85 to FFVs



The degree to which E85 sales can be influenced by the E85 price discount relative to
E10

We continue to believe that the number of FFVs in
the fleet is not the controlling constraint on the use of
E85. According to AEO2016, the number of FFVs in
the fleet in 2017 is expected to be about 21 million.124
These vehicles could use up to 13 billion gallons of E85
if all of them had access to retail stations offering it
and all FFV owners chose to refuel on E85 instead of
E10. We acknowledge that a larger percentage of FFVs
in the fleet could increase the volume of E85 consumed,
but in the short term we believe that it is the relatively
124

Table 40, “Light-Duty Vehicle Stock by Technology Type.”

257a
very small number of retail stations offering E85 that
is operating as the primary constraint on the volumes
of E85 sold, and to a lesser extent the relative price of
E85 and E10.
Many stakeholders provided comments on how the
number of retail stations offering E85 could grow
through the end of 2017. Most pointed to a combination of USDA’s Biofuels Infrastructure Partnership
(BIP) program, the ethanol industry’s Prime the Pump
program, and ongoing efforts independent of these two
programs. Parties representing gasoline marketing and
retail, in contrast, generally repeated the concerns
that they raised in the 2014–2016 final rule about
costs for new infrastructure and low expected profit
margins in support of their view that the number of
retail stations offering E85 would grow slowly. Several
stakeholders pointed to specific examples of retail
stations that had stopped offering E85 due to poor
sales.
Based on the information provided by stakeholders
and other information that became available following
release of the NPRM, we believe that the BIP and
Prime the Pump programs will drive nearly all growth
in E85 stations through the end of 2017, with far less
growth occurring through independent efforts. As
described in a memorandum to the docket, we believe
that an annual average of about 4,300 retail stations
can offer E85 in 2017.125 This is a significant increase
in comparison to the 3,200 that we projected would
offer E85 in 2016 in the 2014–2016 final rule, but still

125

“Projections of retail stations offering E15 and E85 in 2017,”
memorandum from David Korotney to docket EPA–HQ–OAR–
2016–0004.

258a
a relatively small number of stations compared to the
estimated 150,000 retail stations nationwide.
In order to estimate reasonably attainable sales volumes of E85 in 2017, it is also necessary to estimate
the volume of E85 likely to be sold at each retail station
that offers it. Recognizing this, stakeholders provided
comments on the aforementioned analysis of the relationship between E85 sales volumes at retail and E85
price discount derived from publically available data
from six states. Refiners generally dismissed the value
of the data used in this analysis, saying that the uncertainty within the data and questions about its representativeness for the nation as a whole made it an
improper basis for future projections. They instead
suggested that E85 use in 2017 should be based only
on an extrapolation of E85 supply trends from the previous few years. We disagree. The data used for the
analysis demonstrated statistically significant correlations between E85 sales volumes and E85 price discounts, and represented between 21% and 31% of all
stations in the U.S. which offered E85.126 Moreover,
their suggested extrapolation from historical data would
insufficiently account for the influence of both the RFS
program itself and programs such as BIP and Prime
the Pump, and would also be based on historical estimates of E85 supply using EIA data that, as described
above, we believe are likely to be inaccurate.
Ethanol proponents recognized the value of the available data in developing correlations between E85 sales
at retail and E85 price discounts. However, they provided critiques of the analyses we had conducted for
the 2014–2016 final rule, and they also had alternative views on the application of the resulting correla126

Range depends on the month and year.

259a
tions. Comments provided by these stakeholders generally fell into broad areas:


The data should be represented by nonlinear rather than linear correlations



Estimates of E85 use derived from the
correlations should be based on substantial extrapolations beyond the limits of the
data, i.e. using much higher E85 price discounts than have occurred in the past

Some stakeholders conducted their own analyses of
the data wherein they employed additional statistical
techniques to attempt to more precisely determine the
nature of the relationship between E85 sales volumes
and E85 price discounts. These included such things
as adding seasonal and annual categorical variables
into the correlations and an investigation into different nonlinear functional forms.
In light of the comments provided by these stakeholders, we determined that the analyses conducted
for the 2014–2016 final rule should be updated. Not
only is additional data now available for the six states
included in the analyses, but more rigorous statistical
methods can be employed to more precisely determine
the relationship between E85 sales volumes and E85
price discount, including whether a nonlinear correlation is appropriate. As described in a memorandum to
the docket, our revised analyses indicate that a weak
nonlinear relationship can be discerned in the data,
and that it does provide a small increase in the explanatory power of the curve fit.127
127

“Updated correlation of E85 sales volumes with E85 price
discount,” memorandum from David Korotney to docket EPA–
HQ–OAR–2016–0004.

260a
In addition to an estimate of the number of retail
stations that may offer E85 in 2017, the use of a
correlation between E85 sales volumes and E85 price
discount to estimate reasonably attainable volumes of
E85 for 2017 requires that we estimate an E85 price
discount that would be reasonable for 2017. Again,
stakeholders were strongly divided on what E85 price
discount may be attainable in 2017. Refiners typically
said that an E85 price discount beyond energy parity
(about 22% below the price of E10) was not supportable based on historical data and pointed to EPA’s
analyses showing that a sizable portion of the RIN
value is not passed on to retail customers, diluting the
impact of RIN prices on E85 prices. Ethanol proponents instead said that historical E85 price discounts
should not be used as a gauge of what future E85 price
discounts could be under the influence of higher RFS
program standards. They discounted the limitations
associated with the pass-through of RIN values to
retail customers, arguing that if EPA set the standards high enough, the resulting higher RIN prices
would result in significantly discounted retail pricing
for E85 at the retail level. Some commenters presented
examples of individual stations or regions where it
appeared the RIN value was being passed-through to
a greater degree to support their statements, however
EPA does not believe these examples are representative of retailer behavior across the country.128
There is no straightforward mechanism for precisely
identifying an E85 price discount for use in assessing
2017 ethanol supply. While some stakeholders provided
examples of E85 price discounts that could be reached
under specific assumed RIN prices and assumed RIN
128

For a further discussion of these comments, see Section
2.3.8.2 of the Response to Comment document.

261a
value pass-through to retail customers, such examples
were purely speculative and provided no method for
determining the E85 price discount that is likely to be
reasonably attainable in 2017 given the E85 retail
prices we have observed to date and the history of the
fuels market.
In order to identify an E85 price discount that could
be reasonably be assumed for the nation as a whole in
2017, we continue to believe that an investigation of
E85 price discounts reached in the past is both less
speculative than the suggestions made by ethanol proponents in their comments and more consistent with
commonly accepted approaches to data analysis. However, we also do not believe that the average levels
achieved in the past are sufficiently representative of
what could be expected to occur in the future under the
influence of the RFS program. As described in a memorandum to the docket that we published with the NPRM,
the monthly average E85 price discount has rarely
exceeded energy parity (about 22%), and the highest
12-month average retail E85 price discount has been
significantly lower.129

129

“Estimating achievable volumes of E85,” memorandum from
David Korotney to docket EPA–HQ–OAR–2016–0004. Note that
this memorandum was published with the NPRM on May 31,
2016, and with the exception of the discussion of historical E85
price reductions is largely supplanted by memoranda published
with this final rule. See in particular “Estimates of E15 and E85
volumes in 2017,” memorandum from David Korotney to docket
EPA–HQ–OAR–2016–0004.

262a
TABLE V.B.1.iii–1—E85 PRICE DISCOUNTS
BETWEEN 2012 AND EARLY 2016
Fuels
E85prices.com
AAA
Institute
Highest
21.1%
23.7%
24.1%
E85 price (May 2015)
(Oct 2014) (Apr 2015).
discount
18.7%
in a single
(Oct 2014–
month
Sep 2015).
Highest
16.0%
19.6%
24.1%
12-month (Sep 2014–
(Sep 2014– (Apr 2015).
average
Aug 2015).
Aug 2015).
18.7%
E85 price
(Oct 2014–
discount
Sep 2015).
In that memorandum we indicated our belief that
achieving energy parity for a full year would be unprecedented, but appears to be within the capabilities of
the market given the historical values shown above.
E85 price discounts higher than energy parity that
were suggested by some stakeholders in their comments have not been achieved in the past for any
notable length of time, and thus, we believe, are not
likely for all of 2017. They may, however, occur in
future years as the number of retail stations offering
E85 increases and competition between them drives
E85 prices down. For the purposes of this final rule,
we have used an E85 price discount of 22% in estimating the supply of E85 in 2017.
Some stakeholders pointed to a statement in the
NPRM which said “. . . an increase in the nationwide
average E85 price reduction to 30% would be unprecedented,” and then argued that EPA had not provided
any justification for expecting this level to be sustaina-

263a
ble for a full year. We not that E85 price discounts
have reached 30% in the past, albeit locally and for
short time periods. However, we did not propose using
an E85 price discount of 30% in the determination of
the proposed 2017 volume requirement for total renewable fuel, but only provided it as one of several examples for how the market might respond.
130

Combining the updated correlation between E85
sales volumes and E85 price discounts with estimates
for the number of retail stations that can offer E85 in
2017 and a reasonably attainable E85 price discount
of 22%, we have determined that supply of about 275
million gallons of E85 is reasonably attainable in 2017,
resulting in about 182 million gallons of ethanol more
than would be supplied if that portion of the gasoline
pool were E10. This level of E85 supply is an increase
of almost 40% in just one year from the 200 million
gallons that we believed could be reached in 2016,
primarily reflecting the significant increase in the
number of stations projected to offer E85 in 2017 as a
result of USDA’s BIP program and the ethanol industry’s Prime the Pump program.
iv. Total Ethanol
The total supply of ethanol in 2017 is a function of the
respective volumes of E10, E15, and E85, while accounting for some E0. Assuming that the total demand for
gasoline energy is independent of the amounts of each
of these types of fuel, estimating the supply of E0, E15,
and E85 that are attainable can be used to derive the
supply of E10.
Several stakeholders commented that we should use
a more recent version of EIA’s Short-Term Energy
130

See discussion at 81 FR 34790.

264a
Outlook (STEO) than the April, 2016 version we used
in the NPRM to estimate gasoline demand in 2017. We
agree that we should use updated EIA data. For this
final rule we have used the October, 2016 version,
which projects a total gasoline energy demand of 17.29
Quadrillion Btu.131 Based on estimates of E0, E15, and
E85 supply for 2017 as discussed in previous sections,
the E10 volume and resulting total ethanol supply can
be calculated.
TABLE V.B.1.iv–1—GASOLINE VOLUMES
USE TO DETERMINE REASONABLY
ATTAINABLY ETHANOL SUPPLY IN 2017
Fuel volume
(mill gal)
E0 ...............
E10 .............
E15 .............
E85 a ..........
Total ...........

200
142,480
728
275
143,683

Ethanol
volume
(mill gal)
0
14,248
109
204
14,561

Energy
(Quad Btu)
0.025
17.151
0.086
0.026
17.288

Based on this assessment, we estimate an ethanol
supply for 2017 of 14.56 billion gallons. While the
market will ultimately determine the extent to which
compliance with the annual standards is achieved
through the use of greater volumes of ethanol versus
other, non-ethanol renewable fuels, we nevertheless
believe that this ethanol volume represents a reasona131

Derived from Table 4a of the STEO, converting consumed
gasoline and ethanol projected volumes into energy using conversion factors supplied by EIA. http://www.eia.gov/forecasts/steo
/archives/oct16.pdf.
Excludes gasoline consumption in Alaska. For further details,
see “Calculation of final % standards for 2017” in docket EPA–
HQ–OAR–2016–0004.

265a
bly attainable level that takes into account the ability
of the market to respond to the standards we set and
the constraints to fuel supply that we have noted.
One stakeholder said that EIA’s projections of future
gasoline demand as provided in the STEO have been
too low in previous years, and that EPA should account
for this underestimate when making projections of the
volume of ethanol that can be achieved in 2017. We
investigated this issue and determined that while EIA
projections of future gasoline demand do contain uncertainty, they are not consistently above or below actual
gasoline demand.132
In response to the NPRM, some stakeholders reiterated their concerns from the 2014–2016 final rule that
EPA’s methodology rewarded obligated parties for
their recalcitrance in not investing in the infrastructure needed to substantially increase ethanol use above
the E10 blendwall. In taking these positions, stakeholders cited both the statutory requirement that obligations be placed on “refineries, blenders, and importers, as appropriate” and EPA’s regulations which (with
limited exceptions) further narrow the applicability of
the obligations to producers and importers of gasoline
and diesel. As described in the 2014–2016 final rule,
we agree that the statutory language, in combination
with the regulatory structure, generally places the
responsibility on producers and importers of gasoline
and diesel to ensure that transportation fuel sold or
introduced into commerce contains the required volumes of renewable fuel. Obligated parties have a variety
of options available to them, both to increase volumes
in the near term and the longer term. The standards
132

“Accuracy of STEO gasoline demand projections,” memorandum from David Korotney to docket EPA–HQ–OAR–2016.

266a
that we are establishing today reflect both the responsibility placed on obligated parties as well as the shortterm activities available to them, and we expect
obligated parties to be taking actions now that will
help to increase renewable fuel volumes in future years.
However, as pointed out by some refiners in response
to the NPRM, this general responsibility does not
require obligated parties to take actions specific to E15
and/or E85 infrastructure, as the RFS program does
not require any volumes of ethanol specifically. We
continue to believe that as obligated parties procure
and blend renewable fuels into transportation fuel, or
purchase RINs from those who do so, the demand for
RINs will drive demand for renewable fuel, thereby
stimulating every participant in the fuels industry,
including obligated parties themselves, to increase
their activities to supply it.133 Moreover, the reductions
in statutory volumes reflected in this action are largely
the result of the inability to date of renewable fuel producers to commercialize the volumes of cellulosic biofuel
envisioned in the statute. This fact cannot reasonably
be attributed to actions or inactions of obligated parties.
One stakeholder said that the EPA should target a
poolwide gasoline ethanol content of less than 10% in
part because blenders need a buffer to account for
uncertainty associated with ethanol content testing
and downstream mixing in the fungible distribution
system. This stakeholder suggested that blenders have
historically aimed to blend at less than 10% ethanol,
and that as a result EPA should set standards con133

The EPA Administrator signed the Proposed Denial of Petitions for Rulemaking to Change the RFS Point of Obligation on
November 10, 2016. More information can be found at https://www.
epa.gov/renewable-fuel-standard-program/response-petitions-re
consideration-rfs2-rule-change-point-obligation.

267a
sistent with this practice. We investigated this issue
using survey data collected by the Alliance of Automobile Manufacturers for 2011–2015 and determined
that the average ethanol content of all gasoline that
contained more than de minimis levels of ethanol was
9.80%.134 This estimate is based on the use of ASTM
test method D–5599, which measures only the alcohol
portion of the gasoline, not any denaturant that would
have been included with the ethanol before it was
blended into gasoline. Since the denaturant portion of
ethanol is typically about 2%, ethanol that is blended
into gasoline contains about 98% ethanol.135 When
blended into gasoline, therefore, the E98 would result
in a gasoline-ethanol blend containing about 9.8% pure
ethanol, or 10.0% denatured ethanol. Based on this
investigation, we have determined that it is appropriate to continue assuming that the denatured ethanol
content of E10 is 10%.
2. Biodiesel and Renewable Diesel
While the market constraints on ethanol supply are
readily identifiable, it is more difficult to identify and
assess the market components that may limit potential
growth in the use of all qualifying forms of biodiesel
and renewable diesel in 2017. Therefore, as discussed
in the introduction to Section V.B, after estimating the
supply of ethanol in 2017, and taking into account the
estimates of non-ethanol cellulosic biofuel supply discussed in Section III.D above and estimates of other
non-ethanol renewable fuel supply discussed in Section
IV.B.3, we considered whether the supply of total bio134

Under the rounding method required under 40 CFR 80.9,
ethanol concentrations of between 8.6% and 10.5% inclusive would
qualify for the 1psi waiver.
135

See definition of “renewable fuel” at 40 CFR 80.1401.

268a
diesel and renewable diesel would be adequate to satisfy a requirement of 19.28 billion gallons.
In Section V.A we described how use of the cellulosic
waiver authority to provide a volume reduction for total
renewable fuel that equals that provided for advanced
biofuels yields a volume of 19.28 billion gallons. In
addition to the ethanol volume discussed in Section
V.B.1.iv above, cellulosic biogas can also contribute to
this total volume of renewable fuel, as described more
fully in Section III.D. While other renewable fuels such
as naphtha, heating oil, butanol, and jet fuel can be
expected to continue growing over the next year, collectively, we expect them to contribute considerably less
than ethanol to the total volume of renewable fuel that
can be supplied in 2017. These were discussed in
Section IV.B.3. Based on these estimates of supply,
about 2.9 billion gallons of biodiesel and renewable
diesel would be needed in order to meet a total renewable fuel volume requirement of 19.28 billion gallons.

269a
TABLE V.B.3–1—DETERMINATION OF
VOLUME OF BIODIESEL AND RENEWABLE DIESEL
NEEDED IN 2017 TO ACHIEVE 19.28 BILLION
GALLONS OF RENEWABLE FUEL
[Million ethanol-equivalent gallons except as noted]
Total renewable fuel volume .................
Ethanol ..................................................
Non-ethanol cellulosic biofuel ...............
Other non-ethanol renewable fuelsa .....
Biodiesel and renewable diesel needed
(ethanol-equivalent volume/physical
volume) ..................................................

19,280
14,561
299
50

4,370/2,819

As discussed in the final rule establishing the RFS
standards for 2014–2016, there are several factors that
may, to varying degrees and at different times, limit
the growth of biodiesel and renewable diesel, including
local feedstock availability, production and import
capacity, and the ability to distribute, sell, and use
increasing volumes of biodiesel and renewable diesel.
We continue to believe that the supply of biodiesel and
renewable diesel as transportation fuel in the United
States, while growing, is not without limit.
In the proposed rule we discussed the current status
of each of a number of the factors that impact the
supply of biodiesel and renewable diesel used as transportation fuel in the United States. We received a number of comments on our assessment of these factors.
Some of these comments supported the proposed findings in the NPRM and agreed that EPA had sufficiently accounted for the factors that may constrain
the growth of biodiesel and renewable diesel in 2017,
a

Includes naphtha, heating oil, butanol, and jet fuel. See further discussion in Section IV.B.3.

270a
while others argued that EPA had overstated these
constraints and the degree to which they would limit
the supply of biodiesel and renewable diesel in 2017. As
stated in our proposed rule, we expect that the growth
in the supply of biodiesel and renewable diesel will
largely be driven by incremental developments across
the marketplace to steadily increase volumes. However, after a careful review of the information submitted as comments on our proposed rule, we believe
that the reasonably attainable supply of biodiesel and
renewable diesel in 2017 is higher than we had proposed.
Based on our assessment of the various factors which
affect the supply of biodiesel and renewable diesel, we
have determined that 2.9 billion gallons of biodiesel
and renewable diesel (including both advanced and
conventional biofuel) can be reasonably attained in
2017, up from the 2.5 billion gallons that was projected
for 2016. This volume is significantly higher than the
previously established BBD standard of 2.0 billion
gallons for 2017, as we believe additional volumes of
both conventional and advanced biodiesel and renewable diesel can be supplied to the United States in 2017
(see Section VI for further discussion of the BBD standard). The following sections discuss our expectations for
developments in key areas affecting the supply of biodiesel and renewable diesel in 2017.
i. Feedstock Availability
In previous years, the primary feedstocks used to
produce biodiesel and renewable diesel in the United
States have been vegetable oils (primarily soy, corn,
and canola oils) and waste fats, oils, and greases. We
anticipate that these feedstocks will continue to be the
primary feedstocks used to produce biodiesel and renewable diesel in 2017. Global supplies of these oils are

271a
significant, however they are expected to increase relatively slowly over time, as vegetable oil production
increases primarily with increases in crop yields and
the remaining untapped supply of recoverable waste
oils diminishes. Additional supplies of feedstocks could
be produced by increasing the planted acres of oilseed
crops (soy, canola, etc.), but with the exception of palm
oil most vegetable oils are produced as a co-product of
the production of animal feed and increased demand for
vegetable oil is unlikely to result in a significant increase
in oilseed crop planting absent growing demand for the
animal feed. While some have suggested that industries that compete with the biodiesel and renewable
diesel industry for renewable oil feedstocks will turn
to alternative feedstock sources, resulting in greater
feedstock availability for biodiesel and renewable
diesel producers, such a shift in renewable oil feedstock
use would not result in an increase in the total available supply of renewable oil feedstocks as those volumes
will have to be backfilled. As a result, this would not
alter the fundamental feedstock supply dynamics for
biodiesel and renewable diesel production.
We anticipate that there will be a modest increase
in the available supply of feedstocks that can be used
to produce biodiesel and renewable diesel in 2017. Oil
crop yield increases over the next few years are expected
to be relatively modest, and significant increases in
the planted acres of oil crops are expected to be limited
by competition for arable land from other higher value
crops and demand for the animal feed co-products produced by most oilseed crops.136 The recovery of corn oil
136

Because most oilseed crops are grown primarily to provide
livestock feed, the planted acres of these crops are expected to
increase in response to demand for livestock feed rather than
demand for renewable vegetable oils.

272a
from distillers grains and the recovery of waste oils are
already widespread practices, limiting the potential
for growth from these sectors compared to what has
been able to occur over recent years as these new markets were being tapped. In light of this, we do not
believe that the availability of biodiesel and renewable
diesel feedstocks is without limit. It is also possible
that biodiesel production at some individual facilities,
especially those built to take advantage of low-cost,
locally available feedstocks, may be limited by their
access to affordable feedstocks in 2017, rather than
their facility capacity, even if the global supply of feedstocks is sufficient to enable additional production.
As discussed in further detail in Section IV.B.2, the
availability of qualifying advanced biodiesel and renewable diesel feedstocks may also be limited (even if the
total supply of feedstocks is sufficient), and large
increases in advanced biodiesel and renewable diesel
demand could lead to significant feedstock substitution rather than increased production of advanced feedstocks. Unreasonably high demand for biodiesel and
renewable diesel could also cause undesirable market
disruptions. Large increases in the available supply of
biodiesel and renewable diesel in future years will
likely depend on the development and use of new, highyielding feedstocks, such as algal oils or alternative
oilseed crops. Based on currently available information,
we believe that the availability of feedstocks (including
both feedstocks that can be used to produce advanced
and conventional biodiesel and renewable diesel) is
unlikely to significantly limit the supply of total biodiesel and renewable diesel used for transportation
fuel in the United States in 2017, when considering
the standards we are establishing in this rule. This
is largely the case because we believe that other constraints, discussed below, will likely constrain the distri-

273a
bution and use of biodiesel and renewable diesel before
the feedstock limits have been reached.
ii Biodiesel and Renewable Diesel Production Capacity
The capacity for all registered domestic biodiesel production facilities is approximately 3.5 billion gallons.137
The capacity for all registered domestic renewable
diesel production facilities is approximately 0.7 billion
gallons.138 Active production capacity is lower, however, as a number of registered facilities were idle in
2015 and 2016. The capacity for all domestic biodiesel
and renewable diesel production facilities that generated RINs in 2015 or 2016 is approximately 3.1 billion
gallons.139 While idled production facilities may be
brought online, doing so would likely require sufficient
time to re-staff the production facilities, make any necessary repairs or upgrades to the facility, and source
the required feedstocks. Additionally, there are many
factors that may limit biodiesel or renewable diesel
production at any given facility to a volume lower than
the facility capacity.140 As with feedstock availability,
we do not expect that production capacity at registered
facilities will limit the supply of biodiesel/renewable
diesel for use as transportation fuel in the United
States in 2017. Foreign registered biodiesel and renewable diesel facilities represent a significant volume of
137

‘‘Biodiesel and Renewable Diesel Registered Capacity
(October 2016)”, Memorandum from Dallas Burkholder to EPA
Docket EPA–HQ–OAR–2016–0004.
138

Ibid.

139

Ibid.

140

Due to the relatively low capital cost of biodiesel production
facilities, many facilities were built with excess production capacity that has never been used.

274a
additional potential production that could be made
available to markets in the United States. While the
total registered production capacity of foreign biodiesel
and renewable diesel is significant, supply of biodiesel
and renewable diesel from these facilities in 2017 may
be impacted by the capacity to import these fuels,
discussed in the following section.
iii Biodiesel and Renewable
Import Capacity

Diesel

Another important market component in assessing
biodiesel and renewable diesel supply is the potential
for imported volumes and the diversion of domestically
produced biodiesel and renewable diesel exports to
domestic uses. In addition to the approximately 560
million gallons imported into the U.S. in 2015, there
were about 90 million gallons exported from the United
States to overseas markets. One commenter used biodiesel import data from January 2012 through April
2016 to estimate that, based on the highest annual volume of biodiesel imports in the 55 cities that reported
biodiesel imports during this time period, the United
States current import capacity for biodiesel at these
cities is approximately 659 million gallons.141 Actual
import capacity is likely to exceed this volume, as this
estimate relied solely on historic import volumes, rather
than an assessment of the capacity of the infrastructure that could be used to import biodiesel at these 55
cities. It is also likely that under the right circumstances

141

See comments from Renewable Energy Group, Inc. (EPA–
HQ–OAR–2016–0004–3477). REG used data from the Energy
Information Agency in their assessment, and therefore did not capture renewable diesel imports. The total import capacity of biodiesel and renewable diesel therefore likely exceeds the volumes
estimated here.

275a
there are additional locations through which biodiesel
could be imported.
Given the right incentives, it may be possible to
increase net biodiesel and renewable diesel imports,
either by redirecting a portion of the biodiesel currently
consumed in foreign countries to be exported to the
U.S. and/or by reducing the volume of biodiesel exported from the United States. However, the amount of
biodiesel and renewable diesel that can be imported
into the United States is difficult to predict, as the
incentives to import biodiesel and renewable diesel to
the U.S. are a function not only of the RFS and other
U.S. policies and economic drivers, but also those in
the other countries around the world. These policies
and economic drivers are not fixed, and change on a
continuing basis. Over the years there has been significant variation in both the imports and exports of biodiesel and renewable diesel as a result of varying
policies and relative economic conditions (See Figure
V.B.2.iii–1 below). Increasing biodiesel and renewable
diesel imports significantly beyond the 659 million gallons estimated above would require a clear signal to the
parties involved that increasing imports will be economically advantageous and the potential re-negotiations
of existing contracts. It may also require upgrades and
expansions a U.S. import terminals. It is possible, but
uncertain, whether higher RFS standards could provide
such a signal. Also, to the degree that higher volumes
of imported biodiesel or renewable diesel to the United
States come at the expense of consumption in the rest of
the world, the environmental benefits of this increased
volume are expected to be modest.142 In this final rule
we have no projected biodiesel and renewable diesel
142

See Section IV.B.2 for a further discussion of this issue.

276a
imports separately from domestically produced biodiesel
and renewable diesel, since these fuels are subject to
the same potential limitation (e.g., feedstock availability, distribution and use constraints, etc.).143 We do
believe, however that the standards in this final rule
will result in an increase in biodiesel and renewable diesel imports consistent with the general trend observed
in previous years, and our projection of the supply of
these fuels in 2017 includes this expected increase.
Figure V.B.2.iii-1 1—
Biodiesel and Renewable Diesel
Imports and Exports (2012-2015)a

a

Import data reported through the EMTS system. Export data
sourced from EIA (http://www.eia.gov/dnav/pet/pet_move_expc_
a_EPOORDB_EEX_mbbl_a.htm)

143

As discussed in Section IV.B.2, we expect an increase of
approximately 100 million gallons of advanced biodiesel, advanced
renewable diesel, and/or feedstocks that can be used to produce
these fuels. We are also projecting an increase of 100 million gallons
of conventional biodiesel and renewable diesel. Historically the
majority of this fuel has been imported (see Table IV.B.2–2), and
we expect this will again be the case in 2017.

277a
iv. Biodiesel and Renewable Diesel Distribution Capacity
While biodiesel and renewable diesel are similar in
that they are both diesel fuel replacements produced
from the same types of feedstocks, there are significant
differences in their fuel properties that result in differences in the way the two fuels are distributed and consumed. Renewable diesel is a pure hydrocarbon fuel
that is nearly indistinguishable from petroleum-based
diesel. As a result, it can generally use the existing distribution infrastructure for petroleum diesel and there
are no significant constraints on its growth with respect
to distribution capacity. Biodiesel, in contrast, is an
oxygenated fuel rather than a pure hydrocarbon. It
historically has not been distributed through most
pipelines due to contamination concerns with jet fuel,
and may require specialized storage facilities, additives,
or blending with petroleum diesel to prevent the fuel
from gelling in cold temperatures. In the past few
years, however, a limited number of pipelines that do
not carry jet fuel have begun shipping biodiesel
blends.144 Recent changes to the ASTM jet fuel specifications allowing up to 50 ppm biodiesel,145 as well as
experience gained in isolating jet fuel from biodiesel in
pipelines may open new opportunities for distributing
biodiesel blends by pipeline in future years. A number
of studies have investigated the impacts of cold temperatures on storage, blending, distribution, and use of
144

See NBB comments on the Proposed Rule (EPA–HQ–OAR–
2016–0004–2904).
145

While the ASTM specification generally limits biodiesel
contamination in jet fuel to 50 ppm, up to 100 ppm biodiesel may
be allowed on an “emergency basis.” Subcommittee J intends to
consider a ballot to increase the limit of biodiesel in jet fuel to 100
ppm (See ASTM D1655).

278a
biodiesel, along with potential mitigation strategies.146
147 148
Information provided by the National Biodiesel
Board, as well as comments on our proposed rule, indicate that some retailers offer biodiesel blend levels that
differ in the summer and winter to account for these
cold temperature impacts.149 150 While cold temperatures can cause problems with the distribution and use
of biodiesel, the experiences of states such as Minnesota
and Illinois, where biodiesel is used year-round despite
cold winter weather, demonstrates that these challenges can be overcome with the proper handling of
biodiesel.151 152
The infrastructure needed to store and distribute biodiesel has generally been built in response to the local
demand for biodiesel. In some cases, the infrastructure
must be expanded to bring biodiesel to new markets
146

“Biodiesel Cloud Point and Cold Weather Issues,” NC State
University & A&T State University Cooperative Extension,
December 9, 2010.
147

“Biodiesel Cold Weather Blending Study,” Cold Flow Blending Consortium.
148

“Petroleum Diesel Fuel and Biodiesel Technical Cold
Weather Issues,” Minnesota Department of Agriculture, Report
to Legislature, February 15, 2009.
149

http://biodiesel.org/using-biodiesel/finding-biodiesel/re
tail-locations/biodiesel-retailer-listings.
150

See comment from CountryMark on the proposed rule (EPA–
HQ–OAR–2016–0004–1826).
151

Biodiesel is used year-round in Minnesota and Illinois in
large part due to state mandates and tax credits respectively, in
addition to the incentives provided by the RFS program.
152

“Report to the Legislature Annual Report on Biodiesel,”
Kevin Hennessy, Minnesota Department of Agriculture. January
15, 2016. Available online <https://www.leg.state.mn.us/docs/
2016/mandated/ 160162.pdf>.

279a
and additional infrastructure may also be needed to
increase the supply of biodiesel in markets where it is
already being sold. In other cases, sufficient infrastructure exists to increase the local supply of biodiesel and
biodiesel blends using existing infrastructure.
Another factor potentially constraining the supply of
biodiesel is the number of terminals and bulk plants
that currently distribute biodiesel. A study conducted
on behalf of the NBB used OPIS data to calculate that
biodiesel is currently offered at fuel terminals in 369
of the 563 cities (approximately 66%) that have terminals providing gasoline, diesel and/or biodiesel.153 In
addition to these terminals, biodiesel is often distributed from bulk plants or directly from biodiesel production facilities. At present, the Web site Biodiesel.org
lists over 600 distribution facilities reported as selling
biodiesel either in pure form or blended form, the majority of which are bulk plants.154 155 Biodiesel production
facilities also serve as important distribution centers
for biodiesel. According to a survey conducted by NBB,
30% of the biodiesel produced at facilities that responded

153

See Attachment 6 of the comments submitted by the
National Biodiesel Board (EPA–HQ–OAR–2016–0004–2904).
The report lists 453 cities with terminals that offer gasoline and
diesel, 369 that offer biodiesel or biodiesel blends, and 259 that
offer both petroleum diesel and biodiesel.
154

List of biodiesel distributers from Biodiesel.org Web site
(http://biodiesel.org/using-biodiesel/finding-biodiesel/locatedistributors-in-the-us/distributors-map). Accessed 10/8/15. This
list does not include terminals that distribute biodiesel or biodiesel blends.
155

Bulk plants are much smaller than major gasoline and
diesel distribution terminals, and generally receive diesel and
biodiesel shipped by trucks from major terminals.

280a
to the survey is sold directly to retailers.156 Direct sales
to retail stations provide a significant opportunity for
biodiesel producers to access local markets without
first transporting biodiesel to a terminal or bulk plant
for further distribution.
While there are a large number of biodiesel distribution points in the United States, including terminals,
bulk plants, and biodiesel production facilities, the
majority of these distribution points appear to be concentrated in the Midwest and most of the population
centers of the country. These same areas consume the
majority of the diesel fuel in the United States, and
thus have the greatest potential markets for biodiesel.
For the biodiesel market to continue to expand, it must
either increase the volume of biodiesel sold in markets
where it is already being sold, or expand into markets
that currently do not have access to biodiesel. Either
of these methods for expanding the biodiesel market
will likely require additional infrastructure. Transportation of the biodiesel from production facilities to retail
fuel stations, whether directly or through terminals
and bulk plants, will also need to be expanded for volumes to continue to grow. This will likely require additional trucks and/or rail cars,157 as biodiesel and biodiesel blends are currently generally not transported
in common carrier pipelines. If recent changes to the
ASTM specifications for jet fuel (discussed above) allow
156

See Attachment 6 of the comments submitted by the
National Biodiesel Board (EPA–HQ–OAR–2016–0004–2904).
157

Biodiesel can also be transported by barge, however we expect
that a limited number of biodiesel production facilities have access
to barge or ocean transportation. Survey data collected by NBB
indicates that only 7% of biodiesel is currently transported by
barge (see NBB comments on the proposed rule, attachment 6;
EPA–HQ–OAR–2016–0004–2904).

281a
for greater volumes of biodiesel blends to be shipped
by pipeline this would be a potentially significant
change, as it would likely allow for biodiesel distribution at terminals that currently do not have access to
biodiesel blends and could significantly reduce the cost
of distributing biodiesel. Distributing biodiesel via truck
or rail results in high fuel transportation costs (relative to petroleum derived diesel, which is generally delivered to terminals via pipelines), which may impact the
viability of adding biodiesel distribution capacity at a
number of existing terminals or bulk plants. It is likely
that until and unless significant volumes of biodiesel
blends are transported by pipeline, increasing the biodiesel market will require greater investment per volume of biodiesel supplied than in the past, as the new
biodiesel distribution facilities will generally have access
to smaller markets than the existing facilities, or will
face competition as they seek to expand into areas
already supplied by existing distribution facilities.
The net result is that the expansion of the distribution infrastructure required to transport biodiesel to
distribution points and retail stations and store it at
these locations will be necessary, whether biodiesel
consumption is increased through additional consumption in existing markets, expansion to new markets, or
some combination of the two. While this is not an insurmountable challenge, it will require time and investment, and may limit the potential for the rapid expansion of the biodiesel supply. In previous years the
expansion of biodiesel distribution and storage has
largely been enabled by high volume diesel retailers,
such as truck stops and travel centers. We believe this
is likely to be the case in the near future as well, however the rate of increase of biodiesel and renewable
diesel at these locations may slow as many are already

282a
supplying significant volumes of biodiesel and renewable diesel.
The distribution of biodiesel and biodiesel blends is
an area in which the biodiesel industry has made steady
progress over time, and we anticipate that this progress
can and will continue into the future, particularly with
the ongoing incentive for biodiesel growth provided by
the RFS standards. This is especially true to the
degree that excess biodiesel transportation infrastructure (trucks, rail cars, barges, etc.) and storage capacity currently exist. Low oil prices, however, may present
a challenge to the expansion of biodiesel distribution
infrastructure, since the profitability of such projects
in current market conditions is largely dependent on
government support such as the biodiesel blenders tax
credit and RFS RIN value.158 Since some investors
view such government supports as inherently uncertain
they may be hesitant to invest in new infrastructure
to enable additional biodiesel distribution at a time
when diesel prices are low. As with many of these potential supply constraints, increasing biodiesel storage
and distribution capacity will require time and investment, potentially limiting the potential growth in 2017
and future years.
v. Biodiesel and Renewable Diesel Retail
Infrastructure Capacity
For renewable diesel, we do not expect that refueling
infrastructure (e.g., refueling stations selling renewable
diesel blends) will be a significant limiting factor in
2017 due to its similarity to petroleum-based diesel and
the relatively small volumes expected to be supplied in
the United States. The situation is different, however,
158

See comments from NATSO (EPA–HQ–OAR–2016–0004–
1830).

283a
for biodiesel. Biodiesel is typically distributed to retail
stations in blended form with diesel fuel as blends
varying from B2 up to B20, and in some narrow cases
at levels exceeding B20. Biodiesel blends up to and
including B20 can be sold using existing retail infrastructure, and generally do not require any upgrades
or modifications at the retail level. Small retailers of
diesel fuel, however, generally have only a single storage
tank for diesel fuel, and can therefore generally only
offer a single biodiesel blend. We expect that many of
the retailers in this situation will be hesitant to offer
biodiesel blends above B5, as doing so would mean
only selling a fuel that is not recommended for use by
some vehicle and engine manufacturers (see following
section for a further discussion of potential engine warranty issues).
Large diesel fuel retailers, such as truck stops and
travel centers may have sufficient tankage to offer
multiple blends of diesel fuel and/or biodiesel, should
they choose to do so. Some of these large retailers have
biodiesel blending infrastructure at their retail facilities, allowing them greater control over the blends of
biodiesel sold at their stations. This is significant, as
EIA estimates that 80% of all diesel fuel sold in the
United States is sold through large and mid-sized
truck stops, with 25% of the diesel fuel being sold
through stations owned by the four largest on-highway
diesel sellers.159 As some of the highest volume truck
stops have begun selling increasing volumes of biodiesel blends in recent years, it has allowed biodiesel
volumes to grow quickly. These large truck stops and
travel sellers sell significant volumes of biodiesel, and
159

Estimates of diesel fuel sales through various retailers from
EIA Web site: http://www.eia.gov/petroleum/gasdiesel/diesel
_proc-methods.cfm.

284a
in many cases offer biodiesel blends higher than B5.160
Further they have expressed an intention to expand
their sales of biodiesel in future years.161 We expect
that in future years these large truck stops and travel
centers will continue to be a primary location for biodiesel sales, and will likely look to expand biodiesel
sales in the future where it is profitable to do so. In
addition, many centrally fueled fleets that often consume large volumes of diesel fuel have increased their
use of biodiesel blends.162
As discussed in the next section, biodiesel blends up
to 5% may be legally sold as diesel fuel without the
need for special labeling, and are approved for use in
virtually all diesel engines. Because biodiesel blends
up to B5 can be used in virtually all diesel engines and
require no specialized infrastructure at refueling stations, and many large diesel retailers have demonstrated a willingness to offer biodiesel blends higher
than B5, expanding the number of refueling stations
offering biodiesel blends is therefore expected to be
constrained less by resistance from the retail facilities
themselves, and more by the presence of nearby wholesale distribution networks that can provide the biodiesel
blends to retail at attractive prices. As discussed in the
previous section, we expect this expansion will continue
at a steady pace in 2017.
160

See information submitted by NBB in comments on the proposed rule (EPA–HQ–OAR–2016–0004–2904), pages 29–30.
161

June 9, 2016 hearing statements from Musket Corporation,
“Transcript for room Chicago,” docket EPA–HQ–OAR–2016–
0004.
162

“Biodiesel Ranks First Among Fleets for Alt Fuel Use,”
Biodiesel.org, March 23, 2016. Available online <http://biodiesel.
org/news/news-display/2016/03/23/biodiesel-ranks-firstamong-fleets-for-alt-fuel-use>.

285a
vi. Biodiesel and Renewable Diesel Consumption Capacity
Virtually all diesel vehicles and engines now in the
in-use fleet have been warranted for the use of B5
blends. Both the Federal Trade Commission (FTC) and
ASTM International (ASTM) specifications for diesel
fuel (16 CFR part 306 and ASTM D975 respectively)
allow for biodiesel concentrations of up to five volume
percent (B5) to be sold as diesel fuel, with no separate
labeling required at the pump. Biodiesel blends of up
to 5% are therefore often indistinguishable from diesel
fuel that is not blended with biodiesel.
In recent years an increasing number of vehicle and
engine manufacturers have approved the use of biodiesel blends up to B20.163 According to information
submitted to EPA by NBB, over 30% of all diesel vehicles registered in the United States are approved to
use biodiesel blends up to B20 by the vehicle and engine
manufacturers.164 The percentage of vehicles and
engines approved by the manufacturers to use biodiesel
blends up to B20 rises to over 50% for class 8 trucks,
which use the majority of the diesel fuel in the United
States.165 This information indicates that while the
potential consumption of biodiesel in blends that exceed
B5 in vehicles and engines that are approved for the
use of this fuel is significant, such approval is not universal. For the nearly 70% of vehicles and engines that
are not approved to use biodiesel blends greater than
B5, using higher level blends could potentially void the
163

See, for example, Paccar announcement approving all engines
to use B20 blends.
164

Information on the number of vehicles approved to use B20
from a presentation by NBB to EPA staff on July 28, 2016.
165

Ibid.

286a
warranties of the engines if the damage to the engine
damage is attributable to the fuel that was used. While
many of the vehicles that are not approved to use
biodiesel blends greater than B5 are likely no longer
covered by the manufacturer’s warranty, the owners
of these vehicles may still be hesitant to use a fuel that
was not approved for use in their vehicle.
In light of the ability of effectively all diesel engines
to use biodiesel blends at the B5 level, the increasing
number of diesel engines approved to use biodiesel
blends up to B20, and the compatibility of renewable
diesel with in-use diesel engines, we believe the market will be capable of consuming 2.9 billion gallons of
biodiesel and renewable diesel in 2017. However, to
achieve this level of consumption we believe it will
become increasingly necessary to sell higher-level biodiesel blends, greater quantities of renewable diesel,
and/or additional volumes of biodiesel in qualifying
nonroad applications. Even if every gallon of diesel
sold in the United States in 2017 contained 5% biodiesel,
the total volume of biodiesel consumed would only
reach approximately 2.8 billion gallons.166 When considering the potential availability of renewable diesel
together with the use of biodiesel in non-road applications and higher level biodiesel blends, there are several scenarios that would enable the consumption of
2.9 billion gallons of biodiesel and renewable diesel. If
we assume the availability of approximately 500 million
gallons of renewable diesel in 2017 (approximately a
100 million gallon increase from 2015) and the use of
100 million gallons of biodiesel in qualifying nonroad
166

This estimate assumes 55.5 billion gallons of diesel fuel are
used in the United States in 2016 (from the EIA’s August Short
Term Energy Outlook). It also assumes no biodiesel is used in
blends greater than B5.

287a
(such as agricultural and mining equipment) and heating oil applications, approximately 84% of the highway
diesel pool in 2017 would have to be sold as a B5 blend
to supply 2.9 billion gallons of biodiesel and renewable
diesel in 2017.167 If we further assume that 20% of all
diesel fuel in the United States is sold at higher biodiesel blend levels averaging B10 (to account for the
sales of higher blends at travel centers and in states
with biodiesel blend mandates), only 54% of the remaining diesel pool would have to be blended with 5%
biodiesel to enable the consumption of 2.9 billion gallons of biodiesel and renewable diesel. We believe these
scenarios, along with the possibility for even greater
volumes of biodiesel to be used in qualifying non-road
applications and higher level biodiesel blends, demonstrate that 2.9 billion gallons of biodiesel and renewable diesel is reasonably attainable in the United States
in 2017. EPA will continue to monitor the compatibility
of the in-use vehicle fleet to use of biodiesel in future
years as we assess potential constraints on increased
volumes.
vii. Biodiesel and Renewable Diesel Consumer Response
Consumer response to the availability of renewable
diesel and low-level biodiesel blends (B5 or less) has
been generally positive, and this does not appear to be
a significant impediment to growth in biodiesel and
renewable diesel use. Because of its similarity to petroleum diesel, consumers who purchase renewable diesel
are unlikely to notice any difference between renewa167

This estimate again assumes 55.5 billion gallons of diesel
fuel are used in the United States in 2016 (from the EIA’s August
Short Term Energy Outlook) and no biodiesel is used in blends
greater than B5.

288a
ble diesel and petroleum-derived diesel fuel. Similarly,
biodiesel blends up to B5 are unlikely to be noticed
by consumers, especially since, as mentioned above,
they may be sold without specific labeling. Consumer
response to biodiesel blends is also likely aided by the
fact that despite biodiesel having roughly 10 percent
less energy content than diesel fuel, when blended at
5 percent the fuel economy impact of B5 relative to
petroleum-derived diesel is a decrease of only 0.5%, an
imperceptible difference. Consumer response has been
further aided by the lower prices that many wholesalers and retailers have been willing to provide to the
consumers for the use of biodiesel blends. The economic incentives provided by the biodiesel blenders
tax credit and the RIN have made it possible for
retailers to offer these blends at a lower price per
gallon than diesel fuel that has not been blended with
biodiesel despite the higher cost of production for
biodiesel relative to petroleum based diesel, and the
competition among diesel fuel retailers has generally
led to these incentives being reflected in the retail price
of biodiesel blends. The ability for retailers to offer
biodiesel blends at competitive prices relative to diesel
that does not contain biodiesel, even at times when oil
prices are low, is a key factor in the growth in the supply of biodiesel and renewable diesel to date.
viii. Projected Supply of Biodiesel and
Renewable Diesel in 2017
Due to the large number of market segments where
actions and investments may be needed to support the
continued growth of biodiesel blends, it is difficult to
isolate the specific constraint or group of constraints
that would be the limiting factor or factors to the supply
of biodiesel and renewable diesel in the United States
in 2017. Not only are many of the potential constraints

289a
inter-related, but they are likely to vary over time. The
challenges in identifying a single factor limiting the
growth in the supply of biodiesel and renewable diesel
in 2017 does not mean, however, that there are no constraints to the growth in supply.
A starting point in developing a projection of the
available supply of biodiesel and renewable diesel in
2017 is a review of the volumes of these fuels supplied
for RFS compliance in previous years. In examining
the data, both the absolute volumes of the supply of
biodiesel and renewable diesel in previous years, as
well as the rates of growth between years are relevant
considerations. The volumes of biodiesel and renewable
diesel (including both D4 and D6 biodiesel and renewable diesel) supplied each year from 2011 through 2015
are shown below.
Figure V.B.2.viii-1
Biodiesel and Renewable Supply by Year (2011-2015)a

a

Values represent current estimates of the net supply of biodiesel and renewable diesel (including conventional, advanced,
and BBD biodiesel and renewable diesel) from EMTS, accounting
for the production, import, and export of biodiesel and renewable
diesel.

290a
To use the historical data (shown in the figure above)
to project the available supply of biodiesel and renewable diesel in 2017, we started with the volume expected
to be supplied in 2016 (2.5 billion gallons), and then
assessed how much the supply could be expected to
increase in 2017 in light of the constraints discussed
above. Using historic data is appropriate to the extent
that growth in the year or years leading up to 2016
reflects the rate at which biodiesel and renewable
diesel constraints can reasonably be expected to be
addressed and alleviated in the future. In assessing
the potential growth of biodiesel and renewable diesel
in 2017 we believe this to be the case. There are many
potential ways the historical data could be used to project the supply of biodiesel and renewable diesel in
future years. Two relatively straightforward methods
would be to use either the largest observed annual
supply increase (743 million gallons from 2012 to 2013)
or the average supply increase (209 million gallons from
2011 to 2015) to project how much biodiesel and renewable diesel volumes could increase over 2016 levels in
2017. We recognize that there are limitations in the probative value of past growth rates to assess what can be
done in the future, however we believe there is significant value in considering historical data, especially in
cases where the future growth rate is expected to be
largely determined by the same variety of complex and
inter-dependent factors that have factored into historical growth.
In projecting the available supply of biodiesel and
renewable diesel in 2016 for the final rule establishing
the 2014–2016 standards, we estimated that the supply
of biodiesel and renewable diesel could increase from
the level supplied in 2015 in line with the largest
observed annual supply increase from the historic
record. While the availability of RIN generation data

291a
for 2016 is limited, we believe the data available to
date confirm that this high year-over-year increase is
possible.168 We believe this is the case in part due to the
relatively small growth in the supply of biodiesel and
renewable diesel in 2014 and 2015, during which no
annual RFS standards were in place to promote growth
in the supply of biodiesel and renewable diesel and during which time the biodiesel blenders tax credit was
only reinstated retroactively. During these years (2014–
2015), while growth in the supply of biodiesel and
renewable diesel was limited, significant progress continued to be made in a number of areas (upgrades at
biodiesel production facilities, increasing number of
vehicles approved to use blends greater than B5,
increasing biodiesel distribution infrastructure, etc.) to
expand the potential supply of biodiesel and renewable diesel used as transportation fuel in the United
States. We believe that despite this progress, the
absence of RFS standards for most of this time period
(along with other economic factors such as the lapses
in the biodiesel blenders tax credit and the fluctuating
prices of petroleum diesel and biodiesel and renewable
diesel feedstocks) resulted in limited increases to the
supply of biodiesel and renewable diesel in these years.
We therefore believe that the significant increase in
the projected supply of biodiesel and renewable diesel
from 2015 to 2016 was significantly enabled by the
relatively slow growth in supply in 2014 and 2015.
Commenters also noted a similarly large increase in
the supply of biodiesel and renewable diesel from 2010
to 2011 to support claims that large annual increases
in the supply of biodiesel and renewable diesel to the
168

“Comparison of 2016 availability of RINs and 2016 standards,” memorandum from David Korotney to docket EPA–HQ–
OAR–2016–0004.

292a
United States could be achieved in successive years.169
While this increase is yet another example of the rapid
increase in the supply that can be achieved under certain market conditions, we once again note that in the
years prior to 2010 the biodiesel and renewable diesel
supply had been declining. It is not clear from the
historical data whether such large increases are
sustainable year-over-year. Increases of this magnitude
require a number of factors, including feedstock supply,
production capacity, distribution capacity, retail offerings, and biodiesel consumption, to be addressed. In
previous years a significant excess of feedstocks, in
combination with newly established state and federal
incentives and a group of large, interested retail partners have enabled significant rapid growth in the supply
of biodiesel and renewable diesel. We believe that
these market conditions are unlikely to be repeated in
future years, but that there still exist opportunities for
growth in the supply of biodiesel and renewable diesel.
After reviewing the available information and the comments received on the proposed rule, we believe that
increases in the supply of biodiesel and renewable
diesel greater than those we have proposed are possible,
but we do not believe that these increases are without
limit, as some commenters have suggested.
We recognize that the growth rates achieved in the
past (such as the average annual growth rate or the
largest annual supply increase) do not necessarily indicate the growth rate that can be achieved in the future.
In the past, biodiesel was available in fewer markets,
allowing new investments to be targeted to have a
maximum impact on volume. However, as the market
becomes more saturated and biodiesel becomes availa169

See NBB comments on the proposed rule (EPA–HQ–OAR–
2016–0004–2904), page 5.

293a
ble in an increasing number of markets, additional
investments may tend to have less of an impact on
volume, potentially limiting the increases in supply
year over year. Additionally, much of the increase in
the volume of biodiesel and renewable diesel supplied
from 2012 to 2013 was renewable diesel, which is faced
with far fewer distribution and consumption challenges
than biodiesel for blends above B5. Such an increase
in the available supply of renewable diesel in 2017 is
unlikely as we are currently unaware of any renewable
diesel facilities under construction, either in the United
States or abroad, that are likely to supply significant
volumes of fuel to the United States in 2017, and the
capital costs and construction timelines associated with
constructing new renewable diesel facilities are
significant. It will likely require greater investment to
achieve the same levels of growth in the supply of
biodiesel and renewable diesel in 2017 as compared to
the higher rates from previous years.
However, we must also consider the extent to which
historic growth rates can be seen as representing what
is possible with the RFS standards and other incentives in place. The year with the historic maximum rate
of growth was 2013—a year in which both tax incentives and RFS incentives were in place to incentivize
growth through the entire year. There were also fewer
potential constraints to the growth of biodiesel and
renewable diesel related to the distribution and use of
biodiesel in 2013 than there are currently due to the
significantly lower volume of these fuels supplied in
2012. We believe it is reasonable to assume the incentives provided by the standards in 2017 will be sufficient
to enable supply increases despite these challenges discussed above, but do not believe it would be reasonable
to assume that the RFS and other incentives could
drive a rate of growth in 2017 that is equal to that seen

294a
in 2013. Comments received from the National Biodiesel
Board, as well as from the National Association of
Truck Stop Owners (which represents parties with
significant experience and investment in the distribution and sales of biodiesel) suggest that parties have
already begun making the necessary investments to
distribute and sell volumes of biodiesel that exceed the
volumes projected in our proposed rule in anticipation
of ongoing support for biodiesel from both the blenders
tax credit and the RFS program. At the public hearing
for the proposed 2017 RFS standards, Michael Whitney
of Musket Corporation testified that his company,
which is the supply and trading arm of Love’s Travel
Stops, anticipated increasing biodiesel supply by 100
million gallons in 2017.170 He further estimated that
as they accounted for approximately 20–25% of all biodiesel blended in the United States, that total supply
could be increased by 500 million gallons in 2016.171
While we believe these numbers are somewhat speculative, we also believe they provide support for an expectation of considerable growth in 2017. We also note,
however, that while the National Association of Truck
Stop Owners (NATSO) generally supported “ambitious”
standards with respect to biodiesel and renewable
diesel, they also supported EPA’s consideration of “market realities” to prevent the RFS standards from being
set at unreasonably high levels.172 Failure to do so, they
stated, could result in RFS standards that are significantly beyond the market’s ability to supply renewable
fuels, ultimately resulting in higher prices for diesel
170

See testimony of Michael Whitney, Musket Corporation,
June 9, 2016 (Chicago Room).
171
172

Ibid.

See comments from NATSO (EPA–HQ–OAR–2016–0004–
1830).

295a
fuel, negatively impacting both NATSO members and
the entire U.S. economy.173
In the NPRM we projected that the available supply
of biodiesel and renewable diesel in 2017 would be
approximately 2.7 billion gallons. We discussed the
many different factors that could potentially constrain
the production and use of biodiesel and renewable
diesel in 2017, and placed particular emphasis on the
potential limitations associated with the ability to distribute increasing volumes of biodiesel from production facilities to retail locations. In response to our
proposed rule, several parties, including NBB and
REG, provided significant new information to EPA
related to the ability of the market to distribute biodiesel from production facilities to retail locations.174
This information included data on the significant
volume of biodiesel that is sold and transported to
retail stations and/or other end users directly from
biodiesel production facilities, bypassing the traditional
fuel distribution points such as fuel terminals or bulk
plants. These data were supported by statements from
diesel retailers, such as the testimony of Michael
Whitney cited above. While we continue to believe that
the potential to produce, distribute, and consume biodiesel and renewable diesel in the United States is not
without limit, we believe the information we received
173

Ibid. If RFS standards are significantly beyond the market’s ability to supply renewable fuels, the price of biofuels and
separated RINs could rise to extreme levels as obligated parties
seek to obtain the RINs necessary to satisfy their obligations.
This would be expected to cause an increase in gasoline and diesel
prices as obligated parties sought to recover their RFS compliance costs through the prices of the petroleum fuels they sell.
174

See comments from NBB (EPA–HQ–OAR–2016–0004–
2904) and REG (EPA–HQ–OAR–2016–0004–3477).

296a
in comments in our proposed rule provides a sufficient
basis for concluding that a volume of 2.9 billion gallons
of biodiesel and renewable diesel can be produced,
distributed, and consumed in the United States in 2017.
When taken together with our projection of 2.4 billion
gallons of advanced biodiesel and renewable diesel,
this assessment assumes 500 million gallons of conventional biodiesel and renewable diesel to be used
towards satisfying the total renewable fuel standard.175
However the market could choose to fill these volumes
with advanced biodiesel or with other forms of renewable fuel.
The present constraints do not represent insurmountable barriers, but they will take time to overcome. The
market has been making efforts to overcome these
constraints in recent years, as demonstrated by discussion above and the fact that biodiesel and renewable
diesel supply in the U.S. has been steadily increasing.
We believe that opportunity for ongoing growth exists,
but that the constraints listed above will continue to
be a factor in the rate of growth in future years and
that year-on-year growth may slow as the opportunities for large increases diminish. Taking all of the
above into consideration, we believe that it would be
reasonable to assume that growth in 2017 can exceed
the 226 million gallon historic annual average increase
from the 2011–2015 time period, but will be unlikely
to reach the maximum 659 million gallon annual
increase seen in 2013. Considering the multiplicity of
factors potentially influencing supply, we do not believe
175

Lesser volumes of conventional biodiesel and renewable
diesel may be used to satisfy the standards if additional volumes
of advanced biodiesel and renewable diesel are supplied to the
market, or if the volume of ethanol supplied to the market exceeds
EPA’s projections in the previous section.

297a
that a projection can be made pursuant to any particular formula, but requires considerable exercise of
judgment. We believe that it is reasonable to project a
400 million gallon increase in supply in 2017, which
would result in a total supply of 2.9 billion gallons in
2017.
Throughout this section we have focused on determining if the market can reasonably attain the 2.9
billion gallons of biodiesel and renewable diesel needed,
together with reasonably attainable volumes of ethanol and other renewable fuels, to satisfy the 19.28 billion
gallon total renewable fuel volume derived through
use of the cellulosic waiver authority alone. Based on
the data available to EPA at this time, including data
submitted in comments on the NPRM, we believe that
the market is capable of producing, distributing, and
using 2.9 billion gallons of biodiesel and renewable
diesel in 2017. We note, however, that the 400 million
gallon increase is significantly higher than the annual
average increase in the supply of biodiesel and renewable diesel from 2011–2015, and when combined with
the projected increase of approximately 600 million
gallons from 2015 to 2016 would result in an increase
in the supply of biodiesel and renewable diesel of over
one billion gallons in just two years. While our analysis has not focused on determining the maximum reasonably achievable volume of biodiesel and renewable
diesel in 2017, we believe that the ambitious growth in
the supply of biodiesel projected from 2015 to 2017 indicate that the maximum reasonably achievable volume
of these fuels in 2017 is likely near the 2.9 billion gallons assessed in this rule.
We recognize that the market may not necessarily
respond to the final total renewable standard by supplying exactly 2.9 billion gallons of biodiesel and renew-

298a
able diesel to the transportation fuels market in the
United States in 2017, but that the market may instead
supply a lower or higher volume of biodiesel and renewable diesel with corresponding changes in the supply
of other types of renewable fuel. As a result, we believe
there is less uncertainty with respect to the attainability of the total volume requirement of 19.28 billion
gallons than there is concerning the projected 2.9 billion gallons of biodiesel and renewable diesel that we
have used in determining the adequacy of supply of
total renewable fuel for 2017.
3. Total Renewable Fuel Supply
In Section V.A we described how use of the cellulosic
waiver authority to provide a volume reduction for total
renewable fuel that equals that provided for advanced
biofuels yields a volume of 19.28 billion gallons.
Based on our assessment of supply of ethanol and
biodiesel/renewable diesel, along with smaller amounts
of non-ethanol cellulosic biofuel and other non-ethanol
renewable fuels, we have determined that there will
be adequate supply to meet a volume requirement of
19.28 billion gallons for total renewable fuel. As a
result, there is no need for further reductions on the
basis of an “inadequate domestic supply” determination using the general waiver authority.176 Therefore,
we are establishing the total renewable fuel volume
requirement at 19.28 billion gallons.
Our use of the cellulosic waiver authority alone to
set the advanced biofuel and total renewable fuel volume requirements results in an implied volume for
176

As discussed in the response to comments document, we
also do not believe that the record indicates either severe economic or environmental harm that would justify further reductions using the general waiver authority.

299a
non-advanced (i.e. conventional) renewable fuel of 15.0
billion gallons. This is an increase over the proposed
level of 14.8 billion gallons, and a significant increase
in comparison to the 2016 implied volume of 14.5
billion gallons. We recognize that some stakeholders
are primarily concerned about this implied conventional renewable fuel volume. For these stakeholders,
it may be helpful to compare the implied volume for
conventional renewable fuel to the E10 blendwall,
despite the fact that a portion of the 15.0 billion gallon
implied volume is likely to be met with conventional
biodiesel and renewable diesel. As shown below, 15.0
billion gallons continues a year-by-year trend of exceeding the E10 blendwall (the volume of ethanol that
could be consumed if all gasoline was E10 and there
was no E0, E15, or E85) by ever increasing amounts.
Figure V.B.3-1
Comparison of E10 Blendwall to
Implied Conventional Volume

As discussed in Section V.B.2.viii above, we believe
that there will be adequate supply of biodiesel and
renewable diesel such that the total renewable fuel vol-

300a
ume requirement of 19.28 billion gallons can be satisfied, based in part on our determination that 2.9 billion
gallons of biodiesel and renewable diesel is reasonably
attainable in 2017. While our analysis has not focused
on determining the maximum reasonably achievable
volume of renewable fuel in 2017, we believe that the
ambitious growth in the supply of each of the various
types of renewable fuel (discussed in further detail in
the preceding Sections) indicates that the maximum
reasonably achievable volume of these fuels in 2017 is
likely near the 19.28 billion gallons assessed in this
rule.
We note that the contributions from individual
sources shown in Table V.B.3–1 were developed only
for the purpose of determining the adequacy of supply
of total renewable fuel; they do not represent EPA’s
projection of precisely how the market will respond. As
we said in the 2014–2016 final rule, any supply estimate we make for particular fuel types may be uncertain, but there is greater certainty that the overall
volume requirements can be met given the flexibility
in the market that is inherent in the RFS program.
C. Market Responses to the Advanced Biofuel
and Total Renewable Fuel Volume Requirements
To meet the final volume requirements, the market
will need to respond by some combination of increasing
domestic production and/or imports of those biofuels
that have fewer marketplace constraints, by expanding the infrastructure for distributing and consuming
renewable fuel, and/or by improving the relative
pricing of renewable fuels and conventional transportation fuels at the retail level to ensure that they are
attractive to consumers. However, because the transportation fuel market is dynamic and complex, and the

301a
RFS program is only one of many factors that determine the relative types and amounts of renewable fuel
that will be used, we cannot precisely predict the mix
of different fuel types that will result. In this section we
delineate a range of possible outcomes, and doing so
provides a means of demonstrating that the volume
requirements can reasonably be satisfied through
multiple possible paths.
We evaluated a number of scenarios with varying
levels of E0, E15, E85, imported sugarcane ethanol,
advanced biodiesel and renewable diesel, and conventional biodiesel and renewable diesel. In doing so we
sought to capture the range of possibilities for each
individual source, based both on levels achieved in the
past and how the market might respond to the applicable standards. Each of the rows in Table V.C–1
represents a scenario in which the total renewable fuel
and advanced biofuel volume requirements would be
satisfied.

302a
TABLE V.C–1—VOLUME SCENARIOS
ILLUSTRATING POSSIBLE COMPLIANCE
WITH THE 2017 VOLUME REQUIREMENTS
[million gallons]ab

cd

The scenarios in the tables above are not the only
ways that the market could choose to meet the total
renewable fuel and advanced biofuel volume requirements that we are establishing in this action. Indeed,
a

Assumes for the purposes of these scenarios that supply of
other advanced biofuel other than ethanol, BBD and renewable diesel (e.g., heating oil, naphtha, etc.) is 50 mill gal, and that the
cellulosic biofuel final volume requirement is 311 mill gal, of which
12 mill gal is ethanol and the remainder is primarily biogas.
b

Biodiesel + renewable diesel is given in physical gallons, and
can be converted into ethanol-equivalent gallons by multiplying by
1.55 (see discussion of this conversion factor in Section IV.B.2).
Other categories are given as ethanol-equivalent volumes.
c

For the range of total ethanol shown in this table, the poolwide
average ethanol content would range from 10.08% to 10.17%.
d

Includes supply from both domestic producers as well as
imports.

303a
other combinations are possible, with volumes higher
than the highest levels we have shown above or, in
some cases, lower than the lowest levels we have
shown. The scenarios above cannot be treated as EPA’s
views on the only, or even most likely, ways that the
market may respond to the 2017 volume requirements.
Instead, the scenarios are merely illustrative of the various ways that it could play out. Our purpose in generating the list of scenarios above is only to illustrate a
range of possibilities which demonstrate that the standards we are establishing in this action can reasonably
be met.
We provided a similar table of volume scenarios in
the NPRM, and stakeholders were strongly divided on
whether those scenarios were achievable and whether
they captured the most likely outcomes. Refiners generally said that most if not all of the scenarios were not
achievable in 2017, expressing concern that the chosen
volumes of E0 were lower than actual market demand
and that the chosen volumes of other ethanol blends
and renewable fuel sources were considerably higher
than historical levels. Proponents of renewable fuels
generally said that the provided scenarios were not
demonstrative of the much higher renewable fuel
volumes that were possible. Comments on reasonably
attainable levels of specific ethanol blends and nonethanol renewable fuel types are addressed in Section
V.B above and in Sections 2.3 through 2.5 of the RTC
document.
Several proponents of the ethanol industry said that
the proposed standards would provide no incentive for
greater volumes of E15 and/or E85 in 2017 compared
to 2016, and no incentive for increased investment in
the infrastructure that supports these higher ethanol
blends. We disagree. The proposed volume requirement

304a
for total renewable fuel, and the implied volume for
non-advanced renewable fuel, were both higher than
the corresponding final volume requirements for 2016.
While none of the applicable RFS program standards
are specific to ethanol, the higher proposed volume
requirements would have created greater incentives
for growth in E15 and/or E85 in 2017 than existed in
2016. Moreover, we have increased the final volume
requirement for total renewable fuel and the implied
volume for non-advanced renewable fuel in this final
rule, in comparison to the NPRM, providing additional
incentives for expansion of E15 and/or E85.
One stakeholder representing conventional ethanol
interests said that the volume scenarios in the NPRM
demonstrated that 15 billion gallons of non-advanced
renewable fuel were possible in 2017. To do this, the
stakeholder pointed to the highest volumes in each
category to construct a new scenario higher than the
proposed volume requirements. While we are in fact
finalizing standards for 2017 that include an implied
volume of 15 billion gallons of non-advanced renewable fuel, we continue to believe, as we stated in the
NPRM, that it would be inappropriate to construct a
new scenario (as this commenter attempted) based on
the highest volumes in each category that are shown
in the tables above in order to argue for higher volume
requirements. Doing so would result in summing of
values that we have determined are higher than the
reasonably attainable volumes of the different fuel
categories, resulting in a total volume that we believe
would be extremely unlikely to be reasonably attainable or appropriate. We have more confidence in the
ability of the market to attain the volume requirements for advanced biofuel and total renewable fuel
than we have in the ability of the market to achieve a
specific level of, say, biodiesel, or E85. The probability

305a
that the upper limits of all sources shown in the tables
above could be reasonably attained simultaneously is
very small. For instance, if all volume levels in Table
V.C–1 were equally likely, then there would be a less
than 1% likelihood that the maximum levels could be
attained simultaneously.177
We recognize that in some scenarios described in the
NPRM and above, the volume of a particular category
of renewable fuel exceeds the historical maximum or
previously demonstrated production level. Stakeholders who believed that the proposed volume requirements were too high pointed to this fact as evidence
that many, if not all, volume levels in the scenarios
were not achievable. However, as stated in the NPRM,
the fact that the scenarios included volumes higher
than historical levels cannot be treated as a reason for
concluding that such levels are not achievable. The
RFS program is intended to result in supply in any
given year that is higher than in all previous years,
and it is our determination that for 2017 this is reasonably attainable.
With regard to E85, under highly favorable conditions related to growth in the number of E85 retail
stations, retail pricing, and consumer response to that
pricing, it is possible that E85 volumes as high as 330
million gallons could be reached. For instance, growth
in the number of retail stations offering E85 may
increase more rapidly than we have estimated under
USDA’s Biofuels Infrastructure Partnership (BIP) grant
program and the ethanol industry’s Prime the Pump
program. If so, the total number of retail stations offer177

For illustrative purposes only. We have not determined the
relative likelihood of the different volume levels shown in Table
V.C–1.

306a
ing E85 could perhaps increase from about 3,100 today
to 4,800 in 2017 (average for the year), rather than the
4,300 we assumed above in Section V.B.1.iii. Also, it is
possible that increases in the price of D6 RINs since
the release of the 2014–2016 final rule can help to
increase the E85 price discount relative to E10 if
producers and marketers of E85 pass the value of the
RIN to the prices offered to customers at retail, providing greater incentive to FFV owners to refuel with E85
instead of E15. Under such circumstances, an E85
price discount as high as 30% is possible. Indeed, E85
price discounts this high have been reached in the past
in some locales.178 Efforts to increase the visibility of
E85, including expanded marketing and education,
can also help to increase E85 sales. Sales volumes of
E85 higher than 330 million gallons are very unlikely,
but are possible if pump installations increase significantly and the market can overcome constraints associated with E85 pricing at retail and consumer responses
to those prices.
Similarly, we believe that under favorable conditions,
it is possible that E15 volumes as high as 1,200 million
gallons could be reached in 2017. Again, the BIP program and Prime the Pump program could result in a
higher growth rate for retail stations offering E15 than
we have estimated, potentially reaching as high as
2,000 in 2017 (average for the year). Although for the
purposes of estimating reasonably attainable E15 in
2017 we have estimated that sales of E15 would be
15% of all gasoline sales at stations selling both E10
and E15, it is possible that sales of E15 could be as
high as 50% under favorable pricing conditions as
178

For instance, data from the Fuels Institute indicates that 3%
of E85 price discounts were above 30% at surveyed retail stations
in 2015.

307a
described in Section V.B.1.ii. Also, additional terminals could produce E15 in 2017 beyond the four that
we included in our estimate of reasonably attainable
volumes of E15 in 2017.179
As the table above illustrates, the volume requirements could result in the consumption of 2.88 billion
gallons of biodiesel and renewable diesel in 2017. This
level is less than our estimate of the production capacity for all registered domestic biodiesel and renewable
diesel production facilities, and approximately the same
as the 2.9 billion gallons that we used in the context of
determining whether there is adequate supply to meet
the total renewable fuel volume requirement of 19.28
billion gallons in 2017. Given the necessarily imprecise nature of our estimate of supply of biodiesel and
renewable diesel in the context of determining whether
there will be adequate supply to meet the total renewable fuel volume requirement of 19.28 billion gallons
in 2017, volumes as high as 2.88 billion gallons and
potentially higher are possible.
Finally, out of the maximum of about 2.9 billion gallons of biodiesel and renewable diesel shown in Table
V.C–1, more than 2.5 billion gallons could be advanced
biodiesel. While this is slightly higher than the 2.4 billion gallons that we used in determining the advanced
biofuel volume requirement, it could be supplied from
current biodiesel domestic production capacity which
is about 3 billion gallons, though this would possibly
involve additional feedstock switching as discussed in
Section IV.
179

HWRT Oil Company intends to eventually offer E15 from
17 additional terminals in addition to the four announced on July
19, 2016. “HWRT & RFA Announce First-Ever Offering of Preblended E15,” docket EPA–HQ–OAR–2016–0004.

308a
D. Impacts of 2017 Standards on Costs
In this section we provide illustrative cost estimates
for the 2017 standards. By “illustrative costs,” EPA
means the cost estimates provided are not meant to be
precise measures, nor do they attempt to capture the
full impacts of this final rule. These estimates are provided solely for the purpose of showing how the cost to
produce a gallon of a “representative” renewable fuel
compares to the cost of petroleum fuel. There are a
significant number of caveats that must be considered
when interpreting these cost estimates. First, there
are a number of different feedstocks that could be used
to produce ethanol and biodiesel, and there is a significant amount of heterogeneity in the costs associated
with these different feedstocks and fuels. Some fuels
may be cost competitive with the petroleum fuel they
replace; however, we do not have cost data on every
type of feedstock and every type of fuel. Therefore, we
do not attempt to capture this range of potential costs
in our illustrative estimates.
Second, the costs and benefits of the RFS program
as a whole are best assessed when the program is fully
mature in 2022 and beyond.180 We continue to believe
that this is the case, as the annual standard-setting
process encourages consideration of the program on a
piecemeal (i.e., year-to-year) basis, which may not
reflect the long-term economic effects of the program.
Thus, EPA did not quantitatively assess other direct
and indirect costs or benefits of increased renewable
fuel volumes such as infrastructure costs, investment,
GHG emissions and air quality impacts, or energy
security benefits, which all are to some degree affected
by this final rule. While some of these impacts were
180

77 FR 59477.

309a
analyzed in the 2010 final rulemaking which established the current RFS program, we have not fully
analyzed these impacts for the 2017 volume requirements. We have framed the analyses we have performed
for this final rule as “illustrative” so as not to give the
impression of comprehensive estimates.
Third, at least two different scenarios could be considered the “baseline” for the assessment of the costs
of this rule. One scenario would be the statutory volumes
(e.g., the volumes in the Clean Air Act 211(o)(2) for
2016) in which case this final rule would be reducing
volumes, reducing costs as well as decreasing expected
GHG benefits. For the purposes of showing illustrative
overall costs of this rulemaking, we use the preceding
year’s standard as the baseline (e.g., the baseline for
the 2017 advanced standard is the 2016 advanced
standard), an approach consistent with past practices
in previous annual RFS rules.
EPA is providing cost estimates for three illustrative
scenarios:
1. If the entire change in the advanced standards is met with soybean oil BBD
2. If the entire change in the advanced standards is met with sugarcane ethanol from
Brazil
3. If the entire change in the total renewable
fuel volume standards that can be satisfied with conventional (i.e., non-advanced)
renewable fuel is met with corn ethanol.
While a variety of biofuels could help fulfill the
advanced standard beyond soybean oil BBD and sugarcane ethanol from Brazil, these two biofuels have been
most widely used in the past. The same is true for corn

310a
ethanol vis-a-vis the non-advanced component of the
total renewable fuel standard. We believe these scenarios provide illustrative costs of meeting the applicable
2017 standards.
For this analysis, we estimate the per gallon costs of
producing biodiesel, sugarcane ethanol, and corn ethanol relative to the petroleum fuel they replace at the
wholesale level, then multiply these per gallon costs
by the difference in the volumes between the relevant
2017 standard and the previous 2016 standard for the
advanced (for biodiesel and sugarcane ethanol) and
non-advanced component of the total renewable fuel
(for corn ethanol) categories. More background information on this section, including details of the data
sources used and assumptions made for each of the
scenarios, can be found in a Memorandum submitted
to the docket.181
Because we are focusing on the wholesale level in
each of the three scenarios, these comparisons do not
consider taxes, retail margins, and any other costs or
transfers that occur at or after the point of blending
(i.e., transfers are payments within society and are not
additional costs). Further, as mentioned above we do
not attempt to estimate potential costs related to infrastructure expansion with increased renewable fuel volumes (e.g., the costs of providing pumps and storage
tanks associated with higher level ethanol blends). In
addition, because more ethanol gallons must be consumed to go the same distance as gasoline and more
biomass-based diesel must be consumed to go the same
distance as petroleum diesel due to each of the biofuels’
181

“Illustrative Costs Impact of the Final Annual RFS2 Standards, 2017”, Memorandum from Michael Shelby and Aaron Sobel
to EPA Docket EPA–HQ–OAR–2016–0004.

311a
lesser energy content, we consider the costs of ethanol
and biomass-based diesel on an energy equivalent basis
to their petroleum replacements (i.e., per energy equivalent gallon).
For our first illustrative cost scenario, we estimate
the costs of soybean-based biodiesel to meet the entire
change in the advanced biofuel standard for 2017.182
Table V.D–1 below presents the annual change in volumes being established by this rule, a range of illustrative cost differences between biomass-based diesel and
petroleum-based diesel by individual gallon on a diesel
gallon equivalent (DGE) basis, and multiplies those
per gallon cost estimates by the volume of fuel displaced
by the advanced standard on an energy equivalent
basis to obtain an overall cost estimate of meeting the
standard.

182

Soybean biodiesel could meet the pre-established 2017
biomass-based diesel volume, which itself is a nested volume
within the 2017 advanced biofuel RFS volume. Illustrative costs
represent meeting all of the costs of the annual increase of the
2017 advanced standard using entirely soybean-based biodiesel
as one scenario.

312a
TABLE V.D–1—ILLUSTRATIVE COSTS OF
SOYBEAN BIODIESEL TO MEET INCREASE IN
ADVANCED BIOFUEL STANDARDS IN 2017

183, 184, 185

For our second illustrative cost scenario, we estimate
the costs of Brazilian sugarcane ethanol to meet the
entire change in the advanced biofuel standard for
2017. Table V.D–2 below presents the annual change
in volumes established by this final rule, a range of
illustrative cost differences between Brazilian sugarcane ethanol and wholesale gasoline on a per gasoline
gallon equivalent (GGE) basis, and multiplies those
per gallon cost estimates by the volume of fuel displaced
by the advanced standard on an energy equivalent
basis to obtain an overall cost estimate of meeting the
standard.

183

EPA used a value of 1.5 when calculating the RIN equivalencies of soybean-based biodiesel for the purpose of this illustrative costs example. See section IV.B–2 for a more detailed explanation of the biodiesel and renewable diesel equivalence value used
for the purpose of deriving the renewable fuel standard under the
2017 RFS rule.
184

Due to the difference in energy content between biodiesel and
diesel, one gallon of biodiesel is energy-equivalent to approximately
91% of a gallon of diesel; 447 million gallons of biodiesel is energyequivalent to approximately 408 million gallons of diesel.
185

Overall costs may not match per gallon costs times volumes
due to rounding.

313a
TABLE V.D–2—ILLUSTRATIVE COSTS OF BRAZILIAN
SUGARCANE ETHANOL TO MEET INCREASE IN
ADVANCED BIOFUEL STANDARDS IN 2017

186, 187

For our third illustrative cost scenario, we assess the
difference in cost associated with a change in the
implied volumes available for conventional (i.e., nonadvanced) biofuels for 2017. We provide estimates of
what the potential costs might be if corn ethanol is
used to meet the entire change in implied conventional
renewable fuel volumes. Table V.D–3 below presents
the annual change in volumes established by this final
rule, a range of illustrative cost differences between
corn ethanol and the wholesale gasoline on a per gasoline gallon equivalent (GGE) basis, and multiplies those
per gallon cost estimates by the volume of petroleum
displaced on an energy equivalent basis by the change
in implied conventional fuel volumes for an estimated
overall cost in 2017.

186

Due to the difference in energy content between ethanol and
gasoline, one gallon of ethanol is energy-equivalent to approximately 67% of a gallon of gasoline; 670 million gallons of ethanol
is energy-equivalent to approximately 447 million gallons of gasoline.
187

Overall costs may not match per gallon costs times volumes
due to rounding.

314a
TABLE V.D–3—ILLUSTRATIVE COSTS OF CORN
ETHANOL TO MEET INCREASE IN THE CONVENTIONAL
(i.e., NON-ADVANCED) PORTION OF THE TOTAL
RENEWABLE FUEL STANDARDS IN 2017

188, 189

These illustrative cost estimates are not meant to be
precise measures, nor do they attempt to capture the
full impacts of the rule. These estimates are provided
solely for the purpose of illustrating how the cost to
produce renewable fuels could compare to the costs of
producing petroleum fuels. There are several important
caveats that must be considered when interpreting
these costs estimates. First, there is a significant
amount of heterogeneity in the costs associated with
different feedstocks and fuels that could be used to
produce renewable fuels; however, EPA did not
attempt to capture this range of potential costs in
these illustrative estimates. Second, EPA did not
quantify other impacts such as infrastructure costs,
job impacts, or investment impacts. If the illustrative
costs from the Tables above, representing the range for
combined advanced and non-advanced fuel volumes,
were summed together they would range from $686–
$1,550 million in 2017. It is important to note that

188

500 million gallons of ethanol is energy-equivalent to approximately 333 million gallons of gasoline.
189

Overall costs may not match per gallon costs times volumes
due to rounding.

315a
these costs do not represent net benefits of the
program.
For the purpose of this annual rulemaking, we have
not quantified benefits for the 2017 standards. We do
not have a quantified estimate of the GHG impacts for
a single year (e.g., 2017), and there are a number of
benefits that are difficult to quantify, such as rural
economic development, employment impacts, and
national security benefits from more diversified fuel
sources. When the RFS program is fully phased in, the
program will result in considerable volumes of renewable fuels that will reduce GHG emissions in comparison to the fossil fuels which they replace. EPA estimated GHG, energy security, and air quality impacts and
benefits in the 2010 RFS2 final rule assuming full
implementation of the statutory volumes in 2022.190
VI. Biomass-Based Diesel Volume for 2018
In this section we discuss the final biomass-based
diesel (BBD) applicable volume for 2018. We are establishing this volume in advance of those for other renewable fuel categories in light of the statutory requirement in CAA section 211(o)(2)(B)(ii) to establish the
applicable volume of BBD for years after 2012 no later
than 14 months before the applicable volume will apply.
We are not at this time establishing the BBD percentage standards that would apply to obligated parties in
2018 but intend to do so in the Fall of 2017, after receiving EIA’s estimate of gasoline and diesel consumption
for 2018. Although the BBD applicable volume sets a
floor for required BBD use, because the BBD volume
requirement is nested within both the advanced
biofuel and the total renewable fuel volume requirements, any “excess” BBD produced beyond the man190

75 FR 14670.

316a
dated 2018 BBD volume can be used to satisfy both of
these other applicable volume requirements. Therefore, these other standards can also influence BBD
production and use.
A. Statutory Requirements
The statute establishes applicable volume targets
for years through 2022 for cellulosic biofuel, advanced
biofuel, and total renewable fuel. For BBD, applicable
volume targets are specified in the statute only through
2012. For years after those for which volumes are
specified in the statute, EPA is required under CAA
section 211(o)(2)(B)(ii) to determine the applicable
volume of BBD, in coordination with the Secretary of
Energy and the Secretary of Agriculture, based on a
review of the implementation of the program during
calendar years for which the statute specifies the
volumes and an analysis of the following factors:
1. The impact of the production and use of
renewable fuels on the environment, including on air quality, climate change, conversion of wetlands, ecosystems, wildlife habitat, water quality, and water supply;
2. The impact of renewable fuels on the energy
security of the United States;
3. The expected annual rate of future commercial production of renewable fuels,
including advanced biofuels in each category (cellulosic biofuel and BBD);
4. The impact of renewable fuels on the infrastructure of the United States, including
deliverability of materials, goods, and products other than renewable fuel, and the suf-

317a
ficiency of infrastructure to deliver and use
renewable fuel;
5. The impact of the use of renewable fuels
on the cost to consumers of transportation
fuel and on the cost to transport goods;
and
6. The impact of the use of renewable fuels
on other factors, including job creation, the
price and supply of agricultural commodities, rural economic development, and food
prices.
The statute also specifies that the volume requirement for BBD cannot be less than the applicable volume
for calendar year 2012, which is 1.0 billion gallons. The
statute does not, however, establish any other numeric
criteria, or provide any guidance on how the EPA should
weigh the importance of the often competing factors,
and the overarching goals of the statute when the EPA
sets the applicable volumes of BBD in years after those
for which the statute specifies such volumes. In the
period 2013–2022, the statute specifies increasing applicable volumes of cellulosic biofuel, advanced biofuel,
and total renewable fuel, but provides no guidance,
beyond the 1.0 billion gallon minimum, on the level at
which BBD volumes should be set.
B. Determination of Applicable Volume of
Biomass-Based Diesel
1. BBD Production and Compliance Through
2015
One of the primary considerations in determining
the biomass-based diesel volume for 2018 is a review
of the implementation of the program to date, as it
affects biomass-based diesel. This review is required

318a
by the CAA, and also provides insight into the capabilities of the industry to produce, import, export, and
distribute BBD. It also helps us to understand what
factors, beyond the BBD standard, may incentivize the
production and import of BBD. The number of BBD
RINs generated, along with the number of RINs retired
due to export or for reasons other than compliance
with the annual BBD standards from 2011–2015 are
shown below.
TABLE VI.B.1–1—BIOMASS-BASED (D4) RIN
GENERATION AND STANDARDS IN 2013–2017
[Million gallons]191

ab

191

Net BBD RINs Generated and BBD RINs Retired for NonCompliance Reasons information from EMTS. Biodiesel Export
information from EIA. http://www.eia.gov/dnav/pet/pet_move
_expc_a_EPOORDB_EEX_mbbl_a.htm.
a

Available BBD RINs may not be exactly equal to BBD RINs
Generated minus Exported RINs and BBD RINs Retired, NonCompliance Reasons due to rounding.
b

Each gallon of biodiesel qualifies for 1.5 RINs due to its
higher energy content per gallon than ethanol. Renewable diesel
qualifies for between 1.5 and 1.7 RINs per gallon. In 2014 and
2015 the number of RINs in the BBD Standard column is not
exactly equal to 1.5 times the BBD volume standard as these
standards were established based on actual RIN generation data
for 2014 and a combination of actual data and a projection of RIN
generation for the last three months of the year for 2015. Some of

319a
In reviewing historical BBD RIN generation and
use, we see that the number of RINs available for
compliance purposes exceeded the volume required to
meet the BBD standard in 2011 and 2013. Additional
production and use of biodiesel was likely driven by a
number of factors, including demand to satisfy the
advanced biofuel and total renewable fuels standards,
the biodiesel tax credit, and favorable blending economics. In 2012 the available BBD RINs were slightly
less than the BBD standard. There are many reasons
this may have been the case, including the temporary
lapse of the biodiesel tax credit at the end of 2011.192
The number of RINs available in 2014 and 2015 was
approximately equal to the number required for compliance in those years. This is because the standards
for these years were finalized at the end of November
2015 when RIN generation data were available for all
of 2014 and much of 2015, and we exercised our authority to establish the required BBD volumes for these
time periods to be approximately equal to the number
of BBD RINs that were available (for past time periods) or were expected to be available (for the months
of 2015 for which EPA did not yet have reliable data)
in the absence of the influence of the RFS standards.
While we do not yet have final compliance data for 2016,
BBD RIN generation is currently on track to exceed
the volume required by the BBD standard by a signifithe volume used to meet the biomass-based diesel standard was
renewable diesel, which generally has an equivalence value of 1.7.
192

The biodiesel tax credit was reauthorized in January 2013.
It applied retroactively for 2012 and for the remainder of 2013. It
was once again extended in December 2014 and applied
retroactively to all of 2014 as well as to the remaining weeks of
2014. In December 2015 the biodiesel tax credit was once
authorized and applied retro-actively for all of 2015 as well as
through the end of 2016.

320a
cant margin. This strongly suggests that there is
demand for these RINs to satisfy the advanced biofuel
and/or total renewable fuel requirements.
193

2. Interaction Between BBD and Advanced
Biofuel Standards
The BBD standard is nested within the advanced
biofuel and total renewable fuel standards. This means
that when an obligated party retires a BBD RIN (D4)
to satisfy their BBD obligation, this RIN also counts
towards meeting their advanced biofuel and total
renewable fuel obligations. It also means that obligated parties may use BBD RINs in excess of their
BBD obligations to satisfy their advanced biofuel and
total renewable fuel obligations. Higher advanced biofuel and total renewable fuel standards, therefore,
create demand for BBD, especially if there is an insufficient supply of other advanced or conventional renewable fuels to satisfy the standards, or if BBD RINs can
be acquired at or below the price of other advanced or
conventional biofuel RINs.194
In reviewing the implementation of the RFS program to date, it is apparent that the advanced biofuel
and/or total renewable fuel volume requirements were
in fact helping grow the market for volumes of biodiesel above the BBD standard. In 2013 the number
of advanced RINs generated from fuels other than
BBD and cellulosic biofuel was not large enough to
satisfy the implied standard for “other advanced”
193

“Comparison of 2016 availability of RINs and 2016
standards,” memorandum from David Korotney to docket EPA–
HQ–OAR–2016–0004.
194

The biodiesel blenders tax credit effectively reduced the cost
of BBD, allowing it to be priced lower than many other advanced
biofuels.

321a
biofuel (advanced biofuel needed to satisfy the advanced
biofuel standard after the BBD and cellulosic biofuel
standards are met), and additional volumes of BBD
filled the gap (see Table VI.B.2–1 below). In fact, the
amount by which the available BBD RINs exceeded
the 1.28 billion gallon BBD volume requirement (421
million RINs) was larger than the amount of such excess
BBD needed, together with other types of advanced
biofuels, to satisfy the advanced biofuel standard (278
million RINs; the number of advanced biofuel RINs
required after subtracting the number of RINs generated to meet the BBD standard and the number of RINs
generated for non-BBD advanced biofuels), suggesting
that the additional increment was incentivized by the
total renewable fuel standard. Preliminary data for
2016 similarly reveal the ability for the advanced and
total renewable fuel standards to incentivize increased
BBD production. The current RIN generation data
suggest that BBD production is on track to exceed the
BBD standard for 2016 by a significant margin, and
that these excess BBD RINs will be needed to enable
compliance with the advanced biofuel and total renewable fuel standards given the limited production of
other advanced biofuels.195 As discussed above, the 2014
and 2015 BBD standards were intended to reflect the
full number of available BBD RINs in these years and
were set in late 2015, at which point the number of
available RINs in these years was largely known. We
can therefore draw no conclusions about the ability for
the advanced and total renewable fuel standards to
incentivize BBD production from these years. While
the available BBD RINs in 2012 were slightly less
195

“Comparison of 2016 availability of RINs and 2016 standards,” memorandum from David Korotney to docket EPA–HQ–
OAR–2016–0004.

322a
than the BBD standard despite the opportunity to contribute towards meeting the advanced and total renewable fuel standards, there are several factors beyond
the RFS standards (2012 drought, expiration of the
biodiesel tax credit, opportunities for increased ethanol blending as E10) that likely impacted BBD production in 2012. We continue to believe that the advanced
biofuel and total renewable fuel standards can provide
a strong incentive for increased BBD volume in the
United States in excess of that required to satisfy the
BBD standard (for further discussion on this issue see
80 FR 77492)
TABLE VI.B.2–1—BIOMASS-BASED DIESEL AND
ADVANCED BIOFUEL RIN GENERATION AND STANDARDS

a, b

The prices paid for advanced biofuel and BBD RINs
beginning in early 2013 through mid-2016 also support the conclusion that advanced biofuel and/or total
renewable fuel standards provide a sufficient incentive for additional biodiesel volume beyond what is
required by the BBD standard. Because the BBD standa

Does not include BBD or cellulosic biofuel RINs, which may
also be used towards an obligated party’s advanced biofuel obligation.
b

Advanced biofuel that does not qualify as BBD or cellulosic
biofuel; calculated by subtracting the number of required BBD
RINs (BBD required volume 1.5) and the number of required
cellulosic biofuel RINs from the advanced biofuel volume
requirement.

323a
ard is nested within the advanced biofuel and total
renewable fuel standards, and therefore can help to
satisfy three RVOs, we would expect the price of BBD
RINs to exceed that of advanced and conventional
renewable RINs.196 If, however, BBD RINs are being
used by obligated parties to satisfy their advanced biofuel and/or total renewable fuel obligations, above and
beyond the BBD standard, we would expect the prices
of conventional renewable fuel, advanced biofuel, and
BBD RINs to converge to the price of the BBD RIN.197
When examining RIN prices data from 2013 through
mid-2016, shown in Figure VI.B.2–1 below, we see that
throughout this entire time period the advanced RIN
price and biomass-based diesel RIN prices were approximately equal. Similarly, throughout most of this time
period the conventional renewable fuel and biomassbased diesel RIN prices were approximately equal. This
suggests that the advanced biofuel standard and/or
total renewable fuel standard was capable of incentivizing increased BBD volumes beyond the BBD
standard in these years.198 While final standards were
196

This is because when an obligated party retires a BBD RIN
to help satisfy their BBD obligation, the nested nature of the BBD
standard means that this RIN also counts towards satisfying
their advanced and total renewable fuel obligations. Advanced
RINs count towards both the advanced and total renewable fuel
obligations, while conventional RINs (D6) count towards only the
total renewable fuel obligation.
197

We would still expect D4 RINs to be valued at a slight
premium to D5 and D6 RINs in this case (and D5 RINs at a slight
premium to D6 RINs) to reflect the greater flexibility of the D4
RINs to be used towards the BBD, advanced biofuel, and total
renewable fuel standard. This pricing has been observed over the
past several years.
198

Although we did not issue a rule establishing the final 2013
standards until August of 2013, we believe that the market anticipated the final standards, based on EPA’s July 2011 proposal

324a
not in place throughout 2014 and most of 2015, EPA
had issued proposed rules for both of these years. In
each year, the market response was to supply volumes
of BBD that exceeded the proposed BBD standard in
order to satisfy the advanced biofuel standard. Additionally, the RIN prices in these years strongly suggests
that obligated parties and other market participants
anticipated the need for BBD RINs to meet their
advanced biofuel obligations, and responded by purchasing advanced biofuel and BBD RINs at approximately equal prices.
Figure VI.B.2-1
Current Year RIN Prices (2013-2016)a

In establishing the BBD and cellulosic standards as
nested within the advanced biofuel standard, Congress clearly intended to support development of BBD
and the volume targets for advanced and total renewable fuel
established in the statute (76 FR 38844, 38843).
a

For a list of the eligible pathways for each D-code see Table
1 to §80.1426 RIN Price Data from OPIS (2013-2015) and Argus
(2016)

325a
and cellulosic biofuels, while also providing an incentive for the growth of other non-specified types of
advanced biofuels. That is, the advanced biofuel
standard provides an opportunity for other advanced
biofuels (advanced biofuels that do not qualify as cellulosic biofuel or BBD) to be used to satisfy the advanced
biofuel standard after the cellulosic biofuel and BBD
standards have been met. Indeed, since Congress
specifically directed growth in BBD only through 2012,
leaving development of volume targets for BBD to EPA
for later years while also specifying substantial growth
in the cellulosic biofuel and advanced biofuel categories, we believe that Congress clearly intended for EPA
to evaluate in setting BBD volume requirements after
2012 the appropriate rate of participation of BBD
within the advanced biofuel standard.
When viewed in a long-term perspective, BBD can
be seen as competing for research and development
dollars with other types of advanced biofuels for participation as advanced biofuels in the RFS program.
We believe that preserving space within the advanced
biofuel standard for advanced biofuels that do not qualify as BBD or cellulosic biofuel provides the appropriate incentives for the continued development of these
types of fuels. In addition to the long-term impact of
our action in establishing the BBD volume requirements, there is also the potential for short-term impacts
during the compliance years in question. By establishing BBD volume requirements at levels lower than the
advanced biofuel volume requirements (and lower
than the expected production of BBD to satisfy the
advanced biofuel requirement), we are creating the
potential for some competition between BBD and other
advanced biofuels to satisfy the advanced biofuel volume standard. We continue to believe that preserving
space under the advanced biofuel standard for non-

326a
BBD advanced biofuels, as well as BBD volumes in
excess of the BBD standard, will help to encourage the
development and production of a variety of advanced
biofuels over the long term without reducing the incentive for additional volumes of BBD beyond the BBD
standard in 2018. A variety of different types of
advanced biofuels, rather than a single type such as
BBD, would positively impact energy security (e.g., by
increasing the diversity of feedstock sources used to
make biofuels, thereby reducing the impacts associated with a shortfall in a particular type of feedstock)
and increase the likelihood of the development of lower
cost advanced biofuels that meet the same GHG reduction threshold as BBD.199
While a single-minded focus on the ability of the
advanced and total renewable fuel standards to incentivize increasing production of the lowest cost qualifying biofuels, regardless of fuel type, would suggest that
a flat or even decreasing BBD volume requirement may
be the optimal solution, this is not the only consideration. Despite many of these same issues being present
in previous years, we have consistently increased the
BBD standard each year. Our decisions to establish
increasing BBD volumes each year have been made in
light of the fact that while cellulosic biofuel production
has fallen far short of the statutory volumes, the available supply of BBD in the United States has grown
each year. This growing supply of BBD allowed EPA
to establish higher advanced biofuel standards, and to
realize the GHG benefits associated with greater volumes of advanced biofuel, than would otherwise have
been possible in light of the continued shortfall in the
199

All types of advanced biofuel, including biomass-based diesel and cellulosic biofuel, must achieve lifecycle greenhouse gas
reductions of at least 50%.

327a
availability of cellulosic biofuel. It is in this context
that we determined that steadily increasing the BBD
requirements was appropriate to encourage continued
investment and innovation in the BBD industry, providing necessary assurances to the industry to increase
production, while also serving the long term goal of the
RFS statute to increase volumes of advanced biofuels
over time.
Although the BBD industry has performed well in
recent years, we believe that for 2018 a continued
appropriate increase in the BBD volume requirement
will help provide stability to the BBD industry and
encourage continued growth. This industry is currently
the single largest contributor to the advanced biofuel
pool, one that to date has been largely responsible for
providing the growth in advanced biofuels envisioned
by Congress. Nevertheless, many factors that impact
the viability of the BBD industry in the United States,
such as commodity prices and the biodiesel tax credit,
remain uncertain. Continuing to increase the BBD volume requirement should help to provide market conditions that allow these BBD production facilities to
operate with greater certainty. This result is consistent
with the goals of the Act to increase the production and
use of advanced biofuels (for further discussion of
these issues see 80 FR 77492).
3. BBD Volume for 2018
With the considerations discussed in Section IV.B.2
in mind, as well as our analysis of the factors specified
in the statute, we are setting the applicable volume of
BBD at 2.1 billion gallons for 2018. This volume represents an annual increase of 100 million gallons over
the applicable volume of BBD in 2017. We believe this
is appropriate for the same reasons reflected in the
December 14, 2015 final rule: To provide additional

328a
support for the BBD industry while allowing room
within the advanced biofuel volume requirement for
the participation of non-BBD advanced fuels. Although
we are not setting the advanced biofuel volume requirement for 2018 at this time, we anticipate that the 2018
advanced biofuel requirement will be larger than the
2017 advanced biofuel volume requirement, and the
2018 BBD volume requirement reflects this anticipated approach. Our assessment of the required statutory factors, summarized in the next section and in a
memorandum to the docket, supports this approach.200
We believe this approach strikes the appropriate
balance between providing a market environment
where the development of other advanced biofuels is
incentivized, while also maintaining support for growth
in BBD volumes. Given the volumes for advanced biofuel we anticipate requiring in 2018, setting the BBD
standard in this manner would continue to allow a
considerable portion of the advanced biofuel volume to
be satisfied by either additional gallons of BBD or by
other unspecified types of qualifying advanced biofuels.
C. Consideration of Statutory Factors for 2018
In this section we discuss our consideration of the statutory factors set forth in CAA section 211(o)(2)(B)(ii)(I)–
(VI). As noted earlier in Section IV.B.2, the BBD volume requirement is nested within the advanced biofuel requirement and the advanced biofuel requirement is, in turn, nested within the total renewable fuel
volume requirement. This means that any BBD produced beyond the mandated BBD volume can be used
to satisfy both these other applicable volume require200

“Memorandum to docket: Final Statutory Factors Assessment for the 2018 Biomass-Based Diesel (BBD) Applicable Volumes.”

329a
ments. The result is that in considering the statutory
factors we must consider the potential impacts of
increasing BBD in comparison to other advanced biofuels.201 For a given advanced biofuel standard, greater
or lesser BBD volume requirements do not change the
amount of advanced biofuel used to displace petroleum
fuels; rather, increasing the BBD requirement may
result in the displacement of other types of advanced
biofuels that could have been used to meet the advanced
biofuels volume requirement.
Consistent with our 2017 approach in setting the
final BBD volume requirement, EPA’s primary assessment of the statutory factors for the final 2018 BBD
applicable volume is that because the BBD requirement is nested within the advanced biofuel volume
requirement, we expect that the final 2018 advanced
volume requirement, when set next year, will largely
determine the level of BBD production and imports
that occur in 2018. Therefore, EPA continues to believe
that the same overall volume of BBD would likely be
supplied in 2018 regardless of the BBD volume we
mandate for 2018 in this final rule. This assessment is
based, in part, on our review of the RFS program implementation to date, as discussed above in Section
VI.B.1–VI.B–2.
As we stated in our proposal, even though we are not
setting the 2018 advanced biofuel volume requirement
in this final rule, the final BBD volume requirement
201

While excess BBD production could also displace conventional renewable fuel under the total renewable standard, as long
as the BBD applicable volume is significantly lower than the
advanced biofuel applicable volume our action in setting the BBD
applicable volume is not expected to displace conventional renewable fuel under the total renewable standard, but rather other
advanced biofuels. See Table V. C–1.

330a
for 2018 that we are establishing in this action is not
expected to impact the volume of BBD that is actually
produced and imported during the 2018-time period.
Thus we do not expect our final 2018 BBD volume
requirement to result in a difference in the factors
we are required to consider pursuant to CAA section
211(o)(2)(B)(ii)(I)–(VI). However, we note that our
approach of setting BBD volume requirement at a
higher level in 2018 (as we did in 2017), while still at
a volume level lower than the anticipated overall production and consumption of BBD in 2018, is consistent
with our evaluation of statutory factors in CAA sections 211(o)(2)(B)(ii) (I), (II) and (III), since we continue to believe that our decision on the BBD volume
requirement can have a positive impact on the future
development and marketing of other advanced biofuels and can also result in potential environmental and
energy security benefits, while still sending a supportive signal to potential BBD investors, consistent with
the objectives of the Act to encourage the continued
growth in production and use of renewable fuels, and
in particular, advanced renewable fuels.
Even though we are finalizing only the 2018 BBD
volume requirement at this time and not the 2018
advanced biofuel requirement, we believe that our
primary assessment with respect to the 2018 BBD volume requirement is appropriate, as is clear from the
fact that the reasoning and analysis would apply even
if we did not increase the 2018 advanced biofuel requirement above 2017 levels.202 Nevertheless, we anticipate

202

As explained in Section IV, in deriving the 2017 advanced
biofuel applicable volume requirement, we assumed that 2.4
billion gallons of BBD (3.72 billion RINs) would be used to satisfy
the 4.28 bill gal advanced biofuel requirement. Thus the man-

331a
that the 2018 advanced biofuel requirement will be set
to reflect reasonably attainable and appropriate volumes in the use of all advanced biofuels, similar to the
approach used in this rule, and that the advanced
biofuel volume standard will be larger in 2018 than in
2017.
As an additional supplementary assessment, we have
considered the potential impacts of modifying the 2018
BBD volume requirement from the level of 2.1 billion
gallons based on the assumption that in guaranteeing
the BBD volume at any given level there could be greater
use of BBD and a corresponding decrease in the use of
other types of advanced biofuels. However, setting a
BBD volume requirement higher or lower than 2.1 billion gallons in 2018 would only be expected to impact
BBD volumes on the margin, protecting to a lesser or
greater degree BBD from being outcompeted by other
advanced biofuels. In this supplementary assessment
we have considered all of the statutory factors found
in CAA section 211(2)(B)(ii), and as described in a
memorandum to the docket,203 our assessment does
not appear, based on available information, to provide
a reasonable basis for setting a higher or lower volume
requirement for BBD than 2.1 billion gallons for 2018.
Overall and as described in our final memoran
dum to the docket, we have determined that both the
primary assessment and the supplemental assessment of the statutory factors specified in CAA section
211(o)(2)(B)(ii)(I)–(VI) for the year 2018 does not prodated 2018 BBD applicable volume is less than we anticipate will
actually be used in 2017.
203

“Memorandum to docket: Final Statutory Factors Assessment for the 2018 Biomass-Based Diesel (BBD) Applicable Volumes.”

332a
vide significant support for setting the BBD standard
at a level higher or lower than 2.1 billion gallons in
2018.
The EPA received numerous comments pertaining
to the consideration of the statutory factors for the 2018
BBD volume requirement. Many of these comments
were made previously in response to last year’s proposal to set the 2017 BBD volume requirement at 2.0
billion as part of the renewable fuels program’s annual
rulemaking.204 Below we reiterate our responses to a
number of key issues which continue to be raised by
the National Biodiesel Board (NBB). Additional comments and EPA responses can be found in the Response
to Comment document that accompanies this final rule.
NBB restated its claim that we improperly based
our consideration of the statutory factors on a comparison of BBD to other advanced biofuels, rather than to
diesel fuel. They continued to suggest that setting the
BBD standard at a higher level than proposed would
actually result in BBD competing against diesel fuel,
and therefore, EPA should analyze the impacts of displacing diesel fuel with BBD in its statutory factors
analysis. We continue to disagree. In setting the
advanced biofuel volume requirement, we have assumed
reasonably attainable and appropriate volumes in
BBD and other advanced biofuels. After determining
that it is in the interest of the program, as described
in Section VI.B.2 to set the BBD volume requirement at a level below anticipated BBD production and
imports, so as to provide continued incentives for
research and development of alternative advanced bio204

Renewable Fuel Standard Program: Standards for 2014,
2015, and 2016 and Biomass-Based Diesel Volume for 2017; Final
Rule. 80 FR 77420.

333a
fuels, it is apparent that excess BBD above the BBD
volume requirement will compete with other advanced
biofuels, rather than diesel.205 The only way for EPA’s
action on the BBD volume requirement to result in a
direct displacement of petroleum-based fuels, rather
than other advanced biofuels, would be if the BBD volume requirement were set larger than the total renewable fuel requirement. However, since BBD is a type
of advanced biofuel, and advanced biofuel is a type of
renewable fuel, the BBD volume requirement could
never be larger than the advanced requirement and
the advanced biofuel requirement could never be larger
than the total renewable fuel requirement.
NBB also continues to assert that our analysis of the
desirability of setting the BBD volume requirement in
a manner that would promote the development and use
of a diverse array of advanced biofuels is prohibited by
statute. We disagree with these comments and continue to believe that the statutory volumes of renewable fuel established by Congress in CAA section
211(o)(2)(B) provide an opportunity for other advanced
205

The possibility for competition between BBD and other types
of advanced biofuels is not precluded by our setting the advanced
biofuel requirement at a level that reflects reasonably attainable
volumes of all advanced biofuel types, or by our setting the total
renewable fuel volume requirement at a level that also reflects
the reasonably achievable volume of all fuel types. Any of our
estimates related to a particular fuel type could prove to be either
an over or under estimate. We are confident that the sum of all
individual estimates used in setting the applicable volumes for
2017 as well as the 2018 BBD volume requirement at an appropriate level are reasonable, and more accurate than our individual estimates for any particular fuel type. It is at the margin
where our estimates regarding production and import of individual fuel types may be in error that competition between qualifying fuels can take place.

334a
biofuels (advanced biofuels that do not qualify as
cellulosic biofuel or BBD) to be used to satisfy the
advanced biofuel standard after the cellulosic biofuel
and BBD standards have been met. Ensuring that a
diversity of renewable biofuels are produced is consistent with CAA section 211 (o)(2)(A)(i), which requires
that the EPA “ensure that transportation fuel sold, or
introduced into commerce in the United States . . .
contains at least the applicable volume of renewable
fuel, advanced biofuels, cellulosic biofuel, and biomassbased diesel . . .”. Because the BBD standard is nested
within the advanced biofuel and total renewable fuel
standards, when an obligated party retires a BBD RIN
(D4) to satisfy their obligation, this RIN also counts
towards meeting their advanced biofuel and total
renewable fuel obligations. It also means that obligated parties may use BBD RINs in excess of their
BBD obligations to satisfy their advanced biofuel and
total renewable fuel obligations. To the extent that obligated parties are required to achieve compliance with
the overall advanced biofuel standard using higher
volumes of BBD D4 RINs, they forgo the use of other
biofuels considered advanced biofuels to meet the
advanced biofuel requirement. Therefore, the higher
the BBD volume standard is, the lower the opportunity
for other non-BBD advanced biofuels to compete for
market share within the context of the advanced biofuel standard. When viewed in a long-term perspective, BBD can be seen as competing for research and
development dollars with other types of advanced biofuels for participation as advanced biofuels in the RFS
program.
Finally, NBB restated its argument that the EPA
previously found statutory factors supported greater
annual increases in BBD volume requirement for 2013
and the statutory factors analysis developed to justify

335a
the 2017 BBD and now the 2018 volume requirements
contradicts the analysis EPA put forward in 2013. We
disagree. As in 2013, we have determined that incremental increases in the 2018 BBD volume requirement are appropriate to provide continued support to
the BBD industry. We did this in 2013, acknowledging
the important role the industry thus far had played in
providing advanced biofuels to the marketplace, and
in furthering the GHG reduction objectives of the statute. We did not in 2013, and are not today, setting the
BBD volume requirement at the maximum potential
production volume of BBD.
VII. Percentage Standards for 2017
The renewable fuel standards are expressed as
volume percentages and are used by each obligated
party to determine their Renewable Volume Obligations (RVOs). Since there are four separate standards
under the RFS program, there are likewise four separate RVOs applicable to each obligated party. Each
standard applies to the sum of all non-renewable gasoline and diesel produced or imported. The percentage
standards are set so that if every obligated party meets
the percentages by acquiring and retiring an appropriate number of RINs, then the amount of renewable
fuel, cellulosic biofuel, biomass-based diesel (BBD),
and advanced biofuel used will meet the applicable
volume requirements on a nationwide basis.
Sections III through V provide our rationale and
basis for the volume requirements for 2017.206 The volumes used to determine the percentage standards are
shown in Table VII–1.

206

The 2017 volume requirement for BBD was established in
the 2014–2016 final rule.

336a
TABLE VII–1—VOLUMES FOR USE
IN SETTING THE 2017 APPLICABLE
PERCENTAGE STANDARDS
[Billion gallons]
Cellulosic biofuel ..............................
Biomass-based diesela ......................
Advanced biofuel ..............................
Renewable fuel .................................

0.311
2.00
4.28
19.28

For the purposes of converting these volumes into
percentage standards, we generally use two decimal
places to be consistent with the volume targets as
given in the statute, and similarly two decimal places
in the percentage standards. However, for cellulosic
biofuel we use three decimal places in both the volume
requirement and percentage standards to more precisely capture the smaller volume projections and the
unique methodology that in some cases results in estimates of only a few million gallons for a single producer.
A. Calculation of Percentage Standards
The formulas used to calculate the percentage standards applicable to producers and importers of gasoline
and diesel are provided in § 80.1405. The formulas rely
on estimates of the volumes of gasoline and diesel fuel,
for both highway and nonroad uses, which are projected to be used in the year in which the standards
will apply. The projected gasoline and diesel volumes
are provided by EIA, and include ethanol and biodiesel
used in transportation fuel. Since the percentage standards apply only to the non-renewable gasoline and diesel produced or imported, the volumes of ethanol and
a

Represents physical volume.

337a
biodiesel are subtracted out of the EIA projections of
gasoline and diesel.
Transportation fuels other than gasoline or diesel,
such as natural gas, propane, and electricity from fossil fuels, are not currently subject to the standards,
and volumes of such fuels are not used in calculating
the annual percentage standards. Since under the regulations the standards apply only to producers and
importers of gasoline and diesel, these are the transportation fuels used to set the percentage standards,
as well as to determine the annual volume obligations
of an individual gasoline or diesel producer or importer.
As specified in the March 26, 2010 RFS2 final rule,
the percentage standards are based on energyequivalent gallons of renewable fuel, with the cellulosic biofuel, advanced biofuel, and total renewable fuel
standards based on ethanol equivalence and the BBD
standard based on biodiesel equivalence. However, all
RIN generation is based on ethanol-equivalence. For
example, the RFS regulations provide that production
or import of a gallon of qualifying biodiesel will lead to
the generation of 1.5 RINs. The formula specified in
the regulations for calculation of the BBD percentage
standard is based on biodiesel-equivalence, and thus
assumes that all BBD used to satisfy the BBD standard is biodiesel and requires that the applicable volume requirement be multiplied by 1.5. However, BBD
often contains some renewable diesel, and a gallon of
renewable diesel typically generates 1.7 RINs.207 In addition, there is often some renewable diesel in the conventional renewable fuel pool. As a result, the actual
number of RINs generated by biodiesel and renewable
207

Although in some cases a gallon of renewable diesel generates either 1.5 or 1.6 RINs.

338a
diesel is used in the context of our assessing reasonably attainable volumes for purposes of deriving the
applicable volume requirements and associated percentage standards for advanced biofuel and total
renewable fuel, and likewise in obligated parties’ determination of compliance with any of the applicable standards. While there is a difference in the treatment of
biodiesel + renewable diesel in the context of determining the percentage standard for BBD versus determining the percentage standard for advanced biofuel
and total renewable fuel, it is not a significant one
given our approach to determining the BBD volume
requirement; o. Our intent in setting the BBD applicable volume is to provide an additional increment of
guaranteed volume for BBD, but as described in
Section VI.B, we do not expect the BBD standard to be
binding. That is, we expect that actual supply of BBD,
as well as supply of conventional biodiesel + renewable
diesel, will be driven by the advanced biofuel and total
renewable fuel standards.
B. Small Refineries and Small Refiners
In CAA section 211(o)(9), enacted as part of the
Energy Policy Act of 2005, and amended by the Energy
Independence and Security Act of 2007, Congress
provided a temporary exemption to small refineries208
through December 31, 2010. Congress provided that
small refineries could receive a temporary extension of
the exemption beyond 2010 based either on the results
of a required DOE study, or based on an EPA determination of “disproportionate economic hardship” on a
case-by-case basis in response to small refinery petitions. In reviewing petitions, EPA, in consultation with
208

A small refiner that meets the requirements of 40 CFR
80.1442 may also be eligible for an exemption.

339a
the Department of Energy, evaluates the impacts petitioning refineries would likely face in achieving compliance with the RFS requirements and how compliance would affect their ability to remain competitive
and profitable.
EPA has granted some exemptions pursuant to this
process in the past. However, at this time, no exemptions have been approved for 2017, and therefore we
have calculated the percentage standards for this year
without an adjustment for exempted volumes. Any
requests for exemptions for 2017 that are approved
after the final rule is released will not be reflected in
the percentage standards that apply to all gasoline
and diesel produced or imported in 2017. As stated in
the final rule establishing the 2011 standards, “EPA
believes the Act is best interpreted to require issuance
of a single annual standard in November that is applicable in the following calendar year, thereby providing
advance notice and certainty to obligated parties regarding their regulatory requirements. Periodic revisions
to the standards to reflect waivers issued to small
refineries or refiners would be inconsistent with the
statutory text, and would introduce an undesirable
level of uncertainty for obligated parties.”209
C. Final Standards
The formulas in § 80.1405 for the calculation of the
percentage standards require the specification of a
total of 14 variables covering factors such as the renewable fuel volume requirements, projected gasoline and
diesel demand for all states and territories where the
RFS program applies, renewable fuels projected by
EIA to be included in the gasoline and diesel demand,
and exemptions for small refineries. The values of all
209

See 75 FR 76804 (December 9, 2010).

340a
the variables used for this final rule are shown in
Table VII.C–1.210
TABLE VII.C–1—VALUES FOR TERMS IN
CALCULATION OF THE 2017 STANDARDS211
[Billion gallons]

Projected volumes of gasoline and diesel, and the
renewable fuels contained within them, were provided
by EIA and are consistent with the October, 2016 version of EIA’s Short-Term Energy Outlook (STEO).212
These projections reflect EIA’s judgment of future
demand volumes in 2017, accounting for the low oil
price environment in 2016.
210

To determine the 49-state values for gasoline and diesel,
the amounts of these fuels used in Alaska is subtracted from the
totals provided by DOE. The Alaska fractions are determined
from the June 29, 2016 EIA State Energy Data System (SEDS),
Energy Consumption Estimates.
211

See “Calculation of final % standards for 2017” in docket EPA–
HQ–OAR–2016–0004.
212

“EIA projections of transportation fuel for 2017,” docket
EPA–HQ–OAR–2016–0004.

341a
Using the volumes shown in Table VII.C–1, we have
calculated the percentage standards for 2017 as shown
in Table VII.C–2.
TABLE VII.C–2—FINAL PERCENTAGE
STANDARDS FOR 2017
Cellulosic biofuel ..................................
Biomass-based diesel ...........................
Advanced biofuel ..................................
Renewable fuel .....................................

0.173
1.67
2.38
10.70

VIII. Assessment of Aggregate Compliance
A. Assessment of the Domestic Aggregate Compliance Approach
The RFS2 regulations contain a provision for renewable fuel producers who use planted crops and crop
residue from U.S. agricultural land that relieves them
of the individual recordkeeping and reporting requirements concerning the specific land from which their
feedstocks were harvested. To enable this approach,
EPA established a baseline number of acres for U.S.
agricultural land in 2007 (the year of EISA enactment)
and determined that as long as this baseline number
of acres was not exceeded, it was unlikely that new
land outside of the 2007 baseline would be devoted to
crop production based on historical trends and economic considerations. We therefore provided that
renewable fuel producers using planted crops or crop
residue from the U.S. as feedstock in renewable fuel
production need not comply with the individual recordkeeping and reporting requirements related to documenting that their feedstocks are renewable biomass,
unless EPA determines through one of its annual evaluations that the 2007 baseline acreage of 402 million
acres agricultural land has been exceeded.

342a
In the final RFS2 regulations, EPA committed to
make an annual finding concerning whether the 2007
baseline amount of U.S. agricultural land has been
exceeded in a given year. If the baseline is found to
have been exceeded, then producers using U.S. planted
crops and crop residue as feedstocks for renewable fuel
production would be required to comply with individual
recordkeeping and reporting requirements to verify
that their feedstocks are renewable biomass.
The Aggregate Compliance methodology provided
for the exclusion of acreage enrolled in the Grassland
Reserve Program (GRP) and the Wetlands Reserve
Program (WRP) from the estimated total U.S. agricultural land. However, the 2014 Farm Bill terminated
the GRP and WRP as of 2013 and USDA established the
Agriculture Conservation Easement Program (ACEP)
with wetlands and land easement components. The
ACEP provides financial and technical assistance to
help conserve agricultural lands and wetlands and their
related benefits. Under the Agricultural Land
Easements (ACEP–ALE) component, USDA helps
Indian tribes, state and local governments and nongovernmental organizations protect working agricultural lands and limit non-agricultural uses of the land.
Under the Wetlands Reserve Easements (ACEP–
WRE) component, USDA helps to restore, protect and
enhance enrolled wetlands. The WRP was a voluntary
program that offered landowners the opportunity to
protect, restore, and enhance wetlands on their property. The GRP was a voluntary conservation program
the emphasized support for working grazing operations, enhancement of plant and animal biodiversity,
and protection of grassland under threat of conversion
to other uses.

343a
USDA and EPA concur that the ACEP–WRE and
ACEP–ALE represent a continuation in basic objectives and goals of the original WRP and GRP. Therefore, it was assumed in this rulemaking that acreage
enrolled in the easement programs would represent a
reasonable proxy of WRP and GRP acreage and was
excluded when estimating total U.S. agricultural land.
Based on data provided by the USDA Farm Service
Agency (FSA) and Natural Resources Conservation
Service (NRCS), we have estimated that U.S. agricultural land reached approximately 380 million acres in
2016, and thus did not exceed the 2007 baseline
acreage. This acreage estimate is based on the same
methodology used to set the 2007 baseline acreage for
U.S. agricultural land in the RFS2 final rulemaking,
with the GRP and WRP substitution as noted above.
Specifically, we started with FSA crop history data for
2016, from which we derived a total estimated acreage
of 380,429,574 acres. We then subtracted the ACEP–
ALE and ACEP–WRE enrolled areas by the end of
Fiscal Year 2016, 313,284 acres, to yield an estimate
of approximately 380 million acres of U.S. agricultural
land in 2016. Note that these programs were still in
place in 2016. The USDA data used to make this derivation can be found in the docket to this rule.213
B. Assessment of the Canadian Aggregate Compliance Approach
213

For the first time since 2013, USDA provided EPA with
data on legacy acreage still covered by the discontinued GRP and
WRP. Given this new data, EPA also estimated the total U.S.
agricultural land taking the GRP and WRP acreage into account.
In 2016, combined land under GRP and WRP totaled 2,966,122
acres. Factoring in the GRP, WRP, ACEP–WRE, and ACEP–ALE
data yields an estimate of 377,150,168 acres or approximately
377 million total acres of U.S. agricultural land in 2016.

344a
On March 15, 2011, EPA issued a notice of receipt of
and solicited public comment on a petition for EPA to
authorize the use of an aggregate approach for compliance with the Renewable Fuel Standard renewable
biomass requirements, submitted by the Government
of Canada. The petition requested that EPA determine
that an aggregate compliance approach will provide
reasonable assurance that planted crops and crop
residue from Canada meet the definition of renewable
biomass. After thorough consideration of the petition,
all supporting documentation provided and the public
comments received, EPA determined that the criteria
for approval of the petition were satisfied and approved
the use of an aggregate compliance approach to renewable biomass verification for planted crops and crop
residue grown in Canada.
The Government of Canada utilized several types of
land use data to demonstrate that the land included in
their 124 million acre baseline is cropland, pastureland
or land equivalent to U.S. Conservation Reserve
Program land that was cleared or cultivated prior to
December 19, 2007, and was actively managed or
fallow and non-forested on that date (and is therefore
RFS2 qualifying land). The total agricultural land in
Canada in 2016 is estimated at 118.4 million acres.
This total agricultural land area includes 94.6 million
acres of cropland and summer fallow, 14.0 million acres
of pastureland and 9.8 million acres of agricultural
land under conservation practices. This acreage estimate is based on the same methodology used to set the
2007 baseline acreage for Canadian agricultural land
in the RFS2 response to petition. The trigger point for
further evaluation of the data for subsequent years,
provided by Canada, is 124 million acres. The data used
to make this calculation can be found in the docket to
this rule.

345a
IX. Public Participation
Many interested parties participated in the rulemaking process that culminates with this final rule.
This process provided opportunity for submitting written public comments following the proposal that we
published on May 31, 2016 (81 FR 34778), and we also
held a public hearing on June 9, 2016, at which many
parties provided both verbal and written testimony.
All comments received, both verbal and written, are
available in EPA docket EPA–HQ–OAR–2016–0004
and we considered these comments in developing the
final rule. Public comments and EPA responses are discussed throughout this preamble and in the accompanying RTC document, which is available in the docket
for this action.
X. Statutory and Executive Order Reviews
A Executive Order 12866: Regulatory Planning
and Review and Executive Order 13563:
Improving Regulation and Regulatory Review
This action is an economically significant regulatory
action that was submitted to the Office of Management
and Budget (OMB) for review. Any changes made in
response to OMB recommendations have been documented in the docket. The EPA prepared an analysis
of illustrative costs associated with this action. This
analysis is presented in Section V.D of this preamble.
B. Paperwork Reduction Act (PRA)
This action does not impose any new information
collection burden under the PRA. OMB has previously
approved the information collection activities contained
in the existing regulations and has assigned OMB
control numbers 2060–0637 and 2060–0640. The final
standards will not impose new or different reporting

346a
requirements on regulated parties than already exist
for the RFS program.
C. Regulatory Flexibility Act (RFA)
I certify that this action will not have a significant
economic impact on a substantial number of small
entities under the RFA. In making this determination,
the impact of concern is any significant adverse economic impact on small entities. An agency may certify
that a rule will not have a significant economic impact
on a substantial number of small entities if the rule
relieves regulatory burden, has no net burden, or otherwise has a positive economic effect on the small entities subject to the rule.
The small entities directly regulated by the RFS program are small refiners, which are defined at 13 CFR
121.201. We have evaluated the impacts of this final rule
on small entities from two perspectives: As if the 2017
standards were a standalone action or if they are a
part of the overall impacts of the RFS program as a
whole.
When evaluating the standards as if they were a
standalone action separate and apart from the original
rulemaking which established the RFS2 program, then
the standards could be viewed as increasing the volumes required of obligated parties between 2016 and
2017. To evaluate this rule from this perspective, EPA
has conducted a screening analysis214 to assess whether
it should make a finding that this action would not
have a significant economic impact on a substantial
number of small entities. Currently-available infor214

“Updated Screening Analysis for the Final Renewable Fuel
Standard Program Renewable Volume Obligations for 2017”, memorandum from Dallas Burkholder and Tia Sutton to EPA Air
Docket EPA–HQ–OAR–2016–0004.

347a
mation shows that the impact on small entities from
implementation of this rule would not be significant.
EPA has reviewed and assessed the available information, which suggests that obligated parties, including small entities, are generally able to recover the
cost of acquiring the RINs necessary for compliance
with the RFS standards through higher sales prices of
the petroleum products they sell than would be expected
in the absence of the RFS program.215, 216 This is true
whether they acquire RINs by purchasing renewable
fuels with attached RINs or purchase separated RINs.
Even if we were to assume that the cost of acquiring
RINs were not recovered by obligated parties, and we
used the maximum values of the illustrative costs discussed in Section V.D and the gasoline and diesel fuel
volume projections and wholesale prices from the
October 2016 version of EIA’s Short-Term Energy
Outlook, and current wholesale fuel prices, a cost-tosales ratio test shows that the costs to small entities of
the RFS standards are far less than 1% of the value of
their sales.
While the screening analysis described above supports a certification that this rule would not have a
significant economic impact on small refiners, we continue to believe that it is more appropriate to consider
215

For a further discussion of the ability of obligated parties
to recover the cost of RINs see “A Preliminary Assessment of
RIN Market Dynamics, RIN Prices, and Their Effects,” Dallas
Burkholder, Office of Transportation and Air Quality, US EPA.
May 14, 2015, EPA Air Docket EPA–HQ–OAR–2015–0111.
216

Knittel, Christopher R., Ben S. Meiselman, and James H.
Stock. “The Pass-Through of RIN Prices to Wholesale and Retail
Fuels under the Renewable Fuel Standard.” Working Paper
21343. NBER Working Paper Series. Available online http://
www.nber.org/papers/w21343.pdf.

348a
the standards as a part of ongoing implementation of
the overall RFS program. When considered this way,
the impacts of the RFS program as a whole on small
entities were addressed in the RFS2 final rule (75 FR
14670, March 26, 2010), which was the rule that implemented the entire program required by the Energy
Independence and Security Act of 2007 (EISA 2007).
As such, the Small Business Regulatory Enforcement
Fairness Act (SBREFA) panel process that took place
prior to the 2010 rule was also for the entire RFS program and looked at impacts on small refiners through
2022.
For the SBREFA process for the RFS2 final rule,
EPA conducted outreach, fact-finding, and analysis of
the potential impacts of the program on small refiners,
which are all described in the Final Regulatory Flexibility Analysis, located in the rulemaking docket (EPA–
HQ–OAR–2005–0161). This analysis looked at impacts
to all refiners, including small refiners, through the
year 2022 and found that the program would not have
a significant economic impact on a substantial number
of small entities, and that this impact was expected to
decrease over time, even as the standards increased.
For gasoline and/or diesel small refiners subject to the
standards, the analysis included a cost-to-sales ratio
test, a ratio of the estimated annualized compliance
costs to the value of sales per company. From this test,
it was estimated that all directly regulated small entities would have compliance costs that are less than one
percent of their sales over the life of the program (75
FR 14862).
We have determined that this final rule will not
impose any additional requirements on small entities
beyond those already analyzed, since the impacts of
this final rule are not greater or fundamentally differ-

349a
ent than those already considered in the analysis for
the RFS2 final rule assuming full implementation of
the RFS program. As shown above in Tables I–1 and
I.A–1 (and discussed further in Sections III, IV, and
V), this rule establishes the 2017 volume requirements
for cellulosic biofuel, advanced biofuel, and total renewable fuel at levels significantly below the statutory
volume targets. This exercise of EPA’s waiver authority reduces burdens on small entities, as compared to
the burdens that would be imposed under the volumes
specified in the Clean Air Act in the absence of waivers—
which are the volumes that we assessed in the screening analysis that we prepared for implementation of
the full program. Regarding the biomass-based diesel
standard, we are increasing the volume requirement
for 2018 over the statutory minimum value of 1 billion
gallons. However, this is a nested standard within the
advanced biofuel category, which we are significantly
reducing from the statutory volume targets. As discussed in Section VI, we are setting the 2018 biomassbased diesel volume requirement at a level below what
is anticipated will be produced and used to satisfy the
reduced advanced biofuel requirement. The net result
of the standards being established in this action is a
reduction in burden as compared to implementation of
the statutory volume targets, as was assumed in the
RFS2 final rule analysis.
While the rule will not have a significant economic
impact on a substantial number of small entities, there
are compliance flexibilities in the program that can help
to reduce impacts on small entities. These flexibilities
include being able to comply through RIN trading rather
than renewable fuel blending, 20% RIN rollover allowance (up to 20% of an obligated party’s RVO can be met
using previous-year RINs), and deficit carry-forward
(the ability to carry over a deficit from a given year

350a
into the following year, providing that the deficit is
satisfied together with the next year’s RVO). In the
RFS2 final rule, we discussed other potential small
entity flexibilities that had been suggested by the
SBREFA panel or through comments, but we did not
adopt them, in part because we had serious concerns
regarding our authority to do so.
Additionally, as we realize that there may be cases
in which a small entity experiences hardship beyond
the level of assistance afforded by the program flexibilities, the program provides hardship relief provisions for small entities (small refiners), as well as for
small refineries.217 As required by the statute, the RFS
regulations include a hardship relief provision (at 40
CFR 80.1441(e)(2)) that allows for a small refinery to
petition for an extension of its small refinery exemption at any time based on a showing that compliance
with the requirements of the RFS program would result
in the refinery experiencing a “disproportionate economic hardship.” EPA regulations provide similar relief
to small refiners that are not eligible for small refinery
relief. A small refiner may petition for a small refiner
exemption based on a similar showing that compliance
with the requirements of the RFS program would
result in the refiner experiencing a “disproportionate
economic hardship” (see 40 CFR 80.1442(h)). EPA
evaluates these petitions on a case-by-case basis and
may approve such petitions if it finds that a disproportionate economic hardship exists. In evaluating such
petitions, EPA consults with the U.S. Department of
Energy, and takes the findings of DOE’s 2011 Small
Refinery Study and other economic factors into
consideration. EPA successfully implemented these
217

See CAA section 211(o)(9)(B).

351a
provisions by evaluating petitions for exemption from
13 small refineries for the 2014 RFS standards.
Given that this final rule will not impose additional
requirements on small entities, would decrease burden via a reduction in required volumes as compared
to statutory volume targets, would not change the
compliance flexibilities currently offered to small
entities under the RFS program (including the small
refinery hardship provisions we continue to successfully implement), and available information shows
that the impact on small entities from implementation
of this rule would not be significant viewed either from
the perspective of it being a standalone action or a part
of the overall RFS program, we have therefore concluded that this action would have no net regulatory
burden for directly regulated small entities.
D. Unfunded Mandates Reform Act (UMRA)
This final action contains a federal mandate under
UMRA, 2 U.S.C. 1531–1538, that may result in expenditures of $100 million or more for state, local and tribal
governments, in the aggregate, or the private sector in
any one year. Accordingly, the EPA has prepared a
written statement required under section 202 of UMRA.
This statement is presented in Section V.D in the form
of illustrative cost estimates of the 2017 RFS standards. This action implements mandates specifically
and explicitly set forth in CAA section 211(o) and we
believe that this action represents the least costly,
most cost-effective approach to achieve the statutory
requirements of the rule.
This action is not subject to the requirements of section 203 of UMRA because it contains no regulatory
requirements that might significantly or uniquely affect
small governments.

352a
E. Executive Order 13132: Federalism
This action does not have federalism implications. It
will not have substantial direct effects on the states,
on the relationship between the national government
and the states, or on the distribution of power and
responsibilities among the various levels of government.
F. Executive Order 13175: Consultation and
Coordination With Indian Tribal Governments
This action does not have tribal implications as specified in Executive Order 13175. This final rule will be
implemented at the Federal level and affects transportation fuel refiners, blenders, marketers, distributors, importers, exporters, and renewable fuel producers and importers. Tribal governments would be affected
only to the extent they produce, purchase, and use
regulated fuels. Thus, Executive Order 13175 does not
apply to this action.
G. Executive Order 13045: Protection of Children From Environmental Health Risks and
Safety Risks
The EPA interprets Executive Order 13045 as
applying only to those regulatory actions that concern
environmental health or safety risks that the EPA has
reason to believe may disproportionately affect children,
per the definition of “covered regulatory action” in
section 2–202 of the Executive Order. This action is
not subject to Executive Order 13045 because it implements specific standards established by Congress in
statutes (CAA section 211(o)) and does not concern an
environmental health risk or safety risk.

353a
H. Executive Order 13211: Actions Concerning
Regulations That Significantly Affect Energy
Supply, Distribution, or Use
This action is not a “significant energy action” because
it is not likely to have a significant adverse effect on
the supply, distribution, or use of energy. This action
establishes the required renewable fuel content of the
transportation fuel supply for 2017, consistent with
the CAA and waiver authorities provided therein. The
RFS program and this rule are designed to achieve
positive effects on the nation’s transportation fuel supply, by increasing energy independence and lowering
lifecycle greenhouse gas emissions of transportation
fuel.
I. National Technology Transfer and Advancement Act (NTTAA)
This rulemaking does not involve technical standards.
J. Executive Order 12898: Federal Actions To
Address Environmental Justice in Minority
Populations, and Low-Income Populations
The EPA believes that this action does not have
disproportionately high and adverse human health or
environmental effects on minority populations, lowincome populations, and/or indigenous peoples, as specified in Executive Order 12898 (59 FR 7629, February
16, 1994). This final rule does not affect the level of
protection provided to human health or the environment by applicable air quality standards. This action
does not relax the control measures on sources regulated by the RFS regulations and therefore would not
cause emissions increases from these sources.
K. Congressional Review Act (CRA)

354a
This action is subject to the CRA, and the EPA will
submit a rule report to each House of the Congress and
to the Comptroller General of the United States. This
action is a “major rule” as defined by 5 U.S.C. 804(2).
XI. Statutory Authority
Statutory authority for this action comes from section 211 of the Clean Air Act, 42 U.S.C. 7545. Additional support for the procedural and compliance related
aspects of this final rule come from sections 114, 208,
and 301(a) of the Clean Air Act, 42 U.S.C. 7414, 7542,
and 7601(a).
List of Subjects in 40 CFR Part 80
Environmental protection, Administrative practice
and procedure, Air pollution control, Diesel fuel, Fuel
additives, Gasoline, Imports, Oil imports, Petroleum,
Renewable fuel.
Dated: November 23, 2016.
Gina McCarthy,
Administrator.
For the reasons set forth in the preamble, EPA amends
40 CFR part 80 as follows:
PART 80—REGULATION OF FUELS AND FUEL
ADDITIVES


1. The authority citation for part 80 continues to
read as follows:

Authority: 42 U.S.C. 7414, 7521, 7542, 7545, and
7601(a).
Subpart M—[Amended]


2. Section 80.1405 is amended by adding new paragraph (a)(8) to read as follows:

355a
§80.1405 What are the Renewable Fuel Standards?
(a) * * *
(8) Renewable Fuel Standards for 2017.
(i) The value of the cellulosic biofuel standard for
2017 shall be 0.173 percent.
(ii) The value of the biomass-based diesel standard
for 2017 shall be 1.67 percent.
(iii) The value of the advanced biofuel standard for
2017 shall be 2.38 percent.
(iv) The value of the renewable fuel standard for
2017 shall be 10.70 percent.
*

*

*

*

*

[FR Doc. 2016–28879 Filed 12–9–16; 8:45 am]
BILLING CODE 6560–50–P

356a
APPENDIX F
U.S. ENVIRONMENTAL
PROTECTION AGENCY
OFFICE OF TRANSPORTATION
AND AIR QUALITY
ASSESSMENT AND STANDARDS DIVISION
————
EPA-420-R-17-008
————
Denial of Petitions for Rulemaking to
Change the RFS Point of Obligation
————
November 2017
————
Executive Summary
The Environmental Protection Agency (EPA) has
received several petitions requesting that the EPA initiate a rulemaking process to reconsider or change 40
CFR 80.1406 identifying refiners and importers of
gasoline and diesel fuel as the entities responsible for
complying with the annual percentage standards
adopted under the Renewable Fuel Standard (RFS)
program. This “point of obligation” for the RFS program was established through a notice-and-comment
rulemaking in 2010 based on the statutory direction in
Section 211(o)(3)(B)(ii)(I) and (C) of the Clean Air Act
(CAA) to impose the renewable fuel obligation on “refineries, blenders and importers, as appropriate,” while
also “prevent[ing] the imposition of redundant
obligations.” This statutory provision also allows EPA

357a
to modify the point of obligation if the designated
parties are no longer appropriate. While evaluating
petitions on the RFS point of obligation, EPA also
evaluated whether the current obligated parties
remain the appropriate obligated parties under CAA
211(o)(3)(B)(ii)(I). EPA has concluded that it is appropriate to retain the current regulatory requirement
designating refiners and importers as the parties
responsible for compliance with RFS standards because
we again believe refiners and importers are the appropriate obligated parties.
In their initial petitions, the petitioners all asked to
have the point of obligation shifted from refiners and
importers, but they differed somewhat in their suggestions for alternatives. Some requested that the EPA
shift the point of obligation from refiners and importers to those parties that blend renewable fuel into
transportation fuel. Others suggested that it be shifted
to those parties that hold title to the gasoline or diesel
fuel immediately prior to the sale of these fuels at the
terminal (these parties are commonly called the “position holders”), or to “blenders and distributors.” All
petitioners argued, among other things, that shifting
the point of obligation to parties downstream of refiners and importers in the fuel distribution system
would align compliance responsibilities with the parties best positioned to make decisions on how much
renewable fuel is blended into the transportation fuel
supply in the United States. Some of the petitioners
further claimed that changing the point of obligation
would result in an increase in the production, distribution, and use of renewable fuels in the United States
and would reduce the cost of transportation fuel to consumers.

358a
On November 10, 2016, the EPA published a proposed denial of requests to initiate a rulemaking process to reconsider or change the regulations at 40 CFR
80.1406. See Proposed Denial of Petitions for Rulemaking to Change the RFS Point of Obligation, EPAHQ-OAR-2016-0544, hereinafter “proposed denial.” The
EPA solicited comment from interested stakeholders
on the proposed denial. Acting on the request of
stakeholders, the EPA extended the public comment
period to February 22, 2017. The EPA received over
18,000 comments submitted to the docket. The EPA’s
response to significant and relevant comments is
provided within this document. Notwithstanding the
different suggestions for shifting the point of obligation that were expressed in the initial petitions, in
their comments, all petitioners suggested that the
definition of “obligated party” in 40 CFR 80.1406
should be changed to put the obligation for compliance
with the RFS percentage standards on “position holders.”1
The Administrator is today denying all petitions
seeking initiation of a rulemaking process to change
the definition of obligated party under the RFS program. Our conclusion reflects consideration of the
alleged benefits that Petitioners and some commenters have suggested would ensue from a change in the
point of obligation, as well as negative impacts that
the EPA believes would result from such a change. In
our judgment, it does not appear that the record before
the Agency indicates that a change in the point of
obligation would result in net overall benefits to the
1

The Small Refiners Coalition and others, in comment, argued
in the alternative that the point of obligation could be placed on
blenders if the EPA lacks the authority to place the point of
obligation on “position holders.”

359a
program. In addition, however, we believe that changing the point of obligation at this time would be very
disruptive to the program, and likely the fuels marketplace as well, undermining long settled expectations
and the program stability and certainty that are critical to both short- and long-term success of the program. Thus, even if there were some marginal net
benefits to changing the point of obligation, we believe
that the disruptive effects of a change at this time
would still warrant denial.
As discussed in more detail below, the current structure of the RFS program is working to incentivize the
production, distribution, and use of renewable transportation fuels in the United States, while providing
obligated parties a number of options for acquiring the
RINs they need to comply with the RFS standards. We
do not believe that the petitioners have demonstrated
that changing the point of obligation would likely
result in increased use of renewable fuels. Based on
the information currently available to the EPA, changing the point of obligation would not address challenges associated with commercializing cellulosic biofuel technologies and the marketplace dynamics that
inhibit the increase of fuels containing higher levels of
ethanol, two of the primary issues that limit the rate
of growth in the supply of renewable fuels today. While
we do not anticipate a benefit from changing the point
of obligation, we do believe that such a change would
significantly increase the complexity of the RFS
program, which could negatively impact its effectiveness. EPA is also not persuaded, based on our analysis
of available data, including that supplied by petitioners and commenters, by arguments that merchant

360a
refiners are disadvantaged under the current regulations in comparison to integrated refiners in terms of
their costs of compliance, nor that other stakeholders
such as unobligated blenders are receiving windfall
profits. Finally, EPA does not interpret the Clean Air
Act as authorizing it to place the point of obligation on
distributors or on those “position holders” who are
neither refiners [nor*] blenders. For all of these
reasons, as further described below, EPA is denying
the petitions for reconsideration.
2

The point of obligation has been placed on refiners
and importers since inception of the RFS regulatory
program, in 2007. We also believe that in considering
whether to embark on a rulemaking exercise to change
the regulations, that it is appropriate for EPA to take
into consideration the consequences of enacting a
change at this time. In the short term we believe that
initiating a rulemaking process to reconsider or change
the point of obligation would work counter to the
program’s goals by causing significant upheaval and
uncertainty in the fuels marketplace. Such a dynamic
would likely cause delays to the investments necessary to expand the supply of renewable fuels in the
United States, and strand past investments, particularly investments in cellulosic biofuels, the category of
renewable fuels from which much the majority of the
statutory volume increases in future years is expected.
In addition, changing the point of obligation could
disrupt investments reasonably made by participants
2

Merchant refiners are those that market only a minority of
the fuels they refine (and in some cases do not market any fuel),
often selling the fuel to other parties at the refinery gate for
distribution and marketing.
*

The original version reads “not.”

361a
in the fuels industry in reliance on the regulatory
structure the agency established in 2007 and confirmed in 2010. It could also lead to restructuring of
the fuels marketplace as newly obligated parties alter
their business practices to avoid compliance obligations. For example, if the point of obligation were
changed to “position holders,” we believe that parties
who previously were “position holders” may choose
to instead purchase fuel under contract “below the
rack” instead of “above the rack” to avoid the overhead
compliance costs associated with being an obligated
party under the RFS program. We believe these changes would have no beneficial impact on the RFS program
or renewable fuel volumes and would decrease competition among parties that buy and sell transportation
fuels at the rack, potentially increasing fuel prices for
consumers and profit margins for refiners, especially
those not involved in fuel marketing.

362a
TABLE OF CONTENTS
Page
I. Introduction ........................................... 6 [365a]
A. Relevant Parties in the Fuel Market .. 9 [372a]
B. Overview of RFS Obligations and
Compliance ..................................... 10 [374a]
C. Statutory and Regulatory History of
the Point of Obligation ................... 11 [376a]
II. The Current Program Structure Appears
to Be Working to Achieve the Goals of the
RFS Program ....................................... 15 [384a]
A. RINs are Providing an Incentive for
Increasing Renewable Fuel Production, Distribution, and Use ............ 16 [386a]
B. Current RIN Prices Are Not Indicative of a Dysfunctional RIN Market .. 18 [391a]
C. The Current Regulations do not Appear to Disproportionately Impact Merchant Refiners or Provide Windfall
Profits for Unobligated Blenders .... 21 [398a]
D. The Current Regulations Do Not
Appear to Negatively Impact Small
Retailers .......................................... 31 [420a]
E. The EPA Has Not Seen Evidence That
High RIN Prices Have or Will Force
Refiners to Decrease Production or
Increase Exports ............................. 33 [423a]
F. A Relatively Small Number of Obligated Parties is Generally Advantageous ............................................... 35 [427a]
G. The Current Program Structure Does
Not Require Market Repositioning to
Achieve Compliance ....................... 37 [431a]

363a
H. The Current RIN Market Does Not
Appear to be Subject to Significant
Manipulation, and a Change in the
Point of Obligation will not Reduce
Fraud............................................... 38 [433a]
III. Changing the Point of Obligation in the
RFS Program Is Not Expected to Result
in the Increased Production, Distribution, and Use of Renewable Fuels ....... 41 [439a]
A. Some of the Proposed Changes to the
Point of Obligation Are Inconsistent
with the CAA .................................. 43 [444a]
B. Renewable Fuel Production, Distribution, and Use Does Not Appear to Be
Significantly Limited by Blending
Infrastructure ................................. 45 [448a]
C. Changing the Point of Obligation Is
Not Expected to Significantly Impact
the Retail Pricing of Fuel Blends with
High Renewable Content ............... 50 [458a]
D. Changing the Point of Obligation Is
Not Expected to Significantly Impact
the Availability to Consumers of Fuel
Blends with Higher Renewable Content .................................................. 56 [470a]
E. The RFS Program Continues to Create a Significant Incentive for Parties
to Invest in the Infrastructure Necessary to Enable Growth in the Use of
Renewable Fuels............................. 60 [481a]
F. Changing the Point of Obligation
Would Not Be Expected to Increase
Cellulosic Biofuel Production ......... 61 [483a]

364a
G. Changing the Point of Obligation
Would Not Be Expected to Increase
Energy Security .............................. 63 [487a]
IV. Changing the Point of Obligation Would
Significantly Increase the Complexity of
the RFS Program ................................. 68 [496a]
A. The Number of Obligated Parties
Would Increase if the Point of Obligation was shifted to “Position Holders”
or “Blenders” ................................... 69 [499a]
B. The Potential for Noncompliance May
Increase if the Point of Obligation is
Changed ......................................... 74 [509a]
C. The EPA Would Need to Establish
Transition Provisions ..................... 77 [515a]
D. Changing the Point of Obligation
Would Require Significant Changes
to EMTS and Other Electronic Systems ................................................. 78 [517a]
V. Changing the Point of Obligation Could
Cause Significant Market Disruption ... 79 [518a]
A. Market Participants Have Made Significant Decisions on the Basis of the
Existing Regulations ...................... 79 [519a]
B. If the Point of Obligation is Changed,
Parties Would Be Expected to Reposition Themselves to Avoid or Minimize
RFS Obligations ............................. 80 [520a]
VI. Other Comments .................................. 83 [526a]
VII. Conclusion ............................................ 84 [528a]

365a
I. INTRODUCTION
On March 26, 2010, the Environmental Protection
Agency (“EPA”) issued a final rule (the “RFS2 Rule”)3
establishing regulatory amendments to the renewable
fuel standards (“RFS”) program regulations to reflect
statutory amendments to Section 211(o) of the Clean
Air Act (“CAA” or “the Act”) enacted as part of the
Energy Independence and Security Act of 2007. These
amended regulations included 40 CFR 80.1406, imposing the obligation for compliance with the RFS annual
standards on refiners and importers of gasoline and
diesel fuel.4 These entities are referred to in the RFS
regulations as “obligated parties.” Beginning in 2014,
some obligated parties and other stakeholders have
questioned whether 40 CFR 80.1406 should be amended, and a number of them have filed formal petitions
for reconsideration or revision of the definition of “obligated party” in 40 CFR 80.1406, or petitions for rulemaking to amend the provision.5 Those parties filing
3

75 Fed. Reg. 14670.

4

In imposing the fundamental RFS compliance obligation on
refiners and importers, the 2010 rule simply continued the practice established under the original RFS program regulations
adopted in 2007. See 72 Fed. Reg. 23900 (adopting 40 CFR
80.1106). However, the 2010 rule broadened the number of regulatory parties somewhat to reflect the new EISA requirement
imposing blending requirements on diesel fuel, in addition to
gasoline, that is used as transportation fuel.
5

On January 27, 2014, Monroe Energy LCC (“Monroe”) filed
a “petition to revise” 40 CFR 80.1406 to change the RFS point of
obligation, and on January 28, 2016, Monroe filed a “petition for
reconsideration” of the regulation. On February 11, 2016, Alon
Refining Krotz Springs, Inc.; American Refining Group, Inc.;
Calumet Specialty Products Partners, L.P.; Lion Oil Company;
Ergon-West Virginia, Inc.; Hunt Refining Company; Placid Refining Company LLC; U.S. Oil & Refining Company (the “Small

366a
petitions for reconsideration also initiated legal challenges of the 2010 rule, alleging that new grounds
have arisen enabling them to do so notwithstanding
expiration of the 60-day time period generally provided under CAA 307(b) for challenges to CAA rules.6
These suits have been stayed pending final action by
the EPA on the administrative petitions for reconsideration.
Some petitioners7 that challenged the rule establishing RFS standards for 2014, 2015 and 2016, alleged
both that the EPA had a duty to annually reconsider
the appropriate obligated parties under the RFS program and that it was required to do so in response to
comments suggesting that it could potentially avoid or
minimize its exercise of the inadequate domestic supply
waiver authority if it did so. In a recent ruling in that
Refinery Owners Ad Hoc Coalition” or “Coalition”) filed a petition
for reconsideration of 40 CFR 80.1406. On February 12, 2016,
Valero Energy Corporation and its subsidiaries (“Valero”) filed a
“petition to reconsider and revise” the rule. On June 13, 2016,
Valero submitted a petition for rulemaking to change the
definition of “obligated party.” On August 4, 2016, the American
Fuel and Petrochemical Manufacturers (“AFPM”) filed a petition
for rulemaking to change the definition of “obligated party.” On
September 2, 2016, Holly Frontier also filed a petition for
rulemaking to change the definition of “obligated party.” These
parties are collectively referred to herein as “the Petitioners.”
6

See Monroe Energy LLC v. EPA, #14-1014. (D.C.Cir. 2014);
Monroe Energy LLC v. EPA, #16-1032. (D.C.Cir. 2016); Alon
Refining Krotz Springs, Inc. et al v. EPA. #16-1052. (D.C.Cir.
2016); Valero Energy Corperation v. EPA, #16-1055 (D.C.Cir.
2016).
7

Petitioners Valero Energy Corporation, Alon Refining Krotz
Spring, Inc., et al., Monroe Energy LLC, and American Fuel and
Petrochemical Manufacturers raised arguments related to the
RFS point of obligation in their challenges to EPA’s rule setting
the RFS percentage standards for 2014, 2015, and 2016.

367a
litigation, the United States Court of Appeals for the
District of Columbia Circuit declined to rule on the
matter, and instead indicated that the EPA could
address the matter either in the context of a remand
of the 2014-2016 rule ordered on other grounds, or in
response to the administrative petitions.8 As noted
above, the EPA is denying the petitions seeking a
change in the definition of “obligated parties.” The
EPA also is re-affirming that the existing regulation
applies in all years going forward unless and until it is
revised. The EPA does not agree with the petitioners
in the ACE case that the statute requires annual
reconsideration of the matter and, although the EPA
has the discretion under the statute to undertake such
annual reevaluations, the EPA declines to do so since
we believe the lack of certainty that would be associated with such an approach would undermine success
in the program.9,10
It appears that the petitions for reconsideration of
40 CFR 80.1406 do not meet the statutory criteria for

8

See Americans for Clean Energy v. Environmental Protection
Agency, 864 F.3d 691 (D.C. Cir. 2017) (“ACE”).
9

The EPA interprets the CAA to allow the designation or
redesignation of “appropriate” obligated parties to occur at any
time, as the phrase “as appropriate” is broad and confers significant discretion. While the statute specifies that the percentage
standards must be applicable to refineries, importers, or blenders
as appropriate, it does not say that EPA must annual reevaluate
the matter.
10

Nevertheless, the EPA could consider changes to the
definition of “obligated party” in the future, based on significant
new facts or analysis. Given the time pressure associated with its
annual standards rulemakings, EPA expects that any such
consideration would not occur in the context of those rulemakings.

368a
such petitions set forth in CAA 307(d)(7)(B).11 However, for purposes of this decision document, we will
treat all petitions suggesting a change in the RFS
point of obligation as petitions for a rulemaking to
accomplish the change(s) requested.12 This evaluation
provides a consolidated response to all petitions (however styled) and other requests we have received that
seek a change in the RFS point of obligation. For the
reasons stated herein, we are denying all requests to
initiate a rulemaking to change the current regulation.
In considering the petitions to change the point of
obligation in the RFS program, the EPA has reviewed
the large amount of information submitted by the petitioners and has met with those who requested meetings and other interested parties. The EPA has also
met, and heard from, other participants in the RFS
program, including other obligated parties, manufac11

Petitioners had an opportunity to submit comments on the
point of obligation in both the 2007 and 2010 rulemakings when
the current approach was adopted. The possible impact of this
decision on incentivizing growth in renewable fuel use, including
incentivizing growth after the clearly anticipated widespread use
of ethanol at E10 levels, could have been raised in comments on
those rules. Furthermore, to the extent the petitions are based on
grounds arising more than 60 days after promulgation of the rule,
such grounds are not a proper basis for a petition for reconsideration under CAA 307(d)(7)(B).
12

We take no position at this time on whether petitions
associated with judicial challenges to the RFS2 rule satisfy the
criterion in CAA 307(b)(1) that they be “based solely on grounds
arising after” the 60-day period following notice of promulgation
of CAA rules, or whether the petitions for review were filled
within 60 days after new grounds arose. We have considered the
substance of the administrative petitions filed with the Agency
whether or not the criteria specified in CAA 307(b)(1) for late
challenges to Agency rules are satisfied.

369a
turers of renewable fuel, and fuel retailers, who are
opposed to revising the regulations. The EPA received
over 18,000 comments submitted on its proposed denial,
and has reviewed and considered the information submitted. Many of these comments were part of mass
comment campaigns, and contained similar messages;
however, the EPA received approximately 350 unique
comments. See Docket EPA-HQ-OAR-2016-0544. Many
commenters presented similar arguments to those put
forth by petitioners in their initial requests for reconsideration or rulemaking. EPA also received many
comments supporting EPA’s proposed denial. Where
significant new arguments or information were presented in comments, the EPA has addressed those
within this document. EPA also received a number of
comments on the RFS point of obligation in response
to its proposed 2018 RFS requirements.13 EPA has
reviewed those comments, and where appropriate,
addressed them within this document.
Who should be designated an “obligated party”
under the RFS program is an issue that has generated
significant debate, especially in the last few years, and
one that raises complex questions about the appropriate structure of the RFS program. The various parties
have presented a wide range of different information
and analyses, and some have offered different interpretations of the same information and analyses. The
EPA’s primary consideration here is whether or not
the requested change(s) would improve the effectiveness of the program to achieve Congress’s goals, which
are to increase energy security and reduce emissions
of air pollutants by requiring that increasing volumes
of the nation’s transportation fuel be comprised of
13

See Docket EPA-HQ-OAR-2017-0091.

370a
renewable fuels. Each of the individual elements discussed in the analysis below, such as the number and
nature of the parties that would become obligated if
the EPA were to grant the petitioners’ requests, are
considered in light of how each of these elements are
expected to contribute towards or detract from the
overall effectiveness of the program. EPA also has considered the impact of the current regulatory structure,
and the proposed alternatives on the groups that would
be regulated under these options, with the objective of
determining whether the current or alternative options
may be more equitable or the burdens more facilely
borne.
CAA 211(o)(3)(B)(ii)(I) provides that the annual
renewable fuel obligations shall “be applicable to refineries, blenders, and importers, as appropriate.” The
use of the term “appropriate” in determining the obligated parties provides significant discretion conferred
upon EPA. See Michigan v. EPA, 135 S. Ct. 2699, 2707
(2015) (explaining that “‘appropriate’ is the classic
broad and all-encompassing term” and “leaves agencies with flexibility”). EPA has discretion not only in
determining when to modify the definition, but also
under what circumstances. After consideration of the
information currently before EPA, and as discussed in
this document, EPA continues to believe that the point
of obligation is appropriately placed on refiners and
importers of transportation fuel. As expressed in
Section II below, EPA believes the current designation
of obligated parties is working to achieve the goals of
the RFS program.
Additionally, EPA evaluated the impact of a possible
change to the definition of “obligated party” on consumers, including potential impacts on fuel prices. As
described in more detail below, changing the point of

371a
obligation as proposed by petitioners and other stakeholders would significantly increase the number of
obligated parties in the RFS program. Many of these
newly obligated parties would be smaller companies or
those that do not regularly conduct business in the
RIN market, who are likely to be unfamiliar with the
requirements of obligated parties under the RFS program. The administrative compliance burden of the
RFS obligations would likely be proportionally greater
for these smaller companies than current obligated
parties (relatively larger refiners and importers of gasoline and diesel) who typically employ engineers,
traders, accountants, attorneys, and auditors to demonstrate and verify compliance with the RFS and other
regulatory programs. It would also increase EPA’s
burden in administering and enforcing the RFS program while at the same time opening up new opportunities for additional types of fraudulent behavior in
a program that has already seen instances of fraud.
While petitioners generally claim that changing the
point of obligation would result in the increased production, distribution, and use of renewable fuels in the
United States, petitioners and commenters have failed
to provide data that confirms these claims. We continue to believe that changing the point of obligation
would at best result in a negligible increase in the
production, distribution, and use of renewable fuels in
the United States, and would more likely result in a
decrease in the production, distribution, and use of
these fuels. The EPA is also not persuaded, based on
the record before us, by arguments that, under the
current regulatory structure, merchant refiners are
disadvantaged compared to integrated refiners in
terms of their costs of compliance, nor that other
stakeholders are receiving windfall profits. The costs
of the RFS program are apportioned to all refiners and

372a
importers as a function of their production volume and
generally are passed on to consumers. Finally, we
believe that changing the point of obligation would do
nothing to incentivize the research, development, and
commercialization of cellulosic biofuel technologies
critical for the growth of the RFS program in future
years. Each of these issues is discussed in greater
detail below.
A. Relevant Parties in the Fuel Market
Gasoline and diesel fuel are produced at domestic
refineries or imported to the United States. There are
a wide variety of paths and associated business models
by which fuel reaches consumers. Refineries distribute
some of the fuel they produce by truck directly from
the refinery’s loading rack. Refineries generally distribute their remaining production from the “refinery
gate” through pipeline, barge, or rail, to distribution
terminals. This fuel may be sold by the refinery when
it leaves the “refinery gate” or at a location downstream from the refinery on its distribution path. All
transportation fuel produced in the United States
moves through the “rack.”14 The “rack” refers to the
truck loading facility at a distribution terminal or
refinery. Generally, wholesale purchasers, marketers
or distributors receive fuel at the refinery or terminal
rack and distribute that fuel to end users or retailers.15
14

For fuel imported into the United States, transportation fuel
can move through a rack, or is tracked through registration as an
“entrant.”
15

The term “fuel marketers” generally refers to parties that
sell fuel to distributors or end users at the rack. “Fuel wholesalers” refers to parties that buy fuel in bulk, generally above the
rack, and sell this fuel to retail station owners or end users, or
distribute the fuel to retail stations they own. Fuel distributers
refers to parties that transport fuel from the rack (either at

373a
These parties may purchase fuel upstream of the terminal rack (e.g., directly from the refinery) and handle
the logistics of fuel distribution themselves. They may
instead purchase fuel at product terminals (either
above or below the rack), relying on the refiner or other
entity to handle all of the logistics and blending
requirements, generally under contract. A “rack seller”
is a party who owns fuel immediately before “the rack.”
The Internal Revenue Service collects excise tax from
rack sellers. It defines rack sellers at the refinery rack
as “refiners” and rack sellers at the terminal rack as
“position holders.” For simplicity, we have elected in
this document to refer to all parties the IRS considers
to be refiners or position holders as “position holders.”
All subsequent references to “refiners” in this document are to parties that refine petroleum products,
whether or not they are rack sellers.
Some refiners are involved in fuel distribution, blending, and/or marketing as well as refining, and these
entities are referred to as “integrated refiners.” In contrast, “merchant refiners” are those that market a
minority of the fuels they refine (and in some cases, do
not market any fuel), often selling the fuel to other
parties at the refinery gate for distribution and marketing. Most refiners engage in both practices: market
a portion of their refined products, and sell fuel to
other parties to distribute and market. Choices on
which market segments to participate in and to what
degree continually evolve over time in the industry, as

terminals or refineries) to retail stations. Many different parties,
including refiners, can operate as marketers, wholesalers, and/or
distributers depending on market conditions, and the terms overlap considerably.

374a
profits among the various market segments likewise
vary considerably over time.
“Downstream blenders” refers to parties who blend
renewable fuel into gasoline or diesel fuel after the fuel
has left the refinery. Downstream blending may occur
at fuel terminals, bulk storage facilities, and at retail
stations; in addition, renewable fuel can be “splash
blended” into trucks. Blending of renewable fuel can
also occur at the refinery, and this is often referred to
as “upstream blending.” The term “blender” can also
be used to describe parties that combine non-renewable
blendstocks downstream of the petroleum refinery to
create finished gasoline.
B. Overview of RFS Obligations and Compliance
Each year the EPA calculates and establishes percentage standards for renewable fuel based on the
volume targets established in the CAA (which are
adjusted by the EPA as appropriate using its waiver
authorities), and projections from the Energy Information Administration (EIA) of gasoline and diesel
consumption for the coming year. To comply, obligated
parties can purchase and blend the requisite volumes
of renewable fuels into the petroleum derived transportation fuels they produce or import. However, to
allow the market to function more efficiently and avoid
market disruption, in implementing the statutorilyrequired credit program, and to assist obligated parties in meeting their individual renewable fuel volume
obligations (“RVOs”), the EPA established, through a
transparent public rulemaking process, a system for
the generation and use of Renewable Identification
Numbers (“RINs”). RINs are effectively credits that
are generated upon production of qualifying renewable fuel and ultimately used by obligated parties to
demonstrate compliance. Renewable fuel producers

375a
and importers generate and assign RINs to the renewable fuel they produce or import, and the RINs specify
by a “D-code” the renewable fuel category applicable to
the fuel, as determined by the feedstock used, fuel type
produced and GHG emissions of the fuel, among other
characteristics.16 The assigned RINs accompany the
fuel sold by renewable fuel producers and importers,
and can only be separated from the fuel by a subsequent owner of the fuel who is an obligated party or a
renewable fuel blender. Once separated, the RINs can
be freely traded as a separate commodity from the
renewable fuel. Obligated parties accumulate RINs
over the course of the year, either by buying renewable
fuel with assigned RINs that they separate and retain
for compliance, or by buying RINs that others have
separated on the open market.
The annual RVOs for a given obligated party are
calculated by multiplying the obligated party’s total
annual production and import of gasoline and diesel
fuel by the four annual percent standards.17 Each
16

There are 5 different D-Codes for RINs in the RFS program.
D3 RINs can be generated for cellulosic biofuel, which must be
produced from cellulosic biomass and achieve a GHG reduction of
at least 60%. D4 RINs can be generated for biomass-based diesel
(including both biodiesel and renewable diesel) and must achieve
a GHG reduction of at least 50%. D5 RINs can be generated for
advanced biofuels, which are any renewable fuel (other than ethanol derived from corn starch) that achieves a GHG reduction of
at least 50%. D6 RINs can be generated for conventional renewable fuels (primarily corn ethanol) that achieve a GHG reduction
of at least 20%, or for fuel within the established annual baseline
volume from grandfathered production facilities. D7 RINs can be
generated for cellulosic diesel, which is any fuel that meets the
requirements for both cellulosic biofuel and biomass-based diesel.
17

There are separate, but nested, standards for cellulosic biofuel, biomass-based diesel, advanced biofuel, and renewable fuel.

376a
obligated party must obtain sufficient RINs of each
category to demonstrate compliance with its individual RVOs for the four annual standards. Compliance
is accomplished on an annual average basis, through
a single annual compliance report to the EPA identifying the RINs acquired and retired for that year’s compliance. Thus, compliance under the RFS program
requires the obligated parties to understand how to
calculate their individual obligations based on the four
standards, and then to plan for their annual compliance demonstration through RIN acquisition, through
trading or through blending, over the course of the
year. There are also associated registration, reporting
and recordkeeping requirements.
C. Statutory and Regulatory History of the
Point of Obligation
On July 29, 2005, Congress passed the Energy
Policy Act of 2005 (“EPAct”), amending the Clean Air
Act to create a statutory obligation for the use of
renewable fuel in gasoline. The statute envisioned EPA
adoption of annual percentage standards designed to
increase renewable fuel use over time, and specified
that the obligation for compliance with those standards would fall on “refineries, blenders, and importers,
as appropriate.” PL 109-58 August 8, 2005 and CAA
211(o)(3)(B)(ii)(I).
On September 22, 2006, the EPA published a proposed rule to establish the regulatory framework to
implement the RFS program. The EPA proposed that
obligated parties responsible for compliance with the
annual percentage standards would be parties producing or importing gasoline: i.e., refiners and importers.
The EPA specified that those blenders who only added
renewable fuel to gasoline would not be obligated

377a
parties. The EPA noted that there were approximately 1,200 ethanol blenders, as compared to 100200 refiners and importers and stated that making
ethanol blenders obligated parties would “greatly
expand the number of regulated parties and increase
the complexity of the RFS program beyond that which
is necessary to carry out the renewable fuels mandate
under the Act.”19
18

The EPA received comments supportive of the EPA’s
proposed definition of obligated parties from the Society of Independent Gasoline Marketers of American
and the National Association of Convenience Stores
(SIGMA/NACS), ExxonMobil, Baker Commodities,
Griffin Industries, Methanol Institute (MI), and the
American Petroleum Institute (API). The EPA did not
receive any comments suggesting a different approach.20
On May 1, 2007, the EPA published a final rule establishing the regulatory RFS program. This rule, generally referred to as “RFS1”, finalized the proposed def18

71 Fed. Reg. 55552, 55573-4. Blenders who produce gasoline
through combining blendstocks are considered refiners under
EPA regulations and would therefore be obligated parties.
19
20

Ibid at 55573.

SIGMA/NACS commented that in the final rule the EPA
should clearly distinguish between “blenders” and “oxygenate
blenders” to avoid confusion or misinterpretation as to which parties have renewable volume obligations, and also urged the EPA
to clarify that a party blending biodiesel into diesel fuel would not
be considered a “blender” which has an RVO. In response to this
comment, EPA pointed to its regulations which clearly only
placed the obligation on refiners and importers that produce or
import gasoline, including the limited subset of blenders who
blend petroleum (i.e. non-renewable) blendstocks into finished
gasoline. Regulation of Fuel and Fuel Additives: Renewable Fuel
Standard Program Summary and Analysis of Comments.
EPA420-R-07-006, 2-13—2-14.

378a
inition of “obligated party” as refiners and importers
of gasoline.21 The program was expanded to apply to
diesel fuel and otherwise significantly modified in
2007 through the Energy Independence and Security
Act (“EISA”), Notably, Congress did not alter the
provision specifying that compliance with the RFS
percentage standards would be the responsibility of
“refineries, blenders and importers, as appropriate.”
In enacting EISA, Congress stated that the goals of
the statute include moving the United States toward
“greater energy independence and security,” and
increasing “production of clean renewable fuels.”22 The
amended statute established greenhouse gas emission
reduction requirements for qualifying renewable fuels,
and increasing annual renewable fuel volume targets
to be achieved through application of annual percentage standards for four categories of renewable fuel by
the EPA that also take into account the expected consumption of gasoline and diesel fuel. As was the case
with EPAct, the amended statute required the EPA to
establish a regulatory program, and specified that the
program must include a number of program flexibilities, including a credit program for those who overcomply with the annual standards. The statute also
specifically required a temporary exemption for small
refineries (through 2010) that could be extended by
the EPA either based on the results of a Department
of Energy (DOE) study on impacts of the program on
small refineries to be completed by December 31, 2008,
or on a case-by-case basis upon demonstration by a
small refinery of disproportionate economic hardship.

21
22

72 Fed. Reg. 23900.

Energy Independence and Security Act of 2007, PL 110-140,
December 19, 2007.

379a
On May 26, 2009, the EPA proposed amendments to
the RFS program regulations to reflect the significant
statutory changes enacted as part of EISA.23 The EPA
proposed to retain the same approach to the RFS point
of obligation as had been used in RFS1, but to expand
it to include diesel producers and importers as obligated parties, consistent with EISA’s addition of diesel
fuel as an obligated fuel. The EPA also solicited comment on two possible alternatives: (1) making blenders
who add oxygenate to RBOB and CBOB obligated parties with respect to those fuels rather than the refiners
and importers of RBOB and CBOB,24 and (2) moving
the point of obligation for all gasoline and diesel to
parties who supply finished transportation fuels to
retail outlets or wholesale purchaser-consumer facilities. In raising these issues for public comment, the
EPA noted that the approach adopted under RFS1 was
based on an expectation that there would be an excess
of RINs at low cost, and that they would be freely traded between parties needing them such that obligated
parties would have ample opportunity to acquire
them. The EPA also explained that in adopting the
approach under RFS1, the EPA had found that the
designation of ethanol blenders as obligated parties
would have greatly expanded the number of regulated
parties and increased the complexity of the program
beyond that which was necessary to carry out the fuels
mandate required by the program. The EPA questioned whether, with the expanded mandates required
23
24

74 Fed. Reg. 24904.

Conventional blendstock for oxygenate blending (CBOB)
and reformulated blendstock for oxygenate blending (RBOB) are
produced by refineries and can be blended with 10% ethanol to
produced finished conventional and reformulated gasoline respectively.

380a
under EISA, parties with excess RINs would tend to
retain them for future compliance rather than sell
them freely, and also hypothesized that most or all
blenders would be regulated as RIN holders under the
new program and questioned whether also making
them responsible for compliance with the percentage
standards could involve only a small additional
burden. The EPA indicated that under the expanded
program, there might be disparities in the ability of
various obligated parties to acquire RINs. As a result
of these considerations, and in light of the more complicated obligations required under RFS2, although
proposing to retain the definition of obligated party
(refiners and importers) from RFS1, the EPA also solicited comment on whether a change in that definition
might be appropriate, and would more evenly align a
party’s access to RINs with that party’s obligations
under the RFS2 program.25
On March 26, 2010, the EPA issued a final rule
establishing the amended RFS program structure
reflecting the EISA amendments.26 The EPA summarized the comments it had received on the point of
obligation issue, noting that some refiners favored a
change from the proposed approach of retaining the
obligation on refiners and importers, while others did
not. In contrast to the RFS1 proposal, EPA received
many differing comments from interested stakeholders on this issue. Several parties suggested that blenders or other downstream parties should become
obligated parties because they control blending and
that without such a change refiners and importers
would find it difficult to acquire RINs. Still others sug25

74 Fed. Reg. 24904, 24963.

26

75 Fed. Reg. 14670.

381a
gested that the obligation should be placed on parties
who supply finished transportation fuels. Downstream
blenders and other downstream parties, as well as
renewable fuel producers and some members of the
petroleum industry, generally opposed a change, citing
the burden such a change would pose to small businesses, and the added unnecessary complexity it would
add to the RFS program. The EPA concluded that the
concerns expressed in the NPRM and in comments suggesting a change in the definition of obligated party,
did not, on balance, warrant a change, stating:
We continue to believe that the market will
provide opportunities for parties who are in
need of RINs to acquire them from parties
who have excess. Refiners who market considerably less gasoline or diesel than they
produce can establish contracts with splash
blenders to purchase RINs. Such refiners can
also purchase ethanol from producers directly,
separate the RINs and then sell the ethanol
without RINs to blenders. Since the RFS program is based upon ownership of RINs rather
than custody of volume, refiners need never
take custody of the ethanol in order to separate RINs from volumes that they own. Moreover, a change in the designation of obligated
parties would result in a significant change in
the number of obligated parties and the movement of RINs, changes that could disrupt the
operation of the RFS program during the transition from RFS1 to RFS2.27
Nevertheless, because concerns over the liquidity of
the RIN market still existed at the time, the EPA also
27

75 Fed. Reg. 14670

382a
stated that “[w]e will continue to evaluate the functionality of the RIN market [and] [s]hould we determine that the RIN market is not operating as
intended, driving up prices for obligated parties and
fuel prices for consumers, we will consider revisiting
this provision in future regulatory efforts.”28
The EPA promulgated 40 CFR 80.1406 stating that
“[a]n obligated party is any refiner that produces gasoline or diesel fuel within the 48 contiguous states or
Hawaii, or any importer that imports gasoline or diesel fuel into the 48 contiguous states or Hawaii during
a compliance period.”
As mentioned above, in requesting that the EPA
reconsider the point of obligation for the RFS program,
petitioners claim that the justifications given by the
EPA in the final 2007 and 2010 rules that placed the
point of obligation on the refiners and importers of
gasoline and diesel are no longer valid. After providing
notice and opportunity for comment, and after careful
review and consideration of the comments received, we
disagree that a change to the RFS point of obligation
is warranted, for the reasons described below.29
In establishing the RFS program, Congress put in
place a policy to effect a substantial transformation in
28
29

Ibid.

Valero, in comment, suggested that EPA set an improper
burden for petitioners in evaluating the petitions. They stated
that they provided sufficient robust evidence to justify a change
in the point of obligation. Valero specifically cited to work completed by NERA, SMU, Ron Minsk, Doug Parker, Commander
Kirk Lippold, Charles River Associates, and Joe Jobe. EPA has
evaluated these analyses and has concluded that they do not provide sufficient justification for a change in the point of obligation.
An analysis of each of these reports is presented below in the
following sections: II.B., II.C., II.E., II.H., III.B, III.C, III. D, III.G.

383a
the fuels market; stakeholders on all sides have
strongly held views on whether and how that transformation should occur. However, nearly all stakeholders
have communicated to the EPA about the desire for
greater certainty and stability in the RFS program. As
discussed further below, the EPA believes that a
change in the point of obligation would be a substantial disruption that has the potential to undermine
the success of the RFS program simply as a result of
increasing instability and uncertainty in programmatic obligations.
Several commenters referenced the statutory
directive that the EPA “ensure that transportation
fuel . . . contains at least the applicable volume” of
renewable fuel as evidence that EPA should modify
the obligation if it is “hindering growth.” As discussed
below in Section II., Petitioners only provided theoretical arguments that when evaluated provide no firm
basis to conclude that a change in the point of obligation would lead to increased volumes of renewable
fuel. In contrast, we continue to believe that the disruption to the program by changing the point of
obligation would actually reduce renewable fuel volumes and that long term positive impacts, if any,
would be negligible. This belief is supported in part by
the fact that the shortfall at this point is exclusively in
cellulosic biofuels, and a change to the point of obligation is unlikely to impact cellulosic biofuel production.
For this reason, and as further discussed below, we do
not believe that a change in the point of obligation
would have the positive effect suggested by Commenters, and we do not believe that the current point of
obligation is “hindering growth.”
The CAA dictates that the point of obligation should
be placed on refineries, importers, or blenders as

384a
appropriate. EPA has considered the petitions and
comments submitted and finds, for the reasons stated
herein, that refiners and importers remain the appropriate parties.
II. The Current Program Structure Appears to Be
Working to Achieve the Goals of the RFS
Program
Petitioners and some commenters discuss several
perceived shortcomings of the RFS program. The petitioners generally attribute these shortcomings, in
whole or in part, to the EPA’s decision to place the
point of obligation on the refiners and importers of
gasoline and diesel fuel, rather than parties downstream of the refiners and importers. These claimed
shortcomings include, among others, the failure of the
RFS program to achieve the statutory volumes of
renewable fuel (requiring the use of EPA’s waiver
authorities) and higher than anticipated RIN prices
leading to higher fuel prices for consumers, negative
impacts on merchant refiners, and windfall profits for
unobligated blenders of renewable fuel. The petitioners conclude that the RIN market, and by extension
the RFS program, is not operating as intended, and
therefore the EPA should re-visit the point of obligation in the RFS program.
After reviewing the information submitted by the
petitioners and commenters, along with additional
information gathered by the EPA, we disagree with a
number of the assertions and arguments put forward
by the petitioners, and do not agree with their policy
arguments that changing the point of obligation would
enhance the effectiveness of the RFS program to
achieve Congress’s goals. Evidence suggests that
despite the necessary use of EPA’s waiver authorities
in recent years, the RIN market, and the RFS program

385a
as a whole, are generally working to increase supplies
of renewable fuel, albeit at a pace slower than
Congress envisioned, and that a change in the point of
obligation is not likely to enhance the achievement of
the program’s goals. The RFS program is providing a
significant incentive for the continued growth in the
production, distribution, and use of renewable fuels in
the transportation fuel market in the United States,
and changing the point of obligation would not enhance
that incentive. With the exception of cellulosic biofuels, renewable fuel production and use in the United
States have increased significantly, and are projected
to meet or exceed the statutory volumes for noncellulosic biofuels in 2017. RIN prices themselves have
not resulted in appreciably higher transportation fuel
prices for consumers or disproportionate harm for
merchant refiners.30 Finally, the record does not support claims that merchant refiners have resorted to
the extreme measures suggested by the petitioners,
such as decreasing fuel production or exporting the
fuel they produce,31 in an effort to minimize their RFS
30

While RIN prices are expected to impact the price of fuels
with relatively greater or lesser renewable content (increasing
the price of fuels with low renewable content such as E0 or B0
and decreasing the price of fuels with high renewable content
such as E85 or B20), on balance they are not expected to increase
the total cost of fuel to consumers.
31

While gasoline and diesel exports have increased in recent
years we believe that these increases are attributable to favorable
crude oil and natural gas prices in the United States relative to
the rest of the world, rather than an effort to avoid RIN costs. To
date EPA has not been provided with evidence that demonstrates
that merchant refiners favorably situated to export fuel from the
U.S. have increased exports as a result of any burden associated
with the RFS program. We note that despite these higher export
volumes, the supply of gasoline and diesel to the United States
has not changed (see Section II.D below).

386a
obligations. RINs are currently available to meet
compliance needs, and we see no reason to indicate
that this dynamic will change in the future.32
A. RINs are Providing an Incentive for Increasing Renewable Fuel Production, Distribution, and Use
Since the adoption of the current RFS regulations in
2010, the RFS program has provided a significant
incentive for growth in the production, distribution,
and use of renewable transportation fuels in the
United States. While some commenters cited EPA’s
use of the cellulosic and inadequate domestic supply
waiver authorities to reduce the required volumes of
renewable fuel in 2014-2016, as well as our May 31,
2016 proposal to use similar authorities with respect
to establishing the renewable fuel standards for 2017,
as evidence that the RFS program is not working
effectively to achieve its stated goals, we believe that
the RFS program has been generally successful at
achieving these goals. First, EPA did not rely on the
general waiver authority under a finding of inadequate domestic supply in the final 2017 rule, meaning
that all reductions in the final rule use only the
cellulosic waiver authority in 211(o)(7)(D) and are
attributable to a shortfall in cellulosic biofuel produc-

32

Based on the compliance information submitted by obligated parties for the 2016 compliance year, EPA calculated that
there were over 2 billion 2016 RINs available for use in 2017
(see Carryover RIN Bank Calculations for 2018 NPRM). Such
carryover RINs are available to obligated parties for compliance
purposes, effectively supplementing the volume of RINs associated with renewable fuel production during the compliance year.

387a
tion. EPA has proposed a similar approach with
respect to the 2018 RFS standards.34 As discussed in
more detail in Section III below, we do not believe that
changing the point of obligation would result in an
increase in the production, distribution, or use of
renewable fuels beyond what is already happening
based on current market incentives. Based on data
collected through the EPA Moderated Transaction
System (EMTS),35 the production and import of renewable transportation fuel in the United States
has increased from approximately 7 billion ethanolequivalent gallons in 2010 to approximately 18.6
billion ethanol-equivalent gallons in 2016, the most
recent year for which complete data are available. This
represents an increase of over 165% in just six years.
Importantly, EPA found no basis for reductions to the
advanced and total renewable fuel requirements in
2017 beyond the reductions made under the cellulosic
waiver authority due to the projected shortfall in cellulosic biofuel production relative to the statutory volume for 2017. While there are many factors that have
contributed to the growth of renewable transportation
fuel production and imports in the United States in
recent years, including federal and state tax credits for
certain types of renewable fuels and federal grants
and loan guarantees for advanced biofuel production
33

33

Renewable Fuel Standard Program: Standards for 2017 and
Biomass-Based Diesel Volume for 2018. 81 FR 8946 (December
12, 2016).
34

Proposed Rule: Renewable Fuel Standard Program: Standards for 2018 and Biomass-Based Diesel Volume for 2019. 82 FR
34206 (July 21, 2017).
35

RIN generation data are available publicly at https://www.
epa.gov/fuels-registration-reporting-and-compliance-help/publicdata-renewable-fuel-standard.

388a
facilities, many stakeholders have regularly cited the
RFS program as a primary reason for making investments in both the production and distribution of renewable fuels.36
Despite these successes, in recent years the EPA has
exercised the statutory waiver authorities to reduce
the renewable fuel volumes from those specified in the
statute, largely due to the shortfall in cellulosic biofuel
production.37 While the EPA relied on the use of the
general waiver authority in 2014-2016, reductions in
the 2017 final rule and proposed 2018 rule were made
using only the cellulosic waiver authority. Reductions
using the cellulosic waiver authority in 2017, and
those proposed for 2018, can be attributed to lower
production of cellulosic biofuels than envisioned by
Congress resulting from challenges experienced with
the development and commercialization of cellulosic
biofuel production technologies. The projected production and use of non-cellulosic renewable transportation fuels in 2017 and again in 2018 meets or exceeds
the volume envisioned by Congress in EISA.38 Simi36

For example, see comments on the proposed RFS standards
for 2017 from the National Biodiesel Board, EPA-HQ-OAR-20160004-2904; and Dana Gustafson of Marquis Energy, EPA-HQOAR-2016-0004-3498; and a Letter from RaceTrac to Administrator McCarthy, received August 17, 2016.
37

For a full discussion of EPA’s waiver authorities see the preamble to the Final Rule establishing the 2014-2016 RFS standards (80 FR 77420, Dec. 14, 2015).
38

The statutory volumes for total renewable fuel, advanced
biofuel, and cellulosic biofuel in 2017 are 26.0, 11.0, and 7 billion
gallons respectively. Therefore, the implied statutory targets for
conventional biofuel (the difference between the required volumes of total renewable fuel and advanced biofuel) and noncellulosic advanced biofuels (the difference between the statutory
volumes of advanced biofuel and cellulosic biofuel) are 15.0 billion

389a
larly, required biodiesel volumes for 2017 are 100%
greater than the statutory prescribed minimum volume, and for 2018 the required volume is 110% greater
than the statutory minimum.39 The petitioners generally focused on the limitations to the distribution and
use of renewable fuels, claiming that changing the
point of obligation would address these limitations and
allow for greater volumes of renewable fuels to be
used. We note, however, that these issues were not the
basis for reducing the RFS standards in 2017, nor for
the proposed reductions in 2018. In the rule establishing the renewable volume obligations for 2017, and
again in our proposed rule for 2018, the EPA determined that the supply of conventional biofuel is sufficient to meet the implied statutory target of 15 billion
gallons. We also found that the supply of non-cellulosic
advanced biofuels was sufficient to meet or exceed the
implied statutory requirements for these fuels.40 As
discussed further below, the primary factor limiting
the production of cellulosic biofuels, including cellulosic ethanol, is the slower than expected development
and commercialization of technologies that can reliably and economically produce these fuels.
gallons and 4 billion gallons respectively. The volumes proposed
by EPA in our July 2017 proposed rule for 2018 for total renewable fuel, advanced biofuel, and cellulosic biofuel are 19.24, 4.24
and 0.238 billion gallons respectively, with an implied volume of
15.0 billion gallons of conventional biofuel and 4 billion gallons of
non-cellulosic advanced biofuel.
39

Compare CAA 211(o)(2)(B)(v) (1 billion gallon minimum)
with the required volumes of 2.0 and 2.1 billion gallons of biomassbased diesel in 2017 and proposed in 2018 respectively.
40

EPA calculates the implied statutory target for non-cellulosic
advanced biofuels by subtracting the statutory volume for cellulosic biofuel from the statutory volume for advanced biofuels for
each year.

390a
Some commenters suggested that changing the point
of obligation would provide benefits to the cellulosic
biofuels industry, whereas other comments agreed
with EPA’s proposed assessment that changing the
point of obligation would not positively impact the
cellulosic biofuel industry.
These comments are discussed in more detail in
Section III.F below. However, overall the EPA does not
find the arguments for moving the point of obligation
in an effort to support the cellulosic biofuel industry
convincing. The proposed cellulosic biofuel volume for
2018 is just 3.4% of the statutory volume (i.e., 238
million ethanol-equivalent gallons expected production compared to a statutory volume of 7 billion
gallons). Furthermore, the vast majority of the
cellulosic biofuel currently produced is biogas rather
than liquid cellulosic biofuels. The RFS program, operating under the existing regulations, has been demonstrably effective at making significant progress towards
achieving the statutory goals, and in some cases
exceeding these goals. The challenges to further
growth in the commercial scale production of cellulosic
biofuels and the infrastructure necessary to facilitate
additional biofuel use, particularly liquid cellulosic
biofuels, are not related to the point of obligation
under the RFS program, but rather are the result of
research, development, and production challenges
described in detail in the final rules establishing the
standards for 2014-2017 and in the proposed rule to
establish standards for 2018.41 Beyond 2018, 90% of
the growth in the statutory RFS volumes is intended
to be cellulosic biofuel, with the remainder of the
growth coming from non-cellulosic advanced biofuels.
41

80 FR 77420 (Dec., 14, 2015), 81 FR 89746 (December 12,
2016) and 82 FR 34206 (July 21, 2017).

391a
Because the statutory design of the RFS program
provides limited incentives to obligated parties to
invest in the development of cellulosic biofuels (since
the statute requires that the cellulosic biofuel volume
be set equal to the volume projected to be produced in
any given year if this volume is lower than the
statutory volume, and also allows the use of cellulosic
waiver credits rather than RINs in years with such a
reduction), it is unlikely that changing the point of
obligation as requested by the petitioners would result
in increased investment in cellulosic biofuels by the
obligated parties under their proposals. As discussed
further in Section III.F, and based on evidence
presented by petitioners, and the information before
the agency at this time, changing the point of
obligation of the RFS program is unlikely to address
the significant challenges associated with the
commercialization of cellulosic biofuel, as these
challenges are associated with the economic
production of cellulosic biofuels at commercial scale
rather than the distribution and use of cellulosic
biofuels, and would not be expected to benefit the
production, distribution, and use of non-cellulosic
transportation fuel in the United States, as detailed
further below.42
B. Current RIN Prices Are Not Indicative of a
Dysfunctional RIN Market
One of the issues cited by the petitioners as evidence
that the RIN market, and more generally the existing
RFS regulations, are not operating as intended is the
42

As discussed in more detail in Section III.C below, changing
the point of obligation is also not expected to significantly impact
the market dynamics currently limiting the distribution and use
of E85.

392a
current price of RINs, which some petitioners have
characterized as being indicative of a dysfunctional RIN
market.43 As discussed in a memorandum prepared in
support of the proposed RFS annual standards for
2014-2016, the EPA does not believe that the D6 RIN
prices44 observed in recent years are indicative of a
dysfunctional RIN market.45 Rather, there are structural reasons why D6 RIN prices increased. In 2013
the required volumes under EPA’s RFS standards
exceeded levels that could met via the relatively simple
blending of 10% ethanol into gasoline (in addition to
the blending of other biofuels such as biodiesel).
Increased demand for RINs (due to higher standards),
[43]

Some commenters suggested that when described in RFS1
and RFS2, RINs were a compliance mechanism only, and not described as a means to effect change in the marketplace. EPA notes
that while RINs were designed to provide flexibilities, as the costs
associated with increasing renewable fuels in the marketplace
has increased, it is logical for RIN prices to increase as well.
While at the time the RIN system was created, and the standards
were essentially non-binding, RINs played solely a compliance
role, but that naturally changed as the standards became more
difficult to meet.
44

Renewable fuel producers generate different types of RINs,
depending on a number of factors including the feedstocks and
production processes they use to produce renewable fuels, the
type of fuel they produce, and the GHG reductions for these fuels
relative to the gasoline and diesel fuel they replace. D6 RINs are
generated for conventional biofuel, the vast majority of which is
corn ethanol, with some additional D6 RINs being generated for
biodiesel from grandfathered facilities and other fuels. Prior to
2013, D6 RIN prices were generally less than 5 cents per RIN. D6
RIN prices rose significantly in 2013, and have remained higher
than the prices observed prior to 2013.
45

See “A Preliminary Assessment of RIN Market Dynamics, RIN
Prices, and Their Effect,” Dallas Burkholder, Office of Transportation and Air Quality, US EPA, May 14, 2015, and Letter
from API to EPA Administrator McCarthy, August 18, 2016.

393a
and the comparative difficulty of increasing the supply
of RINs through the blending of ethanol at levels
beyond 10% (or alternatively the purchase of more
expensive non-ethanol renewable fuels) drove D6 RIN
prices higher. Rather than reflecting a dysfunctional
RIN market, higher RIN prices simply reflect the
increasing cost of supplying additional renewable fuels
to the marketplace through higher level ethanol
blends and/or non-ethanol renewable fuels along with
the increasing demand for RINs that results from
higher RFS standards.46 In other words, higher RIN
prices reflect the greater degree of difficulty (and cost)
of getting ever-greater volumes of renewable fuel into
the transportation fuel pool – the explicit goal or the
RFS program.47
EPA does not believe that changing the point of
obligation would significantly impact the economics of
selling E85 or non-ethanol renewable fuels, nor would
it significantly impact the supply of available RINs
(for reasons discussed below). We therefore do not
believe that changing the point of obligation would be
likely to result in lower D6 RIN prices than would be
expected to occur with the existing point of obligation,
nor would such a change result in D6 RIN prices

46

Uncertainty, whether related to the level of the RFS standards for any given year or the RFS program as a whole, can further serve to increase the volatility of RIN prices in the market.
Some volatility may be inevitable, but increased volatility could
be one outcome of changing the point of obligation.
47

We note that RIN prices are influenced by a variety of factors, including underlying commodity market prices such as corn,
ethanol, oil, and gasoline prices. Another factor influencing their
price, as described, is the level of the standard and the ease with
which higher-level ethanol blends can be produced and used in
the market.

394a
comparable to those observed in 2012 or earlier. The
price of RINs will continue to vary in the marketplace
in response to a variety of factors.
Several commenters disputed the EPA’s statement
in the proposed denial of petitions seeking a change in
the RFS point of obligation that the observed RIN
prices were not indicative of a dysfunctional RIN
market. For example, one petitioner submitted a
paper alleging significant friction in the RIN market
related to the current point of obligation.48 This paper
cites several factors they claim are the sources of high
friction in the RIN market: high RIN transaction costs
(indicated by high bid-ask spreads), high RIN price
volatility (which may be a sign of an illiquid market),
poor availability of information on RIN prices,
differing levels of access to renewable fuels and/or
markets for renewable fuel blends among obligated
parties, and the potential for RIN market
manipulation.
After reviewing this paper, the EPA has concluded
that a number of the claims made by the authors are
not well supported by the data presented, while other
issues highlighted by the authors would be unlikely to
be significantly impacted by a change in the point of
obligation. The authors present no data to support
their argument that RIN transaction costs are high,
nor do they present a compelling argument as to why
changing the point of obligation would be expected to
lower transaction costs. Instead, the commenter
simply suggests that the historical volatility of RIN
prices is evidence of the high transaction costs and the

48

Charles River Associates RINs Market Frictions and the
RFS Point of Obligation, February 2017.

395a
relative thinness of the RIN markets.49 While the EPA
does not have access to data on RIN transaction costs
we have no reason to suspect that they are
unreasonably high. Data published by EPA on our
public website refutes the suggestion that there is
thinness in the RIN market. For the 2014 compliance
year, the most recent year for which RIN trade data
are publicly available, there were over 50 billion RIN
transactions.50 We believe that the price volatility
observed in the RIN market is the result of a number
of factors including volatility in underlying commodity
pricing, the statutory design of the RFS program,
which requires RVOs to be adjusted annually,
uncertainty related to legal challenges to the annual
volume obligations, and the challenges associated with
increasing the consumption of renewable fuel volumes
beyond the E10 blendwall. The EPA also disputes that
there is poor availability of information on RIN
pricing. The EPA is aware of at least two subscription
services (Oil Price Information Service and Argus) and
one free price report (Progressive Fuels Limited) that
report daily RIN price information, including the
bid/ask prices and in the case of Argus the RIN trade
volumes. Other issues raised in this report, such as the
relative inelasticity of the supply of RINs due to the
very small markets for E15 and E85, the contractual
relationship between refiners and branded stations,
and the lack of availability of RIN holding and trade
information due to CBI constraints are not expected to
49

A thin market is one in which the trading volume is relatively low and/or there are a relatively low number of buyers and
sellers.
50

See Annual RIN Sales/Holdings Summary on EPA public
website: https://www.epa.gov/fuels-registration-reporting-and-com
pliance-help/annual-rin-salesholdings-summary.

396a
be impacted by a change in the point of obligation in
the RFS program.51
One petitioner also implies that higher RIN prices
lead to higher fuel prices for consumers.52 When D6
RIN prices first rose substantially in 2013, attention
turned to whether and how such RIN price increases
affect consumer fuel prices. The EPA assessed this
issue using available data and concluded that while
increasing RFS standards may increase transportation fuel prices if renewable fuels are more expensive
than the petroleum fuels they replace on an energyequivalent basis, RIN prices themselves were not
expected to have a significant impact on retail fuel
prices.53 External, non-EPA assessments similarly
concluded that increased RIN prices had not had a
significant impact on retail gasoline (E10) prices.54

51

See Section III.B – III.D for a further discussion of the
anticipated impacts of changing the point of obligation on the
sales of renewable fuels and renewable fuel blends. The contractual relationships between the refiners and retail stations, which
can include fuel purchase restrictions, sales volume requirements, requirements on the number of grades of gasoline which
must be offered, etc. predate the RFS requirements and are therefore unlikely to change substantively if the point of obligation is
changed. Finally, RIN holding and trade information is generally
claimed as confidential business information (CBI), and this
would likely be the case regardless of whether the obligated parties are refiners and importers or if they are “position holders” or
blenders.
52

Valero Petition for Rulemaking, June 13, 2016. Page 18.

53

“A Preliminary Assessment of RIN Market Dynamics, RIN
Prices, and Their Effect,” Dallas Burkholder, Office of Transportation and Air Quality, US EPA. May 14, 2015.
54

Knittel, Christopher R., Ben S. Meiselman, and James H.
Stock. The Passthrough of RIN Prices to Wholesale and Retail
Fuels Under the Renewable Fuel Standard. Working Paper

397a
When RIN prices rise, the market price of the
petroleum blendstocks produced by refineries also rise
to cover the increased RIN costs, in much the same
way as they would rise in response to higher crude oil
prices. The effective price of renewable fuels (the price
of the renewable fuel with attached RIN minus the
RIN price), however, decreases as RIN prices increase.
When renewable fuels are blended into petroleum
fuels these two price impacts generally offset one
another for fuel blends such as E10 with a renewable
content approximately equal to the required
renewable fuel percentage standard. Higher RIN
prices also generally result in higher prices for fuels
with lower renewable content (such as E0 or
petroleum diesel) and lower prices for fuels with
higher renewable content (such as E85 or B20). The
cost of the RIN therefore serves as a cross-subsidy,
reducing the price of renewable fuels and increasing
the price of petroleum based fuels in transportation
fuel blends, thus incentivizing increased blending of
renewable fuels into the transportation fuel pool. In
this way the RINs also help provide a price signal to
consumers to help achieve the Congressional goals of
greater renewable fuel production and use. Fuels with
higher renewable content are relatively cheaper to
consumers than they would be absent high RIN prices,
while fuels with lower renewable content are
relatively more expensive when RIN prices are high.55
21343. NBER Working Paper Series. Available online <http://
www.nber.org/papers/w21343.pdf>.
55

Even when RIN prices are relatively high fuels with high
renewable content may not be cheaper than fuels with lower
renewable content on an energy-equivalent basis. For example,
despite relatively higher RIN prices since 2013, the national average price discount for E85 relative to E10 has never reached or
exceeded 22% (the price discount needed for achieve parity

398a
The higher the RIN prices are, the more significant the
potential price discounts for fuels with higher
renewable content. This retail price discount for fuels
with a relatively high renewable content is enabled by
higher prices for fuel blends with little or no renewable
fuel content.
C. The Current Regulations do not Appear to
Disproportionately Impact Merchant Refiners
or Provide Windfall Profits for Unobligated
Blenders
In requesting that the EPA change the point of
obligation petitioners claim that the current point of
obligation negatively impacts refiners that do not
blend renewable fuels and/or do not sell fuel at the
rack. They generally claim that this negative impact
is due to these refiners incurring a high cost for RINs
purchased to comply with their RFS obligations. They
contrast this with what they say is the situation facing
integrated refiners, whom they state are acquiring
RINs for free by blending renewable fuels. Petitioners
also argue that unobligated fuel blenders (such as
large retail fuel chains or fuel distributers and refiners
that market more fuel at the rack than they refine or
import) are selling excess RINs and generating
windfall profits. Several other parties have submitted
documents to the EPA disputing these claims.56
between E85 and E10 on an energy equivalent basis). See also “A
Preliminary Assessment of RIN Market Dynamics, RIN Prices,
and Their Effects,” Dallas Burkholder, Office of Transportation
and Air Quality, U.S. EPA, May 2015. and “An Assessment of the
Impact of RIN Prices on the Retail Price of E85,” Dallas
Burkholder, Office of Transportation and Air Quality, U.S. EPA,
November 2015.
56

See Letter from RaceTrac to Administrator McCarthy,
August 17, 2016; Letter from QuikTrip to Administrator McCarthy,

399a
We have assessed the data available on this issue
and believe that the data do not support the
petitioners’ arguments. We believe that merchant
refiners are generally not uniquely adversely impacted
(relative to integrated refiners). Our reasons for not
believing that merchant refiners are uniquely
impacted by the RFS program are summarized
below.57
To understand why this is the case, we must
consider the fundamental argument about cost
disparities that petitioners and merchant refiners
present to the EPA. Several merchant refiners argue
that due to their position in the market as refiners
with little or no blending and/or sales of fuel at the
rack, their sole RFS compliance option is to purchase
unattached RINs (that is, RINs that have already been
separated from renewable fuel). Merchant refiners
typically purchase these RINs on the market and
retire them for compliance purposes; a large merchant
refiner can spend considerable sums to purchase these
RINs, and they typically point to these sums as an
expenditure that represents a net cost to the
company.58 Some merchant refiners then argue that
their integrated refiner competitors, by contrast, do
not face such costs, arguing that integrated refiners
acquire RINs “for free” when they purchase renewable
fuel with an attached RIN. They argue that this
August 17, 2016; Presentation from Murphy USA to EPA, August
16, 2016.
57

For further detail see “A Preliminary Assessment of RIN
Market Dynamics, RIN Prices, and Their Effect,” Dallas
Burkholder, Office of Transportation and Air Quality, US EPA.
May 14, 2015.
58

For example, see comments from CVR Energy on the 2017
RFS standards proposed rule, EPA-HQ-OAR-2016-0004-0213.

400a
dynamic results in a fundamental inequity between
two types of RFS obligated parties: those that pay
large sums to acquire RINs on the open market, and
those that obtain RINs “for free.” Moving the point of
obligation, petitioners argue, would help address this
inequity. To understand why this argument is flawed,
it is helpful to examine the underlying market
dynamics in more detail.
It is indeed the case that for the RVO associated
with the production volumes they do not market,
merchant refiners generally acquire the RINs
necessary for compliance with their RFS obligations
by purchasing separated RINs, rather than
purchasing renewable fuel with assigned RINs.
Because of this, merchant refiners are therefore able
to directly track the costs associated with acquiring
the RINs they need for compliance and cite these costs
in their financial and accounting statements. When
RIN prices are relatively high these apparent costs can
be significant, especially for merchant refiners that
refine large volumes of obligated fuels.
Less obviously apparent, however, is the impact of
the RFS program on the market price for the petroleum
blendstocks that merchant refiners sell. In addition, as
discussed further below, all refiners and importers of
gasoline and diesel fuel destined for the domestic
market incur costs to comply with RFS obligations.
This is true whether the refiners and importers
acquire RINs by blending renewable fuels (in which
case they realize a cost when they sell blended fuels
for a lower price than the weighted average of the
petroleum blendstocks and renewable fuels that
comprise the blended fuel) or purchasing separated

401a
RINs – meaning no fundamental inequity exists.59
Moreover, because all refiners and importers have
RFS obligations in proportion to the fuels they produce
or import, they all have similar per gallon costs of compliance related to the RFS program, and they all seek
to recover those costs through the pricing of their
products, whether that product is blended with renewable fuel and sold at a terminal or is unblended petroleum blendstocks sold at the refinery gate. Stated
another way: merchant refiners can indeed expend
significant funds to purchase RINs needed to
demonstrate compliance with the RFS program, but
the cost is offset by a corresponding increase in the
market price of the fuel they sell that is attributable
to the RFS obligations. The market price they receive
for the gasoline and diesel fuel they sell reflects the
cost of RINs. While high RIN prices increase the
market price of petroleum blendstocks, they generally
do not increase the market price of fuels blended with
renewable fuels, as the blenders use the value of the
RIN to reduce the price of the blended fuels. The same
dynamic applies to all gasoline blendstocks and diesel
fuel produced by both merchant and integrated
refiners alike. Further, many merchant refiners blend
a portion of the gasoline and diesel they produce with
renewable fuels and directly market this fuel (while
selling the majority to other parties for marketing),
while many integrated refiners sell a portion of the
gasoline and diesel they produce as unblended
blendstocks to other fuel marketers. There are not two
prices in the market for petroleum fuels based on
whether or not they are intended to be marketed
59

The issue of whether or not integrated refiners and other
unobligated blenders acquire RINs “for free” or at a reduced cost
is addressed more fully later in this section.

402a
directly to consumers or sold to a downstream
marketer, but rather separate prices for petroleum
blendstocks and blended fuels.
The EPA also examined the available data to assess
whether or not obligated parties that acquire RINs by
purchasing separated RINs, rather than blending
renewable fuels, are able to recover the cost of these
RINs in the price of the petroleum blendstocks they
sell. In their petition, Valero acknowledges this ability
for refiners to recover the cost of acquiring RINs
through higher prices for gasoline and diesel they
produce than would be the case with lower RIN
prices.60 Empirical data also support this argument.
Data clearly show higher market prices for RFSobligated fuels (gasoline and diesel blendstocks sold
for use in the United States) when compared to those
of unobligated fuels that are very similar (such as
gasoline and diesel sold for export, or heating oil and
jet fuel).61 Before accounting for any potential RIN
price impacts, one would expect obligated and
unobligated fuels to have very similar market prices
because of their very similar fuel properties. Gasoline
is nearly identical whether used domestically or sold
for export, and heating oil and diesel are also very
similar chemically. However, in recent years, as RIN
prices have become elevated, data show a gap opening
up between the price of domestic gasoline and
exported gasoline, and between the price of diesel and
heating oil. The price of the obligated fuels is higher
and the gap corresponds, for the most part, with RIN
60
61

Valero Petition for Rulemaking, June 13, 2016. Page 18.

See “A Preliminary Assessment of RIN Market Dynamics,
RIN Prices, and Their Effect,” Dallas Burkholder, Office of Transportation and Air Quality, US EPA. May 14, 2015 and Letter from
QuikTrip to Administrator McCarthy, August 17, 2016.

403a
prices. Obligated parties – whether they are merchant
refiners or integrated – are charging more for domestic
gasoline and diesel to ensure they recoup the costs
associated with RIN prices. So while a merchant
refiner is directly paying for the RINs they buy on the
market, they are passing that cost along in the form of
higher wholesale gasoline and diesel prices.
Several commenters submitted assessments of the
fuels market disputing the EPA’s claim that merchant
refiners were generally able to recover the cost of RINs
through the higher prices for the products they sell.
Some of these studies referred to this as an inability to
“pass-through” the cost of the RFS program to
consumers. After careful review of the information
submitted, the EPA does not find these assessments
convincing. All obligated parties, including merchant
refiners, are generally able to recover the cost of the
RINs they need for compliance with the RFS
obligations through the cost of the gasoline and diesel
fuel they produce.
Some of these assessments submitted or referenced
in comments simply assumed that RIN costs were not
recovered by merchant refiners and/or were not
experienced by integrated refiners or other parties
that acquire RINs by blending.62 As discussed above,

62

See, for example, Baker & O’Brien Impact of RINs on Merchant and Integrated Refiners, October 28, 2016 and comments
by CVR Energy (EPA-HQ-OAR-2016-0544-0396). We also note
that the calculations cited by CVR.Energy in the DOE Study at
B-5 not only simply assume that refiners that purchase separated
RINs do not recover the cost of the RINs, but also erroneously
assume that refiners that blend ethanol into gasoline retail the
full value of VEETC tax credit, which expired at the end of 2011.
The value of this tax credit is responsible for the majority of the

404a
these assumptions are unfounded, as they ignore the
complexities of the fuels market and the various ways
costs are recovered and/or experienced as a result of
the RFS obligations. Other assessments attempt to
examine blender margins as a means of determining
whether or not the cost of RINs are recovered by
merchant refiners, or alternatively if the value of the
RINs are passed on to consumers or withheld by
blenders.63 While examining correlations between RIN
prices and estimated blender margins may provide
some level of indication about the ability for the
blenders to withhold some portion of the RIN value,
we do not believe these assessments can be used to
draw definitive conclusions on the degree of RIN
passthrough in the marketplace, as there are many
other factors that impact blender margins other than
RIN prices that were changing simultaneously and
were not addressed in the study.64 Finally, one
commenter presented an argument that integrated
refiners would have an incentive to attempt to prevent
the value of the RIN from being reflected in the
wholesale prices of gasoline and diesel.65 This
comment effectively argued that parties that purchase
advantages claimed by the commenter for refiners that blend
ethanol vs. those that buy RINs to meet their RVO.
63

See, for example, Charles River Associates Evaluating the
Response of Blender Margins to RIN Price Changes, February
2017.
64

For example, the local market demand vs. supply (whether
the local market is short or long on gasoline) can have a significant impact on blender margins. We further note that this study
did not consider data prior to 2013, which would have allowed for
consideration in the variability of blender margins during a time
when RIN prices were very low.
65

See Comment from Bob Neufeld, Neufeld Consulting LLC,
EPA-HQ-OAR-2016-0544-0272.

405a
bulk quantities of gasoline blendstock (such as
unobligated blenders or refiners that market more fuel
than they refine) would be incentivized to keep the
purchase prices of these products low. It does not,
however, address why the parties would be effective in
negotiating sales prices that do not reflect the value of
the RIN.66 The wholesale price of gasoline and diesel
is determined by the relative supply and demand of
these products, and the supply curves for refined products reflects all relevant costs, including crude oil
costs, labor and capital costs, and RFS compliance
costs.
The EPA also received numerous comments from a
variety of stakeholders, including refiners, retailers,

66

In his comments Mr. Neufeld effectively assumes that parties that purchase gasoline and diesel at wholesale will be able to
set the market price at a level that does not reflect RIN costs.
EPA believes this is highly unlikely. The only evidence Mr. Neufeld
presents to support his arguments are several calculations contained in a powerpoint presentation (also submitted in his comments on the proposed denial). We believe there are several fundamental flaws in the calculations presented in this document.
First, in his calculations Mr. Neufeld uses E10 and BOB prices
from Mitchell, South Dakota but ethanol prices from Chicago.
This is highly problematic as the relevant ethanol price for these
calculations is the price in Mitchell, South Dakota, which may be
higher than the price in Chicago. This is particularly important
when the relevant margins are only a few cents. Mr. Neufeld also
ignores any blending costs that would be realized by parties purchasing ethanol and BOB separately but not by parties purchasing blended E10. In comparing blending margins between marketers/retailers and obligated refiners he assumes that integrated refiners receive the market price for BOBs, which is not
the case if they are selling blended fuels (rather than BOBs) and
retaining the RINs for compliance purposes. Finally, we note that
any assessment focusing on a single location may not adequately
represent the full economics of a national level program.

406a
and academic researchers supporting our assessment
that merchant refiners generally recover the cost of
the RINs they purchase through higher prices for the
petroleum based fuels they produce.67 Along with the
assessments cited in the discussion above, we believe
two related papers by Knittel et al and a paper
prepared by Argus Consulting Services, all of which
were submitted in comments to our proposed denial,
present compelling evidence that merchant refiners
are able to recover the cost of RINs.68 All of these
papers examined the wholesale prices of petroleum
fuels that are very similar with the exception of
whether or not the producers of these fuels incurred
an RFS obligation (for example, diesel fuel and jet fuel
prices from the U.S. gulf coast). Unlike other studies
that examined indirect indicators that are susceptible
to many factors outside of the RFS program such as
blender margins or crude oil crack spreads, this
methodology allows the authors to directly assess the
impact of RIN prices on fuels that are very similar
both physically and chemically.69 The authors of these
67

For example, see comments submitted by Marcia Pica Karp,
Chevron, EPA-HQ-OAR-2016-0544-0209; David Masuret, Cumberland Farms, EPA-HQ-OAR-2016-0544-0160; C.R. Knittel et al.
EPA-HQ-OAR-2016-0544-0280.
68

Knittel, Christopher R., Meiselman, Ben S., and Stock, James
H. The Pass-Through of RIN Prices to Wholesale and Retail Fuels
under the Renewable Fuel Standard, November 2016.; Knittel,
Christopher R., Meiselman, Ben S., and Stock, James H. The
Pass-Through of RIN Prices to Wholesale and Retail Fuels under
the Renewable Fuel Standard: Analysis of Post-March 2015 Data.
November 23, 2016.; Argus Consulting Services. Do Obligated
Parties Include RIN costs in Product Prices? February 2017.
69

Argus Consulting Services also examined the average price
ratio between RBOB and ULSD to crude prior to 2013 and
between 2013 and 2016 which, while not conclusive on its own,
similarly indicated that refiners were reflecting RIN costs in the

407a
papers concluded that the RIN cost was generally
included in the sales prices of obligated fuels. Knittel
et al further found that the RIN pass through, or the
ability of the merchant refiners to recover the cost of
RINs was complete (not statistically different than
100%) and occurred quickly (within 2 business days).70
Multiple commenters critiqued methods used by
Knittel et al in these papers.71 These critiques
generally focused on 3 issues: the removal of Brent
crude based spreads from the assessment, the addition
of a NYH CBOB – Rotterdam EBOB spread, and the
pooling approach used by the authors. The removal of
the Brent crude based spreads improves rather than
diminishes the assessment presented by Knittel et al.
We believe the impact of the RIN price on the wholesale price of refined products is most clearly seen by
comparing pairs of refined products rather than comparing crude prices to refined product prices, as many
compounding factors can and do influence the price
relationship between crude oil and refined products.
Further, while there may be concerns related to the
appropriateness of the decisions by the authors to
include an additional refined product price spread and
pool the results of the various comparisons, EPA does
not believe these decisions had a significant impact on
the conclusions of the paper. Even if the EPA excludes
consideration of the additional refined product pair
and assesses the five original refined product spreads
individually rather than together as suggested by
prices of RBOB and ULSD. Argus also noted that both Argus and
Platts include RVO cost considerations in their pricing methodology.
70
71

Ibid.

Charles River Associates. Review of Updated Pass-Through
Analysis of Knittel, Meiselman and Stock. February 2017.

408a
commenters critiquing the Knittel et al paper, this
paper provides compelling evidence that the RIN price
is reflected in the wholesale price of refined products
subject to an RFS obligation, and that the RIN cost is
therefore generally recovered by obligated parties,
including merchant refiners.
In their petition, Valero, while generally acknowledging their efforts to recover RIN costs through
higher prices for their petroleum blendstocks,72 nevertheless claims that the RFS program leaves them at a
disadvantage relative to integrated refiners. They
argue that while both merchant and integrated refiners
receive higher prices for their petroleum blendstocks
as a result of the RFS obligations, merchant refiners
must use this additional income to purchase RINs for
compliance while integrated refiners acquire the RINs
they need for compliance “for free” by blending renewable fuels.73 This argument is illogical as it simply
ignores the cost that integrated refiners pay to acquire
RINs.
Unlike merchant refiners, integrated refiners generally acquire most of their RINs by purchasing renewable fuel with attached RINs. After blending the renewable fuel with petroleum blendstocks to produce finished transportation fuel, integrated refiners separate
the RINs and keep them to demonstrate compliance,

72

For example, see Valero Petition for Rulemaking, June 13,
2016. Page 18. In more recent communications with EPA Valero
has questioned the ability for merchant refiners to recover the
full cost of the RIN through the price of their petroleum blendstocks under current market conditions.
73

For example, see Valero Petition for Rulemaking, June 13,
2016. Page 16.

409a
or in some cases sell excess RINs to other obligated
parties.
While the integrated refiners generally do not purchase separated RINs with an easily-identified price,
it is not the case that they acquire these RINs for
free.74 They no more receive the RIN for free than one
receives an engine for free when purchasing a car. In
examining wholesale prices for gasoline blendstocks,
ethanol, and blended E10, EPA found that the listed
prices for blended E10 were consistently lower than
the price that would be expected based on the selling
prices of the component fuels.75 In other words if we
were to ignore the RIN revenue, parties that produce
E10 by blending gasoline blendstocks with ethanol
would be losing money on every gallon of E10 they produce. A gallon of E10 is generally produced by blending 0.9 gallons of gasoline blendstock (usually CBOB
or RBOB) with 0.1 gallons of ethanol. The listed price
for E10, however, was lower than the price of 0.9 gallons of gasoline blendstock plus 0.1 gallons of ethanol.76 Thus, integrated refiners are selling blended E10
for a lower price than they could receive for the component fuels (petroleum blendstock and ethanol) to acquire
the RINs that can be separated and retained if they
sell blended E10. Integrated refiners therefore experience the cost of acquiring RINs when they sell blended
fuels for a lower price than the blend components,
74

Parties that acquire RINs through blending have affirmed
that they do not receive RINs for free. For example, see testimony
from Chris Vergona of Musket Corporation on the proposed 2018
RFS annual rule.
75

“A Preliminary Assessment of RIN Market Dynamics, RIN
Prices, and Their Effect,” Dallas Burkholder, Office of Transportation and Air Quality, US EPA. May 14, 2015.
76

Ibid

410a
while merchant refiners experience RIN costs when
they purchase separated RINs. In each case there is a
cost to the refiners to acquire RINs, and in each case
they recover this cost through higher petroleum blendstock prices. In a presentation to the EPA, Murphy
USA discussed this market reality, stating that the
RIN prices supported a negative “spot-to-rack margin.”77
They are purchasing petroleum blendstocks from
refiners for a higher price than they can recover for
this product when sold at the rack as blended E10 but
maintaining profitability through RIN sales. This
observed market practice supports the findings by the
EPA and other parties that despite the higher prices
of petroleum blendstocks resulting from higher RIN
prices, the costs of transportation fuel to consumers
have not increased as Valero has claimed.78
While the EPA continues to believe that refiners,
including merchant refiners, are generally able to
recover the cost of RINs through the prices they
receive for the petroleum blendstocks they sell, we also
acknowledge that there are many diverse factors that
impact each individual refiner’s profitability and their
77
78

See Presentation from Murphy USA to EPA, August 16, 2016.

“A Preliminary Assessment of RIN Market Dynamics, RIN
Prices, and Their Effect,” Dallas Burkholder, Office of Transportation and Air Quality, US EPA. May 14, 2015 and Knittel,
Christopher R., Ben S. Meiselman, and James H. Stock. The
Passthrough of RIN Prices to Wholesale and Retail Fuels Under
the Renewable Fuel Standard. Working Paper 21343. NBER
Working Paper Series. Available online <http://www.nber.org
/papers/w21343.pdf>. While these papers demonstrate that the
cost of transportation fuel to consumers does not increase due to
higher RIN prices, EPA acknowledges that higher renewable fuel
obligations can lead to higher transportation fuel prices for consumers if renewable fuels cost more than the petroleum based
fuels they displace.

411a
ability to recover their full cost of production (including crude oil costs, labor costs, capital costs, regulatory
and compliance costs, etc.). These factors include, but
are not limited to, the refinery’s location, their access
to various types of crude oil, the local demand and
competition for refined products. In recent years, a
number of factors have led to an oversupply of refined
gasoline and diesel in the United States. In such a
market we would expect significant pressure on refining margins as the supply of refined products outpaces
demand and refiners compete with one another to find
markets for their products (potentially including
exports) and maintain market share. These market
conditions are expected to result in reduced profit
margins for refiners, and in some cases refiners may
struggle to remain profitable.79 In evaluating whether
or not to change the point of obligation, however, it is
important to consider whether these challenges are
caused by the current point of obligation in the RFS
program (rather than more broad market conditions),
and whether changing the point of obligation would be
expected to address these challenges. Based on the
information discussed above, we do not believe the
challenges faced by some refiners in the current
market are the result of their designation as obligated
parties in the RFS program.
The EPA also examined claims made by the petitioners that unobligated blenders were reporting windfall
profits by selling RINs. The petitioners primarily sup79

See 2017 US Refining Forecast: Lean Times Ahead, Opportune LLP, December 7, 2016. Available online: https://www.lex
ology.com/library/detail.aspx?g=b7ae9acf-fc7d-466c-92a8-43b9fc
005722. In recent years, US refinery profitability has benefited
from exporting excess refined products given their favorable economics situations compared to many foreign refiners.

412a
ported these claims by referencing the financial statements of companies that acquire RINs by blending
renewable fuels and who sell these RINs to obligated
parties, but are not obligated parties themselves.80 EPA
does not believe that the information presented by the
petitioners substantiates their claims that unobligated blenders are generating windfall profits from RIN
sales. First, we note that the fact that companies report
income for RIN sales does not indicate that these
companies are receiving a windfall from the RFS program. This is equivalent to claiming a company’s
reported sales are equivalent to their profits, while
ignoring their expenses to acquire the good sold. While
it is true that for companies such as Murphy USA who
sell a significant number of RINs their “revenues are
impacted by [their] ability to generate revenues from
activities such as blending bulk fuel with ethanol and
bio-diesel to capture and subsequently sell Renewable
Identification Numbers,”81 this does not mean that
these companies receive a windfall profit from RIN
sales. Such an assessment ignores costs that the company realized in order to acquire these RINs, such as
lower fuel margins than would have been realized if
the party did not blend renewable fuels and any investments in infrastructure that the company has made to
enable them to blend renewable fuels and distribute
these fuel blends. Statements from Murphy USA cited
in the AFPM petition to support AFPM’s claim that
non-obligated blenders are realizing windfall profits
from RIN sales in fact support EPA’s views of the market. In a recent earnings call, the President of Murphy
80

The parties most commonly cited by the petitioners are
Murphy USA and Casey’s General Stores.
81

Murphy USA, Inc., U.S. SEC Form 10-K for the financial
year ended December 31, 2015.

413a
USA stated “if you add the combination of the gross
margin from product supply and wholesale and the
RINs and divide over the total retail gallons sold, you
actually see a fairly consistent incremental $0.025 per
gallon over the past two years.”82 In other words,
overall fuel supply margins (including RIN sales) have
been relatively consistent despite the significant
increase in RIN prices. This supports the EPA’s view
that RIN costs and revenues must be viewed in combination with other product supply and wholesaling
margins. The EPA received many comments from
blenders indicating that the RIN value is used to offset
the cost of blending, and that the value of the RIN is
used to pass savings onto consumers.83 Additionally,
many blenders indicated that they purchase fuel above
the rack only some of the time, and instead chose to
purchase blended fuel below the rack at times, based
on factors such as geography, store density, suppliers,
relationships with terminals and infrastructure.84
The EPA recognizes that there are many factors
that affect the profitability of participants in the fuels
market, and disagrees that the available information
supports a conclusion that RIN revenues are leading
82

Transcript of Murphy USA First Quarter Earnings Call,
Andrew Clyde, President, Murphy USA, Thompson Reuters (Feb.
4, 2016). Citation from AFPM’s petition for rulemaking, August
4, 2016. (page 15).
83

See, e.g., Comments submitted by Cumberland Farms, EPAHQ-OAR-2016-0054-0160.; SEI Fuel and 7-Eleven, EPA-HQOAR-2016-0054-0133.;
84

See, e.g., Comments submitted by SEI Fuel and 7-Eleven,
EPA-HQ-OAR-2016-0054-0133. Fuel purchased below the rack
would not have an RFS obligation even if EPA changed to point
of obligation to the “position holders” as the petitioners have
requested.

414a
to windfall profits. In 2014 and 2015 Murphy USA
reported RIN sale revenues of $93 million and $118
million respectively. If this income represented windfall profits, we would expect that the net income of
Murphy USA would be approximately $100 million per
year higher than it was prior to the significant increase
in RIN prices in 2013. In fact, while Murphy USA’s
profits in 2014 and 2015 of $244 million and $176
million85 were significantly higher than in 2012 ($84
million), they were significantly less than net profits
in 2011 ($324 million).86 While we acknowledge that
there are many factors that impact the profitability of
a company such as Murphy USA in any given year, we
nevertheless believe that the data before the Agency
does not support the claims by some parties, whether
explicit or implicit, that RIN sales represent windfall
profits to companies that blend renewable fuels.
Further, statements from Casey’s General Stores
and Murphy USA contradict the notion that RIN sales
represent windfall profits for unobligated blenders.
Murphy USA reported that in the third quarter of
2014 income received from RIN sales offset negative
product supply and wholesale margins.87 This statement is in line with statements from Murphy USA
cited above and EPA’s view of the market explained in
85

Murphy USA net profit numbers for 2014 and 2015 from
Murphy USA, Inc., U.S. SEC Form 10-K for the financial year
ended December 31, 2015.
86

Murphy USA net profit numbers for 2011 and 2012 from
Murphy USA, Inc., U.S. SEC Form 10-K for the financial year
ended December 31, 2013.
87

Murphy USA Inc. Reports Third Quarter 2014 Results.
Yahoo! Finance, November 5, 2014. Available online <http://fin
ance.yahoo.com/news/murphy-usa-inc-reports-third-220006760.
html>.

415a
the preceding paragraph, that companies that blend
renewable fuels with petroleum blendstocks to produce finished transportation fuel must purchase petroleum blendstocks at a higher price that reflects the
cost of the RIN, and sell blended transportation fuel at
a lower price that reflects their ability to separate and
sell the RINs associated with the renewable fuel, to
offer finished fuel at a competitive price. In effect,
these parties sell the finished transportation fuel at a
loss (or a much smaller margin than would be sustainable in a market without RIN obligations) in order to
obtain RINs. In their annual report filed in June 2015,
Casey’s General Stores directly stated that their general pricing practice is to price to their competition,88
a practice the EPA has repeatedly stated we expect is
the general practice in competitive markets. We believe this competitive pricing behavior is incompatible
with the windfall profits suggested by the petitioners.
Many commenters addressed the issue of the potential for unobligated blenders to earn windfall profits
from RIN sales and the competitive advantages these
RIN sales could provide relative to small retailers that
do not blend renewable fuels. Many commenters, including several large retailers and unobligated blenders,
agreed with the EPA’s assessment of the market and
affirmed that unobligated blenders are not realizing
windfall profits from RIN sales.89 One commenter
88

Casey’s General Stores, Inc., Annual Report (Form 10-K)
(June 26, 2015).
89

For example, see comments from Casey’s General Stores,
Inc, EPA-HQ-OAR-2016-0544-0268, NATSO EPA-HQ-OAR-20160544-0282, SEI Fuels and 7-Eleven, EPA-HQ-OAR-2016-05440133, Murphy USA, EPA-HQ-OAR-2016-0544-0372, QuikTrip,
EPA-HQ-OAR-2016-0544-0198, and KwikTrip, EPA-HQ-OAR2016-0544- 0105.

416a
provided data from their local market including the
prices of ethanol, gasoline blendstocks, RINs, and
other costs associated with supplying blended transportation fuel demonstrating that the value of the RIN
was indeed reflected in the wholesale price of E10 and
was not withheld by the fuel blender.90 This commenter
presented further information demonstrating that despite their status as a largely unobligated blender, the
RIN prices had no impact on their retail fuel margins
from August 2008 through August 2016.91
Other commenters, however, questioned this finding, with several submitting papers or public statements made by representatives of unobligated blenders supporting their views.92 Two primary references
often cited by commenters, which are generally representative of comments received on this issue, are a
report on the estimation of the margins of large retailers
by Ramon Benavides and a paper authored by Dr.
Weinstein on the consequences of RIN trading for
small retailers.93 The paper by Mr. Benavides

90

See comments from Cumberland Farms, EPA-HQ-OAR2016-0544-0160. As part of their comment Cumberland Farms
also submitted a screen shot of the software they use to calculate
and account for E10 fuel costs. The value of the RIN is directly
taken into account in their pricing calculations.
91

Ibid.

92

For example, see comments from Valero, EPA-HQ-OAR2016-0544-0274, Small Retailer Coalition, EPA-HQ-OAR-20160544-0344, Buffalo Services, Inc., EPA-HQ-OAR-2016-05440184, Friendly Mart Food Stores, EPA-HQ-OAR-2016-0544-0387.
93

Benavides, Ramon M. Renewable Fuel Incentives: Estimation of Large Retailers’ Margins and Weinstein, Dr. Bernard L.
Renewable Identification Numbers (RINs) Trading Under the
Renewable Fuels Program: Continued Unintended Consequences
for Small Fuel Retailers Updated Report. February 2017.

417a
attempts to estimate retail margins for two large
retailers (Pilot/Flying J and Loves) compared to
reported national averages. After finding higher than
average retail margins, Mr. Benavides attributes
these higher margins to the ability to retain the value
of the RIN when blending renewable fuels. This paper,
however, contains several methodological flaws. As
noted in comments by the National Association of
Truck Stop Owners (NATSO)94 the paper considers
only data from a single day rather than an extended
time period, used broad market data rather than data
specific to the companies it assesses, does not consider
costs to transport renewable fuels to retail outlets,
simply assumes that retailers retain 100% of the value
of the RIN and any tax credits associated with the
renewable fuel, and does not account for the actual
prices paid by their customers (which often include
significant discounts from posted prices). The paper
also incorrectly assumes a uniform, nationwide price
for renewable fuels. Finally, even if the higher
margins suggested by this paper are accurate (which
appears highly unlikely), the paper makes no attempt
to attribute this higher margin to the value of the
RINs versus other factors that may contribute to
higher margins of the companies assessed relative to
the national average such as these parties’ ability to
buy fuel in bulk, high fuel sales volumes, etc.
The EPA also reviewed the paper prepared by Dr.
Weinstein for the Small Retailer Coalition on the unintended consequences of the RFS program for small fuel
retailers.95 In concluding that the current point of

94
95

See comments from NATSO, EPA-HQ-OAR-2016-0544-0282.

Weinstein, Dr. Bernard L. Renewable Identification Numbers (RINs) Trading Under the Renewable Fuels Program: Con-

418a
obligation could disadvantage small retailers (relative
to large retailers with the ability to blend renewable
fuels and separate RINs) Dr. Weinstein relied on two
primary sources; the paper by Mr. Benavides
discussed above and statements by several large
companies that own retail fuel stations and blend
renewable fuels. Generally, Dr. Weinstein highlights
income associated with RIN sales and statements that
access to RINs and RIN revenue advantages these
companies relative to their competitors as the basis for
his conclusions. However, these statements do not
justify Dr. Weinstein’s conclusions. First, as discussed
above, income from RIN sales is not equivalent to
profits from the separation of the RINs, nor is it
evidence that these parties can retain all or a significant portion of the value of the RINs. Indeed, as highlighted in the statement by Murphy in their Form 10Q filed on November 3, 2016 (quoted in Dr. Weinstein’s
paper) Murphy accepts negative product supply and
wholesale margins in order to get access to RINs. The
RINs are not “free” to these large retailers, and do not
represent windfall profits. Additionally, statements
that these companies are advantaged relative to their
competitors with respect to their ability to realize additional margin from RINs and RIN sales do not suggest
windfall profits as a result of the current point of
obligation in the RFS program. There are many reasons these companies could be advantaged relative to
their competitors with respect to their ability to realize
profits from RINs and RIN sales such as advantageous
long term contracts for renewable fuels, access to renewable fuels with higher value RINs (such as advanced
or cellulosic biofuels, as alluded to by Couche-Tard’s
tinued Unintended Consequences for Small Fuel Retailers Updated
Report. February 2017.

419a
CFO Claude Tessier), better retail markets for higher
level blends of renewable fuels, and the ability to hold
RINs in an effort to sell when the prices are most
favorable.96 None of these factors are the result of the
point of obligation in the RFS program, nor would any
of them change if EPA were to change the point of
obligation as the petitioners suggest.97
After reviewing the comments submitted on our proposed denial of the petitions to change the point of obligation in the RFS program, the EPA reaffirms the position stated in our proposed denial. We do not believe the
available data indicates that large retailers or unobligated blenders are realizing windfall profits as the
result of their access to RINs. On the other hand, a
contrary finding is well supported by the data presented here and the supporting comments submitted
by many with direct knowledge and experience on this
issue. While we recognize that many small retailers
may be facing significant economic hardship, we do not
believe this hardship is primarily or even materially
caused by the current point of obligation in the RFS
program, but rather by a number of broader market factors (see Section II.D for a further discussion of this
issue).

96

See comments from the Small Retailers Coalition, EPA-HQOAR-2016-0544-0344.
97

These advantages are related to the company’s ability to
acquire renewable fuels at lower prices than their competitors or
their ability to sell renewable fuel blends at higher prices than
their competitors. To the degree these advantages exist, they are
highly unlikely to be impacted by a change in the point of obligation.

420a
D. The Current Regulations Do Not Appear to
Negatively Impact Small Retailers
The EPA received comments from the Small Retailers Coalition, an organization created in 2016 representing over 200 owners of gas stations and convenience stores, as well as comments from a number of
parties that own and operate retail fuel stations.98
EPA also received comments from the National Black
Caucus of State Legislators echoing many of the concerns raised by the Small Retailers Coalition, contending that independent gasoline retail stations are harmed
by the current point of obligation.99 These comments
suggested that the current point of obligation is harming small retailers by allowing their competitors to
obtain and sell RINs which allow their competitors to
more competitively price their fuels. They contend
that their competitors are gaining a $0.10-$0.15 per
gallon advantage over small and medium suppliers.
Commenters further suggest that this pricing advantage
is available to their competitors as a result of their
ability to realize windfall profits from RIN sales and
that the disparity will likely result in the closure of a
large number of the stores owned by single-store
98

For example, see comments from the Small Retailer Coalition, EPA-HQ-OAR-2016-0544-0344; Short Stop, EPA-HQ-OAR2016-0544-0174; L & L Stores, EPA-HQ-OAR-2016-0544-0426.
EPA also received a series of comments from the Petroleum Marketers Association of America (PMAA). Initial comments from
PMAA indicated support for maintaining the current point of
obligation, however in subsequent correspondence PMAA stated
it was taking a neutral position on where the point of obligation
should be placed due to growing concerns for unfair competition
in the retail market. EPA believes these concerns are adequately
addressed in this section.
99

Comment from National Black Caucus of State Legislators,
EPA-HQ-OAR-2016-0544-0166.

421a
owners and medium sized gas stations and convenience stores. According to some commenters, such closures could lead to lower levels of competition among
parties that sell gasoline and diesel at the retail level,
ultimately leading to higher fuel prices for consumers.
Some commenters suggested that because large retailers are realizing such significant profits from RIN
sales they have no incentive to invest in infrastructure
to expand the availability and use of renewable fuels,
and in some cases large retailers may actively work to
restrict the expansion of this infrastructure, since
commenters claim expanded infrastructure would
reduce RIN prices. In comments, the Small Retailers
Coalition suggested EPA should consider the impacts
on small retailers of the current point of obligation in
EPA’s response to the petitions to change the point of
obligation.100 EPA has done as the Coalition has
suggested, and EPA’s analysis is provided in this document.
While the EPA recognizes the very real economic
challenges faced by single-store owners and medium
sized gas stations and convenience stores, we do not
believe these challenges are primarily, or even materially, the result of the current point of obligation in the
RFS program or the RFS program more generally. As
discussed in further detail in Section II.C above, EPA
does not believe that the comments submitted on our
proposed denial adequately support the claims that
large retailers and unobligated blenders are able to
realize windfall profits from RIN sales. After carefully
100

Comments from Small Retailers Coalition, EPA-HQ-OAR0544-0185. The Small Retailers Coalition has also recently filed
a complaint alleging that EPA has failed to do this analysis. See
Small Retailers Coalition v. US EPA and Scott Pruitt, W.D. Tex.,
Case 7:17-cv-00121, Complaint filed 8/28/17.

422a
reviewing the comments and the available market
data the EPA reaffirms that while unobligated parties
that acquire RINs by blending renewable fuels (such
as large retailers) can and generally do receive significant revenue through the sale or RINs, there is a cost
to acquiring these RINs that is approximately equal to
the revenue received through their sale. We also note
that it is implausible that such a significant price
advantage ($0.10 to $0.15 cents per gallon according
to the Small Retailers Coalition, which is approximately 3 times higher than the average profit per
gallon)101 could be sustained in the highly competitive
retail fuel market. To the degree that larger competitors are able to access lower cost fuels, there is no basis
for concluding that these advantages are attributable
to the RFS program. Rather, we believe that the significant challenges faced by many small retailers are
rather the result of challenges in the retail fuels market such as a declining demand for refined transportation fuels (particularly gasoline), increased competition from large retailers and high-volume retail outlets,
a lack of flexibility in fuel purchasing options relative
to larger (often unbranded) retailers, and many others,
many of which were mentioned by the small retailers
in their own comments. After reviewing the information submitted by the petitioners and commenters,
along with other market data, EPA has concluded that
large retailers do not have the incentive or ability to
effectively inhibit the greater use of renewable fuels in
the United States (See Sections III.B – III.E below for
a further discussion of these issues. While we understand that small retailers face significant economic
challenges, these challenges are unrelated to the RFS
101

According to NACS, the average retail fuel margin is about
3 to 5 cents per gallon (NACS. 2015 Retail Fuels Report).

423a
program, and would not be fundamentally altered by
changing the point of obligation in the RFS program.102
E. The EPA Has Not Seen Evidence That High
RIN Prices Have or Will Force Refiners to
Decrease Production or Increase Exports
In their petition, Valero suggested that if the EPA
does not change the point of obligation of the RFS program it could lead to obligated parties, particularly
merchant refiners, decreasing their production of obligated fuels or increasing their exports of refined products in an effort to minimize the RFS obligations.103 As
discussed above, both merchant refiners and integrated refiners experience RIN acquisition costs, and
both recover these costs through the price of the
petroleum products they sell. The RFS program therefore does not impact merchant refiners in a way that
would make them more or less likely than integrated
refiners to decrease production of gasoline and diesel
or increase exports of these fuels. Rather, decisions to
102

In addition to believing that the RFS program is not harming small retailers generally, the EPA has also been presented with
claims that the RFS program can benefit small retailers. The
EPA received comments from the Petroleum Marketers and Convenience Stores of Iowa indicating that small retailers are benefiting from the RIN value through RIN trading via third party
aggregators. Comments from Petroleum Marketers and Convenience Stores of Iowa, EPA-HQ-OAR-2016-0544-0199.
103

One commenter (NERA) claimed that since RIN costs are
reflected in the wholesale price of gasoline blendstocks high RIN
prices would encourage gasoline exports, as exported gasoline
could receive the value of the RIN without incurring the RIN obligation. This commenter ignored the fact that the market price for
exported gasoline is discounted relative to gasoline sold for the
domestic market, and that this discount reflects the cost of the
RIN obligation (for further discussion of this issue, see Section
II.C above).

424a
decrease production or increase exports are driven by
broader market factors, which effect both merchant
and integrated refiners.
We also note that the idea that the RFS program
could result in a reduced supply of gasoline and diesel
to the United States through lower production volumes or increased exports is not new, as obligated
parties have been suggesting that this could be a
potential outcome of increasing RFS standards since
the beginning of the program. Despite these warnings,
and even with increasing vehicle fuel efficiency in the
United States in previous years, the significant
increase in both the RFS standards and RIN prices
have not resulted in obligated parties taking these
actions, as seen in the following graph.104 Were high
RIN prices to have this effect, one would expect to have
seen a drop in fuel supply beginning in 2013, when
RIN prices spiked.

104

The EPA also performed a separate analysis of refinery closures, derating, and expansions from 2013-2017. See Section III.G
for a further discussion of the impact of the RFS program on refining capacity.

425a
Figure 1

Data from EIA. Available at http://www.eia.gov/dnav/pet/pet_
cons_psup_dc_nus_mbbl_m.htm

The lack of any impact on finished gasoline and diesel supply to the United States is not surprising, since
as was discussed in Section III.B.2 above, data reviewed
by the EPA show that obligated parties are generally
receiving higher prices for fuels they produce that are
subject to an RFS obligation (gasoline and diesel fuel
sold for use in the United States), which offsets the
cost of compliance with the RFS program. By contrast,
if they export the gasoline and diesel fuel, they would
not have costs associated with acquiring RINs but
would also not receive the higher value for their petroleum products associated with RFS compliance costs.
An obligated party’s ability to recover RIN costs through
the price of obligated blendstocks in some ways is
similar to their ability to recover fuel taxes. Though
state fuel tax rates vary from state to state these
differences in fuel tax rates do not cause fuel shortages
in states with higher tax rates, as parties that sell fuel
are able to recover the cost of the taxes in the prices of

426a
the products they sell. Companies make decisions about
which market segments to participate in for a variety
of reasons, but we believe the demand for transportation fuel in the United States is strong enough that
refineries and importers will continue to meet demand
on a competitive basis, even if participating in the market incurs RFS obligations.
Several commenters pointed to increased exports of
refined products (gasoline and diesel fuel) in recent
years as evidence that the RFS program, and high RIN
prices in particular, were incentivizing increasing
exports. We acknowledge that exports of gasoline and
diesel have been higher in recent years relative to
2010.105 We do not, however, believe that these increasing exports are driven by the RFS program. Notably,
total production of finished gasoline and distillate in
the United States has increased significantly since
2010106 due to a number of factors including access to
low cost crude oil and natural gas and high refinery
utilization rates. During this same time period,
demand for refined products in the United States has
been fairly constant.107 Refiners seeking export markets
105

See EIA data on Weekly U.S. Exports of Total Distillate
(https://www.eia.gov/dnav/pet/hist/LeafHandler.ashx?n=PET&s
=WDIEXUS2&f=W ) and Weekly U.S. Exports of Finished Motor
Gasoline (https://www.eia.gov/dnav/pet/hist/LeafHandler.ashx?n
=PET&s=W_EPM0F_EEX_NUSZ00_MBBLD&f=W).
106

See EIA data on U.S. Refinery and Blender Net Production
of Distillate Fuel Oil (https://www.eia.gov/dnav/pet/hist/LeafHan
dler.ashx?n=PET&s=MDIRPUS1&f=M) and U.S. Refinery and
Blender Net Production of Finished Motor Gasoline (https://www.
eia.gov/dnav/pet/hist/LeafHandler.ashx?n=PET&s=MGFRPUS1
&f=M).
107

See EIA data on Weekly U.S. Product Supplied of Distillate
Fuel Oil (https://www.eia.gov/dnav/pet/hist/LeafHandler.ashx?n
=PET&s=WDIUPUS2&f=W ) and Weekly U.S. Product Supplied

427a
for their products at a time when supply increases
have outpaced domestic demand for their products is
a natural response, and is unrelated to the RFS program.
F. A Relatively Small Number of Obligated
Parties is Generally Advantageous
In the 2007 RFS1 rule, the EPA indicated that it
considered it preferable to place the point of obligation
on a smaller number of refiners and importers rather
than on a larger number of downstream blenders. This
is primarily because placing the obligation on a smaller number of parties with significant assets generally
results in a more efficient, and therefore more effective
program. In the proposed RFS2 rule, we noted that
blenders would likely be regulated as RIN holders
under the expanded program, and questioned whether
also making them obligated parties would significantly increase their regulatory burden. After considering comments, we chose in the final RFS2 rule to
maintain the RFS1 approach, noting, among other
reasons, that changing the point of obligation to include
blenders could lead to disruption of the program in the
transition of RFS1 to RFS2. After promulgating the
final RFS2 rule we gained additional experience implementing the program that further supports our decision to maintain the current approach. Under the current system, it is renewable fuel producers who generate RINs, for gallons of biofuel produced, and it is the
refiners and importers of gasoline and diesel fuel who
must retire the RINs to demonstrate compliance.
While the EPA is engaged in compliance and enforcement activities to address instances of invalid RINs in
of Finished Motor Gasoline (https://www.eia.gov/dnav/pet/hist/
LeafHandler.ashx?n=PET&s=WGFUPUS2&f=W).

428a
the marketplace, the sheer volume of RINs and RIN
transactions makes it critical to also leverage the
participation of obligated parties in policing the RIN
market. In addition, refiners and importers are subject
to significant requirements related to environmental,
safety, and health concerns, and the expertise they
have developed in maintaining compliance contributes
to the success of the RFS program.
Refiners and importers generally have greater
resources that enable them to provide oversight of the
RIN generators to help ensure that the RINs being
traded in the marketplace are valid. They have invested significantly since the finalization of the RFS regulations to develop compliance processes and expertise
in these markets. Changing the point of obligation
would potentially disrupt the systems developed by
these parties, strand their investments, and would
require that newly obligated parties make the necessary investments to enable compliance with their new
RFS obligations. This could take a significant amount
of time and represent a significant financial burden to
the new obligated parties, especially as we expect that
many would be smaller companies with fewer resources
than the existing obligated parties.
In contrast to the currently regulated refiners and
importers, many “position holders” and blenders sell
relatively small volumes of gasoline and diesel, and
are likely relatively small entities without the personnel or expertise available to fill the role currently
played by obligated parties in policing the validity of
the RINs in the market. This concern was affirmed by
our analysis of a data set recently provided to us by
the Internal Revenue Service (IRS) (for a fuller discussion of the data the EPA received from IRS, and the
EPA’s assessment of this data, see Sections IV.A and

429a
IV.B). The IRS data set included the volume of gasoline and diesel sold by all “positions holders” aggregated into groups of five and arranged from highest to
lowest volume.108 When the EPA overlaid this data set
with our volume data for obligated parties (grouped in
the same manner as the IRS), we found there were
about 300 more parties in the IRS data set. Moreover,
as discussed below, when we compared the total volume associated with “position holders” we found that
more than half of the “position holders” (those with the
smallest volumes) were responsible for less than 1% of
the aggregate volume. Our conclusion from this comparison is that there is a significant number of small
volume parties that are current “position holders”
(subject to the IRS fuel tax laws) that would become
new obligated parties, would likely not be familiar
with how to comply with the RFS requirements and
may not have the resources to do so. While it is
possible that they would develop this expertise over
time, the relatively small size of many of these entities
may mean that the important market-policing function currently performed by obligated parties could be
largely compromised by changing the point of obligation. This result is more likely considering that the
current obligated parties tend to have larger assets
that could be put at risk from non-compliance, and
therefore take compliance with the RFS very seriously.
Placing the RFS compliance obligations on refiners and
importers also reduces the overall cost associated with
the RFS program, as these parties benefit from econo108

For example, IRS provided EPA with the total volume of
gasoline and diesel sold by the 5 parties that sold the most
gasoline and diesel, the total volume sold by parties that sold the
6th – 10th highest volumes of gasoline and diesel, etc. This IRS
data was provided to the EPA on May 22, 2017. See IRS Aggregated Volume Data. This data is treated as CBI.

430a
mies of scale and can better spread the costs associated with RIN acquisition and oversight over greater
quantities of RINs.
In addition to these benefits to the program, a smaller number of obligated parties significantly decreases
EPA’s resource requirements associated with the
administration of the RFS program. It reduces the
number of annual compliance reports that must be
reviewed by the EPA each year, and reduces the
complexity associated with determining the volumes
of gasoline and diesel for which each obligated party
has a compliance obligation. This allows for more effective implementation and enforcement of the RFS program. In addition, we believe it is preferable to place
the RFS obligation on larger companies with greater
resources who are better positioned to comply with the
RFS standards.109
Several commenters contested the EPA’s statements that changing the point of obligation to the
“position holders” would increase the number of
obligated parties.110 These commenters further argued
that parties with enough capital and expertise to purchase fuel in bulk above the rack would be able to
comply with RFS obligations. However, based on information from the IRS (discussed briefly above and
further in Section IV.A and IV.B), we determined that
109

While the evidence before EPA demonstrates that the cost
of RINs are generally recovered by the obligated parties, larger
companies with greater resources are significantly more likely to
have expertise related to complying with EPA regulations
(including, but not limited to their RFS obligations), ensuring the
validity of RINs, etc.
110

For example, see comments submitted by Valero, EPA-HQOAR-2016-0544-0274; AFPM, EPA-HQ-OAR-2016-0544-0360;
Monroe Energy, EPA-HQ-OAR-2016-0544-0368

431a
if the point of obligation in the RFS program were
placed on the “position holders,” the number of obligated parties would increase significantly, and that
many of these parties sell relatively small volumes of
gasoline and diesel.
We note that if we had compelling evidence in front
of us that placing the RFS obligation on a larger number of renewable fuel blenders or “position holders”
would significantly increase the production, distribution, and use of renewable fuels, then a potentially
higher number of obligated parties on its own would
not likely be a reason to retain the current point of
obligation. In light of the reasons discussed above,
however, and because we do not think shifting the
point of obligation would lead to higher renewable fuel
production and use, and for other reasons discussed in
this document, we believe that placing the obligation
on the smaller number of refiners and importers is
preferable.
G. The Current Program Structure Does Not
Require Market Repositioning to Achieve
Compliance
One of the petitions the EPA received requesting a
change in the point of obligation in the RFS program
took issue with language in previously published EPA
documents suggesting that one potential avenue for
obligated parties to acquire RINs is the purchase or
construction of downstream blending assets.111 The
petitioner emphasized the challenges associated with
the acquisition of such assets. They further claimed
111

See Valero Energy Corp. Petition for Rulemaking, June 13,
2016, 16-17. Valero referred to statements made by EPA in A
Preliminary Assessment of RIN Market Dynamics, RIN Prices,
and Their Effects (May 14, 2015), written by Dallas Burkholder.

432a
that this suggestion reflects a lack of understanding of
the complexities of the fuel market, and implicitly suggests that investment in blending infrastructure is the
only solution for merchant refiners to comply with the
RFS.
The EPA strongly disagrees with the petitioner’s
assessments of the EPA’s previous statements. In the
document referenced by the petitioner, the EPA notes
that the acquisition of downstream assets is merely
one option open to obligated parties who seek an alternative to purchasing separated RINs necessary for
compliance. The fact that ownership of positions at
terminals and access to pipeline capacity112 has continually changed over time suggests that similar changes
are possible in the future, if parties were motivated to
pursue these options. Most importantly, however, the
EPA disagrees with the statement that our suggestion
that acquiring downstream assets as one possible option
open to obligated parties implies that ownership of
these assets, as well as ownership of hydrocarbon at
the time when renewable fuel is blended (generally at
the rack), is the only option for acquiring the RINs
needed for compliance with the RFS obligations. The
EPA created the RIN system in accordance with Congressional direction, both as a general compliance
mechanism for the RFS program and to allow for the
generation and use of credits.113 Purchasing separated
RINs remains an option available for all parties to
112

While the ownership of positions at terminals and pipeline
capacity are not necessary to enable ownership of gasoline or diesel blendstocks at the rack, owning positions at terminals and
pipeline capacity are ways for obligated parties to retain ownership of petroleum blendstock at the rack, where it can be blended
with renewable fuels.
113

See CAA 211(o)(5).

433a
acquire the RINs that are needed by obligated parties.
The active market for RINs, which includes a significant stock of carryover RINs, demonstrates that RINs
are available to parties who wish to purchase them.
For example, according to EPA data there were over
50 billion RIN trades for the 2014 compliance year (the
most recent year for which data are available).114 We
firmly believe that the RIN market is capably fulfilling
this intended purpose of creating an avenue for obligated parties to comply with their RFS obligations by
purchasing RINs, rather than requiring the acquisition of distribution and blending infrastructure and/or
ownership of petroleum fuels at the rack. In this way,
the RIN market enables compliance with RFS obligation without disrupting the fuels marketplace. Rather
than a necessity, the acquisition of downstream infrastructure to enable direct access to RINs through the
blending of renewable fuels at the rack remains one of
several options. Parties may also purchase separated
RINs in the RIN market, enter into contracts with
other parties that blend renewable fuels to obtain
RINs, and purchase renewable fuel with attached
RINs, separate the RINs, and resell the renewable fuel
without RINs in order to acquire the RINs needed to
comply with the RFS standards.
H. The Current RIN Market Does Not Appear
to be Subject to Significant Manipulation,
and a Change in the Point of Obligation will
not Reduce Fraud
Some commenters suggested the RIN market is not
functioning due to manipulation and speculation
114

See Annual RIN Sales/Holdings Summary on EPA public
website: https://www.epa.gov/fuels-registration-reporting-andcompliance-help/annual-rin-salesholdings-summary

434a
within the market. Others noted that a lack of transparency in the RIN market allows for speculation, and
that a revision of the definition of obligated party
would increase transparency and reduce market abuse.
It is not clear from comments how changing the definition of obligated party would increase transparency.
Although the EPA has not seen evidence of manipulation in the RIN market, claims of market manipulation prompted the EPA to execute a memorandum of
understanding (MOU) with the U.S. Commodity
Futures Trading Commission (CFTC), which has the
authority and expertise to investigate such claims.
The EPA will continue to apprise the CFTC of allegations regarding potential market manipulation.115
Some commenters suggested that third party speculators (parties that are not involved in the production
or blending of renewable fuels and are not obligated
parties) and RIN-long parties are withholding RINs to
drive up prices. They allege that third parties and
RIN-long parties116 are profiting from these actions at
the expense of small and merchant refiners. These
commenters have not provided sufficient evidence to
support their claims that integrated refiners or unob115

Some commenters alleged speculation was negatively
impacting the functioning of the RIN market. Speculation is a
normal part of the market. Market participants that speculate on
future supply or demand, and therefore prices, aren’t doing anything wrong. In fact, this helps the market ensure that the future
demand is met at the lowest overall price possible. Unlike market
speculation, market manipulation involves a deliberate (and illegal) attempt to interfere with the free and fair operation of the
market and create artificial, false or misleading appearances
with respect to the price of, or market for, RINs.
116

RIN-long parties are those who obtain more RINs through
blending than their obligation under the RFS program; i.e., they
are “long” on RINs as compared to their obligation.

435a
ligated blenders (who would likely be RIN long) are
intentionally withholding RINs from the market in an
effort to manipulate RIN prices. As discussed further
in Section II.B above, we do not believe that current
RIN prices reflect successful efforts by some parties to
artificially inflate RIN prices, but rather that they are
reflect the costs associated with producing additional
volumes of renewable fuel (in the case of biodiesel) or
the financial incentives needed to sell additional volumes of higher level blends of renewable fuel (in the
case of ethanol).
The EPA received some other comments that changing the point of obligation to the “position holders”
would reduce fraud in the RFS program. These parties
generally claimed that “position holders” are better
equipped to ensure the validity of RINs because they
are closer to the actual point of blending. In response
to these comments, EPA notes that the majority of the
RIN fraud seen in the RFS program to date has been
for RINs associated with biodiesel. The majority of biodiesel is blended with diesel downstream of the rack.
Therefore, “position holders,” who by definition transfer ownership of the fuel at the rack, may be in no
better position to monitor biodiesel blending than a
refiner. Under the current Part 80 regulations, each
obligated party incurs an RVO for both diesel and
gasoline, even if they are only producing one of the two
types of fuel. Likewise, if the point of obligation moved
to “position holders,” even “position holders” that only
blend ethanol into gasoline would still incur an RVO
for diesel and would still be required to acquire RINs
from biodiesel blending.
Several commenters pointed to comments from
Doug Parker indicating that the chain of custody
between producer, blender, and refiner has led to

436a
fraud within the RIN market. As an initial matter,
historically, EPA has seen fraud within the RIN
market at locations upstream of the point of compliance and the point of obligation. Generally, defendants
in the majority of the RIN fraud cases brought to date
generate RINs for fuel that is never produced, generate RINs for fuel that is not used for a qualifying
purpose (transportation fuel, heating oil or jet fuel), or
export renewable fuel without retiring the appropriate
RINs. These cases have resulted in significant criminal convictions and a substantial number of associated
civil enforcement cases. The EPA believes that our
enforcement actions and increased due diligence by
RIN purchasers have helped to deter these types of
violations, and note that these fraud cases are unlikely
to have been prevented by a different point of obligation due to the nature of the fraud.
Some commenters, relying on Doug Parker’s analysis suggested that “shortening the RIN chain of custody between the point of compliance117 and the point
of obligation” would inherently reduce the opportunity
and incentive for fraud.118 These comments suggest
that the current “chain of custody” places refiners and
importers “multiple steps removed from the decision
point on where renewable fuel is purchased in order to

117

Although the “point of compliance” is not defined in
Parker’s comments, EPA believes that this would be the point
where renewable fuel is blended with non-renewable fuel. As
mentioned above, for ethanol blending, this often occurs at the
rack, however blending of biodiesel occurs most often downstream
from the rack.
118

See, e.g., Comments from Small Refiners’ Coalition, HQOAR-2015-0054-0406.

437a
blend it,” and that blenders have direct engagement
with renewable fuel producers and are better able to
“assess the quality and integrity of their suppliers.”
119

These commenters suggested that a change to the
point of obligation would place compliance through
blending closer to the renewable fuel source and would
improve verification. Despite commenters suggestions
to the contrary, the chain of custody between renewable fuel producers and obligated parties could be just
as long as it is currently, and would likely be as long
in the case of biodiesel, where renewable fuel is blended
beyond “position holders,” as discussed above. Because
obligated “position holders” would still have four
unique renewable fuel volume obligations, they would
likely still have to sell and purchase RINs to meet
their RVOs for types of renewable fuel which they are
unable to blend. This is especially true for “position
holders” that primarily sell a single fuel type, such as
gasoline or diesel, and therefore have limited opportunities to blend ethanol or biodiesel respectively.
Doug Parker’s initial comments may have been based
on a theory where the “blender” would be obligated,
and would be the person with access to the renewable
fuel that would be blended. For ethanol blending, the
blender and the “position holder” are likely the same
person, however, for biodiesel, it is much less likely
that the blender and the “position holder” are the same
person. In his comments, he states that “changing the
point of obligation to the location where actual decisions are made on blending conventional and renewable fuel would . . . significantly enhance compliance
119

Parker, Doug. Update to: September 4, 2016 White Paper
Addressing Fraud in the Renewable Fuels Market and Regulatory Approaches to Reducing this Risk in the Future. February 3,
2017.

438a
and reduce opportunities for fraud.”120 However, changing the point of obligation to “position holders” would
not always place the point of obligation where “actual
decisions are made on blending;” for example, biodiesel
blending decisions are often made below the rack.
Thus, the disconnect between the point of obligation
and the point of blending could still exist, and likely
would for biodiesel. While changing the point of obligation to the position holder may shorten the chain of
custody for RINs associated with ethanol, most of which
is currently blended at the rack, we note that the vast
majority of RIN fraud cases to date have been associated with biomass-based diesel (D4) RINs.
There continues to be a significant risk of invalid
RINs in the market arising from the use of improper
feedstocks, unapproved pathways or even improper
attribution of pathways (e.g. overstating production of
renewable fuel from cellulosic vs. non-cellulosic feedstocks). Smaller parties with less resources will have
correspondingly less likelihood of detecting these
problems. Doug Parker, in comments, also suggested
that “soaring prices of RINs” act as an additional incentive for fraud. The EPA does not dispute that fraudulent activity often occurs for financial gain, but EPA
disagrees that moving the point of obligation will reduce
the price of RINs as discussed in this section and in
Section III.
In arguing for a change in the point of obligation,
Monroe Energy suggested that under the current definition of “obligated party,” blenders and non-obligated
parties who sell RINs have no incentive to ensure that
their RINs are valid, and that refiners and importers
are the only parties at risk when purchasing poten120

[This footnote has no content in the original version]

439a
tially fraudulent RINs. The EPA notes that Monroe’s
statement is inaccurate since parties who sell RINs
must register under the RFS program, and can be held
liable if the RINs they sell are deemed invalid or fraudulent. Therefore, they do indeed have an incentive to
ensure that RINs they purchase and sell are valid.
However, we also believe that larger entities, with
more assets at risk and more resources to devote to
compliance, are more likely to engage in in-depth due
diligence investigations into RIN validity than smaller,
less sophisticated parties. Therefore, a scheme that
eliminated many larger refiners and importers from
the obligation to acquire RINs, and shifted RIN
responsibilities to smaller entities such as many “position holders” and blenders, would be more likely to
result in an increase, rather than a decrease in instances
of RIN fraud. BP and others who do not favor a change
in the point of obligation suggested that smaller parties who could become obligated if the point of obligation were changed may not have the capability to
conduct due diligence to ensure that the RINs they
acquire are valid. Once the relaxation of RIN verification occasioned by such a change in the point of obligation were noticed, the change could encourage the
generation of fraudulent RINs.
III. Changing the Point of Obligation in the RFS Program Is Not Expected to Result in the Increased
Production, Distribution, and Use of Renewable
Fuels
We have discussed in the previous section several
significant concerns about the impact changing the
point of obligation would have on the RFS program.
Given these concerns, and our overall obligation to
implement the RFS program in a way that most fully
achieves Congress’s goal of increasing renewable fuel

440a
use, the point of obligation should only be changed if it
would be expected to lead to net benefits. As we discuss in this section, we do not believe that the record
before us indicates that this is the case.
In their petitions submitted to the EPA requesting
a change to the point of obligation in the RFS program
the petitioners claim that changing the point of obligation could result in greater production, distribution,
and use of renewable fuels in the United States. The
petitioners suggest that changing the point of obligation could therefore reduce or even eliminate the need
for the EPA to exercise our waiver authorities. The
petitioners generally offer only theoretical arguments
to support these claims. In this section we describe our
evaluation of petitioners’ claims that changing the
point of obligation would increase the production, distribution, and use of renewable transportation fuels in
the United States.
The use of the EPA’s waiver authorities to reduce the
required volume obligations from the statutory levels
in recent years is primarily the result of the delay in
the commercialization of cellulosic biofuels and resulting shortfall in cellulosic biofuel production volumes
relative to the statutory targets. In addition to the
shortfall in cellulosic biofuel production, the EPA also
noted challenges associated with increasing the supply
of renewable fuel to consumers associated with distribution and use of renewable fuels, particularly ethanol
and biodiesel in its rule establishing the RFS standards for 2014-2016.
In their petitions, the parties requesting that the
EPA change the point of obligation did not address
how changing the point of obligation might impact the

441a
shortfall in cellulosic biofuel production,121 but instead
narrowly focus on the impacts on the distribution and
use of other renewable fuels, particularly ethanol and
biodiesel that they believe would result from changing
the point of obligation. The petitioners argue that
changing the point of obligation could increase the
supply of renewable fuel to consumers by increasing
the blending infrastructure for renewable fuels,
improving the retail pricing of fuel blends with higher
renewable fuel content relative to those with lower
renewable fuel content, and increasing the availability
of transportation fuels with higher level blends of
renewable fuels at the retail level.
After reviewing the petition submissions, other available data and letters opposing changing the point of
obligation from companies and associations involved
in the renewable fuel production, fuel distribution and
renewable fuel blending industries,122 and the many
comments received on the proposed denial, we continue to believe that the benefits to renewable fuel
blending claimed by the petitioners are highly unlikely
to occur. As explained below, the data available to EPA
does not indicate that changing the point of obligation
would result in an increase in the infrastructure

121

Several petitioners and commenters did address this issue
in their comments on the proposed denial of the petitions to
change the Point of Obligation in the RFS program. These comments are addressed in Section III.F below.
122

See Presentation from Murphy USA to EPA, August 16,
2016; Letter from RaceTrac to Administrator McCarthy, August
17, 2016; Letter from QuikTrip to Administrator McCarthy,
August 17, 2016; Letter from Tim Columbus to Administrator
McCarthy, August 15, 2016; Letter from Pilot Flying J to Administrator McCarthy, August 16, 2016; Letter from SIGMA and
RFA to Congressmen Whitfield and Rush, June 30, 2016.

442a
needed to blend renewable fuels at terminals or offer
these fuels at retail stations, nor would it be expected
to appreciably impact the price of renewable fuel
blends at the retail level. While we have received
comments from large renewable fuel producers123 and
associations representing renewable fuel producers124
opposing changing the point of obligation, only a few
renewable fuel producers or associations have expressed
support for changing the point of obligation.125 Some of
the renewable fuel producers that supported changing
the point of obligation appeared to do so conditionally,
requesting that EPA consider factors such as increasing requirements for renewable fuel use and promoting predictability and stability for all sectors in our
decision on the point of obligation.126 Other renewable
fuel producers acknowledged the potential concerns
with changing the point of obligation while expressing
the belief that changing the point of obligation could
lead to positive outcomes, and concluded by simply
requesting that the EPA consider a rulemaking process to receive stakeholder input on this issue.127 Since
renewable fuel producers would stand to gain from any
RFS structural changes that would increase the distribution and use of renewable fuels, their general oppo123

Comments from REG on the proposed RFS standards for
2017 and the biomass based diesel standard for 2018 (EPA-HQOAR-2016-0004-3477).
124

Letter from SIGMA and RFA to Congressmen Whitfield
and Rush, June 30, 2016.
125

For example, see comments submitted by Valero Renewable Fuels Company, EPA-HQ-OAR-2016-0544-0413.
126

For example, see comments from Crimson Renewable Energy, EPA-HQ-OAR-2016-0544-0376.
127

For example, see comments from AgriFuels, EPA-HQ-OAR2016-0544-0210.

443a
sition to a change in the point of obligation is significant.
Additionally, the EPA notes that the agency did not
exercise the general waiver authority on the basis of
inadequate domestic supply in establishing the 2017
RFS standards, and did not propose to do so for the
2018 standards. Thus, EPA established for 2017, and
proposed for 2018 EPA, volume reductions that are
attributable to insufficient production of cellulosic biofuel. We do not believe that this type of shortfall would
be reduced or alleviated by a change in the point of
obligation. Thus, the focus of the petitioners on potential impacts of a change to the point of obligation on
distribution and use of renewable fuels such as ethanol and biodiesel is not even directed at the primary
hurdles facing renewable fuel growth under the RFS
program going forward. Finally, the United States
Court of Appeals for the District of Columbia Circuit
recently ruled that EPA’s interpretation of the “inadequate domestic supply” portion of its waiver authority
in developing the 2016 total renewable fuel standard
was inappropriate, and that in the future EPA may
only consider “supply-side factors: in assessing if an
“inadequate domestic supply” of renewable fuel exists.128
Therefore, to the extent that petitioners claim that a
change in the point of obligation would overcome constraints in the distribution of renewable fuel from
refiners, importers or blenders to consumers, or in the
use of renewable fuel by consumers, it does not appear
that this would lead to a difference in EPA’s use of the
inadequate domestic supply waiver authority under
the direction EPA recently received from the DC Circuit.
128

See Americans for Clean Energy v. Environmental Protection Agency, No. 16-1005, Slip Op. 31-32 (D.C. Cir. July 28, 2017)
(“ACE”).

444a
For these and other reasons, as discussed below, contrary to the petitioners’ claims, the EPA believes that
the production, distribution, and use of renewable
transportation fuels is unlikely to be positively
impacted by changing the point of obligation in the
RFS program.
Before assessing the potential impacts on renewable
fuel production, distribution, and use in the subsections that follow we first address the EPA’s statutory
authority to place the point of obligation on various
suggested parties.
A. Some of the Proposed Changes to the Point
of Obligation Are Inconsistent with the CAA
EPA believes that certain of the proposed changes to
RFS point of obligation are inconsistent with the
Clean Air Act. Although we note these inconsistences
here, we emphasize that our denial of the petitions is
not dependent on this legal analysis. For the reasons
described elsewhere in this document, the EPA would
deny the petitions seeking a change in the point of
obligation even if it concluded that it had legal authority to enact the suggested changes.
In its petition for reconsideration, the Coalition recommends that the EPA move the point of obligation to
“blenders and distributors” without addressing EPA’s
authority to do so consistent with CAA 211(o)(3). See
Coalition Petition, p. 14. In its petition, the Coalition
cites text from CAA 211(o)(2)(A)(iii) indicating that the
regulations EPA establishes to implement the RFS
program “shall contain compliance provisions applicable to refineries, blenders, distributors, and importers,
as appropriate.” The Coalition suggests that including
“distributors” in this list of entities regarding which
compliance provisions may be established would author-

445a
ize the EPA to establish the point of obligation for
compliance with the RFS annual standards on distributors. However, the Act includes a different provision
specifically identifying the parties that may be required
to comply with the annual percentage standards. CAA
211(o)(3) describes the requirement for the EPA to
establish annual standards under the Act, and provides
that “[t]he renewable fuel obligation . . . shall . . . be
applicable to refineries, blenders, and importers, as
appropriate.”129 Distributors are excluded from this
list. Reading these two provisions together, EPA’s
interpretation is that it has authority to establish
ancillary compliance provisions which apply to distributors, but it does not have authority to make distributors directly subject to the annual percentage standards.130, 131
129

CAA 211(o)(3)(B)(ii)(I).

130

We believe that moving the point of obligation to distributors in addition to, or in the alternative to, blenders and “position
holders,” would result in imposition of the obligation on a large
number of new parties, including small businesses. As discussed
in Sections II.E. and IV, we believe that this would be a generally
undesirable result, unless it could clearly be demonstrated that
such a change would result in net benefits, potentially including
the increased production, distribution and use of renewable fuels.
However, for the reasons discussed elsewhere, including in Sections III.B.-E., we do not believe that this would be the case.
131

EPA notes that the Coalition has moved away from this
interpretation in its comments, and instead advocates that the
definition of “obligated party” should be changed to obligate “position holders.” In their comments on the RFS 2014-2016 final rule,
they urged EPA to place the obligation on “position holders,” Comments from Small Refiners Coalition Comments on Renewable
Fuel Standard Program: Standards for 2014, 2015, and 2016 and
Biomass-Based Diesel Volume for 2017, HQ-OAR-2015-01112339, and in the comments on the proposed denial, the Coalition
also suggested that EPA define “obligated party” to include

446a
A number of Petitioners and other commenters suggest that the point of obligation be placed on “position
holders.”132 They explain that “position holders” may
or may not be blenders, but they argue that because
all “position holders” could be blenders, the EPA has
the authority to impose the point of obligation on
them. They propose that the “obligation [would attach]
whether a party actually blends or not,” and explains
that their proposed definition of obligated party “does
not even make actual blending critical.”133 In comments, Petitioners suggested that the EPA has broad
authority to obligate “position holders” as a subset of
blenders because they “control the point of blending.”
Commenters also suggested that the EPA could redefine “refiner” and “refinery” to include “position holders.” Some commenters suggested that the EPA’s past
consideration of its authority to impose the point of
obligation on downstream parties means the EPA must
have the authority to regulate “position holders.”
The EPA does not interpret CAA 211(o) as authorizing it to make “position holders” subject to the renewable volume obligation if they are not blenders, importers or refiners. EPA received comments from the
Association of American Railroads, the American Trucking Association and UPS indicating that they or their
members are not refiners, importers, or blenders, and
yet would be obligated under the proposed definition
“position holders.” Comments from Small Refiners Coalition, HQOAR-2016-0544-0406, 5. In the alternative, the Coalition argues
that EPA clearly has the authority to obligate all blenders. Ibid.
132

In its petition, Valero uses the term “rack sellers” to represent those parties who own fuel above the rack. As mentioned
above, we have chosen instead to use the term “position holders”
to describe these parties.
133

Valero Petition for Rulemaking, June 13, 2016.

447a
of obligated party because they are “position holders.”134 A “position holder” may have authority to decide whether or not to blend renewable fuel into nonrenewable fuel at a particular terminal, but EPA does
not interpret the term “blender” in CAA 211(o) as
describing anyone who is in a position to choose
whether or not to engage in blending, but rather as
describing those parties who actually engage in blending.135 EPA also does not believe it would be appropriate to redefine the terms “refiners” and “importers” to
include “position holders” who do not engage in any
refining or importing. Such an approach would not be
consistent with EPA’s existing regulatory definitions
or common industry usage. In sum, EPA does not
interpret the CAA as authorizing it to place the point
of obligation on all “position holders” or distributors,
since they are not all refiners, importers or blenders.
Of course, EPA does have authority to place the point
of obligation on blenders (which would include the
majority of the “position holders”), but for reasons
discussed further below we continue to find it appropriate not to do so.

134

Comments from Association of American Railroads, EPAHQ-OAR-2016-0544-0359; Comments from American Trucking
Association, EPA-HQ-OAR-2016-0544-0355; Comments from UPS,
EPA-HQ-OAR-2016-0544-0076.
135

A decision to treat people as having engaged in an activity
simply because they have the opportunity to engage in it would
be quite unusual. For example, a landowner not making active
use of their land would not normally be considered a “farmer”
simply because they could decide in the future to engage in farming.

448a
B. Renewable Fuel Production, Distribution,
and Use Does Not Appear to Be Significantly
Limited by Blending Infrastructure
One of the ways that the petitioners claim renewable fuel production, distribution, and use could be positively impacted by changing the point of obligation in
the RFS program is by increasing the incentive for the
installation and expansion of renewable fuel blending
infrastructure, especially at terminals. The petitioners
claim that the current point of obligation results in a
number of parties that are either “naturally long on
RINs,” because they are obligated parties that blend
renewable fuels at volumes above their RFS obligations (generally because they blend renewable fuel into
more petroleum products than they refine or import), or
because they blend renewable fuels but are not obligated parties under the RFS program. According to
the petitioners and some commenters, these parties
have an incentive to oppose the installation and
expansion of infrastructure needed to increase the
blending of renewable fuels into transportation fuel in
an effort to restrict RIN availability and drive up RIN
prices.136 The EPA has investigated these claims and
does not find them to be supported. We acknowledge
that some parties may be hesitant to contribute financially towards the addition of new infrastructure at
terminals to increase the availability of higher level
blends of renewable fuels due to insufficient local
demand for these fuels (in the case of E85) or previous
investment in infrastructure to offer these blends
outside of the terminal (in the case of biodiesel). As
discussed further in Section III.C below, we do not
136

For example, see Effects of Moving the Compliance Obligation under RFS2 to Suppliers of Finished Products, NERA Economic Consulting, July 27, 2015.

449a
believe the addition of such infrastructure would be
likely to increase the availability of RINs to such a
degree that it would appreciably impact the price of
RINs. It is therefore highly unlikely that any opposition to additional blending infrastructure at terminals
is driven by a desire to restrict RIN availability which
could theoretically result in higher RIN prices.
The EPA spoke with several terminal owners/
operators to assess the current status of renewable
fuel blending infrastructure at terminals.137 Currently
all, or nearly all, terminals contain the necessary infrastructure for the onsite storage of ethanol and the
blending of ethanol with gasoline. This infrastructure
is generally used to blend petroleum blendstocks with
10% ethanol by volume to produce a finished E10
blend. Some terminals have invested in additional infrastructure, such as additional ethanol storage capacity
and/or larger capacity lines and nozzles, to more
readily accommodate the production of fuel blends
that contain a higher proportion of ethanol, such as
E85. Even without this additional infrastructure, however, all of the terminal owners/operators communicated to the EPA that they were capable of producing
fuel blends that contain a higher proportion of ethanol
with their existing equipment. They also expressed a
willingness to make the relatively modest changes
necessary to accommodate faster loading times138 if the
existing infrastructure resulted in loading delays for
trucks at the rack. Based on these conversations, as
137

See Magellan Meeting Notes, December 16, 2015; Independent Fuel Terminal Owners Association meeting notes, January
8, 2016; Kinder Morgan meeting notes, January 22, 2016.
138

Because most ethanol blending infrastructure is currently
designed to produce E10 blends, producing higher level blends
using the existing infrastructure can require longer loading times.

450a
well as the comments received, EPA does not believe
that blending infrastructure at terminals is a significant factor limiting the sale of higher level ethanol
blends. EPA further notes that the preponderance of
ethanol produced and used in the United States is
conventional (non-advanced) ethanol, and since EPA
determined that the implied statutory volume of 15
billion gallons of conventional fuel would be supplied
in 2017 and has proposed a similar finding for 2018,
that increases in ethanol distribution infrastructure
does not appear necessary to attain the statutory volume
targets for conventional and non-cellulosic advanced
biofuels.
Biodiesel blending infrastructure at terminals is
less universal than ethanol blending infrastructure,
but substantially more blending occurs downstream of
terminals for biodiesel as compared to ethanol. Production and use of biodiesel has been steadily increasing in recent years, and there is a paucity of evidence
suggesting the lack of blending infrastructure poses
an obstacle or constraint on further biodiesel use. In
fact, biodiesel blending is well above the required volume. While we were unable to determine precisely
what percentage of terminals have biodiesel blending
infrastructure, the terminal owners/operators generally communicated that they were willing to install
biodiesel blending infrastructure at terminals in
situations where biodiesel is available and they could
reasonably expect a return on these investments.139 A
review of publicly available information from OPIS
suggests that approximately half of all terminals list
prices for biodiesel and/or biodiesel blends.140 This may
139
140

Magellan Meeting Notes, December 16, 2015.

See OPIS Rack City List (http://www.opisnet.com/resour
ces/rackcode.aspx#biodiesel). Approximation made by comparing

451a
in fact under-estimate the actual availability of
biodiesel blends at terminals as diesel fuel containing
up to 5% biodiesel is not required to be labeled as a
biodiesel blend.141 In situations where biodiesel blending infrastructure is not present at terminals, other
parties have invested in alternative blending infrastructure to produce biodiesel blends downstream of
terminals, further increasing the availability of biodiesel blends. Several large truck stop chains, driven
by a desire to offer their customers lower priced fuel,
have invested in infrastructure at retail locations to
provide biodiesel blends for that location, and in some
cases at other nearby retail stations.142 Similarly, “jobbers” may take diesel fuel from bulk terminals and
blend it with biodiesel before subsequent distribution,
providing another opportunity for biodiesel blending.143 In these cases it is unclear what impact, if any,
changing the point of obligation to “position holders”
would have on the availability of biodiesel blends as
the current regulations appear to be providing a substantial incentive for parties to invest in biodiesel
infrastructure, both at terminals and at other downstream locations.144 As noted earlier, the required vol-

the number of cities for which OPIS lists gasoline and diesel
prices to the number of cities for which OPIS lists biodiesel prices.
141

See ASTM D 975.

142

See National Biodiesel Board comments on 2017 Annual
Standards Rule; Attachment 6 (EPA-HQ-OAR-2016-0004-2904).
143
144

Ibid.

However, changing the point of obligation to “blenders”
would make every truck stop or fuel retailer that blends biodiesel
subject to the RFS. This could result in a reduction in downstream blending of biodiesel (as these parties concluded it was no
longer worthwhile to engage in blending), or else could bring a

452a
ume of biomass based diesel for 2017 is twice the
statutory minimum volume. To the extent that renewable fuel use may be currently constrained by insufficient blending infrastructure we do not believe that
changing the point of obligation would result in the
additional investments claimed by the petitioners, as
many of the parties that would become obligated if the
petitioners’ requests were granted are already investing in blending infrastructure. While the EPA continues to believe that there may be parts of the country
that have limited or no access to biodiesel or biodiesel
blends, this is generally the result of the higher
expense and logistical complications associated with
transporting biodiesel or biodiesel blends long distances
to areas with little or no local biodiesel production,
rather than an inability or unwillingness to invest in
the necessary blending infrastructure, either at or downstream of the terminals. Furthermore, such cases continue to decline as a result of the continuing investment in biodiesel distribution infrastructure.
The EPA received comments claiming that changing
the point of obligation would likely increase investment in biodiesel blending infrastructure at terminals,
and that this would lead to higher biodiesel use in the
United States.145 Commenters claim that the most cost
effective point to blend biodiesel is at the terminal, but
that currently obligated parties with sufficient RINs
and/or unobligated blenders are blocking the
installation of additional biodiesel blending infrastructure at terminals. If the point of obligation were
changed, they argue that the equal obligations at the
large number of small entities, with little relevant compliance
experience, into the RFS program.
145

See, e.g., comments submitted by Joe Jobe, President of
Rockhouse Advisors, LLC, EPA-HQ-OAR-2016-0544-0271.

453a
rack would result in greater investment in biodiesel
blending infrastructure at the rack. In his comments
Mr. Jobe, president of Rockhouse Advisors, argues
that because most biodiesel blending currently takes
place downstream by a relatively small number of
large companies this allows these companies to realize
significant profits by keeping biodiesel prices low
and/or keeping D4 RIN prices high.146 He further
argues that the current point of obligation discourages
domestic biodiesel by encouraging the import of
biodiesel at a lower cost, and that moving the point of
obligation could benefit domestic producers by moving
the demand for biodiesel away from the coasts to the
approximately 1,000 terminals around the country.
The EPA believes it is highly unlikely that the many
claimed benefits to the biodiesel industry associated
with changing the point of obligation would occur. All
or nearly all of these claimed benefits are dependent
on additional investment in biodiesel blending at terminals. However, as Mr. Jobe notes in his comments,
the response to increasing RFS requirements for
biomass-based diesel and advanced biofuel has primarily been to increase biodiesel blending capacity
downstream of the terminals. This is likely occurring
because the parties that are currently blending the
majority of the biodiesel have determined that it is
more cost effective to blend biodiesel downstream of
the terminal, rather than at the terminal itself, and
not because a small number of companies are exercising market power to reap excess profits. This is the
case even though the majority of obligated parties
(refiners and importers) are “position holders,” and
would stand to benefit by adding biodiesel blending
146

Ibid.

454a
infrastructure at terminals if this were likely to result
in lower cost compliance options. Further, Mr. Jobe
does not present compelling evidence that the current
price of biomass-based diesel RINs is the result of a
relatively few large biodiesel blenders ability to artificially inflate RIN prices. Rather, the high price of
biomass-based diesel RINs is generally the result of
the relatively high cost of biodiesel production due to
the high cost of the marginal feedstock (generally virgin soy oil) relative to petroleum diesel.147
If the EPA were to change the point of obligation to
“position holders” it would result in increased obligations for many of the parties that currently sell gasoline and diesel at the rack, including both those that
are currently obligated parties and those that are
not.148 Mr. Jobe claims this would increase the incentives for parties who sell gasoline and diesel at the
rack to invest in biodiesel blending infrastructure at

147

According to USDA’s August 25, 2017 National Weekly Ag
Energy Round-up the price for crude soybean oil was approximately $0.34 per pound. Each gallon of biodiesel requires approximately 7.5 pounds of feedstock, which would result in a feedstock
cost of approximately $2.55 per gallon of biodiesel produced from
soy oil. According to the Energy Information Administration, the
spot price for No. 2 ULSD on August 25 ranged from $1.59 - $1.73,
depending on location. For biodiesel produced from soy oil (likely
the marginal gallon of biodiesel) the feedstock cost alone is significantly greater than the wholesale cost of petroleum diesel, before
considering other costs of production such as labor, energy, capital recovery, etc.
148

Currently obligated parties could see their obligations
increase if they may sell more fuel across the rack than they currently refine. Because the proposed change to the point of obligation would make the obligation proportional to the amount of fuel
sold over the rack, this could result in an increase for rack sellers
in this position.

455a
the rack, as they would now all be “RIN-short” and
would need additional RINs to meet their RFS obligations.149 However, if the majority of the biodiesel
blending (and thus BBD RIN separation) is currently
occurring downstream of the rack by parties such as
truck stop owners with little to no RFS obligations, as
claimed by the commenters and supported by the data
they present, this strongly implies that most obligated
parties currently selling gasoline and diesel at the
rack are already “RIN-short” with respect to biomassbased diesel RINs and must obtain at least some
portion of their required BBD RINs through purchasing separated RINs.150 It follows that because most
parties that sell gasoline and diesel at the rack are
likely RIN-short with respect to their biomass-based
diesel obligations, that terminals should already have
a significant incentive to add biodiesel blending infrastructure. There are two cases in which this would not
be true; if purchasing separated RINs from the large
unobligated blenders is a more cost effective way of
149

Mr. Jobe’s comment also appears to assume increasing RFS
standards that would require obligated parties to continue to
increase renewable fuel blending in subsequent years. If the
standards do not increase substantially there would be no
incentive to expand renewable fuel distribution infrastructure
beyond what already exists, as using existing infrastructure is
more cost effective than installing new infrastructure.
150

While the IRS data assessed by EPA indicates there are a
large number of “position holders” that are currently not obligated parties, the data also indicates that these non-obligated
“position holders” are responsible for a very small volume of the
gasoline and diesel sold at terminals (see further discussion in
Sections IV.A and IV.B). Therefore, in light of the considerable
biodiesel blending that occurs downstream from terminals, it is
reasonable to assume that the gasoline and diesel sold at terminals is by parties that are generally “RIN-short” with respect to
biomass-based diesel RINs.

456a
acquiring D4 RINs than adding biodiesel blending
infrastructure at the terminal, or if the unobligated
blenders are sufficiently able to block the installation
of the necessary infrastructure. If the former is the
case, it appears unlikely that changing the point of
obligation will cause parties to choose a more expensive compliance option. If instead unobligated blenders are able to block the installation of the necessary
infrastructure to blend biodiesel at terminals, it seems
unlikely that changing the point of obligation will
cause the large downstream blenders to abandon their
presumably profitable downstream blending operations in favor of participating in infrastructure investments at the rack.
Even if changing the point of obligation were to
increase biodiesel blending infrastructure at terminals, the benefits to domestic biodiesel producers that
Mr. Jobe claims would result seem highly unlikely.
Additional blending infrastructure at terminals would
not cause biodiesel blenders to suddenly purchase
higher volumes of domestic biodiesel if imported
biodiesel continues to be available at lower prices.
Demand for biodiesel is much more likely to be
impacted by the price of biodiesel (relative to petroleum based diesel) than the availability of blending
infrastructure at terminals. As long as significant
volumes of low cost imported biodiesel are available
we anticipate imported biodiesel will preferentially be
purchased and blended over higher priced domestic
product, particularly near large ports. In this scenario,
obligated parties that sell significant volumes of fuel
in the interior of the United States would likely purchase separated RINs to meet their compliance obligations, rather than purchasing and blending relatively
high cost domestic biodiesel.

457a
Based on the above information, it appears that
renewable fuels and renewable fuel blends are currently widely available across the United States. Ethanol is available at all or nearly all terminals and while
much of the blending infrastructure may not currently
be optimized to produce higher level ethanol blends, it
is capable of such optimization. Biodiesel blending
infrastructure is more varied, with many terminals
having blending infrastructure on-site, some receiving
pre-blended biodiesel, and much biodiesel being blended downstream of terminals. Where biodiesel blending
infrastructure does not exist we believe it is primarily
the result of the higher expense associated with transporting biodiesel to locations with limited or no local
biodiesel production.
In any case, we do not believe that the lack of proper
incentives to expand blending infrastructure is a primary factor limiting the production or use of renewable fuels in the transportation sector. While blending
infrastructure is not universal at all terminals, the
primary issues limiting the production and use of
renewable fuels are the status of the production technologies to economically produce cellulosic fuels and to
a lesser degree the limited consumer demand for higher
level ethanol blends.151 Given the observed sufficiency
of blending infrastructure, and the apparent ability of
the current regulatory program to incentivize installa151

While low consumer demand for higher level ethanol blends
did not require the use of EPA’s general waiver authority to reduce
the implied statutory volume of conventional biofuel in 2017, or
in EPA’s proposed rule for 2018, low demand for these fuels could
theoretically result in higher RIN prices than would be realized
if consumer demand for these fuels were greater. However, as discussed throughout this document, the record before EPA does not
demonstrate that changing the point of obligation is likely to
result in greater sales volumes of higher level ethanol blends.

458a
tion of blending infrastructure (whether at or downstream of fuel terminals), the record before us does not
support the allegations of petitioners that changing
the point of obligation would result in increased use of
renewable fuels in the United States as a result of
additional incentives or motivation for the installation
of blending infrastructure.
C. Changing the Point of Obligation Is Not
Expected to Significantly Impact the Retail
Pricing of Fuel Blends with High Renewable
Content
One of the factors that could affect the expansion of
renewable fuel use in the United States, identified
both by the EPA in prior actions and by the parties
requesting a change to the point of obligation, is the
retail pricing of fuel blends that contain higher concentrations of renewable fuel, such as E85.152 This is primarily an issue for fuels blended with ethanol. Biodiesel blends tend to be offered at a discount to
petroleum based diesel fuel and this discount, which is
significantly enabled by the value of the RINs associated with the biodiesel and the biodiesel blenders’ tax

152

As discussed in Section II.A, the EPA believes that at this
time the primary factor constraining attainment of the statutory
volume targets is the shortfall in cellulosic biofuel production.
EPA did not base the reduced volumes used in establishing the
2017 RFS standards, or the proposed 2018 RFS standards, on any
perceived limitation in the ability to distribute or sell E85, and at
this time we have no basis for expecting that this limitation
would impact future waiver decisions. However, if changing the
point of obligation were to lead to the market selling greater volumes of higher level ethanol blends (such as E85 or E15) at lower
prices this could potentially reduce the price of D6 RINs, which
is perceived by the petitioners as advantageous.

459a
credit, is regularly large enough to offset the very
small impacts that biodiesel blends have on fuel economy. Retailers have often noted the ability to offer
biodiesel blends at a discount to petroleum diesel fuel,
and the consumer demand for lower priced biodiesel
blends, as a primary reason for offering these fuels for
retail sale.154 The relatively high degree of competition
among diesel fuel retailers and favorable pricing for
biodiesel blends, together with the RFS mandates, are
contributing to increasing demand for biodiesel blends
and growth in biodiesel production, distribution, and
use well beyond the statutory volumes. Consequently,
available evidence strongly suggests that the RFS
program, in conjunction with other incentives for
biodiesel, have been very effective in increasing the
supply of biodiesel.
153

The current retail availability and pricing for E85,
however, is significantly different. E85 is currently
offered for sale at approximately 3200 stations across
the United States (approximately 2% of all retail fuel
stations).155 The low energy density of E85, relative to
E10, means that consumers must purchase a significantly greater volume of E85 than E10, and refill their
fuel tanks more frequently, to travel the same distance. While some individual stations have offered
153

The $1/gallon biodiesel blenders tax credit has been available every year from 2010-2016 (in some years the tax credit was
reinstated retroactively). Currently, this tax credit is not available for 2017.
154

Letter from Pilot Flying J to Administrator McCarthy, August
16, 2016.
155

E85 station count from the U.S. Department of Energy
Alternative Fuels Data Center Alternative Fueling Station
Locator. Available online at http://www.afdc.energy.gov/locator
/stations/

460a
E85 at a price that more than accounts for the difference in energy density between E85 and E10, this
favorable pricing is not generally applicable across the
United States.156 This is despite the fact that in 2015
the relative prices of gasoline blendstocks, ethanol,
and D6 RINs, as well as the limited wholesale E85
pricing information available, suggested that E85
could be offered at a price discount greater than the
energy content difference between E85 and E10.157 In
a supporting document for the final rule establishing
the RFS percentage standards for 2014-2016, the EPA
examined the potential for higher RFS standards, and
the higher RIN prices that could be expected as a
result of higher standards, to incentivize lower E85
retail prices and higher sales volumes.158 In this
document we concluded that a lack of competition
among E85 retail stations limited the ability for RIN
prices to effectively impact retail E85 prices, ultimately limiting the ability of the RFS standards to
incentivize a significantly greater supply of E85 to
consumers in the near term.
In their requests to change the point of obligation of
the RFS program, the petitioners argue that if the
EPA changed the point of obligation the RFS standards would have a greater ability to impact the retail
price of E85 and incentivize greater use of this fuel. In
156

See E85 pricing information available at E85prices.com.
E85 generally requires a minimum 22% price discount relative to
E10 to be an equal cost fuel for consumers on a cost per mile traveled basis.
157

See discussion in the final rule establishing the RFS standards for 2014-2016 (80 FR 77,420, Dec., 14, 2015).
158

“An Assessment of the Impact of RIN Prices on the Retail
Price of E85,” Dallas Burkholder, Office of Transportation and
Air Quality, US EPA. November 2015.

461a
comments, petitioners and others suggested that obligating downstream parties like “position holders,” and
increasing obligations for currently RIN-long parties,
could result in more price discounting. We find no
basis for the claim that changing the point of obligation would have this effect, nor did commenters submit
any data that would support this conclusion. Rather
we believe changing the point of obligation would be
unlikely to impact the retail pricing of E85. We believe
the primary factors inhibiting the RFS program from
significantly increasing the supply of E85 to consumers are the limited number of retail stations selling
E85 and the relative pricing of E85 versus E10.
Further, we believe that the generally non-competitive
pricing of E85 at retail is not due to the pricing of E85
at the wholesale level, but is instead the result of the
non-competitive retail market for E85. This noncompetitive market often results in a not unexpected
E85 pricing strategy by retail stations that seeks to
maximize fuel margins through withholding RIN
value and leading to greater profitability, rather than
a strategy that seeks to maximize sales volumes
through lower retail prices by passing a greater portion of the RIN value through to consumers. Changing
the point of obligation to renewable fuel blenders or
“position holders” at the rack is not expected to affect
these underlying market fundamentals at retail stations.159
One of the arguments made by the petitioners, in
their petitions and in comments, for changing the
point of obligation in the RFS program is that the
159

Even if EPA changed the point of obligation to “position
holders” retail station owners would generally not be obligated
parties, and thus the change is unlikely to directly impact retail
fuel pricing decisions.

462a
current point of obligation creates a disincentive for
parties with excess RINs (un-obligated blenders and
parties that sell more gasoline and diesel fuel blended
with renewable fuel than they refine or import) to
increase the use of renewable fuels by offering fuel
blends with high renewable content at attractive pricing. They argue that because these parties profit from
selling RINs they are incentivized to keep the RIN
prices as high as possible by restricting the blending
of additional renewable fuel and/or pricing fuels with
higher renewable content such as E85 at levels that
are unattractive to consumers, thereby restricting the
supply of RINs. According to the petitioners, if the EPA
were to change the point of obligation in such a way
that RFS obligations were proportional to the volume
of gasoline and diesel fuel that a party blends with
renewable fuel and/or sells at the rack, rather than the
volume of gasoline and diesel a party refines or imports,
these parties would have a greater incentive to pass
the RIN value through to retail station owners, who
would then pass the value on to E85 consumers, ultimately reducing the retail price of E85 and increasing
E85 sales.
The EPA believes this argument is flawed. Because
parties that blend renewable fuels or sell fuel at the
rack cannot dictate the retail price of the fuels they
sell (unless they also own the retail stations), changing
the point of obligation of the RFS program would only
be expected to directly impact the wholesale pricing of
fuels such as E15 and E85. While some of the parties
(blenders or position holders) that would become obligated if the EPA were to change the point of obligation
as suggested in the petitions own retail stations, many
do not. Parties that do not own retail stations, or own
very few, primarily impact the retail price of E85, or
any fuel, through the prices at which they offer the fuel

463a
at the wholesale level. Wholesale pricing data for E85
are currently very limited. However, what information
is available, such as the wholesale E85 pricing published by the Iowa Renewable Fuels Association,
shows that in Iowa the wholesale price of E85 already
largely reflects the discount enabled by the RIN value
associated with this fuel (See Figures 2 and 3 below for
wholesale pricing for E85 and E10 in Iowa).160 This is
consistent with letters EPA has received from fuel blenders who told the EPA that it is their practice to price
all the fuel they sell at the wholesale level, including
E85, at a level that reflects the discount enabled by the
RIN value in an effort to offer competitively priced
fuel.161 The petitioners and commenters did not provide compelling evidence to suggest that a significant
portion of the RIN value was being withheld by the
wholesale providers of E85. If the RIN value is already
being largely reflected in the wholesale price of E85,
changing the point of obligation to parties that determine the wholesale pricing of E85 would not be expected
to result in improved pricing of E85 at the wholesale
level.
Even if changing the point of obligation as requested
by the petitioners were to result in improved pricing of

160

This finding conflicts with the paper prepared by NERA on
behalf of Valero (Effects of Moving the Compliance Obligation
under RFS2 to Suppliers of Finished Products), however we note
that NERA provides no data to support their claim that the value
of the RIN is not reflected in the wholesale price of E85. Instead,
they simply refer to the fact that the full value of the RIN is not
reflected in the retail price of E85.
161

See Letter from Tim Columbus to Administrator McCarthy,
August 15, 2016; Letter from QuikTrip to Administrator McCarthy,
August 17, 2016; Letter from RaceTrac to Administrator McCarthy,
August 17, 2016.

464a
E85 at the wholesale level, we believe it is highly
uncertain that this would result in improved pricing
at the retail level. If pricing for E85 at retail stations
does not improve, the constraint on E85 supply to consumers attributable to retail pricing will not be remedied, hindering the likelihood that sales volumes of
E85 will increase significantly. The majority of retail
stations (56.6%) are owned by parties who own only a
single store.162 These parties rarely, if ever, blend their
own fuel or purchase fuel above the rack and therefore
will not become obligated parties even if the point of
obligation is changed as requested by the petitioners.
They would therefore have no more of an incentive to
offer E85 at discounted pricing than they do currently.
Information reviewed by the EPA for the state of Iowa
shows that even in situations where E85 is available
at a significant discount to E10 at the wholesale level,
the retail pricing of E85 does not reflect this discount.
The data on wholesale and retail pricing of E85 in
Iowa, shown in Figures 2 and 3 below, strongly suggest
that the relatively small observed discount for E85
relative to E10 at the retail level is not a result of there
being a small discount between these fuels at the
wholesale level, and would not necessarily be expected
to be improved by changing the point of obligation. The
average retail price discount for E85 relative to E10 in
Iowa was very similar to the national average retail
price discount. The average discount for E85 relative
to E10 in Iowa at the retail level, however, was much
smaller than the average discount for E85 relative to
E10 at the wholesale level (See Figure 3 below). Further, the average retail price discount for E85 was less
than the discount needed to make up for the lower
162

http://www.nacsonline.com/YourBusiness/FuelsReports/
GasPrices_2013/Pages/WhoSellsGas.aspx

465a
energy content per gallon of E85 relative to E10 (approximately 22%) during much of this time period. If the
wholesale E85 pricing data collected in Iowa are representative of the wholesale pricing for E85 nationwide,
which we believe is likely, then the wholesale prices
for E85 already reflect the majority of the RIN value
and there is very little to no additional RIN value to
be passed through at the wholesale level. Even if the
nationwide wholesale E85 pricing generally does not
reflect the RIN value, and changing the point of obligation could improve the pricing of E85 at wholesale, the
data collected from Iowa suggest that significant discounts at the wholesale level would not necessarily be
expected to be passed on to the retail level. The available data further support the view that changing the
point of obligation in the RFS program is unlikely to
result in a greater portion of the RIN value being reflected in the wholesale price of E85, and ultimately
the retail price of E85, and will not be an effective mechanism for increasing E85 sales volumes.
Figure 2
Observed vs. Theoretical E85 Wholesale Price in Iowa

466a
Wholesale prices with 100% and 0% pass-through calculated
using E10 and ethanol prices from the following sources and
assuming the effective ethanol price is discounted by 100% and
0% of the RIN value respectively E85 and E10 wholesale prices
are the average price of all wholesale sellers reported by the Iowa
Renewable Fuel Association (Available online at http://iowarfa.
org/retailer-center/iowa-wholesale-e85-price-listing-services/) Ethanol price from Agricultural Marketing Resource Center (http://
www.agmrc.org/renewable-energy/ethanol/midwest-ethanol-cashprices-basis-data-and-charts-for-selected-states/)
RIN Prices from OPIS and Argus Media

Figure 3
E85 Pricing: Iowa Wholesale and Retail Price and
National Retail Price Averages

E85 and E10 wholesale prices are the average price of all
wholesale sellers reported by the Iowa Renewable Fuel
Association (Available online at http://iowarfa.org/retailer-cen
ter/iowa-wholesale-e85-price-listing-services/) National and Iowa
E10 and E85 average prices (used to calculated the national and
Iowa discounts for E85 relative to E10) obtained from E85
prices.com

Further, the petitioners rely on a faulty assumption
when they argue that un-obligated blenders are incen-

467a
tivized to restrict RIN availability (by restricting
renewable fuel blending) in an effort to keep RIN
prices high. They assume that the overall price of RINs
could be significantly reduced as a result of the
increase in the supply of RINs that they claim would
result from a greater proportion of the discount enabled by the RIN value being reflected in the retail price
of E85.163 The petitioners provide insufficient evidence
to support this argument. In fact, some of the comments that EPA received supporting a change to the
point of obligation concede that the market for ethanol
is highly inelastic due to the limited demand for E85
and other higher level ethanol blends.164 The EPA
estimates that total E85 sales were approximately 150
million gallons in 2014. In our final rule establishing
the RVOs for 2014-2016, the EPA estimated, based on
available E85 price and sales volume data, that even
if E85 were to be sold at retail at a 50% discount to
E10 on a nationwide level, a discount more than twice
the current national average, E85 sales would still be
expected to remain low, just under 300 million gallons.165
Even if we assume an optimistic scenario, that if
parties that are able to acquire excess RINs with the
current point of obligation were able to double E85
163

In this section EPA has primarily focused on E85, rather
than other ethanol blends such as E15 or E30. This is in response
to the petitions we have received, which generally focus on E85.
Further, there is much more market experience with E85, relative to E15 or E30, better allowing for the types of analyses shown
here.
164

For example, see comments submitted by NATSO, EPAHQ-OAR-2016-0544-0282; Chevron, EPA-HQ-OAR-2016-05440209
165

80 FR 77,420 (Dec., 14, 2015).

468a
sales to 300 million gallons per year by passing through
a greater proportion of the RIN value, this would represent an opportunity to generate an additional 110
million RINs per year,166 or approximately one half of
one percent of the total number of RINs generated in
2016. We believe this number provides a perspective
on the likelihood that the additional RINs that might
be able to be generated by additional sales of E85
would significantly reduce the overall price of RINs.
Additionally, in 2016 approximately 240 million D6
RINs were supplied from grandfathered biodiesel and
renewable diesel.167 It is very likely that these were the
marginal cost D6 RINs as the RIN price associated
with these fuels is governed by the high price of feedstocks used to produce these fuels relative to petroleum. Even if additional RINs could be generated by
supplying greater volumes of E85, these additional
RINs would only be expected to appreciably reduce the
D6 RIN price after displacing these marginal conventional biodiesel and renewable diesel RINs. Since petitioners and commenters provide insufficient information
to demonstrate that changing the point of obligation
would result in enough additional low cost D6 RINs to
displace the high cost D6 RINs currently provided
by conventional biodiesel and renewable diesel,
the claim that potential additional RINs generated
from increased E85 blending would depress the overall
D6 RIN price is unsupported.
If any additional RINs supplied to the market
through increased sales volumes of E85 are not
166

An additional 150 million gallons of E85 contain approximately 110 million gallons of ethanol (assuming an average ethanol content of 74% for E85) and would therefore generate approximately 110 million RINs.
167

See 2016 RIN Supply.

469a
expected to significantly reduce the market price of
RINs, then any parties that profit from E85 and/or
RIN sales would maximize their profit by selling as
much E85 (and the associated RINs) as possible. This
appears to be the case in the current marketplace;
parties currently separating RINs in excess of their
RFS obligations are seeking to acquire as many RINs
as possible as long as the cost of doing so is less than
the value they can recover through the sale of the RIN.
Although the EPA does not believe that RIN sales by
un-obligated blenders lead to windfall profits, to the
extent petitioners believe otherwise their own logic
would suggest that these parties should currently be
incentivized to undertake efforts to increase the sale
of renewable fuel blends to increase the number of
RINs sold at a profit. If this were the case, changing
the point of obligation to blenders could therefore
reduce such sales, since blenders would retain RINs
for compliance, thereby removing an incentive for
them to increase renewable fuel sales and profits.
In summary, the EPA does not find the arguments
made by the petitioners compelling, as they do not
address what we believe to be the fundamental challenges to significantly increasing the use of renewable
fuels in the near term. As discussed in previous sections, the evidence available to the EPA does not indicate that changing the point of obligation would result
in greater availability or price discounts for cellulosic
biofuels or biodiesel blends. With respect to higher
level ethanol blends, supply of E85 to consumers is
currently inhibited by the number of retail stations
selling E85, the geographic distribution of these stations, and the relative pricing of E85 versus E10 at the
retail level. For the reasons discussed in this section,
it appears highly unlikely that changing the point of
obligation would influence the relative pricing of E85

470a
versus E10. In the next section, we discuss why the
EPA does not believe that data support the position
that changing the point of obligation would increase
the availability of E85 at retail stations.
D. Changing the Point of Obligation Is Not
Expected to Significantly Impact the Availability to Consumers of Fuel Blends with
Higher Renewable Content
In requesting that EPA change the point of obligation in the RFS program, some parties argue that this
would result in an increase in the number of retail
stations offering higher level blends of renewable fuel
such as E85. They generally argue that the renewable
fuel blenders and/or “position holders” have greater
influence over the decisions made by the retail station
owners, either through direct ownership or through
contractual relationships. The petitioners and others
argue that if the EPA were to place the point of
obligation on the blenders or “position holders,” they
would use their influence with their retail partners to
increase the number of stations offering fuel blends
such as E85 in an effort to increase their access to the
RINs needed for compliance.
While this argument is generally consistent with the
principle that the closer the point of regulation is to
the party whose behavior the regulation is intended to
impact (in this case the retail station owner) the more
effective the regulation is, in this case it ignores the
complicated relationships that exist in the fuels marketplace as well as observations from the current
marketers of E85. Currently less than 0.5% of all
fueling stations are owned by a major oil company,
while approximately 50% are branded stations, selling

471a
fuel under the brand of a refiner.168 It is unlikely that
blenders and “position holders” would be more effective at encouraging retail stations to offer E85 than
the refiners and importers of gasoline and diesel fuel
who are affiliated with these stations. This is especially true for the nearly 60% of retail stations owned
by single-store owners who are likely to face difficulties raising the capital required to install the equipment necessary to enable the sale of these fuels.169
The EPA also assessed the current affiliation of stations selling E85 in the proposed denial. The EPA
received several comments on that assessment, including one that provided an updated assessment of E85
station affiliation information. EPA has used the information provided in that comment in the revised
assessment presented below.170
Using the information presented in the comments,
we find that of the approximately 3200 stations selling
E85 in the United States at the end of 2016, approximately 40% of them were branded stations (stations
affiliated with a refiner) despite the fact that approximately 50% of all retail fuel stations are branded. Conversely, approximately 47% of all stations selling E85
were not affiliated with an obligated party, 10% were
private stations or stations owned by a federal, state,

168

http://www.nacsonline.com/YourBusiness/FuelsReports/
GasPrices_2013/Pages/WhoSellsGas.aspx
169
170

Ibid.

Letter from Ron Minsk to Sarah Dunham. February 22,
2017. Submitted as an attachment to comments from Valero,
EPA-HQ-OAR-2016-0544-0274.

472a
or local organization, and 3% were unable to be categorized.172 Large retail chains, such as Casey’s General
Stores, Kwik Trip, and Murphy USA, as well as other
unbranded stations are not generally obligated parties
under the current regulations.173 These data do not
appear to support claims that moving the point of
obligation in the RFS program would result in a
greater number of stations selling fuels with higher
levels of renewable fuel, such as E85. While there are
differences of opinion on the degree to which obligated
parties can influence whether or not their branded
stations offer E85, if it were the case that an RFS
obligation made a party more effective in encouraging
their affiliated retail stations to offer fuels containing
higher levels of renewable fuel such as E85 we would
expect that the stations affiliated with parties with an
obligation under the current RFS regulations would
have proportionally more stations offering E85 than
parties who are not affiliated with a party with an RFS
obligation. Instead, we find that while 50% of all retail
fuel stations are branded (affiliated with a refiner),
only 40% of all stations that sell E85 are branded sta171

171

The 10% of E85 stations that were private or owned by a
federal, state, or local organization are not included in the 47% of
E85 stations not affiliated with an obligated party.
172

These numbers are based on an assessment of data from
AFDC by Ron Minsk, submitted in comments on our proposed
denial of the petitions, EPA-HQ-OAR-2016-0544-0145.
173

Large retail chains could become obligated parties for all or
a portion of the petroleum products they sell if the point of obligation were changed to the renewable fuel blender or the “position
holder.” These parties purchase fuel above or below the rack depending on the logistics and economics of fuel purchasing and renewable fuel blending at various locations. See, e.g., Comments from
Casey’s General Stores, EPA-HQ-OAR-2016-0544-0268.

473a
tions. In contrast, large retail chains often directly
own retail stations, thus giving them control of the fuel
offerings at the stations they own, and a significantly
higher proportion of these stations offer E85 relative
to branded stations, as shown below; this suggests
that the current point of obligation provides significant incentives for these stations to offer E85 under
the right market conditions.
174

174

This number increases to 46% percent of all E85 stations
affiliated with obligated parties (vs.54% of all E85 stations not
affiliated with obligated parties) if we consider only public stations

474a
Table III.D-1
Retail Fuel Stations and E85 Stations by Affiliation
Branded Unbranded Private UncateStations
Stations Stations gorized
(affiliated175
(not
Stations
with obligated affiliated
parties)
with
obligated
parties);
Not
including
private
stations
All
Retail
Fuel
Stations

50%

50%

Unknown

N/A

176

E85
40%
47%
10%
3%
Retail
Stations
Furthermore, while only 50% of all retail fuel stations are not affiliated with refiners, approximately
57% of all E85 stations are not affiliated with refiners.
An unbranded station is therefore approximately 17%
175

For the purposes of this assessment, EPA has defined a station as affiliated with an obligated party (or a non-obligated
party) if they use the party’s name for marketing purposes, such
as in the name of the station, on the station signage, etc. Affiliated stations may or may not be directly owned by the party with
which they are affiliated.
176

EPA does not have data on the total number of private retail fuel stations in the United States, however it is likely that it
is sufficiently small that it does not impact this analysis.

475a
more likely to offer E85 for sale than a branded station
if we exclude consideration of private unbranded
stations.177 Unbranded station are approximately 42%
more likely to offer E85 for sale than a branded station
if we include private stations in the count of unbranded
stations that sell E85.178 Parties requesting a change
in the point of obligation in the RFS program have
claimed that such a change would result in an increasing number of retail stations offering E85 for sale. The
data does not bear this out, as E85 is offered for sale
at a higher rate at unbranded retail fuel stations relative to retail fuel stations that are affiliated with obligated parties. The record before EPA does not contain
sufficient evidence to demonstrate that the point of
obligation is a significant factor in a retail station’s
decision whether or not to offer E85.
In his critique of the EPA’s assessment of the number of E85 retail stations as branded as compared to
177

Since the number of branded and unbranded stations are
approximately equal, we determined that unbranded stations are
approximately 17% more likely to offer E85 than branded stations by dividing the percentage of E85 stations that are unbranded by the percentage of E85 stations that are branded. This
calculation was then repeated when including the percentage of
private E85 stations with the percentage of unbranded E85 stations.
178

Some parties have used this information to argue that
refiners are actively discouraging the installation of E85 infrastructure at their branded stations in an effort to discourage
renewable fuel penetration. In examining the data from AFDC,
however, EPA notes that the majority of the E85 stations at unbranded fuel retail stations are owned by large companies, rather
than single store owners. We believe that the greater access to
capital that the stations owned by large companies have relative
to single store owners is likely to be a larger factor in the higher
rate of adoption of E85 infrastructure at unbranded stations than
any influence by refiners or the RFS point of obligation.

476a
unbranded stations presented in the proposed denial,
Mr. Minsk argued that in addition to errors in categorization, the comparison presented by the EPA (comparing E85 stations counts at branded vs. unbranded
stations) was inappropriate. Mr. Minsk argues that it
is more informative to compare the number of E85
retail station affiliated with obligated parties that are
“RIN-long” vs. those affiliated with obligated parties
that are “RIN-short.”179 Mr. Minsk concludes E85 stations are much more likely at retail station affiliated
with RIN-short obligated parties, with E85 offered at
2.7% of all stations affiliated with RIN-short parties
(893 out of an estimated total of 31,000 stations), as
compared to E85 being offered at 0.9% of all stations
affiliated with RIN-long parties (368 out of an estimated 41,000 stations). When focusing only on stations
added since 2013, when D6 RIN prices first rose significantly, E85 was added at 460 stations affiliated with
RIN-short parties (1.5% of their total of 31,000 stations) while 125 stations affiliated with RIN-long parties
added E85 (0.3% of their 41,000 affiliated stations).180
Mr. Minsk suggests this is evidence that RIN-short
179

In his paper, Mr. Minsk categorizes obligated parties as
RIN-long vs. RIN-short primarily based on the volume of gasoline
and diesel the obligated parties produce relative to the estimated
volume of fuel sold at their associated retail stations. For more
detail, see Letter from Ron Minsk to Sarah Dunham. February
22, 2017. Submitted as an attachment to comments from Valero,
EPA-HQ-OAR-2016-0544-0274.
180

EPA questions Mr. Minsk’s focus on stations added since
2013. While it is true that D6 RIN prices rose substantially in
this year, it is certainly possible that obligated parties could have
anticipated that increasing demand for RINs, and associated
higher RIN prices, would result from the rapidly increasing RFS
statutory volumes. E85 stations added prior to 2013 therefore
may have been in response to expectations of higher demand for
RIN (and associated higher RIN prices) in the future.

477a
parties are more effective at encouraging the availability of E85 at retail stations they are affiliated with,
and that moving the point of obligation to the “position
holders” (and, if EPA were to set an RVO that effectively requires higher level ethanol blends, thereby
eliminating the ability for some parties to obtain the
RINs needed for compliance by simply bending 10%
ethanol with the gasoline they sell at terminals) would
result in more retail stations offering E85, and therefore greater sales volumes of ethanol.
The conclusions reached by Mr. Minsk, however, are
not sufficiently supported by the data. First, Mr.
Minsk’s assessment appears incomplete, as it does not
address the majority of the E85 stations (E85 stations
not affiliated with any type of obligated party, and
therefore affiliated with parties that are by definition
“RIN-long” due to their lack of an RFS obligation)
despite the fact that these stations outnumber stations
affiliated with obligated parties. EPA further notes
that Mr. Minsk does not convincingly address the
source of motivation that the “RIN-short” obligated
parties may have for encouraging their affiliated
stations to offer E85. As discussed above, the potential
market for E85 is not sufficient to generate enough
RINs to drive down the price of D6 RINs. This is especially true as a high RIN price is currently necessary
to incentivize E85 sales, and the D6 RIN price is likely
currently determined by the marginal gallon of conventional biofuel which we believe is currently conventional biodiesel rather than ethanol sold as E85. If
increasing the number of retail E85 stations is unlikely to result in lower D6 RIN prices it is reasonable
to question whether there are other factors, unrelated
to whether an E85 station is affiliated with a RIN-long
or RIN-short obligated party, that may explain why
E85 is more likely to be offered at branded stations

478a
affiliated with some obligated parties that others.
After reviewing the data EPA concludes that retail
stations owned by a large company are much more
likely to offer E85 than retail stations owned by a
party owning a single, or small number of retail,
regardless of whether the station is affiliated with a
RIN-long or RIN-short obligated party or if the station
is branded or not. We do not find this surprising, as
installing E85 infrastructure is a capital intensive
project and therefore much more likely to occur at
stations with significant access to capital (such as
stations owned by large companies) rather than at
stations owned by single-station owners. We further
conclude that the higher prevalence of E85 stations
affiliated with RIN-short parties (vs. RIN long parties)
is the result of a higher rate of direct ownership of
retail stations among RIN-short obligated parties,
rather than a desire by RIN-long obligated parties to
restrict the availability of D6 RINs.
The four parties categorized by Mr. Minsk as RINlong (BP, Chevron, Shell, and Exxon) directly own an
estimated total of just 458 stations out of the approximately 41,000 affiliated stations.181 Conversely, direct
ownership of retail stations is more common among
the parties characterized by Mr. Minsk as RIN-short.
Through its Speedway brand Marathon directly owns
2,730 retail stations, substantially more than all of the
RIN-long parties combined.182 Similarly Western
181

NACS. Who sells America’s Fuel? Available online at: http:
//www.nacsonline.com/YourBusiness/FuelsReports/GasPrices_20
13/Pages/WhoSellsGas.aspx
182

https://www.speedway.com/About/ The vast majority of the
stations affiliated with Marathon that offer E85 (321 out of 367)
are Speedway stations, See EPA assessment of E85 stations affiliated with Marathon.

479a
Refining and MAPCO directly own most or all of their
affiliated stations.183 While Valero does not currently
own many retail stations, the vast majority of the
stations affiliated with Valero that offer E85 are
owned by CST, a large company that owns approximately 3,000 retail stations.184 Additionally, a relatively large number of the stations affiliated with
Valero (43 of 107) added E85 prior May 2013 when
Valero spun off its retail operations to CST brands,
meaning these stations may have been directly owned
by Valero at the time they added E85.185 Altogether, of
the 893 E85 stations affiliated with RIN-short obligated parties we estimate that over 500 of these stations are directly owned by a RIN-short obligated
party or a large retail brand formerly owned by a RINshort obligated party.186 Note that this is a higher number of stations than directly owned by all of the RINlong parties combined.
Apart from whether a retail station is owned by a
large company or a party owning a single or small
number of stations, there are other factors that likely
influence whether or not stations offer E85. For exam183

See http://www.wnr.com/about-us and https://www.mapco
rewards.com/about/. Based on these websites we estimate that
Western Refining owns 429 retail stations (approximately 75% of
their total affiliated stations) while MAPCO owns 345 stations
(over 95% of their total affiliated stations).
184

http://www.cstbrands.com/en-us/OurCompany See also EPA
assessment of E85 stations affiliated with Valero.
185

See also EPA assessment of E85 stations affiliated with
Valero.
186

A total of 568 E85 stations are affiliated with Marathon,
Western Refining, MAPCO, and Valero, however not all of these
stations appear to be owned by one of the obligated parties (or
CST).

480a
ple, 165 E85 stations affiliated with RIN-Short obligated parties (19% of all the E85 stations affiliated
with RIN-short obligated parties) are affiliated with
either CENEX (149 stations) or CountryMark (16 stations). Stations affiliated with both CENEX and
CountryMark are primarily located in the midwest,
which may indicate that they have greater access to
low cost E85 (as a result of proximity to many ethanol
production plants) or the station owners and/or customers may be more inclined to support E85. Further,
while it does not appear that CENEX directly owns
any retail stations, CENEX is owned by CHS, a large
agricultural cooperative that may be inclined to support the addition of E85 at their affiliated stations in
an effort to support their core agricultural business.
To the degree that increased E85 sales support ethanol prices, and ultimately corn prices, these benefits
would be expected to be realized by CHS.
Based on our analysis of the data, EPA concludes
that the most predictive factor for whether or not a
retail fuel station offers E85 is whether the retail station is owned by a large company or whether a party
the owns only a single or a small number of retail stations. Since Mr. Minsk’s study does not control for this
factor, or other potentially significant factors such as
geography, we do not believe his work provides a sufficient basis for concluding that retail fuel stations affiliated with RIN-short parties are more likely to offer
E85 than stations affiliated with RIN-long parties.
There is thus insufficient support for the claim that
changing the point of obligation would significantly
increase the rate of growth of the number of retail
stations offering E85. Unless consumer demand for E85
increases significantly, the expansion of E85 availability at retail will likely be minimal, except in cases
where grant funding or other incentives are available,

481a
and any addition of E85 at retail stations is very likely
to be at stations owned by parties with significant
access to capital. Changing the point of obligation will
not impact any of these factors, and therefore is not
expected to result in additional availability of E85 at
retail.
Additionally, some commenters suggested that
other limitations in the market, including the number
of flex fuel vehicles, and liability and infrastructure
compatibility surrounding E15 use, are key factors
limiting the use of fuel blends with higher renewable
content that would not be impacted by changing the
point of obligation.187
E. The RFS Program Continues to Create a
Significant Incentive for Parties to Invest in
the Infrastructure Necessary to Enable
Growth in the Use of Renewable Fuels
We believe that the RFS as currently structured
provides significant incentives for further growth in
the production, distribution and use of renewable fuels
and, as discussed elsewhere, we do not believe that the
incentives for renewable fuel production, distribution,
and use would be greater if we were to change the
point of obligation. The value of the RIN that is
generated when renewable fuels are produced allows
fuel blends that contain renewable fuels to be sold at
lower prices than would otherwise be possible in the
absence of the RFS program. Terminal owners and
operators, as well as parties that blend renewable
fuels downstream of terminals, are already incentivized to invest in blending infrastructure in an effort to
187

See, e.g., Comments from Cumberland Farms, EPA-HQOAR-2016-0544-0160; Comments from Tesoro, EPA-HQ-OAR2016-0544-0244.

482a
offer their customers the lowest cost fuels possible.
Retailers are similarly incentivized to invest in the
equipment necessary to offer renewable fuel blends to
enable them to offer the widest range of fuel choices.
In cases where a lack of competition may inhibit the
full value of the RIN from being reflected in the retail
price of the fuel, the RIN value can instead provide
higher profit margins to the retail station owner to
offset their investment in expanding renewable fuel
infrastructure. This may ultimately result in more
competing retail stations investing in the equipment
necessary to offer E85, and with the increased competition retail prices for E85 would be expected to
decrease (relative to E10) over time.
Some commenters cited to language in the 20142016 final rule indicating that high RIN prices would
only result in modest increases in volumes of E85 as
evidence that RIN prices cannot drive renewable fuel
blending.188 These commenters take this language out
of context. In the 2014-2016 final rule, the EPA was
attempting to assess the degree to which an annual
volume standard could incentivize additional E85
sales in a single year, not the degree to which the RFS
program as a whole can incentivize long term investments that could result in increased renewable fuel
availability and use. EPA continues to believe that the
RIN value is incentivizing investments to increase
renewable fuel use.

188

See, e.g., Comments from CVR, EPA-HQ-OAR-2016-05440396, citing Renewable Fuel Standard Program: Standards for
2014, 2015, and 2016 and Biomass-Based Diesel Volume for 2017,
80 Fed. Reg. 77,420, 77,459 (Dec. 14, 2015).

483a
F. Changing the Point of Obligation Would Not
Be Expected to Increase Cellulosic Biofuel
Production
While there continue to be challenges related to the
distribution and use of renewable fuels in the United
States, the largest single challenge to meeting the RFS
program’s statutory volumes is the shortfall in
cellulosic biofuel production. The supply of cellulosic
biofuel for 2018 was projected in the 2018 annual rule
proposal to be only 3.4% of the statutory volume for
these fuels. The importance of cellulosic biofuels to
achieving the overall goals of the RFS program only
increases in future years, as over 90% of the growth in
the statutory volumes from 2018 to 2022 is expected to
come from cellulosic biofuel. Changing the point of
obligation would not be expected to address the
current research, development, and commercialization
challenges that will need to be overcome to enable the
production of significant volumes of cellulosic biofuel
in future years. Instead, to the degree that it reduces
the incentive of the refiners to participate in the commercialization of cellulosic biofuels, changing the point
of obligation from primarily refiners, who have significant financial resources and experience in commercializing new fuel production technologies on a large
scale, to include many smaller downstream parties
without such financial resources or experience may
negatively impact the ability of the cellulosic biofuels
industry to overcome these challenges. 189Additionally,
189

See, e.g. Comments from Tesoro, EPA-HQ-OAR-2016-05440244, suggesting that a change to the point of obligation could
“negatively impact ongoing efforts to spur advanced biofuel production initiatives being pursued by the refining industry.” See
also Letter from Tesoro, Ensyn, and Honeywell noting their
efforts for a path forward for cellulosic biofuel production.

484a
we believe that the uncertainty surrounding the RFS
program that would likely result from a change in the
point of obligation would discourage potential investors from investing in new cellulosic biofuel production
technologies and commercial scale production facilities at a time when a number of cellulosic technologies
are nearing commercial-scale production.
Some commenters suggested that by changing the
point of obligation to the “position holders” EPA would
increase the obligation for large integrated refiners, as
most of these parties sell more gasoline and diesel at
the rack than they refine or import.190 These commenters argued that changing the point of obligation to the
“position holders” would encourage these large integrated refiners to invest in cellulosic biofuels. Other
parties, including large integrated refiners, indicated
that an increasing RIN obligation for them would hinder their abilities to invest in cellulosic biofuels. Some
parties associated with the renewable fuels industry
supported EPA’s conclusion that changing the point of
obligation to “position holders” could harm investors
in cellulosic biofuel production technologies and production facilities close to commercial-scale production.191
Parties arguing that changing the point of obligation
to “position holders” would increase investment in
cellulosic biofuel development stated that the large
integrated refiners have the necessary resources and
are most capable of investing in research and development, but currently have no incentive to invest as they
can fulfill their regulatory requirements without using
cellulosic biofuel. As support for these statements the
190

EPA notes that this change would also decrease the RFS
obligation of merchant refiners
191

0217.

See, e.g. Comments from BIO, EPA-HQ-OAR-2016-0544-

485a
commenters compare the revenues of large integrated
refiners to those of relatively smaller merchant refiners and the fact that several large integrated refiners
are currently engaged in R&D efforts. The EPA does
not find the arguments that changing the point of
obligation to “position holders” would increase investment in cellulosic biofuel development convincing.
While the EPA acknowledges that large integrated
refiners have significant revenues it is not clear why
integrated refiners should be expected to invest in
cellulosic biofuel development while merchant refiners,
many of whom have less but still significant resources,
should not.192 The commenters note that several integrated refiners have recently reduced funding of R&D
efforts for cellulosic biofuels. They allege that if these
parties had relatively greater RIN obligations they
would not have scaled back their investment. However, the EPA notes that these companies began investing in cellulosic biofuel R&D at a time when the RFS
obligations were much lower than today. These parties
did not suddenly reduce their investments after finding themselves with excess RINs. Rather, as the commenters themselves discuss, they have had excess RINs
since the beginning of the RFS program. Indeed, if
RIN obligations beyond a company’s ability to obtain
RINs by blending renewable fuels made a company
more likely to invest in cellulosic biofuels, we would
expect large merchant refiners such as Valero, Holly
Frontier, and PBF Energy, which also have significant
192

Valero compares the combined revenue of Chevron and
Shell ($197 billion in 2015) to the combined revenues of Valero,
Holly Frontier, and PBF Energy ($78 billion in 2015), see EPAHQ-OAR-2016-0544-0274. EPA believes that any of these companies have sufficient revenue to invest in cellulosic biofuel development if so inclined.

486a
resources, to be investing significant sums in cellulosic
biofuels, yet even the commenters acknowledge this is
not the case. It appears it is likely that those integrated refiners that reduced their investment in
cellulosic biofuel did so after determining that these
investments were unlikely to result in long term
profits, or that whatever profits could be realized were
less than alternative investment opportunities. Finally,
we note that because the cellulosic waiver authority in
CAA 211(o)(7)(D) requires that EPA establish the
cellulosic biofuel volume requirement at the level
projected to be produced (if this volume is lower than
the statutory volume) and to make cellulosic waiver
credits available as an alternative means of compliance when the statutory volume is not in effect, the
design of the RFS program provides limited encouragement for parties of any type to invest in cellulosic
biofuels. Obligated parties, like all parties, are only
expected to invest in cellulosic biofuel to the degree
that they believe these investments will be profitable
in the long term. We believe that changing the point of
obligation to the “position holders,” and thereby placing a greater burden on integrated refiners would be
highly unlikely to significantly impact integrated
refiner’s investments in cellulosic biofuels.193
193

Some commenters suggested that changing the point of
obligation could also increase development and investment in
advanced biofuel production and use. These commenters did not
provide any reasons why a change would result in these increases, and therefore EPA does not find these arguments compelling
for similar reasons expressed above regarding cellulosic biofuel.
See, e.g., Comments from CVR Energy, EPA-HQ-OAR-2016-05440396. In fact, EPA received comments suggesting that a change
to the point of obligation would negatively impact ongoing efforts
to increase advanced biofuel production. See Comments from
Tesoro, EPA-HQ-OAR-2016-0544-0244.

487a
G. Changing the Point of Obligation Would Not
Be Expected to Increase Energy Security
As mentioned above, one of the stated goals of EISA
and the RFS program is to increase energy security.
Many commenters suggested that the EPA should consider how modifying the definition of obligated party
could increase energy security and proposed several
ways obligating “position holders” may result in
increased energy security. These commenters often
cited to comments by Commander Kirk S. Lippold,
who suggested that the RFS program is harming US
energy security.194 Commander Lippold claims that
the current point of obligation threatens the viability
of some refiners, increases fuel costs to the military
and other domestic consumers, and stimulates demand
for foreign biofuels. EPA finds insufficient factual
basis for these claims.
Some commenters suggested that the reason the
U.S. has become a net exporter of petroleum fuel in
recent years is that obligated parties were exporting
fuels to avoid the RIN obligation. Some of these commenters conceded that the RFS played only some part
in this, however others attributed the export of petroleum fuel to the RFS program. We do not believe these
statements to be accurate, as the decision to export
gasoline and diesel from the United States is driven by
a desire to realize the maximum profits for these products in the global refined product market. There are
no fuel shortages within the United States, so the
exported fuel is not being exported at the expense of
domestic use, but to find a market offering higher
prices for these fuels than the domestic market. (See
194

Letter from Cdr. Kirk S. Lippold, to U.S.EPA, EPA-HQOAR-2016-0544-0143.

488a
also Section II.E. for a further discussion of this issue).
Changing the point of obligation to “position holders”
would not alter these fundamental market dynamics,
[and*] therefore would be unlikely to increase the
energy security of the United States by decreasing the
amount of exports of petroleum fuel.
Other commenters suggested that the current point
of obligation would cause refineries to close, with some
specifying that merchant refineries would be the most
likely to close as a result of the RFS program. Commenters claimed that such closures would threaten
American energy independence and national security.
They stated that closure of northeast refineries would
exacerbate dependence on foreign energy sources and
could lead to price spikes in fuel. Commenters also
suggested that increasing petroleum prices could
harm the Department of Defense and other agencies.
Whether produced by domestic refiners (e.g., Northeast refineries) or imported into the U.S., gasoline and
diesel fuel bear the exact same RIN obligation. Thus,
there can be no incentive provided by the RFS program
for greater dependence on foreign energy sources. Furthermore, The EPA disagrees that the current point of
obligation is likely to cause refinery closures, for merchant refiners or any other refiners. Data reviewed by
EPA demonstrates that refiners recover the cost of the
RIN through higher prices for their petroleum products as discussed in section II.C. However, to further
assess whether or not the RFS program, and specifically high RIN prices, might be causing refinery closures EPA examined publicly available data from the
Energy Information Administration on refinery closures, deratings, and expansions from 2013 to 2017. We
*

The original version reads “sand.”

489a
chose these years for our assessment, as this time
period corresponds to the years with elevated D6 RIN
prices. If the RFS program were causing refinery closures through high RIN prices, they would have been
most likely to occur during these years. In its refinery
capacity report, the Energy Information Administration (EIA) publishes a list of U.S. refinery shutdowns.195 The list of refinery closures since 2013 is
provided in Table III.G-1 below. As a point of reference, in 2013 there were 143 operable refineries with
a total atmospheric crude distillation capacity196 of
18,560,000 barrels per day in 2013.

195

Table 13 Refineries Permanently Shutdown by PAD
District Between January 1, 1990 and January 1, 2017 https://
www.eia.gov/petroleum/refinerycapacity/table13.pdf
196

Total Atmospheric Crude Distillation Capacity is the most
commonly used measure of the capacity of a refinery.

490a
Table III.G-1
Refinery Closures (2013-2017)
Company
Name

Location Date of Total Atmos- Asphalt
Shut- pheric Crude Plant
down Distillation
Capacity
(bbl/cd)

Hess
Port
Corporation Reading,
NJ

3/2013

0

No

Axeon
Specialty
Products
LLC

Savannah, 12/2014
GA

28,000

Yes

Ventura
Refining
and
Transmission LLC

Thomas, 11/2014
OK

12,000

No

0

Yes

0

Yes

3800

Yes

126,535

No

Trigeant
LTD

Corpus 12/2014
Christi, TX

Pelican
Refining
Company
LLC

Lake
Charles,
LA

Antelope
Refining
LLC

Douglas, 12/2016
WY

1/2015

Flint Hills North Pole, 6/2014
Resources LP
AK

491a
A review of the list of refinery closures that occurred
between 2013 and 2017 does not provide a compelling
case for hardship caused by the RFS program. Four of
the seven refineries are asphalt refineries which do
not produce transportation fuels and are therefore not
affected by the RFS program. The Flint Hills refinery
is located in Alaska, which is exempt from the RFS
program. According to a journal article covering the
Hess refinery closure, the Hess management attributed
the refinery closure to dwindling demand on the East
Coast along with heating oil sulfur standards which
were phasing in there.197 The last refinery on the list
of refinery closures is the Ventura refinery in Thomas,
OK. Reviewing the gasoline production information
provided by this company to EPA does not show that
the Ventura refinery produced gasoline when this
refinery was operating, although the refinery may still
have had to comply with RFS program if the refinery
produced diesel fuel.198
While there were very few refinery closures from
2013-2017 (and only one small refinery for which the
available information is insufficient to discount attribution to the RFS program), refineries added additional
capacity at their refineries. Between 2013 and 2017,
the EIA data shows that the U.S. refining industry
197

Bell, Deborah; Hess Port Reading Refinery to Permanently
Close Next Month, Woodbridge Patch, January 28, 2013. Available Online: https://patch.com/new-jersey/woodbridge/hess-portreading-refinery-to-permanently-close-next-month.
198

EPA conducted an analysis looking farther back in time in
the draft regulatory impact analysis supporting the proposed Tier
3 emission standards, EPA-420-D-13-002, March 2013. Refineries closed at a far greater rate in years past. For comparison
102 refineries closed over the decade from 1982-1992, 46 from
1992-2002, and 2 from 2002 to 2012.

492a
increased its atmospheric crude oil throughput capacity from about 19 million barrels per stream-day to
19.8 million bbl/stream-day, an increase of more than
4%. 199A portion of this change in crude oil distillation
capacity was for condensate splitting and for asphalt
plants which do not produce finished fuels and therefore would not be affected by the RFS program. To
focus our analysis more directly on refineries affected
by the RFS program, we reviewed changes in individual refinery operable atmospheric crude oil capacity
from 2013 to 2017.200,201The results of our assessment
(as shown in Table III.G-2 below) show that from 2013
to 2017 refinery expansions outnumbered closures 39
to 4, and atmospheric crude capacity increases were
more than 25 times the reductions. Note that this
table does not include any added capacity for condensate splitters, any expansion or contraction at asphalt
plants, or any expansion or contraction of refineries
located in Alaska.

199

Table 6 Operable Production Capacity of Petroleum
Refineries, January 1, 1988 to January 1, 2017 https://www.eia
.gov/petroleum/refinerycapacity/table6.pdf
200

Refinery capacity data by individual refinery as of January
1, 2013; Available Online at https://www.eia.gov/petroleum/ref
inerycapacity/archive/2013/refcap2013.php
201

Refinery capacity data by individual refinery as of January
1, 2017; Available Online at https://www.eia.gov/petroleum/ref
inerycapacity/

493a
Table III.G-2
Refinery Expansions, Closures, and Derating (20132017) Million Barrels per Stream-Day
Refinery Name
Alon USA
Energy Inc
American
Refining Group
Inc
Big West Oil Co
BP
Calcasieu
Refining Co
Calumet
Chalmette
Refining LLC
Chevron
CHS McPherson
Refinery Inc
Citgo Refining
CountryMark
Cooperative Inc
Delek Refining
LTD
Ergon
ExxonMobil
Flint Hills
Resources LP

Expansions

Closures/
Net Expansion
Derating

4,000

0

4,000

1,300

0

1,300

3,000
4,000

0
0

3,000
4,000

25,000

0

25,000

36,000

0

36,000

2,000

0

2,000

17,000

0

17,000

9,500

0

9,500

0

1,500

-1,500

2,600

0

2,600

10,000

0

10,000

3,300
31,000

0
0

3,300
31,000

30,000

0

30,000

494a
Hermes
Consolidated
LLC
HollyFrontier
Houston
Refining
Lima Refining
Company
Marathon
Monroe Energy
LLC
Motiva
Pasadena
Refining
Systems Inc
PDV Midwest
Refining LLC
Philadelphia
Energy
Solutions
Phillips 66
Placid Refining
Co
Premcor
Refining Group
Inc
Shell Chemical
LP
Silver Eagle
Refining

4,000

0

4,000

27,020

0

27,020

0

6,000

-6,000

15,000

0

15,000

120,500

0

120,500

18,000

0

18,000

20,000

0

20,000

9,200

0

9,200

5,200

0

5,200

0

5,000

-5,000

31,156

0

31,156

23,500

0

23,500

5,000

0

5,000

10,500

0

10,500

100

0

100

495a
Sinclair
Wyoming
Refining Co
St Paul Park
Refining Co LLC
Suncor Energy
(USA) Inc
Tesoro
Toledo Refining
Co LLC
Torrance
Refining Co LLC
Valero
Ventura
Refining &
Transmission
Western
Refining
WRB Refining
LP
Total

5,000

0

5,000

19,200

0

19,200

500

0

500

27,600

0

27,600

13,000

0

13,000

2,000

0

2,000

276,500

18,000

258,500

0

14,000

-14,000

5,000

0

5,000

3,000

0

3,000

819,676

44,500

775,176

The review of the individual refinery atmospheric
crude capacity changes from 2013 to 2017 does not indicate hardship on the part of the US refining industry,
and in fact, suggests that the market conditions in this
time period promoted growth. Refiners are generally
making investments in their refineries to expand their
throughput capacity, suggesting that the US refining
industry is growing and healthy. Furthermore, the
refineries which expanded their atmospheric crude oil
capacity included small, medium and large refineries,
as well as both integrated and merchant refiners. Aggregate refinery expansions totaled about 820 thousand

496a
barrels per stream-day (kbbl/stream-day), but is offset
by 31 kbbl/stream-day of refinery closures and modest
derating, for a total of 789 kbbl/stream-day of added
throughput capacity (excluding condensate splitters,
asphalt plants, and refineries located in Alaska).
IV. Changing the Point of Obligation Would Significantly Increase the Complexity of the RFS
Program
In order to minimize the number of regulated parties and reduce programmatic complexity, the EPA in
the RFS1 regulations placed the RFS point of obligation on the relatively small number of refiners and
importers rather than on the relatively large number
of downstream blenders. We noted then that the designation of downstream ethanol blenders as obligated
parties would have greatly expanded the number of
regulated parties and increased the complexity of the
RFS program unnecessarily.202 The same is true now.
For example, consider the current point of obligation:
refiners and importers. Identifying on a continuing
basis those entities who produce or import gasoline
and diesel fuel is relatively straightforward, as their
businesses tend to operate from fixed physical locations that change infrequently, and ownership of the
companies and assets also change relatively infrequently. In addition, identification and tracking of these
entities is facilitated by our regulation of them under
other (non-RFS) regulatory programs. However, the
situation “downstream” of refiners and importers becomes much more complicated. There are a wide
variety and large number of market participants, business practices, and contract mechanisms downstream
of refiners and importers, and the parties, practices,
202

72 Fed. Reg. at 23923.

497a
and ownerships among entities downstream of refiners
and importers are much more variable over time. All
of these factors would make imposition of the RFS
point of obligation on some subset (e.g. blenders or “position holders”) of parties downstream of refiners and
importers substantially more complex than the current system.
In the RFS2 proposal, we requested comment on
whether the EPA should move the obligation downstream of refineries and importers to those parties
who blend and supply finished transportation fuels to
retail outlets or to wholesale purchaser-consumer facilities. In response to the proposal, stakeholders differed
significantly. A few refiners, including Valero, expressed
support for moving the obligations to downstream
parties, while other refiners preferred to maintain the
current approach. Blenders and other downstream
parties generally expressed opposition to a change,
citing the additional burden of demonstrating compliance with the standards, especially for small businesses. They also pointed to the need to implement
new systems for determining and reporting compliance, the short lead time for doing so, and the fewer
resources that smaller downstream companies have to
manage such work in comparison to much larger
entities such as refiners. We considered the comments
received and concluded based upon the comments and
information available to us that it was appropriate to
maintain refiners and importers as obligated parties
under the amended RFS2 program. In explaining our
reasoning, we noted once again that changing the
point of obligation would likely result in a significant
increase in the number of obligated parties under the
program.

498a
Several of the petitions received by the EPA cite text
from the 2010 Final Rule acknowledging that one of
the initial justifications given for placing the obligation on refiners and importers of gasoline and diesel,
rather than on parties that are “downstream” of the
refineries, was a desire to minimize the number of
regulated parties in the RFS program.203 As the EPA
stated in the 2010 Final Rule and Summary and Analysis of Comments, as a matter of regulatory design and
implementation, it is desirable both to limit the
number of obligated parties, and to limit burdening
small businesses.204 These considerations favored placing the point of obligation on the limited number of
refiners and importers, rather than the larger number
of blenders.
Additionally, as the EPA projected in the proposed
RFS2 rule, virtually all downstream blenders are currently subject to RFS registration, recordkeeping and
reporting requirements associated with their role as
RIN owners. The EPA asked in that proposal whether,
in light of this fact, it would be difficult administratively to move the obligation to these parties. The petitioners generally argue that moving the point of
obligation to downstream parties would not be difficult, since they are already regulated in some fashion.
However, while it is likely the case that all, or nearly
all downstream blenders are now regulated parties
under the RFS program due to the increased blending
of renewable fuels required by the RFS program, the
majority of these downstream parties are not refiners

203
204

75 Fed. Reg. 14721 (March 26, 2010).

Ibid.; Renewable Fuel Standard Program (RFS2) Summary
and Analysis of Comments, EPA-420-R-10-003 (February 2010),
at 3-216.

499a
or importers and therefore are currently not obligated
parties under the RFS program. There is a significant
distinction between being a “regulated party” and
being an “obligated party” under the RFS program.205
A. The Number of Obligated Parties Would Increase if the Point of Obligation was shifted
to “Position Holders” or “Blenders”
Petitioners generally propose to change the point of
obligation to “positions holders” and argue that doing
so would involve a similar number of obligated parties
or could reduce the number of obligated parties as
compared to the number of obligated party refiners
and importers that exist today. Petitioners provided
EPA with an analysis to support their argument.
Petitioners also argue that this proposed change would
be relatively easy to implement because the number of
obligated parties would at least remain relatively the
same, if not decrease.206 But as discussed in more
detail below, we believe that Petitioners’ suggested
205

Downstream blenders who blend renewable fuel into
transportation fuel and own RINs at blending must report the
quantity of RINs purchased, separated from renewable fuel, and
sold according to the reporting requirements under 40 CFR
80.1451(c). They must also register with the EPA under 80.1450
and keep records as required under 80.1454. Small blenders can
also shift the compliance burdens if they qualify under 40 CFR
80.1440. Obligated parties must meet all of these requirements
and also calculate an annual renewable volume obligation,
acquire the appropriate number of RINs in the market, practicing
due diligence to ensure their validity, file annual compliance
reports demonstrating compliance, and maintain records to that
effect.
206

See Valero Petition for Rulemaking, June 13, 2016, EPAHQ-OAR-2016-0544-0008, Attachment D and E. See also report
by IHS Global Insight, Inc., submitted by Monroe, EPA-HQ-OAR2016-0554-0368, Attachment J (claimed as CBI).

500a
change would result in a significant increase in the
number of obligated parties. More importantly, we
believe that the type of parties Petitioners seek to shift
the point of obligation to, and their experience level
and available resources indicate that implementing
Petitioners’ proposed change would result in a less
effective RFS program that would be more difficult to
implement and enforce.
As discussed above, the EPA believes that all else
being equal, placing the point of obligation on a smaller
number of obligated parties with significant financial
resources and expertise in fuels markets is preferable
to placing it on a larger number of relatively small
entities. This approach facilitates program effectiveness by limiting the number of entities the EPA must
interact with to provide guidance and to ensure compliance. It also places the burden on the larger, more
sophisticated entities that are more likely to have the
personnel and systems in place to enable compliance.
In the proposed denial, the EPA argued that the
number of obligated parties would increase significantly if the point of obligation under the RFS Program were changed from refiners and importers to
“position holders” at the rack. We cited our discussions
with terminal operators and associations and our own
data on oxygenate blenders for reformulated gasoline
(RFG) to estimate that the obligated party count would
increase from around 150 to between 350 and 1,000.
The EPA argued that a higher number of obligated
parties, many of whom would have less expertise and
fewer resources to provide oversight to the RIN
program to help ensure the validity of RINs than the
current obligated parties, could result in greater noncompliance and RIN fraud. This could negatively
impact the ability of the RFS program to achieve its

501a
statutory goals. A larger number of obligated parties
would also result in higher compliance monitoring and
assistance costs, among other key market and policy
concerns.
In its petition, Valero stated that moving the point
of obligation to the “position holder” would not increase
the obligated parties above 200, based on their extensive knowledge of all players in the fuel blending and
sales industry. In its analysis, Valero aggregated all
entities to the parent company level to come up with
the 200 count. We note that this may not be an “apples
to apples” comparison with the number of obligated
parties under the current RFS regulations, as not all
parties comply with their RFS obligations at the parent company level. EPA attempted to aggregate the
list of obligated parties in 2016 to the parent company
level to provide a count comparable to Valero’s estimate. Based on this assessment there were approximately 97 obligated “parent companies,” after aggregating the full list of obligated parties; significantly
less than the estimate provided by Valero.207
During and after the comment period, the EPA
engaged with the IRS to obtain more concrete information about the count of “position holders.” Since
several of the petitioners and commenters suggested
changing the point of obligation to the “position
holders,” this information would allow EPA to determine the number of obligated parties that would result
from changing the point of obligation to the “position
holders.” IRS reviewed the data it maintains on “S”
registrants, which is defined by the IRS to include,
using their definitions, enterers, position holders, refin207

RFS 2016 Obligated Parties. This document contains information claimed as CBI.

502a
ers, terminal operators, or throughputters of gasoline,
diesel fuel (including a diesel-water fuel emulsion), or
kerosene, or industrial users of gasoline.208 The IRS
noted that they cannot identify which type of actor an
“S” registrant is (enterer, position holder, refiner, etc.).
The EPA notes that, utilizing IRS definitions, refiners
(those that break bulk at a refiner gate), position
holders (those that break bulk at a terminal), and
enterers (those that import fuel through means other
than at a terminal such as truck are the actors that
would become obligated parties if the point of obligation shifted to “position holders” as proposed by
petitioners and as the term is used in this document.
Terminal operators and throughputters would not
become obligated parties if the point of obligation
shifted to “position holders” as proposed by petitioners, as these parties do not hold title to the gasoline or
diesel fuel immediately prior to the sale of these fuels
at the terminal.209 If a terminal operator or throughputter “breaks bulk,” in a given quarter, they are categorized for that quarter as a position holder or refiner.
“S” registrants file Form 720, the Quarterly Federal
Excise Tax Return, to report the quantity of fuel they
own. EPA requested the number of “S” registrants who
paid taxes as owners of gasoline or diesel, to represent
the potential number of obligated parties if the point
of obligation shifted to “position holders” as proposed
by petitioners because the RVO applies to volumes of
208

The IRS definition of “position holder” is different than how
the term is used in this document, and how it is used by petitioners. The IRS definition applies only to parties who hold title to
fuel above the terminal rack. Refiners who hold title to fuel above
the refinery rack are a separate entity (“refiners”) under IRS definitions.
209

Using IRS terminology, these parties do not “break bulk”

503a
gasoline and diesel (“S” registrants that do not own
any gasoline or diesel in any given year would not pay
taxes or have an RFS obligation for that year).
Information received from the IRS included the
following:


For fiscal year 2015, there were 1,571 “S”
registrants, of which 715 filed Form 720
tax forms.210



In calendar year 2016, 443 of the Form 720
tax filers paid taxes as owners of gasoline
or diesel.211



There is approximately a 30 percent turnover in number of parties that pay taxes
as owners of gasoline or diesel from year
to year.212

Based on this information, the EPA has concluded
that the best estimate for the number of parties that
would have been obligated parties in 2016 if EPA
changed the point of obligation to the “position holders” is approximately 443. The 30 percent turnover in
program participations from year to year implies that
the obligated parties could be quite variable year over
year. Although the total number of obligated parties
would likely be around 450 per year, the EPA would
210

Not all parties that filed a Form 720 tax form paid taxes as
owners of gasoline or diesel
211

Some of the 720 tax filers paid taxes on fuels other than
gasoline or diesel, and therefore would not likely become obligated parties if EPA changed the point of obligation to the “position holder”
212

This estimate of annual turnover was provided to EPA by
IRS. It is not calculated using the information in the preceding
bullets.

504a
still need to track the parties who may have been obligated in previous years, and account for movements in
and out of the RFS program. For example, if 30% of
the “position holders” changed from 2016 to 2017, we
would expect that there would be a total of approximately 576 parties that were “position holders” over a
two year period.213 Assuming the EPA adopted the
approach to reporting currently utilized by the IRS, as
suggested by many petitioners and commenters, we
would expect approximately 450 obligated parties in
any given year along with a large group of parties we
would need to consider as “potentially obligated parties” (at least 133214 based on turnover in a single year,
and likely many more) based on their prior year’s
activities. Since IRS cannot share data on the identity
of the Form 720 tax filers nor on the volumes of gasoline or diesel they move over the rack this would cause
significant enforcement challenges for EPA, especially
as many of these parties would likely be difficult to
identify. In calendar year 2016, there were 120
obligated parties under the current RFS regulations;215
a change to obligate “position holders” would more than
213

This is the minimum number of obligated parties that
would be expected if EPA changed the point of obligation to the
“position holders,” assuming a 30% turnover. The actual number
of obligated parties would likely be far higher.
214
215

133 is 30% of 443 (the number of “position holders” in 2016)

40 CFR Part 80 currently allows obligated parties to comply
with the RFS requirements at the “facility” level if they so choose,
and thus provides for flexibilities for obligated parties to comply
as compared to reporting to the IRS. In 2016 the EPA received
191 compliance demonstrations; 93 from aggregated refiners, 59
from individual facilities, and 39 from importers of gasoline or
diesel. We note that some of the obligated parties submitted compliance demonstrations as both aggregate refiners and importers
of gasoline and diesel.

505a
double the number of obligated parties. The matter
would be even more complex for EPA administration
in light of the additional potentially responsible parties whose activities EPA would likely feel obligated to
monitor to some degree to verify whether they should
be obligated parties in any given year, assuming these
parties could be identified. As such, the EPA continues
to believe that the obligated party count would increase
significantly, and program administration would be
considerably more complex, under the petitioners’
proposal.
The EPA received several comments that challenged
EPA’s assertion in the proposed denial that an increase
in the number of obligated parties would result in a
higher administrative burden on the EPA, in part
because it would increase the number of annual
compliance reports for the EPA to review every year.
While administrative burden is a secondary consideration, relative to achieving the statutory goals of the
RFS program, EPA has assessed the claims made by
these commenters. One set of comments countered
that changing the point of obligation to “position
holder” would result in a decrease in the number of
RIN transactions because obligated parties would
acquire the RINs at blending and retire them without
intervening transactions.216 The argument follows that
the EPA would need to verify fewer RIN transactions,
thereby decreasing administrative burden. The EPA
notes that its compliance monitoring and verification
costs have little to do with the number of RIN transactions that occur. Rather, the EPA expends the majority of its oversight resources to monitor and provide
compliance assistance for registration activities (includ216

Comments from Valero Energy Corporation, EPA-HQOAR-2016-0544-0274.

506a
ing updates to registration after an ownership or
personnel change), annual compliance report submissions, RIN retirements, and remedial actions for errors
that have occurred. The oversight burden of these activities is directly related to the total number of obligated
parties and not the total number of RIN transactions.
Furthermore, the EPA notes that current obligated
parties submit other compliance reports to EPA to
meet other Part 80 requirements, and EPA uses these
reports to help verify RFS volumes in the annual
compliance reports. If the “obligated party” definition
changes to “position holder,” EPA would no longer be
able to utilize this data verification method and would
need to develop other verification methods to ensure
the integrity of the RFS program.
Another set of comments suggested that compliance
costs would not increase with an increase in the number of obligated parties because the EPA could get the
list of obligated parties along with their verified gasoline and diesel volumes directly from IRS.217 In light of
these comments, the EPA discussed at length with IRS
whether a data sharing agreement could be developed
to allow the EPA to obtain this type of detailed IRS
data on “position holders.” The IRS stated that tax
returns and tax return information are confidential
and may be disclosed only as authorized under Internal Revenue Code section 6103(a). “Return information” is broadly defined to include any information
gathered with regards to a taxpayer’s liability under
the Code, including a taxpayer’s identity. As such, the
IRS stated that even a mere list of “position holders”
would constitute return information and could not be
217

See, e.g., Comments from CVR Energy, EPA-HQ-OAR2016-0544-0396; Comments from the Small Refiners Coalition,
EPA-HQ-OAR-2016-0544-0406.

507a
provided to the EPA without the consent of each
“position holder.” Therefore, the EPA has concluded
that the commenters’ argument is incorrect and that
EPA would be unable to obtain the information it
would need from the IRS to identify the “position
holders” and determine their obligated volumes of gasoline and diesel and would instead need to develop its
own systems to identify obligated parties and track
their obligated fuel volumes.
Some commenters argued that “position holders”
would have very little compliance burden as obligated
parties because they would simply utilize the measurements, calculations, and records already in place to
meet IRS requirements.218 Likewise, they argued that
EPA could simply change its RVOs requirements to
equal the volumes reported on Form 720. However,
based on a detailed comparison of IRS requirements to
RFS requirements, the EPA has concluded that the
volumes reported on Form 720 are different than the
volumes used to calculate RVOs. Most notably, ethanol and biodiesel that is blended into gasoline and
diesel fuel at the terminal upstream of the rack are
included in the Form 720 gasoline and diesel volumes,
while those biofuels must be excluded from gasoline
and diesel volumes used to calculate RVOs. In addition, home heating oil volumes, kerosene, fuel used by
ocean going vessels, volumes used in Alaska and the
Territories, and volumes that cross a rack a second
time are reported on Form 720, while those volumes
must be excluded in determining RVOs. Data provided
to the EPA by the IRS shows that the total volume on
which taxes were paid by “S” registrants in 2016 was
about 244 billion gallons. The total gasoline and diesel
218

Comments from Valero Energy Corporation, EPA-HQOAR-2016-0544-0274.

508a
volumes produced by refiners and importers in 2016
according to the RFS compliance reports submitted by
these parties to the EPA was about 180 billion gallons.219 Therefore, EPA has concluded that obligated
parties would not all be able to simply use the Form
720 volumes to calculate their RVOs; a significant
number would likely need to take, maintain, and
report different measurements than they currently do
for IRS compliance purposes. Likewise, the EPA would
have to expend significant administrative resources to
create regulations, instructions and compliance assurance assistance related to obtaining and verifying the
information need for obligated parties to calculate
their RVOs.
The Small Refiners’ Coalition and CVR Energy suggested that if the EPA could not obligate “position
holders” due to concerns about statutory authority,
then the EPA could instead obligate all blenders, and
that such a change would not add to the complexity of
the program or harm small entities.220 The EPA disagrees with those conclusions – for the reasons articulated above about the additional complexities associated with designating “position holders” as obligated
parties, obligating “blenders,” which includes many
“position holders” and other small entities, would also
increase complexity in the RFS program, due to an
increased number of obligated parties, and potentially
219

See EPA Annual Compliance Data for Obligated Parties
and Renewable Fuel Exporters under the Renewable Fuel Standard (RFS) Program; Table 1. https://www.epa.gov/fuels-regis
tration-reporting-and-compliance-help/annual-compliance-dataobligated-parties-and#total-gasoline
220

See, e.g., Comments from CVR Energy, EPA-HQ-OAR-2016
-0544-0396; Comments from the Small Refiners Coalition, EPAHQ-OAR-2016-0544-0406.

509a
very small entities, including retail station owners.
These small entities would have additional obligations
and requirements, and although they may currently
separate and sell RINs, they do not currently have the
same requirements as an obligated party. More
importantly, however, as discussed in Section III
above, EPA does not believe, based on the information
in the record, that changing the point of obligation to
downstream parties (either “position holders” or
blenders) would result in additional production, distribution or use of renewable fuels.
B. The Potential for Noncompliance May Increase if the Point of Obligation is Changed
Currently, many of the obligated parties are large
entities with sufficient resources, staff, expertise and
tools to comply with registration, reporting and recordkeeping requirements under the RFS program. The
EPA is concerned that moving the point of obligation
as proposed by the petitioners could bring in many
small entities that may not have the resources or
expertise to comply. The addition of a number of small
entities with relatively less regulatory experience and
expertise could lead to increased overall noncompliance with RFS requirements. This could be seen as
increasing the overall regulatory burden due to an
influx of more parties (many of which may be small
businesses) that have little or no familiarity with the
RFS program, and it would likely also increase the
administrative burden on the EPA to help educate
these entities to help them comply, and to ensure their
compliance.
Further, in any rulemaking to modify the RFS point
of obligation, the EPA would need to consider impacts
to small entities, as it did in its prior rulemakings.
Congress itself considered the relief appropriate for

510a
small refineries that are obligated parties, exempting
them through 2010 and then allowing for an extension
of their exemption if warranted by a DOE study or
through the EPA’s review of small refinery petitions
alleging that their compliance would result in disproportionate economic hardship. The EPA used its discretion in the 2010 RFS2 rule to extend similar relief
to the few additional small refiners that did not qualify
as small refineries. The EPA convened a Panel under
the Small Business Regulatory Enforcement Fairness
Act of 1996 (SBREFA) to consider whether additional
relief to small refiners or refineries was warranted.
Were we to propose changing the point of obligation,
we would need to ensure that small businesses were
aware of this proposed change and potential impact to
their business by re-engaging in the SBREFA process.
Since the statute contains no specific provisions providing relief for small entities that are “position holders”
or blenders, the EPA’s analysis in considering the need
for, and fashioning appropriate relief would potentially be more complex. The SBREFA process includes
a number of steps and would take some time to
implement properly. For example, before beginning
the formal SBREFA process, the EPA would need to
engage in outreach with entities that would potentially be affected by the proposed change and provide
the small businesses with an early opportunity to ask
questions and discuss their concerns with the upcoming rulemaking. Furthermore, we reasonably expect
that there would be strong interest from some stakeholders to exempt small businesses from RFS obligations. If exempted, these parties could have a (potentially significant) financial advantage over parties
that do have RFS obligations and this dynamic could
result in an increasing number of small businesses
entering this market. Regardless of the outcome of the

511a
SBREFA process, it is clear that the RFS market
would experience significant uncertainty in such a
transition and that the uncertainty may last for some
time.
We expect there would be more non-compliance if we
changed the point of obligation because blenders and
“position holders” are likely to have less experience
and fewer resources to be able to comply with the
registration, reporting and recordkeeping requirements under the RFS program. Further, we believe
the number of obligated parties would significantly
increase, which would place greater strain on limited
resources to ensure compliance and conduct program
oversight. In particular, the information received from
the IRS after the proposed denial was issued has
strengthened our rationale for why and how administrative costs and the potential for fraud and/or noncompliance would increase with a change in point of
obligation to “position holder.” Since there is an approximately 30 percent turnover from year to year in the
720 tax filers program, it would require significant
resources to identify those new obligated parties and
to verify that no other obligated parties are evading
the requirements. It would also require an increase in
resources to provide compliance assistance to those
new obligated parties as they learn a new program for
the first time, or become re-acquainted with it after a
period of non-activity. Additionally, while current obligated parties typically have significant assets that
could potentially be used to pay civil penalties and to
purchase RINs to replace any determined to be fraudulent, it is reasonable to assume that many “position
holders” and blenders have relatively fewer tangible
assets or real property. It is possible that companies
with few tangible assets could violate the RFS standards, make a quick profit, and shut down or leave the

512a
country without being brought to justice for their
actions. Even if we were able to locate these parties
and prevail in the civil or criminal proceedings, these
parties could file for bankruptcy and never have to
purchase replacement RINs or pay penalties associated with noncompliance. This could lead to less renewable fuel use than intended, and could unfairly disadvantage other obligated parties that meet their RFS
obligations. The decreased potential for EPA to ensure
through enforcement actions that the RIN system is
made whole for any noncompliance would negatively
impact the integrity of the RFS program and introduce
still more uncertainty into the RIN market.
In the proposed denial, the EPA argued that placing
the obligation on a smaller number of parties with
significant assets generally results in a more efficient
and therefore more effective program. The EPA stated
that refiners and importers generally have greater
resources than downstream market participants that
enable them to provide oversight of the RIN generators to help ensure that the RINs being traded in the
marketplace are valid. Changing the point of obligation, we posited, would require that newly obligated
parties make the necessary investments to enable compliance with their new RFS obligations. This could
take a significant amount of time and represent a significant financial burden to the new obligated parties,
especially as we expected that many would be smaller
companies with fewer resources than the existing obligated parties.
The EPA received some comments that “position
holders” are big and sophisticated companies that
would not be financially burdened by RFS compliance
and RIN validity oversight duties. In its engagement
with IRS during and after the comment period, the

513a
EPA requested from IRS data on the quantity of gasoline and diesel reported by “position holders” in calendar year 2016 in order to assess the size of the companies. The IRS was unable to provide the names associated with each volume of fuel, or the names of the
parties that paid excise tax for gasoline or diesel more
generally. Instead, the IRS provided EPA with a
dataset that grouped the 443 “S” registrants that paid
excise tax for gasoline or diesel in calendar year 2016
into blocks of five in descending order of gallons
reported; for each block of five registrants, the dataset
aggregated the gasoline and diesel gallons reported
into one number.221 Grouping the parties that paid
excise tax in 2016 in this way resulted in a dataset of
86 data points for the EPA to analyze. The EPA compared this information to similar data available to the
Agency from the obligated parties’ 2016 RFS compliance reports. From this information, the EPA compared the volume of gasoline and diesel produced or
imported by the 100 largest parties to the total reported volume gasoline and diesel volume in both the IRS
and EPA data sets. The 100 largest obligated parties
(per the current RFS definition) reported gasoline and
diesel volumes that were 95% of the total volumes
reported by all obligated parties. Similarly, the 100
“position holders” with the largest volumes accounted
for over 95 percent of all volumes reported by all “position holders” paying excise taxes on gasoline and diesel
in 2016. This suggests that the differences between
221

For example, IRS reported the quantity of gasoline and
diesel reported by the five largest “position holders” in 2016, the
volume produced by the 6th-10th largest “position holders,” the
volume produced by the 11th-15 largest “position holders,” etc. As
noted above, the IRS did not provide the identity of the parties
that paid excise tax for gasoline or diesel in 2016. See IRS Aggregated Volume Data.

514a
the number of obligated parties under the current RFS
regulations and “position holders” is not merely the
result of company aggregation, as the proportion of
total fuel represented by the 100 largest parties in
each data set are similar.
The IRS data also showed that over 99.5% of all
gasoline and diesel is sold by the 215 largest “position
holders.” This means that the remaining 228 registrants222 – a majority of “position holders” in fiscal year
2016 – together accounted for less than 0.5 percent of
all volumes reported on the IRS Form 720. If EPA
changed the point of obligation to the “position holders”
of gasoline and diesel as requested by the petitioners,
we would expect a large number of new obligated parties. For 2016 alone there would have been an additional 323 obligated parties.223 However, since there is
approximately 30 percent turnover from year to hear
in the identity of the “position holders” the total number of parties who would have the role of “obligated
party” over the years could be significantly higher and
the lack of stability in the pool of obligated parties
would mean more difficulty in tracking and accounting
for those parties. The EPA expects that a great many
of the parties who would not consistently be obligated
parties would be obligated for small volumes of gasoline and diesel, since the total volume of obligated fuel
from the 228 “position holders” with the lowest volume
of reported gasoline or diesel combined is projected to
222

This number is calculated by subtracting the 215 “position
holders” responsible for 99.5% of all gasoline and diesel from the
total number of 443 “position holders.”
223

This number is calculated by subtracting the number of
obligated parties under the current RFS regulations in 2016 (120)
from the number of “position holders” that sold gasoline or diesel
in 2016 (443)

515a
be less than 0.5% of the total obligated volume of gasoline and diesel sold in the United States. This data
strongly supports EPA’s assessment that changing the
point of obligation to the “position holders” would result
in an obligation being placed on a large number of
previously unobligated parties, and that many of
these newly obligated parties are likely to be small
businesses.224
C. The EPA Would Need to Establish Transition Provisions
The current RFS regulations allow parties to satisfy
up to 20% of any given RVO with RINs generated in
the previous year, effectively allowing parties to “carry
over” a limited number of RINs for use (by them or
others to whom they may sell these RINs) in satisfying
RFS compliance obligations the following year. Similarly, obligated parties that have an insufficient number of RINs to demonstrate compliance at the compliance deadline may carry forward the deficit into the
following year without penalty, provided they satisfy
both their deficit and full RVO the following year.
Compliance data submitted to the EPA indicates that,
in aggregate, parties carried over approximately 2.5
billion 2016 RINs into 2017. While smaller in magnitude, a number of parties also carried forward an aggregate deficit of approximately 400 million RINs from
2016 into 2017.

224

As discussed further in Section V.B., some parties who
would become obligated under a change to the definition of “obligated party” may choose to adjust their business practices to
avoid an obligation under the RFS program. If parties were to
take this action, this could mitigate some of the concerns raised
in this section, but would be unlikely to cause all parties to change
their practices and would likely have other ramifications.

516a
If the EPA abruptly changed the point of obligation
to the fuel blenders or “position holders” we would also
impact the RVOs for obligated parties in future years
relative to what they would have reasonably anticipated under the existing point of obligation, thus raising concerns about fairness. In some cases, these
changes could be significant. Refiners and importers
with significantly lower RVOs under the new point of
obligation may find themselves in possession of significantly more RINs, including carryover RINs, than
they desire or can use. Conversely, parties with a significantly higher RVO under the new point of obligation
may find themselves with lower balances than they
would desire to protect themselves against shortfalls
in RIN availability or RIN price volatility. Unlike the
current situation, where the number of carryover
RINs held by an obligated party is primarily the result
of the decisions made by that party under a consistent
regulatory structure, the change in the size of each
obligated party’s RIN holdings relative to its obligations under the RFS program would be the result in a
change in the definition of the obligated parties many
years after the point of obligation was established
through a notice and comment rulemaking.
While the tradable nature of the RINs in the RFS
program would help to mitigate these potential negative impacts, a change to the point of obligation could
also cause volatility in the market. Parties with excess
RINs could recover some or all of the costs associated
with acquiring these RINs, or potentially make a profit,
by selling them to newly obligated parties or those who
desire to acquire a bank of carryover RINs to protect
themselves from future RIN shortfalls or market volatility. The ability for parties that possess excess carryover RINs to recover the cost of the RINs they hold
by selling them to other parties, however, will be largely

517a
impacted by the effect changing the point of obligation
has on the price of RINs. If, as some of the petitioners
have suggested, as a feasible or desirable outcome of
changing the point of obligation the price of RINs were
to fall dramatically, then this change could have a
significant negative financial impact on parties that
find themselves in the possession of excess RINs due
to a change in the point of obligation. Even if EPA were
to take steps such as providing significant lead time to
minimize impacts, a change to the point of obligation
could result in RIN market volatility and disparities
in RIN-holdings.
D. Changing the Point of Obligation Would
Require Significant Changes to EMTS and
Other Electronic Systems
A change in the point of obligation would necessitate
changes to the Agency’s registration and reporting
systems. This would result in adding complexity and
stress to already complex systems. It could potentially
lead to degradation in service and reduced availability
to all system users. For any given compliance year
since 2010, between 1,300 – 1,500 parties participate
in the RFS program as renewable fuel producers, RIN
owners or obligated parties. Currently, EMTS averages about 23,000 transactions daily.
As discussed previously, shifting the point of obligation downstream could result in about 450 obligated
parties in EMTS in any given year. This could result
in an increase in EMTS transactions (transfers,
separations and retirements) as a larger number of
RIN batches (many of them likely of smaller volume)
change hands between a greater number of obligated
parties, without any increase to the total number of
RINs in the system. The OTAQReg registration system would need to be modified to reflect the new

518a
definition of obligated party, and both existing nonobligated EMTS participants and new participants
would need to register/reregister. Rights and access
controls to EMTS would need to be revised to ensure
proper reporting and oversight of RIN transactions.
In addition to changes to reflect the additional numbers and roles of registrants in EMTS, changing the
point of obligation may require additional functionality for EMTS to take account of changes in business
practices and additional potential for non-compliance,
including avoiding compliance obligations, failure to
identify as an obligated party, or not understanding
RFS requirements. The EPA may find that the additional potential for non-compliance requires additional
reporting of information not currently tracked in EMTS,
such as accounting for movements of physical volumes
of gasoline and diesel fuel between potential obligated
parties, similar to a designate-and-track system, to
ensure that RFS obligations are assigned to the proper
parties. Such a system would include additional reporting by parties such as refiners, marketers, and blenders to ensure RFS goals are being met. Ancillary reports
such as quarterly and annual compliance reports submitted to CDX and annual attest engagements would
also increase in volume and complexity.
V. Changing the Point of Obligation Could Cause
Significant Market Disruption
In the petitions the EPA has received requesting a
change to the point of obligation in the RFS program,
the petitioners generally characterize their proposed
changes to the point of obligation as minor or simple.
The EPA disagrees with these characterizations and
believes that changing the point of obligation would be
a significant change for the RFS program, and would

519a
likely lead to significant changes in the fuels marketplace more generally.
A. Market Participants Have Made Significant
Decisions on the Basis of the Existing
Regulations
When EPA first instituted the RFS program in 2007,
and again when EPA significantly revised the RFS
regulations in 2010 in response to the EISA amendments, the EPA requested and received many comments related to the point of obligation of the RFS
program. These comments were carefully considered
and the EPA specifically sought the input of the refining industry. The decision to place the point of obligation on refiners and importers in 2007, and to uphold
that decision in 2010, was made with the support of
much of the refining industry.
Since then all parties regulated in the RFS program
have made significant investments and decisions about
their participation in the program and their position
in the market on the basis of the existing regulations,
including the definition of obligated parties. Some parties sought to increase their access to RINs acquired
by blending renewable fuels by expanding their presence at terminals where renewable fuels are blended,
or investing in blending infrastructure downstream of
terminals. Other parties entered into contracts to purchase renewable fuel with attached RINs and/or
separated RINS to satisfy their own needs or for resale to obligated parties, while yet others became major
renewable fuel suppliers as well. Each year obligated
parties decided how to best satisfy current and future
RIN obligations, including whether or not to carry over
RIN deficits or excess RINs into future years.

520a
Each of these decisions was made with the expectation that each party’s RFS obligation in future years
would continue to be proportional to the volume of gasoline and diesel fuel they refine or import, as is the
case under the current RFS regulations. If the EPA
were to change the point of obligation as requested by
the petitioners, RFS obligations would instead be
proportional to the volume of gasoline or diesel fuel
that parties blend with renewable fuel, or the volume
of gasoline and diesel fuel sold by parties immediately
above the rack. This would substantially impact the
relative size of many parties’ RFS obligations and
would very likely result in efforts to reposition themselves in the marketplace, either by renegotiating
contracts or even seeking to buy or sell assets associated with the blending of renewable fuels. If changing
the point of obligation of the RFS program were reasonably likely to result in a significant increase in the
amount of renewable fuel that was produced, distributed, and used in the United States relative to the
current point of obligation such a change may be
justified; however, since we do not believe that changing the point of obligation will result in significant
increase in the production distribution and use of
renewable fuel, these impacts are important to consider.
B. If the Point of Obligation is Changed, Parties
Would Be Expected to Reposition Themselves to Avoid or Minimize RFS Obligations
One of the desired outcomes of changing the point of
obligation in the RFS program expressed by the petitioners is to shift the obligation to renewable fuel
blenders or “position holders” that have access to RINs
through the blending of renewable fuels. While
assessing these petitions, the EPA received letters
from a number of independent fuel marketers and

521a
parties that own a large number of retail fueling stations.225 These parties are generally not currently obligated parties (because they do not typically refine
gasoline or diesel fuel, however on occasion some import
gasoline and/or diesel fuel), but would likely become
obligated parties if the EPA changed the point of obligation as requested by the petitioners as they blend
renewable fuels and/or are “position holders” at terminals. In addition to questioning many of the benefits of
changing the point of obligation claimed by the petitioners, these parties stated that if the EPA changed
the point of obligation they would likely adjust their
business practices in an effort to avoid becoming
obligated parties, either by purchasing fuels already
blended with transportation fuel and/or purchasing
fuel below the rack.226
In their letters to the EPA, these parties acknowledged that by moving below the rack they may give up
a number of advantages that contribute to their profitability, such as the ability to purchase fuel in bulk at
a slight discount, the ability to better control their fuel
supply, and advantages related to the collection of
taxes. Nevertheless, these parties stated that the
expected costs associated with becoming obligated
parties, primarily the costs associated with developing
expertise necessary to manage their new RFS
obligations and the documentation requirements, may
very well outweigh any benefits currently experienced
in their position as renewable fuel blenders and/or
225

See Letter from Tim Columbus to Administrator McCarthy,
August 15, 2016; Letter from RaceTrac to Administrator McCarthy,
August 17, 2016; Letter from QuikTrip to Administrator McCarthy,
August 17, 2016; Letter from Pilot Flying J to Administrator
McCarthy, August 16, 2016.
226

Ibid.

522a
“position holders.” In their arguments these parties
referenced their experience with California’s LCFS
program, which allows compliance obligations to be
passed on to the “position holders.” They stated that
this has resulted in less competitive markets at the
rack, increasing fuel prices for consumers, as many
parties sought to purchase fuel below the rack, rather
than above the rack, to avoid LCFS obligations. They
claimed that this would be especially true for the many
small entities currently engaged in the gasoline and
diesel fuel spot markets. The EPA primarily spoke
with and received written communication from larger
businesses that are currently blenders of renewable
fuels and/or “position holders,” however any overhead
costs associated with being an obligated party would
likely be proportionally more significant for small businesses.
If parties that would become obligated parties for
the first time if the EPA were to change the point of
obligation as requested by the petitioners react as they
have claimed in discussions and written communication with the EPA, by adjusting their business practices to avoid becoming obligated parties under the
new definition, this would significantly impact the
expected results of such a change. Some of the concerns
raised by the EPA, such as the large number of new
parties that would become obligated parties under the
new definition and the relatively small nature of these
parties, would be mitigated, as these parties likely
would adjust their businesses to avoid becoming obligated parties under the new definition. However, such
market restructuring would likely have other market
ramifications.
While it is uncertain which parties would ultimately
have increased obligations if EPA were to change the

523a
point of obligation as requested by the petitioners and
independent fuel marketers and retail station owners
exit their current market positions as renewable fuel
blenders and “position holders,” it is possible that the
current obligated parties that do not sell gasoline and
diesel at the rack, would take up these positions in an
effort to find consumers for the fuel they produce and
import. If this were to happen, the end result of this
significant market restructuring would be that the
RFS obligations would not substantially change from
what they are under the current definition of obligated
parties. Refiners and importers would likely take on
terminal positions and the role of blending renewable
fuels abandoned by the parties who currently satisfy
these roles in the market. Ultimately, the RFS obligations may not be substantially different in this scenario than they are today, and if this were the case it
is questionable if the benefits claimed by the petitioners would not be realized. During the time period when
the EPA went through the rulemaking process to change
the point of obligation, however, and as the fuels marketplace adjusted to the realities of the change in the
point of obligation there would be significant market
uncertainty and potential turmoil. To the degree that
the EPA invests significant agency resources to enable
the change in the point of obligation and fuels industry
participants withhold significant investment decisions
until the EPA’s final decision and the fallout from the
decision are known, this could have a significant negative impact on achieving the goals of the RFS program.
In comments, those in support of changing the point
of obligation suggested that the benefits of being a
“position holder” would outweigh any costs of becoming an obligated party under the RFS system, and
“position holders” would not change their market practices in order to avoid the RFS obligation, citing to ben-

524a
efits such as “the ability to purchase fuel in bulk at
discount, the ability to better control their fuel supply,
and advantages related to the collection of taxes.”227 In
contrast, many parties who would become obligated
under the Petitioners’ proposed definition stated that
they would indeed change their market position or at
least reevaluate their position purchasing fuel above
the rack.228 Some stated that they currently purchase
some of their fuel above the rack, and some fuel below
the rack depending on the costs and market dynamics,
indicating that parties would be willing to modify their
position in the future as well. Based on the evidence
before it, EPA believes some parties would change
their market position in response to a change in the
point of obligation, and that such a change further
supports EPA’s denial.
While changing the point of obligation in the RFS
program would be unlikely to better achieve the goals
of the RFS program, especially if many of the fuel
blenders, independent marketers, and retail station
owners change their business practices to avoid becoming obligated parties, these changes could have broader negative impacts in the fuels marketplace. If the
independent marketers and retail station owners cease
to be “position holders,” we believe the market positions they vacate are likely to be taken up by existing
refiners. This could start to reverse the fuel industry’s
transition over the last decade to move away from the
integrated model in which refiners disinvested from
downstream infrastructure at wholesale and retail.
The integrated model has previously caused concerns
227

See, e.g., Comments from CVR Energy, EPA-HQ-OAR2016-0544-0396.
228

0076.

See, e.g., Comments from UPS, EPA-HQ-OAR-2016-0544-

525a
regarding fuel price impacts and manipulation in the
market. We believe that changing the point of obligation could provide an incentive for a shift in control to
a relatively few large parties upstream and remove
choices and flexibilities that downstream businesses
have negotiated over the years in order to hold a position in what is currently a highly competitive fuels
market. Changing the point of obligation as requested
by the petitioners could result in greater market concentration in certain markets. For example, if independent marketers and retailers give up their positions at terminals in an effort to avoid becoming obligated parties it is possible that some terminals could
become dominated by a small number of refiners, or
even a single refiner. This reduction in competition
could result in higher fuel prices for the retail stations
that purchase fuel from these terminals, and ultimately for their consumers. This concern was echoed by
many commenters.229 The absence of independent marketer and retail station owners at terminals may also
negatively impact the ability for retail station owners
to purchase fuel on the spot market, instead forcing
them to rely on longer term contracts with refiners to
a greater degree. This would further limit the retailers’ options to purchase the lowest cost fuel. These are
just examples of the negative impacts that could result
from broader market restructuring if the EPA were to
change the point of obligation of the RFS program as
requested by the petitioners.

229

See, e.g., Comment from Casey’s, EPA-HQ-OAR-20160544-0268; Comments from American Trucking Association,
EPA-HQ-OAR-2016-0544-0355.

526a
VI. Other Comments
The EPA received comments contending that the
RIN market is “illegal,” as the statute provides that
transfer of credits must be “for the purpose of complying” with the RFS program, CAA section 211(o)(5)(B),
and that unobligated blenders and RIN traders do not
comply with the RFS program.230 They also state that
the “EPA allows entities to generate RINs from blending any volume of renewable fuel,”231 and not just those
quantities greater than the statutory volumes, as
suggested by the statute.232 In response, EPA notes
that the RIN system was initially established through
notice and comment rulemaking with considerable support from stakeholders in RFS1, and then reaffirmed
with relatively minor adjustments in RFS2. Thus, the
time to seek judicial review of the creation of the RIN
compliance system is past. EPA did not reopen this
matter in the context of its proposed denial of the petitions seeking a change in the point of obligation, so
these comments are beyond the scope of this action. By
means of explanation, and without intending by this
response to open this resolved matter for further
debate or consideration, we note that the RIN system
serves two purposes: as a general compliance mechanism, and as a means of implementing the statutes’
credit provisions. These commenters ignore or minimize the compliance mechanism aspect of the RIN
230

See, e.g., Comments from CVR Energy, EPA-HQ-OAR2016-0544-0396; Comments from the Small Refiners Coalition,
EPA-HQ-OAR-2016-0544-0406.
231

Commenters’ suggestion that RINs may be generated from
blending is inaccurate; RINs are generated at the point of
renewable fuel production, and can be separated at the point of
blending. See 40 CFR 80.1426-27.
232

CAA section 211(o)(5)(A)(i)

527a
system, and EPA’s authority under CAA Sections
211(o)(2) and 301 to establish a compliance program
which could include credit elements that extend beyond
the specific elements required in CAA Section 211(o)(5).
Monroe Energy stated that the EPA had an obligation to conduct a jobs analysis under CAA section
321(a) before it denied the petitions for rulemaking,
citing Murray Energy Corp. v. McCarthy, No. 5:14-CV39 (N.D. W. Va. 2014). The company further stated
that, had the EPA performed this jobs analysis, EPA
would have recognized the threat of closures and job
losses to merchant refineries. First, the EPA notes
that on appeal of the district court decision cited by
Monroe Energy, the Fourth Circuit Court of Appeals
held that CAA section 321(a) does not impose a nondiscretionary duty on the EPA. Murray Energy Corp.
v. EPA, 861 F.3d 529 (4th Cir. 2017). Second, CAA section 321 does not, as this commenter suggests, specify
that completion of a jobs analysis is a prerequisite to
the Agency's authority to act on a petition for rulemaking or to take any other final agency action. Finally,
the EPA has evaluated claims that the RFS program
as currently structured harms merchant refiners, and
disagrees with the commenter that this is the case See
Section II.C, supra.
The EPA received additional comments that are
outside the scope of this determination. Some commenters suggested that conventional biofuels lack
environmental and greenhouse gas benefits. Other
commenters suggested that the RFS should incent coprocessing of renewable feedstocks with petroleum at
refineries.233 The EPA also received comments suggesting a “diesel disparity:” that refiners that produce a
233

See Comments from UPS, EPA-HQ-OAR-2016-0544-0076.

528a
higher percentage of diesel have difficulty meeting
their RVO through blending.234 In addition, some commenters suggested that the RFS program should not
include imported biofuel.235 As these comments are
outside the scope of this determination, we decline to
address them here.
VII. Conclusion
Congress authorized the EPA to require “refiners,
importers, and blenders, as appropriate” to be obligated parties in the RFS program.236 After reviewing
the petitions the EPA has received requesting changes
to the point of obligation in the RFS program, reviewing the comments submitted on our proposed denial of
these petitions, assessing the relevant data available
to the EPA, and speaking with and reviewing written
communication from numerous parties that would
likely be impacted by the requested change, the EPA
continues to believe that the point of obligation is
appropriately placed on refiners and importers,
consistent with the current regulation. We believe that
the parties requesting this change significantly underestimate the scope and impacts of the changes that
would result from the number and nature of additional
parties that would become obligated parties if the
point of obligation were changed. In addition, we do
not believe that the evidence indicates that the changes
Petitioners have requested would result in additional
production, distribution, and use of renewable fuels as
234

See Comments from CVR Energy, EPA-HQ-OAR-20160544-0396; Comments from Small Refiners’ Coalition EPA-HQOAR-2016-0544-0406.
235

See Comments from the Small Refiners’ Coalition, EPAHQ-OAR-2016-0544-0406.
236

CAA Section 211(o)(3)(B)(ii)(I).

529a
transportation fuel in the United States. If anything
we believe it could negatively impact renewable fuel
volumes, especially during the substantial transition
that would be required. Both in the short and longterm, we believe that the program is more likely to
succeed with the current set of obligated parties. The
EPA has evaluated the functionality of the RIN
market and believes that the RIN program provides a
generally efficient and equitable means for all obligated parties to meet their compliance obligations,
and that the shortfalls in renewable fuels to date are
attributable to broader market forces that would be
unaffected by merely changing the point of obligation.
It is likely that if the changes requested by the petitioners were made, many of the parties that would
become obligated parties as a result of the change in
the definition of obligated parties would reposition
themselves in an effort to avoid or minimize their
obligations under the RFS program. Such market
repositioning could minimize any long term impacts of
the proposed change on the production, distribution,
and use of renewable fuel, but may also have farreaching negative consequences across the fuels
marketplace, and increase fuel prices for consumers.
In addition, the EPA believes the point of obligation
should be retained to promote stability and regulatory
certainty.237 The Administrator is therefore denying
the petitions requesting that the EPA initiate a rulemaking process to reconsider or change the regulation
identifying refiners and importers of gasoline and diesel
fuel as the entities responsible for complying with the
237

In addition, as noted in section III.A. EPA does not
interpret the Clean Air Act as authorizing us to place the point of
obligation on distributors or on “position holders” that are not
refiners, blenders or importers.

530a
annual percentage standards adopted under the RFS
program.
EPA has determined that this action is nationally
applicable for purposes of CAA section 307(b)(1). since
the result of this action is that the current nationallyapplicable regulation defining obligated parties who
must comply with nationally applicable percentage
standards developed under the RFS program remains
in place. In the alternative, even if this action were
considered to be only locally or regionally applicable,
the action is of nationwide scope and effect for the
same reason, and because the action impacts entities
that are broadly distributed nationwide who must
comply with the nationally-applicable RFS percentage
standards, as well as other entities who are broadly
distributed nationwide that could potentially have
been subject to such requirements if EPA had elected
to grant the petitions seeking a change in the definition of obligated parties.

531a
APPENDIX G
ENVIRONMENTAL PROTECTION AGENCY
————
40 CFR Part 80
[EPA–HQ–OAR–2016–0544;
FRL–9971–36–OAR]
————
Notice of Denial of Petitions for Rulemaking
To Change the RFS Point of Obligation
————
AGENCY: Environmental Protection Agency (EPA).
ACTION: Denials of rulemaking requests.
————
SUMMARY: The Environmental Protection Agency
(EPA) is providing notice of its denial of several petitions requesting that EPA initiate a rulemaking process
to reconsider or change 40 CFR 80.1406, which identifies refiners and importers of gasoline and diesel fuel
as the entities responsible for complying with the annual
percentage standards adopted under the Renewable
Fuel Standard (RFS) program.
DATES: November 30, 2017.
ADDRESSES: The EPA has established a docket for
this action under Docket ID No. EPA–HQ–OAR–2016–
0544. All documents in the docket are listed on the
http://www.regulations.gov Web site. Although listed
in the index, some information is not publicly available,
e.g., CBI or other information whose disclosure is
restricted by statute. Certain other material, such as
copyrighted material, is not placed on the Internet and
will be publicly available only in hard copy form. Pub-

532a
licly available docket materials are available electronically through http://www.regulations.gov.
FOR FURTHER INFORMATION CONTACT: Julia
MacAllister, Office of Transportation and Air Quality,
Assessment and Standards Division, Environmental
Protection Agency, 2000 Traverwood Drive, Ann
Arbor, MI 48105; telephone number: 734-214-4131;
email address: macallister.julia@epa.gov.
SUPPLEMENTARY INFORMATION:
I.

Background

On March 26, 2010, the EPA issued a final rule (75
FR 14670) establishing regulatory amendments to the
renewable fuel standards (‘‘RFS’’) program regulations
to reflect statutory amendments to Section 211(o) of
the Clean Air Act enacted as part of the Energy Independence and Security Act of 2007. These amended
regulations included 40 CFR 80.1406, identifying
refiners and importers of gasoline and diesel fuel as the
‘‘obligated parties’’ responsible for compliance with the
RFS annual standards. Beginning in 2014, and continuing to the present, some obligated parties and other
stakeholders have questioned whether 40 CFR 80.1406
should be amended, and a number of them have filed
formal petitions for reconsideration of the definition of
‘‘obligated party’’ in 40 CFR 80.1406, or petitions for
rulemaking to amend the provision. On January 27,
2014, Monroe Energy LCC (‘‘Monroe’’) filed a ‘‘petition
to revise’’ 40 CFR 80.1406 to change the RFS point of
obligation, and on January 28, 2016, Monroe filed a
‘‘petition for reconsideration’’ of the regulation. On
February 11, 2016, Alon Refining Krotz Springs, Inc.;
American Refining Group, Inc.; Calumet Specialty
Products Partners, L.P.; Lion Oil Company; ErgonWest Virginia, Inc.; Hunt Refining Company; Placid

533a
Refining Company LLC; U.S. Oil & Refining Company
(the ‘‘Small Refinery Owners Ad Hoc Coalition’’) filed
a petition for reconsideration of 40 CFR 80.1406. On
February 12, 2016, Valero Energy Corporation and its
subsidiaries (‘‘Valero’’) filed a ‘‘petition to reconsider
and revise’’ the rule. On June 13, 2016, Valero submitted a petition for rulemaking to change the definition
of ‘‘obligated party.’’ On August 4, 2016, the American
Fuel and Petrochemical Manufacturers (‘‘AFPM’’) filed
a petition for rulemaking to change the definition of
‘‘obligated party.’’ On September 2, 2016, Holly Frontier
also filed a petition for rulemaking to change the definition of ‘‘obligated party.’’
The petitioners all seek to have the point of obligation shifted from refiners and importers, but differed
somewhat in their suggestions for alternatives in their
petitions. Some requested in their petitions that EPA
shift the point of obligation from refiners and importers to those parties that blend renewable fuel into transportation fuel. Others suggested that it be shifted to
those parties that hold title to the gasoline or diesel
fuel immediately prior to the sale of these fuels at the
terminal (these parties are commonly called the ‘‘position holders’’), or to ‘‘blenders and distributors’’. All
petitioners argued, among other things, that shifting
the point of obligation to parties downstream of refiners
and importers in the fuel distribution system would
align compliance responsibilities with the parties best
positioned to make decisions on how much renewable
fuel is blended into the transportation fuel supply in
the United States. Some of the petitioners further
claimed that changing the point of obligation would
result in an increase in the production, distribution, and
use of renewable fuels in the United States and would
reduce the cost of transportation fuel to consumers.

534a
On November 22, 2016, EPA published a notice in
the Federal Register announcing its proposed denial
of all petitions seeking a change in the definition of
‘‘obligated party’’ in 40 CFR 80.1406, and soliciting
comment on its draft analysis of the petitions and
proposed rationale for denial. (81 FR 83776). EPA
opened a public docket under Docket ID No. EPA–HQ–
OAR–2016–0544, where it made its draft analysis
available. EPA received over 18,000 comments on the
proposed denial, including comments from the petitioners, stakeholders, and individuals supporting the
request that EPA change the point of obligation for the
RFS program, as well as from many stakeholders and
individuals supporting EPA’s proposed denial and
reasoning. In comments, petitioners were in agreement that the point of obligation should be moved to
‘‘position holders.’’
II.

Final Denial

The final decision document describing EPA’s analysis of the petitions seeking a change in the definition
of ‘‘obligated parties’’ under the RFS program and our
rationale for denying the petitions is available in the
docket referenced above (Docket ID No. EPA–HQ–
OAR–2016–0544). In evaluating this matter, EPA’s
primary consideration was whether or not a change in
the point of obligation would improve the effectiveness
of the program to achieve Congress’s goals. EPA does
not believe the petitioners or commenters on the matter have demonstrated that this would be the case. At
the same time, EPA believes that a change in the point
of obligation would unnecessarily increase the complexity of the program and undermine the success of
the RFS program, especially in the short term, as a
result of increasing instability and uncertainty in programmatic obligations.

535a
We believe that the current structure of the RFS
program is working to incentivize the production, distribution, and use of renewable transportation fuels in
the United States, while providing obligated parties a
number of options for acquiring the RINs they need to
comply with the RFS standards. We do not believe
that petitioners have demonstrated that changing the
point of obligation would likely result in increased use
of renewable fuels. Changing the point of obligation
would not address challenges associated with commercializing cellulosic biofuel technologies and the marketplace dynamics that inhibit the greater use of fuels
containing higher levels of ethanol, two of the primary
issues that inhibit the rate of growth in the supply of
renewable fuels today. Changing the point of obligation could also disrupt investments reasonably made
by participants in the fuels industry in reliance on the
regulatory structure the agency established in 2007
and reaffirmed in 2010. While we do not anticipate a
benefit from changing the point of obligation, we do
believe that such a change would significantly increase
the complexity of the RFS program, which could negatively impact its effectiveness. In the short term we
believe that initiating a rulemaking to change the
point of obligation could work to counter the program’s
goals by causing significant confusion and uncertainty
in the fuels marketplace. Such a dynamic would likely
cause delays to the investments necessary to expand
the supply of renewable fuels in the United States,
particularly investments in cellulosic biofuels, the
category of renewable fuels from which much of the
majority of the statutory volume increases in future
years is expected.
In addition, changing the point of obligation could
cause restructuring of the fuels marketplace as newly
obligated parties alter their business practices to avoid

536a
the compliance costs associated with being an obligated
party under the RFS program. We believe these changes
would have no beneficial impact on the RFS program
or renewable fuel volumes and would decrease competition among parties that buy and sell transportation
fuels at the rack, potentially increasing fuel prices for
consumers and profit margins for refiners, especially
those not involved in fuel marketing. In addition, we
note that in comments on EPA’s proposed denial, commenters favoring a change in the definition of ‘‘obligated party’’ were predominantly in favor of designating position holders as obligated parties. However,
position holders are not all refiners, importers or blenders. Therefore, EPA believes the petitioners’ proposal
is not well aligned with the authority provided EPA in
the statute to place the RFS obligation on ‘‘refineries,
importers and blenders, as appropriate.’’
A number of parties that either petitioned EPA to
change the definition of ‘‘obligated party,’’ or commented
favorably on those petitions also challenged the rule
establishing RFS standards for 2014, 2015 and 2016,
alleging both that EPA had a duty to annually
reconsider the appropriate obligated parties under the
RFS program and that it was required to do so in
response to comments suggesting that it could potentially avoid or minimize its exercise of the inadequate
domestic supply waiver authority if it did so. In a
recent ruling in that litigation, the United States
Court of Appeals for the District of Columbia Circuit
declined to rule on the matter, and instead indicated
that EPA could address the matter either in the context of a remand of the rule ordered on other grounds,
or in response to the administrative petitions that are
the subject of this notice. See Americans for Clean
Energy v. Environmental Protection Agency, 864 F.3d
691 (D.C. Cir. 2017) (‘‘ACE’’). As noted above, EPA is

537a
denying the petitions seeking a change in the definition of ‘‘obligated parties.’’ EPA also is re-affirming that
the existing regulation applies in all years going forward unless and until it is revised. EPA does not agree
with the petitioners in the ACE case that the statute
requires annual reconsideration of the matter and, to
the extent that EPA has discretion under the statute
to undertake such annual reevaluations, EPA declines
to do so since we believe the lack of certainty that
would be associated with such an approach would
undermine success in the program.
EPA has determined that this action is nationally
applicable for purposes of CAA section 307(b)(1). since
the result of this action is that the current nationallyapplicable regulation defining obligated parties who
must comply with nationally applicable percentage
standards developed under the RFS program remains
in place. In the alternative, even if this action were considered to be only locally or regionally applicable, the
action is of nationwide scope and effect for the same
reason, and because the action impacts entities that
are broadly distributed nationwide who must comply
with the nationally-applicable RFS percentage standards, as well as other entities who are broadly distributed nationwide that could potentially have been subject to such requirements if EPA had elected to grant
the petitions seeking a change in the definition of
obligated parties.
Dated: November 22, 2017.
E. Scott Pruitt,
Administrator.
[FR Doc. 2017–25827 Filed 11–29–17; 8:45 am]
BILLING CODE 6560–50–P

538a
APPENDIX H
ENVIRONMENTAL PROTECTION AGENCY
————
40 CFR Part 80
[EPA–HQ–OAR–2017–0091;
FRL–9964–86–OAR]
RIN 2060–AT04
————
Renewable Fuel Standard Program:
Standards for 2018 and Biomass-Based
Diesel Volume for 2019
————
AGENCY: Environmental Protection Agency (EPA).
ACTION: Proposed Rule [July 21, 2017].
————
SUMMARY: Under section 211 of the Clean Air Act,
the Environmental Protection Agency (EPA) is required
to set renewable fuel percentage standards every year.
This action proposes the annual percentage standards
for cellulosic biofuel, biomass-based diesel, advanced
biofuel, and total renewable fuel that apply to gasoline
and diesel transportation fuel produced or imported in
the year 2018. Relying on statutory waiver authority
that is available when projected cellulosic biofuel production volumes are less than the applicable volume
specified in the statute, the EPA is proposing volume
requirements for cellulosic biofuel, advanced biofuel,
and total renewable fuel that are below the statutory
applicable volumes, and lower than the 2017 requirements. In this action, we are also proposing the applicable volume of biomass-based diesel for 2019.

539a
DATES: Comments must be received on or before
August 31, 2017. EPA will announce the public hearing date and location for this proposal in a supplemental Federal Register document.
[Content Omitted]
D. RIN Market Operation
Some stakeholders have expressed concerns the current provisions related to RIN trading render the RFS
program vulnerable to market manipulation. EPA takes
such issues seriously. The RIN system was originally
designed with an open trading market in order to maximize its liquidity and ensure a robust marketplace for
RINs. However, EPA is interested in further assessing
whether and how the current trading structure provides an opportunity for market manipulation. To
that effect, EPA seeks comment and input on potential
changes to the RIN trading system that might help
address these concerns. EPA is not soliciting comment
on any aspect of the current RFS regulatory program
other than those specifically related to RIN trading, as
mentioned above, and the proposed annual standards
for 2018 and biomass-based diesel applicable volume
for 2019. In particular, EPA is not re-opening for public
comment in this rulemaking the current definition of
“obligated party.”11
Separate from evaluating the RIN trading options in
the RFS program, the EPA is working with appropriate market regulators to analyze targeted concerns of
some stakeholders. For example, the EPA has executed
a memorandum of understanding with the Commodity
11

Separately, EPA has received a number of petitions seeking
reconsideration of the definition of “obligated party,” and solicited
public comment on its proposed resolution of those petitions. See
81 FR 83776 (November 22, 2016)

540a
Futures Trading Commission (CFTC) and welcomes
CFTC involvement in evaluating RIN market concerns.
In the meantime, EPA has continued to explore additional ways to increase program transparency in order
to support the program and share data with all stakeholders. EPA already publishes RFS program data on
our Web site, including data related to RIN generation, sales and holdings, and annual compliance. We
are interested in providing more information, to the
extent consistent with our obligations to protect confidential business information. EPA seeks comment on
specific data elements and posting frequency that stakeholders believe would be useful to help with market
transparency and liquidity.
[Content Omitted]

541a
APPENDIX I
ENVIRONMENTAL PROTECTION AGENCY
————
40 CFR Part 80
[EPA–HQ–OAR–2017–0091;
FRL–9968–70–OAR]
————
Renewable Fuel Standard Program:
Standards for 2018 and Biomass-Based
Diesel Volume for 2019; Availability of
Supplemental Information and
Request for Further Comment
————
AGENCY: Environmental Protection Agency (EPA).
ACTION: Availability of supplemental information;
request for further comment [October 4, 2017].
————
SUMMARY: This document provides additional data
and an opportunity to comment on that data and potential options for reductions in the 2018 biomass-based
diesel, advanced biofuel, and total renewable fuel volumes, and/or the 2019 biomass-based diesel volume
under the Renewable Fuel Standard (RFS) program.
In a July 21, 2017 notice of proposed rulemaking, the
EPA proposed certain reductions in the statutory volume targets for advanced biofuel and total renewable
fuel for 2018, and requested comment on further reductions based on various considerations. This document
presents additional data on production, imports and
cost of renewable fuel and several options for how we
may consider such data in establishing the final vol-

542a
ume requirements using the waiver authorities provided by the statute.
DATES: Comments must be received on or before
October 19, 2017.
ADDRESSES: Submit your comments, identified by
Docket ID No. EPA–HQ–OAR–2017–0091, at https://
www.regulations.gov. Follow the online instructions
for submitting comments. Once submitted, comments
cannot be edited or withdrawn. The EPA may publish
any comment received to its public docket. Do not
submit electronically any information you consider to
be Confidential Business Information (CBI) or other
information whose disclosure is restricted by statute.
Multimedia submissions (audio, video, etc.) must be
accompanied by a written comment. The written
comment is considered the official comment and should
include discussion of all points you wish to make. The
EPA will generally not consider comments or comment
contents located outside of the primary submission
(i.e., on the Web, cloud, or other file sharing system).
For the full EPA public comment policy, information
about CBI or multimedia submissions, and general
guidance on making effective comments, please visit
http://www.epa.gov/dockets/commenting-epa-dockets.
FOR FURTHER INFORMATION CONTACT: Julia
MacAllister, Office of Transportation and Air Quality,
Assessment and Standards Division, Environmental
Protection Agency, 2000 Traverwood Drive, Ann
Arbor, MI 48105; telephone number: 734–214–4131;
email address: macallister.julia@epa.gov.

543a
SUPPLEMENTARY INFORMATION:
Outline of This Preamble
I. General Information
A. Does this action apply to me?
II. Overview
III.Costs and Supply of Advanced Biofuel
IV. Possible Further Reductions of 2018 Volume
Requirements
A. General Waiver Authority
1. Inadequate Domestic Supply
2. Severe Economic Harm
B. Biomass-Based Diesel Waiver Authority
V. Consideration of Possible Reductions in the BiomassBased Diesel Volume Requirement for 2019
VI. Executive Order 12866: Regulatory Planning and
Review and Executive Order 13563: Improving
Regulation and Regulatory Review

544a
I. General Information
A. Would this rule, if finalized, apply to me?
Entities potentially affected by the July 21, 2017
proposed rule1 (the July proposal), should it become
final, are those involved with the production, distribution, and sale of transportation fuels, including gasoline and diesel fuel or renewable fuels such as ethanol,
biodiesel, renewable diesel, and biogas.
[Content Omitted]
II. Overview
On July 21, 2017, EPA proposed reductions in the
statutory volume targets for advanced biofuel and
total renewable fuel using the cellulosic waiver authority in Clean Air Act (CAA) section 211(o)(7)(D).2 We
proposed using the maximum reduction permitted
under that authority (considering the proposed cellulosic volume requirement) to reduce the 2018 volume
targets for advanced biofuel and total renewable fuel
to 4.24 and 19.24 billion gallons, respectively, in part
by placing a greater emphasis on cost considerations
than we have in the past. We requested comment on
possible additional reductions in advanced biofuel (with
corresponding reductions in total renewable fuel) using
the general waiver authority in CAA section 211(o)(7)(A)
or other authorities. Similarly, we requested comment
on whether EPA should, in the final rule, reduce the
2019 volume requirement for biomass-based diesel

1

82 FR 34206.

2

82 FR 34206.

545a
(BBD) to a level below the proposed level of 2.1 billion
gallons.4
3

We did not specifically request comment in the proposed rule on a possible reduction of the 2018 volume
requirement for BBD, which was set at 2.1 billion
gallons in 2016.5 We did, however, request comment
on the use of the general waiver authority or other
authorities to reduce the advanced biofuel requirement for 2018, and BBD is not only nested within
advanced biofuel but is also the predominant source of
advanced biofuel. Therefore, considerations leading to
a reduction of the advanced biofuel volume may also
be relevant in reducing the 2018 BBD volume requirement. In this document we are providing additional
information on renewable fuel costs and supply as well
as possible options for the exercise of our waiver
authorities based on these and other considerations.
We note that the statute also provides EPA the
authority to waive a portion of the BBD standard if
there is a significant renewable feedstock disruption
or other market circumstances that would make the
price of biomass-based diesel fuel increase significantly,
and to make related reductions in the advanced biofuel
3

Advanced biodiesel and renewable diesel with a D code of 4.

4

We note the possibility that in light of our consideration of
comments received on this document and the NPRM that the
final rule could implement volume requirements that deviate further from the volume targets in the statute than the proposed
levels. We believe the statutory provisions embody multiple Congressional objectives, including both increasing renewable fuels
and limiting in certain circumstances the additional cost or economic impact associated with such increases. We invite comment
on how to balance these objectives in exercising our waiver
authorities.
5

81 FR 89746, December 12, 2016.

546a
and total renewable fuel volume requirements.6 In
light of recent developments, described below, we seek
comment on whether it would be appropriate to use
this waiver authority in the final rule.
III. Cost and Supply of Advanced Biofuel
As EPA indicated in the July proposal, the cost of
advanced biofuels is high on a per gallon basis compared to the petroleum fuels they replace. The expiration of the biodiesel tax credit in the U.S. at the end of
2016 has already impacted the effective price of biodiesel
to blenders, as well as the price of biodiesel blends to
consumers. While it does not appear that the expiration of the tax credit has had a direct impact on the
price of unblended biodiesel (B100) in 2017, we expect
that the expiration of the tax credit has had a significant impact on the effective price of biodiesel sold to
blenders. This is because the biodiesel tax credit that
expired at the end of 2016 was received by biodiesel
blenders, rather than biodiesel producers. The price
of biodiesel and EPA’s estimated effective price of biodiesel to blenders (net the $1/gallon tax credit when
applicable) from January 2016 through August 2017
are shown in Figure III–1 below.7 We also expect the
price of biodiesel used in the U.S. could increase further following a recent preliminary determination by
the Department of Commerce that it would be appropriate to place countervailing duties of 41% to 68% on

6
7

Under CAA section 211(o)(7)(E)(ii).

After January 1, 2017 the price of biodiesel and the estimated effective price of biodiesel to blenders are identical, as the
tax credit expired at the end of 2016.

547a
imports of biodiesel from Argentina and Indonesia.8
Cash deposits against preliminary duties are currently
being collected, potentially impacting prices prior to a
final determination. Such duties could also affect import
volumes as pointed out in a recent letter from the American Fuel and Petrochemical Manufacturers (AFPM).9
A final decision from the Department of Commerce
and the International Trade Commission, which could
include final countervailing duty orders, is scheduled
for December 29, 2017.
[Content Omitted]
The level of imports and exports can also affect the
price of renewable fuel used in the U.S., and both
imports and export volumes have varied considerably
over the last several years. Based on data collected
on RIN generation and retirement from the EPAModerated Transaction System (EMTS), we have determined gross domestic production and import and export
volumes for advanced biofuels and biomass-based

8

“Commerce Preliminary Finds Countervailable Subsidization of Imports of Biodiesel from Argentina and Indonesia,” available in EPA docket number EPA–HQ–OAR–2017–0091.
9

“AFPM letter on biodiesel supply in 2017,” available in docket EPA–HQ–OAR–2017–0091.

548a
diesel for the years 2013 through 2016.10 Further
details can be found in a memorandum to the docket.11
[Content Omitted]
Commenters raised concerns that along with affecting prices of renewable fuels in the U.S., imports may
also have an impact on the energy independence and
security status of the U.S.12 Increasing the energy
independence and security of the U.S. is one of the
stated goals in the Energy Security and Independence
Act of 2007, and the RFS program’s standards affect
the volumes of both domestic production and imports.
EPA requests comment on whether it is appropriate to
consider possible impacts of these volumes on U.S.
energy independence and security in setting the applicable standards under the RFS program, insofar as
they impact those factors that we are permitted to
consider and evaluate under the available waiver
authorities, and/or the standard-setting authority for
BBD.
EPA remains concerned about the high cost of
advanced biofuels. As a result, and in light of the pending action on countervailing duties on imported biodiesel from Argentina and Indonesia which we believe
10

The use of RIN data necessarily excludes renewable fuel
import or export volumes for which no RINs were generated. RINs
may not be generated, for instance, if ethanol has not been denatured or if a producer is exporting a renewable fuel. However, for
advanced biofuels, RINless volumes (which would not be reflected
in Tables III-1 or III-2) are expected to be an extremely small
portion of all volumes.
11

“Imports and exports of renewable fuel in 2013 through 2016,”
memorandum from David Korotney to docket EPA-HQ-OAR-20170091.
12

See e.g., comments from AFPM/API, EPA-HQ-OAR-20170091-3645.

549a
could, if finalized, further increase the cost and/or
decrease the supply of advanced biofuel in the U.S., we
believe it is appropriate to request further comment on
appropriate ways to determine the applicable volume
requirements for 2018, and the BBD volume requirement for 2019.
[Content Omitted]

550a
APPENDIX J
U.S. ENVIRONMENTAL
PROTECTION AGENCY
OFFICE OF TRANSPORTATION
AND AIR QUALITY
ASSESSMENT AND STANDARDS DIVISION
————
EPA-420-R-17-007
————
Renewable Fuel Standard
Program Standards For 2018
And Biomass-Based Diesel
Volume For 2019:
Response to Comments
————
December 2017
————
[Content Omitted]
9.4 Beyond the Scope
Commenters that provided comment on this topic
include, but are not limited to: 0446, 1177, 1301, 1756,
1774, 1776, 1913, 2539, 2542, 2545, 3105, 3106, 3110,
3142, 3178, 3241, 3247, 3306, 3497, 3575, 3593, 3646,
3677, 3678, 3873, 3887, and 3955.
Comment:
Commenters addressed numerous additional topics,
including the following:
-

Legislative changes for the RFS program,
including repeal of the RFS program
Changes to the existing RFS regulations,
including removing the obligation on
exported renewable fuel

551a
- Updates to EPA’s lifecycle analyses
- Treatment of cellulosic waiver credits
- Changes to the point of obligation for the
RFS program
- RFS registration issues
- Suggestions for new RIN-generating pathways including renewable electricity, and
improvements to the petition and efficient
producer pathways processes
- Impacts of ethanol on engines
- Extending the 1 psi RVP waiver for E15
- Changes to the E15 misfueling mitigation
plans
- Approving new fuels such as mid-level
ethanol blends and biobutanol
- Potential future RFS rulemakings such as
the “reset rule” or an action to address the
remand of the 2016 RFS standards
- The creation of a general hardship exemption for refiners
- The Renewables Enhancement and Growth
Support (REGS) rule, including biointermediates and ethanol flex fuel
Response:
These comments are all beyond the scope of this rulemaking as EPA did not propose any changes to the
overall structure of the RFS program or otherwise
seek comment on these issues. These topics are not
further addressed in this document.
[Content Omitted]

552a
APPENDIX K
ENVIRONMENTAL PROTECTION AGENCY
40 CFR Part 80
————
[EPA–HQ–OAR–2017–0091; FRL–9971–73–OAR]
RIN 2060–AT04
————
Renewable Fuel Standard Program:
Standards for 2018 and Biomass-Based
Diesel Volume for 2019
————
AGENCY: Environmental Protection Agency (EPA).
ACTION: Final rule [December 12, 2017].
SUMMARY: Under section 211 of the Clean Air Act,
the Environmental Protection Agency (EPA) is required
to set renewable fuel percentage standards every year.
This action establishes the annual percentage standards
for cellulosic biofuel, biomass-based diesel, advanced
biofuel, and total renewable fuel that apply to gasoline
and diesel transportation fuel produced or imported in
the year 2018. Relying on statutory waiver authority
that is available when projected cellulosic biofuel production volumes are less than the applicable volume
specified in the statute, the EPA is establishing volume
requirements for cellulosic biofuel, advanced biofuel,
and total renewable fuel that are below the statutory
volume targets. In this action, we are also establishing
the applicable volume of biomass-based diesel for 2019.
DATES: This final rule is effective on February 12,
2018.

553a
ADDRESSES: The EPA has established a docket for
this action under Docket ID No. EPA–HQ–OAR–2017–
0091. All documents in the docket are listed on the
http://www.regulations.gov Web site. Although listed
in the index, some information is not publicly available, e.g., CBI or other information whose disclosure is
restricted by statute. Certain other material, such as
copyrighted material, is not placed on the internet and
will be publicly available only in hard copy form. Publicly available docket materials are available electronically through http://www.regulations.gov.
FOR FURTHER INFORMATION CONTACT:
Julia MacAllister, Office of Transportation and Air
Quality, Assessment and Standards Division, Environmental Protection Agency, 2000 Traverwood Drive, Ann
Arbor, MI 48105; telephone number: 734–214–4131;
email address: macallister.julia@epa.gov.

554a
SUPPLEMENTARY INFORMATION:
Entities potentially affected by this final rule are those
involved with the production, distribution, and sale of
transportation fuels, including gasoline and diesel fuel
or renewable fuels such as ethanol, biodiesel, renewable diesel, and biogas. Potentially regulated categories
include:

1,2

This table is not intended to be exhaustive, but rather
provides a guide for readers regarding entities likely
to be regulated by this action. This table lists the types
of entities that EPA is now aware could potentially be
regulated by this action. Other types of entities not
listed in the table could also be regulated. To determine whether your entity would be regulated by this
action, you should carefully examine the applicability
criteria in 40 CFR part 80. If you have any questions
regarding the applicability of this action to a particular entity, consult the person listed in the FOR FURTHER INFORMATION CONTACT section.

1

North American Industry Classification System (NAICS).

2

Standard Industrial Classification (SIC) system code.

555a
Outline of This Preamble
I. Executive Summary
A. Purpose of This Action
B. Summary of Major Provisions in This
Action
1. Approach to Setting Volume
Requirements
2. Cellulosic Biofuel
3. Advanced Biofuel
4. Total Renewable Fuel
5. Other Waiver Authorities*
6. 2019 Biomass-Based Diesel
7. Annual Percentage Standards
8. Assessment of Aggregate
Compliance*
II. Authority and Need for Waiver of
Statutory Applicable Volumes
A. Statutory Authorities for Reducing
Volume Targets
1. Cellulosic Waiver Authority
2. General Waiver Authority
B. Treatment of Carryover RINs
1. Updated Projection of Carryover
RIN Volume

* The table of contents in the original version omitted subsections 5 and 8.

556a
2. EPA’s Decision Regarding the
Treatment of Carryover RINs
III. Cellulosic Biofuel Volume for 2018
A. Statutory Requirements
B. Cellulosic Biofuel Industry Assessment
1. Potential Domestic Producers
2. Potential Foreign Sources of
Cellulosic Biofuel
3. Summary of Volume Projections
for Individual Companies
C. Projection from the Energy
Information Administration
D. Cellulosic Biofuel Volume for 2018
1. Liquid Cellulosic Biofuel
2. CNG/LNG Derived From Biogas
3. Total Cellulosic Biofuel in 2018
IV. Advanced Biofuel and Total Renewable
Fuel Volumes for 2018
A. Volumetric Limitation on Use of the
Cellulosic Waiver Authority
B. Reasonably Attainable Volumes of
Advanced Biofuel
1.

Imported Sugarcane Ethanol

2.

Biodiesel and Renewable Diesel

3.

Other Advanced Biofuel

4.

Total Advanced Biofuel

C. Exercise of Cellulosic Waiver
Authority for Advanced Biofuel

557a
D. Exercise of Cellulosic Waiver
Authority for Total Renewable Fuel
E. Impacts of 2018 Standards on Costs
1. Illustrative Cost Savings Associated
With Reducing Statutory Cellulosic Volumes
2. Illustrative Cost Analysis of Advanced
Biofuels Using 2017 as the Baseline
V. Consideration of Additional Reductions
Using Other Waiver Authorities
A. Inadequate Domestic Supply
B. Severe Economic Harm
C. Severe Environmental Harm
D. Biomass-Based Diesel Waiver
Authority
VI. Final Biomass-Based Diesel Volume for
2019
A. Statutory Requirements
B. Determination of the 2019 Applicable
Volume of Biomass-Based Diesel
C. Consideration of Statutory Factors
set forth in CAA Section
211(o)(2)(B)(ii)(I)–(VI) for 2019
VII. Percentage Standards for 2018
A. Calculation of Percentage Standards
B. Small Refineries and Small Refiners
C. Final Standards
VIII. Administrative Actions

558a
A. Assessment of the Domestic
Aggregate Compliance Approach
B. Assessment of the Canadian
Aggregate Compliance Approach
C. RIN Market Operation
IX. Public Participation
X. Statutory and Executive Order Reviews
A. Executive Order 12866: Regulatory
Planning and Review and Executive
Order 13563: Improving Regulation
and Regulatory Review
B. Executive Order 13771: Reducing
Regulations and Controlling
Regulatory Costs
C. Paperwork Reduction Act (PRA)
D. Regulatory Flexibility Act (RFA)
E. Unfunded Mandates Reform Act
(UMRA)
F. Executive Order 13132: Federalism
G. Executive Order 13175: Consultation
and Coordination With Indian Tribal
Governments
H. Executive Order 13045: Protection of
Children From Environmental Health
Risks and Safety Risks
I. Executive Order 13211: Actions Concerning Regulations That Significantly
Affect Energy Supply, Distribution,
or Use
J. National Technology Transfer and
Advancement Act (NTTAA)

559a
K. Executive Order 12898: Federal
Actions To Address Environmental
Justice in Minority Populations and
Low-Income Populations
L. Congressional Review Act (CRA)
XI. Statutory Authority

560a
I. Executive Summary
The Renewable Fuel Standard (RFS) program began
in 2006 pursuant to the requirements in Clean Air
Act (CAA) section 211(o) that were added through
the Energy Policy Act of 2005 (EPAct). The statutory
requirements for the RFS program were subsequently
modified through the Energy Independence and Security Act of 2007 (EISA), leading to the publication of
major revisions to the regulatory requirements on
March 26, 2010.3 EISA’s stated goals include moving
the United States (U.S) toward “greater energy independence and security [and] to increase the production
of clean renewable fuels.” Today, nearly all gasoline
used for transportation purposes contains 10 percent
ethanol (E10), and on average diesel fuel contains more
than 4 percent biodiesel and/or renewable diesel.4
The statute includes annual volume targets, and
requires EPA to translate those volume targets (or alternative volume requirements established by EPA in
accordance with statutory waiver authorities) into
compliance obligations that obligated parties must meet
every year. In this action, we are establishing the annual
percentage standards for cellulosic biofuel, biomassbased diesel (BBD), advanced biofuel, and total renewable fuel that would apply to all gasoline and diesel produced or imported in 2018. We are also establishing the
applicable volume of BBD for 2019.
Real-world challenges, in particular the slower-thanexpected development of the cellulosic biofuel industry, has slowed progress towards meeting Congressional goals for renewable fuels. Given the nested nature
3
4

75 FR 14670, March 26, 2010.

Average biodiesel and/or renewable diesel blend percentages
based on EIA’s October 2017 Short Term Energy Outlook (STEO).

561a
of the standards, the shortfall in cellulosic biofuels has
made the volume targets established by Congress for
2018 for advanced biofuels and total renewable fuels
beyond reach. On July 21, 2017, EPA published a proposed rulemaking, containing proposed volume requirements for the RFS Program’s four categories of renewable fuels that would apply in 2018 (and 2019 for
BBD).5 On August 1, EPA hosted a public hearing on
the proposed rule, and EPA received over 235,000 written comments on the proposed rule as well. On October
4, 2017 (82 FR 46174), EPA published an “Availability
of Supplemental Information; Request for Further
Comment,” (hereinafter, “October 4 document”) seeking
further comment on the possible use of other waiver
authorities in the final rule. Transcripts of the public
hearing, along with all the comments received on the
proposed rule and the October 4 document are available in the docket. After careful review of the information before us we are finalizing volume requirements for 2018 for cellulosic biofuel, advanced biofuel
and total renewable fuel that are lower than the
statutory targets, but nevertheless will ensure these
renewable fuels will continue to play a critical role as
a complement to our petroleum-based fuels. The final
rule modifies the volume requirements slightly relative to the proposed rule, and in this notice we explain
where and why such modifications were made.
In this action, we are finalizing volume requirements for cellulosic biofuel at the level we project to be
available for 2018. We are using the “cellulosic waiver
authority” provided by the statute to finalize volume
requirements for advanced biofuel and total renewable
fuel that are lower than the statutory targets by the
5

82 FR 34206, July 21, 2017.

562a
same magnitude as the reduction in the cellulosic
biofuel reduction (i.e., the volumes we are finalizing for
cellulosic biofuel, advanced biofuel, and total renewable fuel are all 6.71 billion gallons lower than the
statutory volumes). We are not reducing volumes
through use of the general waiver authority or the
biomass-based diesel waiver authority.6 We note that
while we are reducing the required volume of total
renewable fuel, advanced biofuel and cellulosic biofuel
below statutory levels, the required volumes in this
rule would achieve the implied statutory volumes for
conventional biofuel7 and non-cellulosic advanced
biofuel8 for 2018.
The final volume requirements for 2018 are shown
in Table I–1 below. Relative to the levels finalized for
2017, the 2018 volume requirements for advanced biofuel and total renewable fuel are higher by 10 million
gallons. EPA is reducing the advanced biofuel and total
renewable fuel statutory volumes by the same amount
as we are reducing the cellulosic biofuel volume. These
reductions effectively preserve the implied statutory
volumes for conventional renewable fuel and noncellulosic advanced biofuels. We are establishing the
volume requirement for BBD for 2019 at the proposed
volume of 2.1 billion gallons.
6

See 42 U.S.C. 7545(o)(7)(A)(i–ii). See also the discussion of
the general waiver authority in Section II.A.2. below.
7

Throughout this final rule conventional biofuel refers to biofuel that qualifies as renewable fuel, but does not qualify as an
advanced biofuel. RINs generated for conventional biofuels have
a D code of 6.
8

Throughout this final rule non-cellulosic advanced biofuel
refers to biofuel that qualifies as advanced biofuel, but does not
qualify as cellulosic biofuel. RINs generated for non-cellulosic
advanced biofuels have a D code of 4 or 5.

563a
TABLE I–1—FINAL VOLUME REQUIREMENTSa
Cellulosic biofuel (million gallons) .....
Biomass-based diesel (billion gallons)
Advanced biofuel (billion gallons) ......
Renewable fuel (billion gallons) .........

2018 2019
288
n/a
b
2.1
2.1
4.29 n/a
19.29 n/a

A. Purpose of This Action
The national volume targets of renewable fuel that
are intended to be achieved under the RFS program
each year (absent an adjustment or waiver by EPA) are
specified in CAA section 211(o)(2). The statutory volume targets for 2018 are shown in Table I.A–1, along
with the 2017 targets for comparison. The cellulosic
biofuel and BBD categories are nested within the
advanced biofuel category, which is itself nested within the total renewable fuel category. This means, for
example, that each gallon of cellulosic biofuel or BBD
that is used to satisfy the individual volume requirements for those fuel types can also be used to satisfy
the requirements for advanced biofuel and total renewable fuel.

a

All values are ethanol-equivalent on an energy content basis,
except for BBD which is biodiesel-equivalent
b

The 2018 BBD volume requirement was established in the
2017 final rule (81 FR 89746, December 12, 2016).

564a
TABLE I.A–1—APPLICABLE VOLUME TARGETS
SPECIFIED IN THE CLEAN AIR ACT
[Billion gallons]a
Cellulosic biofuel ................................
Biomass-based diesel .........................
Advanced biofuel ................................
Renewable fuel ...................................

2017
5.5
≥1.0
9.0
24.0

2018
7.0
≥1.0
11.0
26.0

Under the RFS program, EPA is required to determine and publish annual percentage standards for each
compliance year. The percentage standards are calculated to ensure use in transportation fuel of the national
“applicable volumes” of the four types of biofuel (cellulosic biofuel, BBD, advanced biofuel, and total renewable fuel) that are set forth in the statute or established by EPA in accordance with the Act’s requirements. The percentage standards are used by obligated
parties (generally, producers and importers of gasoline
and diesel fuel) to calculate their individual compliance obligations. Each of the four percentage standards is applied to the volume of non-renewable gasoline and diesel that each obligated party produces or
imports during the specified calendar year to determine their individual volume obligations with respect
to the four renewable fuel types. The individual volume
obligations determine the number of Renewable Identification Numbers (RINs) of each renewable fuel type
that each obligated party must acquire and retire to
demonstrate compliance.

a

All values are ethanol-equivalent on an energy content basis,
except values for BBD which are given in actual gallons.

565a
EPA is establishing the annual applicable volume
requirements for cellulosic biofuel, advanced biofuel,
and total renewable fuel for 2018, and for BBD for
2019.7 Table I.A–2 lists the statutory provisions and
associated criteria relevant to determining the national
applicable volumes used to set the percentage standards in this final rule.

7

The 2018 BBD volume requirement was established in the
2017 final rule.

566a

This page was intentionally left blank.

Table I.A–2—Statutory Provisions for Determination of Applicable Volumes
Applicable
Clean Air Act
Criteria provided in statute for determination of applicable volume
volumes
reference
Cellulosic
211(o)(7)(D)(i) .......... Required volume must be lesser of volume specified in CAA 211(o)(2)(B)(i)(III) or EPA’s
biofuel .........
projected volume.
211(o)(7)(A) .............. EPA in consultation with other federal agencies may waive the statutory volume in whole
or in part if implementation would severely harm the economy or environment of a State,
region, or the United States, or if there is an inadequate domestic supply.
Biomass-based 211(o)(2)(B)(ii)
Required volume for years after 2012 must be at least 1.0 billion gallons, and must be based
diesel ........... and (v) ...................... on a review of implementation of the program, coordination with other federal agencies, and
an analysis of specified factors.
211(o)(7)(A) .............. EPA in consultation with other federal agencies may waive the statutory volume in whole
or in part if implementation would severely harm the economy or environment of a State,
region, or the United States, or if there is an inadequate domestic supply.
211(o)(7)(E) .............. EPA in consultation with other federal agencies shall issue a temporary waiver of applicable
volumes of BBD where there is a significant feedstock disruption or other market circumstance that would make the price of BBD fuel increase significantly. When exercising this
authority, EPA is also authorized to reduce the applicable volumes of advanced and total
renewable fuel by the same or a lesser volume.
Advanced
211(o)(7)(D)(i) .......... If applicable volume of cellulosic biofuel is reduced below the statutory volume to the probiofuel .........
jected volume, EPA may reduce the advanced biofuel and total renewable fuel volumes in
CAA 211(o)(2)(B)(i)(I) and (II) by the same or lesser volume. No criteria specified.
211(o)(7)(A) .............. EPA in consultation with other federal agencies may waive the statutory volume in whole
or in part if implementation would severely harm the economy or environment of a State,
region, or the United States, or if there is an inadequate domestic supply.
211(o)(7)(E) .............. If applicable volume of biomass-based diesel is reduced, EPA may reduce the advanced biofuel and total renewable fuel volumes in CAA 211(o)(2)(B)(i)(I) and (II) by the same or lesser
volume.
Total
211(o)(7)(D)(i) .......... If applicable volume of cellulosic biofuel is reduced below the statutory volume to the
renewable
projected volume, EPA may reduce the advanced biofuel and total renewable fuel volumes
fuel ..............
in CAA 211(o)(2)(B)(i)(I) and (II) by the same or lesser volume. No criteria specified.
211(o)(7)(A) .............. EPA in consultation with other federal agencies may waive the statutory volume in whole
or in part if implementation would severely harm the economy or environment of a State,
region, or the United States, or if there is an inadequate domestic supply.
211(o)(7)(E) .............. If applicable volume of biomass-based diesel is reduced, EPA may reduce the advanced
biofuel and total renewable fuel volumes in CAA 211(o)(2)(B)(i)(I) and (II) by the same or
lesser volume.

567a

568a

This page was intentionally left blank.

569a
As shown in Table I.A–2, the statutory authorities
allowing EPA to modify or set the applicable volumes
differ for the four categories of renewable fuel. Under
the statute, EPA must annually determine the projected volume of cellulosic biofuel production for the
following year. If the projected volume of cellulosic
biofuel production is less than the applicable volume
specified in CAA section 211(o)(2)(B)(i)(III) of the statute, EPA must lower the applicable volume used to set
the annual cellulosic biofuel percentage standard to
the projected production volume. In Section III of this
final rule, we present our analysis of cellulosic biofuel
production and the applicable volume for 2018. This
analysis is based primarily on the estimate of cellulosic
biofuel production for 2018 conducted by the Energy
Information Administration (EIA),8 information reported to EPA through our Electronic Moderated Transaction System (EMTS), comments received on our proposed rule, and an evaluation of producers’ production
plans and progress to date following discussions with
cellulosic biofuel producers.
With regard to BBD, CAA section 211(o)(2)(B) specifies the applicable volumes of BBD to be used in the
RFS program only through year 2012. For subsequent
years the statute sets a minimum volume of 1 billion
gallons, and directs EPA, in coordination with the U.S.
Departments of Agriculture (USDA) and Energy (DOE),
to determine the required volume after review of implementation of the renewable fuels program and consideration of a number of factors. The BBD volume requirement must be established 14 months before the year
in which it will apply. In the 2017 final rule we established the BBD volume for 2018. In Section VI of this
8

“Letter from EIA to EPA on 2018 projected volumes,”
available in docket EPA–HQ–OAR–2017–0091.

570a
preamble we discuss our assessment of statutory and
other relevant factors and our final volume requirement for BBD for 2019, which has been developed in
coordination with USDA and DOE. We are establishing an applicable volume of 2.1 billion gallons of BBD
for use in deriving the BBD percentage standard in
2019. This volume is equal to the applicable volume of
BBD established in a prior rulemaking for 2018, and
would provide continued support to an industry that is
a significant contributor to the pool of advanced biofuel, while at the same time setting the volume
requirement in a manner anticipated to provide a
continued incentive for the development of other types
of advanced biofuel.
Regarding advanced biofuel and total renewable
fuel, Congress provided several mechanisms through
which the statutory targets could be reduced if necessary. If we reduce the applicable volume of cellulosic
biofuel below the volume specified in CAA section
211(o)(2)(B)(i)(III), we also have the authority to reduce
the applicable volumes of advanced biofuel and total
renewable fuel by the same or a lesser amount. We
refer to this as the “cellulosic waiver authority.” We
may also reduce the applicable volumes of any of the
four renewable fuel types using the “general waiver
authority” provided in CAA section 211(o)(7)(A) if EPA,
in consultation with USDA and DOE, finds that implementation of the statutory volumes would severely harm
the economy or environment of a State, region, or the
U.S., or if there is inadequate domestic supply. We
are also authorized under CAA section 211(o)(7)(E) to
reduce the applicable volume of BBD established for
2018, and to make equal or lesser reductions in the
2018 applicable volumes of advanced biofuel and total
renewable fuel, if we determine that there is a significant renewable feedstock disruption or other market

571a
circumstance that would make the price of BBD increase
significantly. Sections II and IV of this final rule describe
our use of the cellulosic waiver authority alone to derive
the volumes of advanced biofuel and total renewable
fuel that are below the statutory target volumes, and
our assessment that the resulting volumes can be met.
We believe that reductions in the statutory targets for
cellulosic biofuel, advanced biofuel and total renewable fuel for 2018 are necessary. However, in light of
our review of available information, we are making
those reductions under the cellulosic waiver authority
alone and are not reducing them further under other
waiver authorities. Thus, the reductions in both the
advanced and total renewable fuel standards are
directly attributable to the significant shortfall in cellulosic biofuel production, as compared to the statutory targets. A discussion of our consideration of the
general waiver authority and biomass-based diesel
waiver authority to further reduce the required biofuel
volumes in 2018 can be found in Section V.
B. Summary of Major Provisions in This Action
This section briefly summarizes the major provisions of this final rule. We are establishing applicable
volume requirements and associated percentage standards for cellulosic biofuel, advanced biofuel, and total
renewable fuel for 2018; for BBD we are establishing
the percentage standard for 2018 and the applicable
volume requirement for 2019.
1. Approach to Setting Volume Requirements
The approach we have taken in this final rule of
using the cellulosic waiver authority to reduce advanced
biofuel and total renewable fuel by the same amount
as the reduction in the required volume of cellulosic

572a
biofuel is the same approach as in our proposed rule,
but is a departure from our approach to using the cellulosic biofuel waiver authority in previous years. In
previous years we have used the cellulosic waiver
authority to reduce the advanced biofuel and total
renewable fuel volume requirements by a lesser amount
than the reduction in the cellulosic biofuel volume
requirement to allow reasonably attainable volumes of
advanced biofuels to partially backfill for missing
cellulosic biofuel volumes. However, the approach we
have taken for 2018 does not result in a reduction in
the volume requirement for non-cellulosic advanced
biofuel. While the implied statutory volume for noncellulosic advanced biofuel increased by 500 million
gallons from 2017 to 2018, through our 2017 action we
effectively required early use of approximately 0.5
billion gallons of non-cellulosic advanced volume that
Congress envisioned would be first used in 2018.9
Therefore, despite using the cellulosic waiver authority to reduce the volume of advanced biofuel by the same
amount as cellulosic biofuel, the advanced biofuel volume requirement for 2018 is 10 million gallons higher
than the advanced biofuel volume requirement in 2017.
In this rule we are reducing all three volume requirements by the same amount after considering the
greenhouse gas (GHG), energy security benefits, and
9

The statutory advanced biofuel and cellulosic biofuel requirements for 2018 are 11.0 and 7.0 billion gallons respectively. This
implies a non-cellulosic advanced biofuel statutory volume of 4.0
billion gallons. The statutory advanced biofuel and cellulosic biofuel requirements for 2017 are 9.0 and 5.5 billion gallons respectively. This implies a non-cellulosic advanced biofuel statutory
volume of 3.5 billion gallons. In 2017 EPA established required
volumes of advanced biofuel and cellulosic biofuel of 4.28 billion
and 311 million gallons respectively, implying a non-cellulosic
advanced biofuel volume of 3.97 billion gallons.

573a
anticipated costs of advanced biofuels that would occur
at levels beyond those being finalized today.
Section II provides a general description of our approach to setting volume requirements in today’s rule,
including a review of the statutory waiver authorities
and our consideration of carryover RINs. Section III
provides our assessment of the 2018 cellulosic biofuel
volume, based on a projection of production that reflects
a neutral aim at accuracy. Sections IV and V describe
our assessments of advanced biofuel and total renewable fuel, and consideration of the general and biomassbased diesel waiver authorities. Finally, Section VI provides our determination regarding the 2019 BBD volume requirement, and reflects an analysis of a set of
factors stipulated in CAA section 211(o)(2)(B)(ii).
2. Cellulosic Biofuel
In the past several years the cellulosic biofuel industry has continued to make progress towards increased
commercial scale production. Cellulosic biofuel production reached record levels in 2016 and has continued
to grow throughout 2017, driven largely by compressed
natural gas (CNG) and liquefied natural gas (LNG)
derived from biogas. Liquid cellulosic biofuels, while
produced in much smaller quantities than CNG/LNG
derived from biogas, have been produced at steady but
relatively small volumes throughout 2017. In this rule
we are establishing a cellulosic biofuel volume requirement of 288 million ethanol-equivalent gallons for 2018
based on our production projection. Our projection
reflects consideration of a production estimate from
EIA, RIN generation data available to EPA through
EMTS, comments we received on the proposed rule,
the information we have received regarding individual
facilities’ capacities, production start dates and biofuel
production plans, a review of cellulosic biofuel produc-

574a
tion relative to EPA’s projections in previous annual
rules, and EPA’s own engineering judgment. To project cellulosic biofuel production for 2018 we used the
same basic methodology described in the proposed
rule. However, we have used updated data to derive
percentile values used in our production projection for
liquid cellulosic biofuels and to derive the year-overyear change in the rate of production of CNG/LNG
derived from biogas that is used in the projection for
CNG/LNG. (See Section III for further detail on the
methodology used to project cellulosic biofuel production.)
In estimating the volume of liquid cellulosic biofuel
that will be made available in the U.S. in 2018, we
considered all potential production sources by company and facility. This included facilities still in the
commissioning or start-up phases, as well as facilities
already producing some volume of cellulosic biofuel.10
From this universe of potential liquid cellulosic biofuel
sources, we identified the subset that is expected to
produce commercial volumes of qualifying liquid cellulosic biofuel for use as transportation fuel, heating oil,
or jet fuel by the end of 2018. To arrive at projected
volumes, we collected relevant information on each facility. We then developed projected production ranges
based on factors such as progress towards construction
and production goals, facility registration status, production volumes achieved, and other significant factors that could potentially impact fuel production or
the ability of the produced fuel to qualify for cellulosic
10

Facilities primarily focused on research and development
(R&D) were not the focus of our assessment, as production from
these facilities represents very small volumes of cellulosic biofuel,
and these facilities typically have not generated RINs for the fuel
they have produced.

575a
biofuel RINs. We also used this information to group
these companies based on production history and to
select a value within the aggregated projected production ranges that we believe best represents the most
likely production volume from each group of companies in 2018.
For 2018, we are using an industry wide, rather
than a facility-by-facility approach to project the production of CNG/LNG derived from biogas. We believe
this approach is appropriate due to the mature state
of this technology, the large number of facilities that
are registered to produce cellulosic biofuel RINs for
these fuels, and the fact that their volumes are likely
to be affected more by market wide factors than individual company situations. Further discussion on our
projection of cellulosic biofuel production in 2018, including the factors considered and the way these factors
were used to determine our final cellulosic biofuel projection, can be found in Section III.
3. Advanced Biofuel
We are finalizing required advanced biofuel requirements using the same approach used in the July
proposed rulemaking. As was the case at the time of
proposal, the conditions that compelled us to reduce
the 2017 volume requirement for advanced biofuel below
the statutory target remain relevant in 2018. As for
2017, we investigated the ability of volumes of noncellulosic advanced biofuels to backfill unavailable volumes of cellulosic biofuel in 2018. We took into account
the various constraints on the ability of the market to
make advanced biofuels available, the ability of the
standards we set to bring about market changes in the
time available, the potential impacts associated with
diverting biofuels and/or biofuel feedstocks from current use to the production of advanced biofuel used in

576a
the U.S., the fact that the biodiesel tax credit is currently not available for 2018, the proposed countervailing duties on imports of biodiesel from Argentina
and Indonesia, as well as the cost of advanced biofuels.
Based on these considerations we have decided to
reduce the applicable volume of advanced biofuel by
the same amount as we are reducing the applicable
volume of cellulosic biofuels. This results in an advanced
biofuel volume for 2018 that is 10 million gallons
higher than the advanced biofuel volume for 2017.
Although we determined that a small amount of reasonably attainable volumes of advanced biofuel could be
used to backfill a portion of the missing cellulosic biofuel, for reasons described in Section IV, we are not
exercising the discretion provided under the cellulosic
waiver authority in a manner that would lead to that
result.
As mentioned above, we are exercising our cellulosic
waiver authority to reduce the statutory applicable
volume of advanced biofuel to a volume requirement of
4.29 billion gallons for 2018. This applicable volume
for 2018 is 10 million gallons higher than the applicable volume for advanced biofuel for 2017.
4. Total Renewable Fuel
Following our determination of the appropriate volume reduction for advanced biofuel for 2018 using the
cellulosic waiver authority, we calculated what the
total renewable fuel volume would be if we provide the
same level of reduction using the cellulosic waiver
authority. The resulting volume is 19.29 billion gallons.
5. Other Waiver Authorities
We have evaluated whether additional reductions in
cellulosic biofuel, biomass-based diesel, advanced biofuel, or total renewable fuel are warranted for 2018

577a
using either the general waiver authority or the BBD
waiver authority and have determined that additional
reductions are not warranted at this time.
6. 2019 Biomass-Based Diesel
In EISA, Congress specified increasing applicable
volumes of BBD through 2012. Beyond 2012 Congress
stipulated that EPA, in coordination with DOE and
USDA, was to establish the BBD volume taking into
consideration implementation of the program to date
and various specified factors, providing that the
required volume for BBD could not be less than 1.0
billion gallons. For 2013, EPA established an applicable volume of 1.28 billion gallons. For 2014 and 2015
we established the BBD volume requirement to reflect
the actual volume for each of these years of 1.63 and
1.73 billion gallons.11 For 2016 and 2017, we set the
BBD volume requirements at 1.9 and 2.0 billion gallons respectively. Finally, for 2018 the BBD volume
requirement was set at 2.1 billion gallons. We proposed
to maintain this level for 2019.
Given current and recent market conditions, the
advanced biofuel volume requirement is driving the
production and use of biodiesel and renewable diesel
volumes over and above volumes required through the
separate BBD standard, and we expect this to continue.
For 2019, EPA continues to believe that it would still
be appropriate to provide a floor above the statutory
minimum of 1 billion gallons to provide a guaranteed
level of support for the continued production and use
of BBD. However, we also believe that the volume of
BBD supplied in previous years demonstrates that the
11

The 2015 BBD standard was based on actual data for the
first 9 months of 2015 and on projections for the latter part of the
year for which data on actual use was not available at the time.

578a
advanced biofuel standard is capable of incentivizing
additional supply of these fuels above the volume required by the BBD standard. Thus, based on a review
of the implementation of the program to date and all
the factors required under the statute, and in coordination with USDA and DOE, we are finalizing an
applicable volume of BBD for 2019 at the proposed
volume of 2.1 billion gallons.
7. Annual Percentage Standards
The renewable fuel standards are expressed as a
volume percentage and are used by each producer and
importer of fossil-based gasoline or diesel to determine
their renewable fuel volume obligations.
Four separate percentage standards are required
under the RFS program, corresponding to the four separate renewable fuel categories shown in Table I.A–1.
The specific formulas we use in calculating the renewable fuel percentage standards are contained in the
regulations at 40 CFR 80.1405. The percentage standards represent the ratio of the national applicable volume of renewable fuel volume to the national projected
non-renewable gasoline and diesel volume less any
gasoline and diesel attributable to small refineries
granted an exemption prior to the date that the standards are set. The volume of transportation gasoline
and diesel used to calculate the percentage standards
was based on a letter provided to the EPA by EIA, as
required by statute.12 The percentage standards for
2018 are shown in Table I.B.7–1. Detailed calculations
can be found in Section VII, including the projected
gasoline and diesel volumes used.

12

“Letter from EIA to EPA on 2018 projected volumes,” available in docket EPA–HQ–OAR–2017–0091.

579a
TABLE I.B.7–1—FINAL 2018
PERCENTAGE STANDARDS
Cellulosic biofuel .....................................
Biomass-based diesel ..............................
Advanced biofuel .....................................
Renewable fuel ........................................

0.159%
1.74%
2.37%
10.67%

8. Assessment of Aggregate Compliance
By November 30 of each year we are required to assess
the status of the aggregate compliance approach to
land use restrictions under the definition of renewable
biomass for both the U.S. and Canada. In today’s action
we are providing the final announcements for these
administrative actions. As described in Section VIII.A,
based on data provided by the USDA and using the
methodology in place since 2014, we have estimated
that U.S. agricultural land totaled approximately 376
million acres in 2017 and thus did not exceed the 2007
baseline acreage. This assessment means that the
aggregate compliance provision can continue to be
used in the U.S. for calendar year 2018.
On September 29, 2011, EPA approved the use of a
similar aggregate compliance approach for planted crops
and crop residue grown in Canada. As described in
Section VIII.B, based on data provided by Canada, we
have estimated that Canadian agricultural land totaled
approximately 117.8 million acres in 2017 and thus
did not exceed the 2007 baseline acreage. This assessment means that the aggregate compliance provision
can continue to be used in Canada for calendar year
2018.

580a
II. Authority and Need for Waiver of Statutory Applicable Volumes
The CAA provides EPA with the authority to enact
volume requirements below the applicable volume targets specified in the statute under specific circumstances. This section discusses those authorities.
A. Statutory Authorities for Reducing Volume
Targets
In CAA section 211(o)(2), Congress specified increasing annual volume targets for total renewable fuel,
advanced biofuel, and cellulosic biofuel for each year
through 2022, and for BBD through 2012, and authorized EPA to set volume requirements for subsequent
years in coordination with USDA and DOE, and after
consideration of specified factors. However, Congress
also recognized that under certain circumstances it
would be appropriate for EPA to set volume requirements at a lower level than reflected in the statutory
volume targets, and thus provided waiver provisions
in CAA section 211(o)(7).
1. Cellulosic Waiver Authority
Section 211(o)(7)(D)(i) of the CAA provides that if
EPA determines that the projected volume of cellulosic
biofuel production for a given year is less than the
applicable volume specified in the statute, that EPA
must reduce the applicable volume of cellulosic biofuel
required to the projected production volume for that
calendar year. In making this projection, EPA may not
“adopt a methodology in which the risk of overestimation is set deliberately to outweigh the risk of underestimation” and must make a projection that “aims at
accuracy.” API v. EPA, 706 F.3d 474, 479 (D.C. Cir.
2013). Pursuant to this provision, EPA has set the cellulosic biofuel requirement lower than the statutory vol-

581a
umes for each year since 2010. As described in Section
III.D, the projected volume of cellulosic biofuel production for 2018 is less than the 7.0 billion gallon volume
target in the statute. Therefore, for 2018, we are setting the cellulosic biofuel volume requirement at a
level lower than the statutory applicable volume, in
accordance with this provision.
CAA section 211(o)(7)(D)(i) also provides EPA with
the authority to reduce the applicable volume of total
renewable fuel and advanced biofuel in years when it
reduces the applicable volume of cellulosic biofuel under
that provision. The reduction must be less than or
equal to the reduction in cellulosic biofuel. For 2018,
we are also reducing the applicable volumes of advanced
biofuel and total renewable fuel under this authority.
The cellulosic waiver authority is discussed in detail
in the preamble to the 2017 final rule and that discussion is incorporated by reference.13 See also, API v.
EPA, 706 F.3d 474 (D.C. Cir. 2013) (requiring that EPA’s
cellulosic biofuel projections reflect a neutral aim at
accuracy), Monroe Energy v. EPA, 750 F.3d 909 (D.C.
Cir. 2014) (affirming EPA’s broad discretion under
the cellulosic waiver authority to reduce volumes of
advanced biofuel and total renewable fuel), and
Americans for Clean Energy v. EPA (“ACE”), 864 F.3d
691 (D.C. Cir. 2017) (discussed below).
In ACE, the court evaluated EPA’s use of the cellulosic waiver authority in the 2014–2016 annual rulemaking to reduce the advanced biofuel and total renewable fuel volumes for 2014, 2015, and 2016. There,
EPA used the cellulosic waiver authority to reduce the
standard for advanced biofuel to a volume that was
reasonably attainable, and then provided a compara13

See 81 FR 89752–89753 (December 12, 2016).

582a
ble reduction under this authority for total renewable
fuel.14 The Court of Appeals for the District of Columbia,
relying on the analysis in Monroe Energy, reaffirmed
that EPA enjoys “broad discretion” under the cellulosic
waiver authority “to consider a variety of factors—
including demand-side constraints in the advanced
biofuels market.”15 The Court noted that the only textual limitation on the use of the cellulosic waiver authority is that it cannot exceed the amount of the reduction
in cellulosic biofuel.16 The Court contrasted the general waiver authority under CAA section 211(o)(7)(A)
and the biomass based diesel waiver authority under
CAA section 211(o)(7)(E), which “detail the considerations and procedural steps that EPA must take before
waiving fuel requirements,” with the cellulosic waiver
authority, which identifies no factors regarding reductions in advanced and total renewable fuel other than
the limitation that any such reductions may not exceed
the reduction in cellulosic biofuel volumes.17 The Court
also concluded that the scope of EPA’s discretionary
authority to reduce advanced and total volumes is the
same under the cellulosic waiver provision whether
EPA is declining to exercise its authority to waive volumes, or choosing to do so.18
In this action we are reducing the statutory volume
targets for advanced biofuels and total renewable fuel
by equal amounts, as was our approach in using the
cellulosic waiver authority in setting the 2014–2017
standards. EPA’s reasoning for an equal reduction is
14

See 80 FR 77433–34 (December 14, 2015).

15

ACE at 730.

16

Id. at 733.

17

Id.

18

Id.

583a
explained in the 2017 final rule.19 We have made a
determination, as described in Section IV, that the applicable volume for advanced biofuels specified in the statute for 2018 cannot be achieved and we are exercising
our cellulosic waiver authority to lower the applicable
volume of advanced biofuel, and to provide an equal
reduction in the applicable volume of total renewable
fuel. In addition, we have determined that there is likely
to be adequate supply to satisfy the total renewable
fuel volume derived through applying an equal volume
reduction as for advanced biofuel as discussed in
Section V. Therefore, we have determined that no further reductions of the total renewable fuel volume
requirement are necessary to address supply concerns.20
The resulting volumes of advanced and total renewable fuel resulting from this exercise of the cellulosic
waiver authority provide for an implied volume allowance for conventional biofuel of fifteen billion gallons,
equal to that envisioned by Congress for 2018.
2. General Waiver Authority
Section 211(o)(7)(A) of the CAA provides that EPA,
in consultation with the Secretary of Agriculture and
the Secretary of Energy, may waive the applicable volumes specified in the Act in whole or in part based on
a petition by one or more States, by any person subject
to the requirements of the Act, or by the EPA Administrator on his own motion. Such a waiver must be
based on a determination by the Administrator, after
19

See 81 FR 89752–89753 (December 12, 2016). See also, 78
FR 49809–49810 (August 15, 2013); 80 FR 77434 (December 14,
2015).
20

As described in the Response to Comments document accompanying this action, we have also determined that additional waivers are not appropriate to address either severe economic or severe
environmental harm.

584a
public notice and opportunity for comment that: (1)
Implementation of the requirement would severely
harm the economy or the environment of a State, a
region, or the United States; or (2) there is an inadequate domestic supply.
In the October 4 document, EPA sought comment on
the possible use of the general waiver authority to
reduce volumes of advanced biofuel and total renewable fuel for the 2018 standards below the levels proposed in the 2018 NPRM.21 The October 4 document
provided information on historic domestic production,
imports, and exports of advanced biofuel, as well as
additional information, and sought comment on how
that information could inform a potential determination of inadequate domestic supply or severe economic
harm.
Based on an evaluation of supply and potential economic impact of the volumes of advanced and total
renewable fuel that result after use of the cellulosic
waiver authority, comments from stakeholders, and as
further discussed in Section V, EPA is not using the
general waiver authority on the basis of severe economic or environmental harm or inadequate domestic
supply to further reduce those volumes for 2018. EPA’s
response to comments addressing possible use of the
general waiver authority are provided in a memorandum to the docket22 and in the Response to Comments
(RTC) document accompanying this action.
3. Biomass-Based Diesel Waiver Authority

21
22

See 82 FR 46174 (October 4, 2017).

“Assessment of waivers for severe economic harm or BBD
prices for 2018,” memorandum from David Korotney to docket EPA–
HQ–OAR–2017–0091.

585a
Section 211(o)(7)(E)(ii) of the CAA provides that if
EPA determines that there is a significant renewable
feedstock disruption or other market circumstance
that would make the price of BBD increase significantly, EPA shall, in consultation with the Secretary
of Energy, and the Secretary of Agriculture, issue an
order to reduce, for up to a 60-day period, the annual
volume requirement for BBD by an appropriate quantity that does not exceed 15 percent. The statute also
stipulates that EPA is authorized to reduce applicable
volumes of advanced biofuel and total renewable fuel
by the same or a lesser volume than the reduction in
BBD.
In the October 4 document, EPA sought comment on
potential interpretations of this authority, as well as
the potential use of the BBD waiver authority to reduce
the 2018 volume requirement for BBD by as much as
315 million gallons, and to concurrently reduce the
advanced biofuel and total renewable fuel volume
requirements by as much as 473 million gallons. The
notice provided information on the price of biodiesel in
light of the expiration of the federal tax credit, and the
potential imposition of new duties on imports of
biodiesel from Argentina and Indonesia.
As described in the RTC document, EPA has determined that it would not be appropriate at this time to
use the BBD waiver authority. Based on information
provided in comments, as well its own analysis discussed
in Section V, EPA believes that there is an insufficient
basis to support a finding that the biomass based diesel prices currently in the marketplace, or reasonably
anticipated in the immediate future, represent a “significant” increase in prices that would justify use of
this waiver authority.
B. Treatment of Carryover RINs

586a
Consistent with our approach in the 2013, 2014–16,
and 2017 final rules, we have also considered the
availability and role of carryover RINs in evaluating
whether we should exercise our discretion to use the
cellulosic waiver authority in setting the cellulosic,
advanced, and total volume requirements for 2018. Neither the statute nor EPA regulations specify how or
whether EPA should consider the availability of carryover RINs in exercising the cellulosic waiver authority.23 As noted in the context of the rules establishing
the 2014–16 and 2017 RFS standards, we believe that
a bank of carryover RINs is extremely important in
providing obligated parties compliance flexibility in
the face of substantial uncertainties in the transportation fuel marketplace, and in providing a liquid and
well-functioning RIN market upon which success of

23

CAA section 211(o)(5) requires that EPA establish a credit
program as part of its RFS regulations, and that the credits be
valid to show compliance for 12 months as of the date of generation. EPA implemented this requirement though the use of RINs,
which can be used to demonstrate compliance for the year in which
they are generated or the subsequent compliance year. Obligated
parties can obtain more RINs than they need in a given compliance year, allowing them to “carry over” these excess RINs for use
in the subsequent compliance year, although use of these carryover RINs is limited to 20% of the obligated party’s RVO. For the
bank of carryover RINs to be preserved from one year to the next,
individual carryover RINs are used for compliance before they
expire and are essentially replaced with newer vintage RINs that
are then held for use in the next year. For example, if the volume
of the collective carryover RIN bank is to remain unchanged from
2017 to 2018, then all of the vintage 2017 carryover RINs must
be used for compliance in 2018, or they will expire. However, the
same volume of 2018 RINs can then be “banked” for use in the
next year.

587a
the entire program depends.24 Carryover RINs provide
flexibility in the face of a variety of circumstances that
could limit the availability of RINs, including weatherrelated damage to renewable fuel feedstocks and other
circumstances potentially affecting the production and
distribution of renewable fuel.25 On the other hand,
carryover RINs can be used for compliance purposes,
and in the context of the 2013 RFS rulemaking we noted
that an abundance of carryover RINs available in that
year, together with possible increases in renewable
fuel production and import, justified maintaining the
advanced and total renewable fuel volume requirements for that year at the levels specified in the
statute.26 EPA’s approach to the consideration of carryover RINs in exercising our cellulosic waiver authority
was affirmed in Monroe Energy and ACE.27
In the 2018 NPRM, EPA estimated that the size of
the carryover RIN bank was then approximately 2.06
billion carryover RINs (including all D codes).28 We pro24

See 80 FR 77482–87 (December 14, 2015) and 81 FR 89754–
55 (December 12, 2016).
25

See id., and 72 FR 23900 (May 1, 2007).

26

See 79 FR 49794 (August 15, 2013).

27

Monroe Energy v. EPA, 750 F.3d 909 (D.C. Cir. 2014), ACE
at 713.
28

This was an increase of 520 million RINs from the previous
estimate of 1.54 billion carryover RINs in the 2017 final rule. This
increase in the carryover RIN bank compared to that projected in
the 2017 final rule was not due to an underestimate by EPA in
the amount of gasoline, diesel fuel, or ethanol that was consumed
in 2016, but rather was driven almost entirely by a combination
of over-compliance by biodiesel producers facing an expiring biodiesel tax credit at the end of 2016 and approximately 390 million
RINs that small refineries granted a hardship exemption for 2016
were not required to retire.

588a
posed that in light of this relatively limited volume and
the important functions provided by the RIN bank,
that we would not set the volume requirements for 2018
in a manner that would intentionally lead to a drawdown in the bank of carryover RINs. In their comments
on the 2018 NPRM, parties generally expressed two
opposing points of view. Commenters representing
obligated parties supported EPA’s proposed decision to
not assume a drawdown in the bank of carryover RINs
in determining the appropriate volume requirements.
These commenters reiterated the importance of maintaining the carryover RIN bank in order to provide
obligated parties with necessary compliance flexibilities, better market trading liquidity, and a cushion
against future program uncertainty. Commenters representing renewable fuel producers, however, contended
that carryover RINs represent actual supply and
should be accounted for when establishing the annual
volume standards. These commenters stated that not
accounting for carryover RINs goes against Congressional intent of the RFS program, deters investment
in next-generation biofuels, and ignores other programmatic buffers and flexibilities such as carry-forward
deficits and small refinery hardship exemptions.29
1. Updated Projection of Carryover RIN
Volume
Based on currently available information, our estimate of the carryover RIN bank has increased to 2.22
billion RINs, an increase of 160 million RINs from the
previous estimate of 2.06 billion carryover RINs in the

29

A full description of comments received, and our detailed
responses to them, is available in the Response to Comments document in the docket.

589a
2018 NPRM. Part of the update considers small refinery hardship exemptions for 2016 that were granted
since the 2018 NPRM was issued. These additional
small refinery hardship exemptions led to the return
to the RIN marketplace of approximately 125 million
2016 RINs that would otherwise have been required
for compliance by the small refineries granted an exemption for 2016.
30

The carryover RIN volume is 11.5 percent of the
total renewable fuel volume requirement that EPA is
finalizing for 2018, which is less than the 20 percent
maximum limit permitted by the regulations to be carried over for use in complying with the 2018 standards.31 However, there remains considerable uncertainty surrounding this number for a number of reasons,
including the possible impact of an action to address
the remand in ACE, the possibility of additional small
refinery exemptions, and the impact of 2017 RFS
compliance on the bank of carryover RINs. In addition,
we note that there have been enforcement actions in
past years that have resulted in the retirement of
carryover RINs to make up for the generation and use
of invalid RINs and/ or the failure to retire RINs for
exported renewable fuel. Future enforcement actions
could have similar results, and require that obligated
parties and/or renewable fuel exporters settle past
enforcement-related obligations in addition to the
annual standards, thereby potentially creating demand
for RINs greater than can be accommodated through
actual renewable fuel blending in 2018. Collectively,
30

The calculations performed to estimate the number of carryover RINs currently available can be found in the memorandum, “Carryover RIN Bank Calculations for 2018 Final Rule,”
available in the docket.
31

See 40 CFR 80.1427(a)(5).

590a
the result of satisfying RFS obligations in 2017 and
settling enforcement-related accounts could be an effective reduction in the size of the collective bank of carryover RINs. In light of these uncertainties, it is possible
that the net result would be a bank of carryover RINs
larger or smaller than 11.5 percent of the final 2018
total renewable fuel volume requirement.
2. EPA’s Decision Regarding the Treatment
of Carryover RINs
EPA has decided to maintain the proposed approach,
and not set the volume requirements in the final rule
with the intention or expectation of drawing down the
current bank of carryover RINs. In addition, we do not
believe that the availability of carryover RINs, together
with the potential supply of renewable fuel in volumes
higher than we are requiring though this final rule,
should lead us to increase the volume requirements.
In finalizing this approach, we carefully considered
the comments received, including on the role of carryover RINs under our waiver authorities and the policy
implications of our decision. While we have not assumed
an intentional drawdown in the overall bank of carryover RINs owned by obligated parties collectively in
establishing the volume requirements for 2018, we
understand that some obligated parties may choose to
sell or use all or part of their individual banks of carryover RINs. To the extent that they do, other obligated parties would be in a position to bank carryover
RINs by using available renewable fuel or purchasing
RINs representing such fuel, with the expected net
result that the standards adopted in this action will have

591a
no effect on the size of the overall bank of carryover
RINs that is owned collectively by obligated parties.32
We believe that a balanced consideration of the possible role of carryover RINs in achieving the statutory
volume objectives for advanced and total renewable
fuels, versus maintaining an adequate bank of carryover RINs for important programmatic functions, is
appropriate when EPA exercises its discretion under
the cellulosic waiver authority, and that the statute
does not specify the extent to which EPA should require
a drawdown in the bank of carryover RINs when it
exercises this authority.
An adequate RIN bank serves to make the RIN market liquid. Just as the economy as a whole functions
best when individuals and businesses prudently plan
for unforeseen events by maintaining inventories and
reserve money accounts, we believe that the RFS program functions best when sufficient carryover RINs
are held in reserve for potential use by the RIN holders
themselves, or for possible sale to others that may not
have established their own carryover RIN reserves.
Were there to be no RINs in reserve, then even minor
disruptions causing shortfalls in renewable fuel production or distribution, or higher than expected transportation fuel demand (requiring greater volumes of
renewable fuel to comply with the percentage standards that apply to all volumes of transportation fuel,
including the unexpected volumes) could lead to the
need for a new waiver of the standards, undermining
the market certainty so critical to the RFS program.
32

We expect that any renewable fuel produced in the U.S. that
is not used to satisfy the 2018 renewable fuel standards will be
exported, thereby not leading to an increase in the bank of 2018
RINs or carryover RINs.

592a
However, a significant drawdown of the carryover RIN
bank leading to a scarcity of RINs may stop the market
from functioning in an efficient manner (i.e., one in
which there are a sufficient number of reasonably available RINs for obligated parties seeking to purchase
them), even where the market overall could satisfy the
standards. For all of these reasons, the collective
carryover RIN bank provides a needed programmatic
buffer that both facilitates individual compliance and
provides for smooth overall functioning of the program.33
We have evaluated the volume of carryover RINs
likely available for 2018, and we believe it is prudent
not to intentionally draw down this volume of carryover RINs in establishing the 2018 standards. In addition, we have considered whether the current bank of
carryover RINs, together with the additional supply of
renewable fuel available in 2018 above the levels we
are requiring be used, would justify reduced use of the
cellulosic waiver authority. For the reasons described
above and in Sections IV.C and D, we do not believe
this to be the case.
Therefore, for the reasons noted above, and consistent
with the approach we took in the 2014–2016 and 2017
final rules, we are making a determination that, under
current circumstances, an intentional drawdown of
the carryover RIN bank should not be assumed in
establishing the 2018 volume requirements. In addition, we do not believe that the presence of the current
bank of carryover RINs, together with additional potential supplies of renewable fuel in 2018, justifies reduced
use of the cellulosic waiver authority in setting the
2018 advanced biofuel and total renewable fuel volumes.
33

Here we use the term “buffer” as shorthand reference to all
of the benefits that are provided by a sufficient bank of carryover
RINs.

593a
However, we note that we may or may not take a similar approach in future years; we will assess the situation on a case-by-case basis going forward, and take
into account the size of the carryover RIN bank in the
future and any lessons learned from implementing
past rules.
[Content Omitted]
IV. Advanced Biofuel and Total Renewable
Fuel Volumes for 2018
The national volume targets for advanced biofuel
and total renewable fuel to be used under the RFS
program each year through 2022 are specified in CAA
section 211(o)(2)(B)(i)(I) and (II). Congress set annual
renewable fuel volume targets that envisioned growth
at a pace that far exceeded historical growth and, for
years after 2011, prioritized that growth as occurring
principally in advanced biofuels (contrary to previous
growth patterns where most growth was in conventional renewable fuel, principally corn-ethanol). Congressional intent is evident in the fact that the portion
of the total renewable fuel volume target in the statutory volume tables that is not required to be advanced
biofuel is 15 billion gallons for all years after 2014,
while the advanced volumes, driven by growth in cellulosic volumes, continue to grow through 2022 to a total
of 21 billion gallons.
In this Section we discuss our use of the discretion
afforded by the cellulosic waiver authority at CAA
section 211(o)(7)(D)(i) to reduce volumes of advanced
biofuel and total renewable fuel. We first discuss our
assessment of advanced biofuel and the considerations,
including comments received in response to the proposal and October 4 document, which have led us to
conclude that the advanced biofuel volume target in

594a
the statute should be reduced by the full amount permitted under the cellulosic waiver authority.
We then address total renewable fuel in the context
of our interpretation, articulated in previous annual
rulemakings, that advanced biofuel and total renewable fuel should be reduced by the same amount under
the cellulosic waiver authority. In Section V we discuss
our consideration of additional reductions for both
advanced biofuel and total renewable fuel beyond
those permitted under the cellulosic waiver authority,
using other waiver authorities provided by the statute.
To begin, we have evaluated the capabilities of the
market and are making a finding that the 11.0 billion
gallons specified in the statute for advanced biofuel
cannot be reached in 2018. This is primarily due to the
expected continued shortfall in cellulosic biofuel; production of this fuel type has consistently fallen short
of the statutory targets by 95 percent or more, and as
described in Section III, we project that it will fall far
short of the statutory target of 7.0 billion gallons again
in 2018. In addition, although for the 2016 and 2017
standards we determined that the projected reasonably attainable supply of non-cellulosic advanced biofuel and other considerations justified establishing
standards that included a partial backfill of the shortfall in cellulosic biofuel with advanced biofuel, for reasons described in this section we are reducing the
advanced biofuel applicable volume by the full amount
of the shortfall in cellulosic biofuel for 2018.
In previous years when exercising the cellulosic
waiver authority to determine the required volume of
advanced biofuel, we have taken into account the
availability of advanced biofuels, their energy security
and GHG impacts, and the apparent intent of Congress as reflected in the statutory volumes tables to

595a
substantially increase the use of advanced biofuels
over time, as well as factors such as increased costs
associated with the use of advanced biofuels and the
environmental and food competition concerns raised
by some commenters. In considering these factors, in
those years, we have concluded that it was appropriate
to set the advanced biofuel standard in a manner that
would allow the partial backfilling of missing cellulosic
volumes with non-cellulosic advanced biofuels. For
purposes of this final rule we have again taken these
factors into consideration, but rely more heavily on
consideration of cost as a result of a stronger policy
focus on the economic impacts of the RFS program to
conclude that such backfilling with non-cellulosic
advanced biofuel volumes should not be required in
2018. In other words, we are reducing the statutory
volume target for advanced biofuel by the same amount
as the reduction in cellulosic biofuel. This results in
the non-cellulosic component of the advanced biofuel
volume requirement being equal to the implied
statutory volume of 4.00 billion gallons. We believe
this new approach to balancing relevant considerations and exercising our discretion under the cellulosic
waiver authority is permissible under the statute, and
consistent with the principles articulated in FCC v.
Fox TV Stations (556 US. 502, 514–15 (2009)), regarding circumstances when an agency may appropriately
depart from prior policy. In making this final determination for 2018, we have considered comments on
the appropriate balancing of factors under the cellulosic
waiver authority that were provided by stakeholders
in response to the proposal and the October 4 document, as discussed in the accompanying RTC document.
We note that the predominant non-cellulosic advanced biofuels available in the near term are advanced

596a
biodiesel and renewable diesel.76 We expect a decreasing rate of growth in the availability of feedstocks used
to produce these fuel types. In addition, we expect
diminishing GHG benefits and higher per gallon costs
as the required volumes of advanced biodiesel and
renewable diesel increase. These outcomes are a result
of the fact that the lowest cost and most easily
available feedstocks are typically used first, and each
additional increment of advanced biodiesel and renewable diesel requires the use of feedstocks that are
incrementally more costly and/or more difficult to
obtain. Moreover, to the extent that higher advanced
biofuel requirements cannot be satisfied through growth
in the production of advanced biofuel feedstocks, they
would instead be satisfied through a re-direction of
such feedstocks from competing uses. Parties that
were formerly using these feedstocks are likely to
replace the advanced biofuel feedstocks with the lowest cost alternatives, likely derived from palm or petroleum sources, leading to lower overall GHG emission
benefits. There would also likely be market disruptions and increased burden associated with shifting
feedstocks among the wide range of companies that
are relying on them today and which have optimized
their processes to use them. Higher advanced biofuel
standards could also be satisfied by diversion of foreign advanced biofuel from foreign markets, and there
would likely be diminished benefits associated with
such diversions. Taking these considerations into
account, we believe, as discussed in more detail below,
that we should not exercise our discretion under the
76

While sugarcane ethanol can also contribute to the supply
of advanced biofuel, in recent years, supply of sugarcane ethanol
has been considerably lower than supply of advanced biodiesel or
renewable diesel.

597a
cellulosic waiver authority to set the advanced biofuel
volume requirement at a level that would lead to such
diversions.
Furthermore, two other factors have added uncertainty regarding advanced biofuel volumes that are
reasonably attainable and appropriate. The first is the
fact that the tax credit for biodiesel has not been
renewed, and if renewed could be in the form of a
producer’s tax credit rather than a blender’s tax credit.77
The second is the preliminary determination by the
Department of Commerce that countervailing duties
should be imposed on biodiesel imports from Argentina
and Indonesia.78
We believe that the factors and considerations noted
above are all appropriately considered in our exercise
of the broad discretion provided under the cellulosic
waiver authority, and that a comprehensive consideration of these factors supports our use of the authority.
Some of the considerations discussed in this final rule
are related to the availability of non-cellulosic advanced
biofuels (e.g., historic data on domestic supply, expiration of the biodiesel blenders’ tax credit, potential
imports of biodiesel in light of the Commerce
Departments preliminary determination on countervailing duties on biodiesel imports from Argentina and
Indonesia, potential imports of sugarcane ethanol, and
anticipated decreasing growth in production of feedstocks for advanced biodiesel and renewable diesel),
while others focus on the potential benefits and costs
77

See American Renewable Fuel and Job Creation Act of 2017,
S.944, 115th Cong. (2017).
78

“Commerce Finds Countervailable Subsidization of Imports
of Biodiesel from Argentina and Indonesia,” available in EPA
docket number EPA–HQ–OAR–2017–0091.

598a
of requiring use of available volumes (e.g., relative cost
of advanced biofuels to the petroleum fuels they
displace, GHG reduction benefits and energy security
benefits). Having determined that we should not
exercise the discretion afforded EPA under the cellulosic waiver authority so as to require the use of advanced
biofuel volumes that would lead to diversion of advanced
feedstocks from other uses or diversion of advanced
biofuels from foreign sources, our analytical approach
to identifying the appropriate volume requirement is
to first identify volumes that we believe would be
reasonably attainable in 2018 without such feedstock
or fuel diversions, and then discuss whether or not
other considerations, such as cost and GHG impacts,
indicate that it would be appropriate to set the
advanced biofuel volume requirement so as to require
use of such volumes to partially backfill for missing
cellulosic volumes.
The net impact of our exercise of the cellulosic waiver
authority is that after waiving the cellulosic biofuel volume down to the projected available level, and applying
the same volume reduction to the statutory volume
target for advanced biofuel, the resulting volume
requirement for advanced biofuel for 2018 is 10 million
gallons more than the applicable volume used to derive
the 2017 percentage standard. Furthermore, after
applying the same reduction to the statutory volume
target for total renewable fuel, the volume requirement for total renewable fuel is also 10 million gallons
more than the applicable volume used to derive the
2017 percentage standard. The remainder of this
section provides our justification for this approach to
the determination of the volume requirements for
advanced biofuel and total renewable fuel. Section V
discusses our consideration of further reductions in
either advanced biofuel or total renewable fuel using

599a
either the general waiver authority or the BBD waiver
authority, and our justification for not applying such
further reductions.
A. Volumetric Limitation on Use of the Cellulosic Waiver Authority
As described in Section II.A, when making reductions in advanced biofuel and total renewable fuel
under the cellulosic waiver authority, the statute limits
those reductions to no more than the reduction in
cellulosic biofuel. As described in Section III.D, we are
establishing a 2018 applicable volume for cellulosic
biofuel of 288 million gallons, representing a reduction
of 6,712 million gallons from the statutory target of
7,000 million gallons. As a result, 6,711 million gallons
is the maximum volume reduction for advanced biofuel
and total renewable fuel that is permissible using the
cellulosic waiver authority. Use of the cellulosic
waiver authority to this maximum extent would result
in volumes of 4.29 and 19.29 billion gallons for advanced
biofuel and total renewable fuel, respectively.79

79

When expressing volumes in billion gallons, we use standard rounding methods to two decimal places, as done in previous
annual standard-setting rulemakings. Volumes are sometimes
shown in million gallons for clarity, but it is volumes in billion
gallons that are used to calculate the applicable percentage
standards.

600a
TABLE IV.A–1—LOWEST PERMISSIBLE VOLUMES
USING ONLY THE CELLULOSIC WAIVER AUTHORITY
[million gallons]

We are authorized under the cellulosic waiver authority to reduce the advanced biofuel and total renewable
fuel volumes “by the same or a lesser” amount as the
reduction in the cellulosic biofuel volume. As discussed
in Section II.A, EPA has broad discretion in using the
cellulosic waiver authority in instances where its use
is authorized under the statute, since Congress did not
specify factors that EPA must consider in determining
whether to use the authority or what the appropriate
volume reductions (within the range permitted by
statute) should be. This broad discretion was affirmed
in both Monroe and ACE.80 Thus, EPA could potentially
set the 2018 advanced biofuel standard at a level that
is designed to partially backfill for the shortfall in cellulosic biofuel. As discussed below, doing so would
result in perhaps an additional 110 million gallons of
advanced biofuel. However, based on our consideration
of the factors described in more detail below, we are
using the full extent of the cellulosic waiver authority
in deriving volume requirements for 2018.81

80
81

See ACE at 730–35.

We specify the volume requirements as billion gallons with
two decimal places to be consistent with the volume targets as
given in the statute. The only exception is for cellulosic biofuel which
we specify in million gallons due to the substantial reduction from

601a
B. Reasonably Attainable Volumes of Advanced
Biofuel
It is appropriate to consider the availability of
advanced biofuel, both to inform our exercise of the
cellulosic waiver authority and to ascertain whether
there might be an “inadequate domestic supply” justifying use of the general waiver authority. As the
Court noted in ACE, EPA may consider demand-side
considerations in addition to supply-side considerations
when it assesses “reasonably attainable” volumes for
purposes of its cellulosic waiver assessment. However,
EPA may not consider demand-side factors in assessing
whether there is an “inadequate domestic supply” that
would justify use of the general waiver authority.82
Our assessment of reasonably attainable volumes of
advanced biofuel is described below.
In ACE, the Court noted that in assessing what volumes are “reasonably attainable,” EPA had considered
the availability of feedstocks, domestic production capacity, imports, and market capacity to produce, distribute, and consume renewable fuel.83 We are taking a
similar approach for 2018, with the added consideration of the possibility that higher volume requirements
would lead to “feedstock switching” or diversion of
advanced biofuels from use in other countries, which
we took into account in setting the 2017 volume requirements and, we believe, are appropriate considerations
under the broad discretion provided by the cellulosic
waiver authority.

the statutory target. However, calculations are typically shown
in million gallons for all four standards for clarity.
82

See ACE at 734 and 696.

83

ACE at 735–36.

602a
As noted above, a higher advanced biofuel volume
requirement has a greater potential to increase the
incentive for switching advanced biofuel feedstocks
from existing uses to biofuel production. Such market
reactions could cause disruptions and/or price increases
in the non-biofuel markets that currently use these
feedstocks. Increasing the required volumes of advanced
biofuels without giving the market adequate time to
adjust by increasing supplies could also result in diversion of advanced biofuels from foreign countries to the
U.S. without increasing total global volumes. We
believe it is likely that the parties that formerly used
advanced biofuel feedstocks would seek to replace the
advanced biofuel feedstocks with the cheapest alternatives, likely products derived from palm oil or petroleum, rather than forgoing the use of oil-based products. Increasing volumes of advanced biofuels used in
the U.S. in this way (by shifting the end use of advanced
feedstocks to biofuel production and satisfying the current markets for these advanced feedstocks with nonqualifying or petroleum based feedstocks, or by simply
shifting advanced biodiesel or renewable diesel from
foreign to domestic use—referred to for simplicity as
“feedstock/fuel diversions”) would therefore likely not
produce the GHG benefits that would otherwise be
expected. We have decided not to set the advanced biofuel volume requirement at a level that would require
such feedstock/fuel diversions. Our individual assessments of reasonably attainable volumes of advanced
biofuels reflect this approach.
That is, while we refer to them as “reasonably attainable” volumes for convenience, they represent those volumes that are not likely to lead to feedstock/fuel diversions. Greater volumes could likely be made available
if such diversions were not of concern.

603a
1. Imported Sugarcane Ethanol
The predominant available source of advanced biofuel other than cellulosic biofuel and BBD is imported
sugarcane ethanol. In setting both the 2016 and 2017
standards, we determined that 200 million gallons of
imported sugarcane ethanol would be reasonably attainable. In deriving this estimate of sugarcane ethanol,
we attempted to balance indications of lower potential
imports from recent data with indications that higher
volumes were possible based on older data. We also
pointed to the high variability in ethanol import volumes in the past (including of Brazilian sugarcane ethanol, the predominant form of imported ethanol, and
the only significant source of imported advanced ethanol), increasing gasoline consumption in Brazil, and
variability in Brazilian production of sugar as reasons
that it would be inappropriate to assume that sugarcane ethanol imports would reach the much higher
levels suggested by some stakeholders.
The data on 2016 ethanol imports suggests that we
overestimated the volume of sugarcane ethanol
imports for that year. Despite the fact that the applicable standards for 2016 were set prior to the beginning
of 2016, and despite suggestions from UNICA 84 that
2016 imports could reach as high as 2 billion gallons,
total ethanol imports only reached 34 million gallons.

84

UNICA is the Brazilian Sugarcane Industry Association.

604a
Figure IV.B.1-1
Historical Ethanol Importsa

Source: “US Imports of Fuel Ethanol from EIA, “docket EPA-HQ-OAR-2017-0091.
Available data for imports in 2017 similarly suggests
that imports are again likely to fall well below the 200
million gallons that we assumed when setting the
2017 standards; for January through August of 2017,
total imports of sugarcane ethanol were 75 million gallons; by the end of 2017, total imports of sugarcane
ethanol might be about 100 million gallons.85 The combined experience for 2016 and 2017 suggests that 200
million gallons is too high for the purposes of projecting reasonably attainable volumes of advanced bioa

Imports from Brazil include those that are transmitted through
the Caribbean Basin Initiative (CBI) and Central America Free
Trade Agreement (CAFTA), and are produced from sugarcane.
Imports from other countries are typically not produced from sugarcane and do not qualify as advanced biofuel.
85

“Imports of ethanol 2011–2017,” available in docket EPA–
HQ–OAR–2017–0091.

605a
fuel for 2018. At the same time, higher import volumes
than those which occurred in 2016 are clearly possible,
as reflected by imports seen in prior years. Taking all
of these considerations into account, we are using 100
million gallons of imported sugarcane ethanol for the
purposes of projecting reasonably attainable volumes
of advanced biofuel for 2018. This level reflects a
balancing of the information available to EPA at this
time; both the lower import volumes that have occurred
more recently with the higher volumes that are possible based on earlier years.
We note that the future projection of imports of sugarcane ethanol is inherently imprecise, and that actual
imports in 2018 could be lower or higher than 100
million gallons. Factors that could result in import volumes below 100 million gallons include weather and
harvests in Brazil, world ethanol demand and prices,
and constraints associated with the E10 blendwall in
the U.S. Also, global sugar consumption has continued
to increase steadily, while production has decreased.
If the trend continues, Brazilian production of sugar
could increase, with a concurrent reduction in production of ethanol.86 On the other hand, the world average
price of sugar has been projected to remain relatively
flat between 2016 and 2018, suggesting little change
in sugar production and implying that ethanol production in Brazil might likewise remain unchanged.87 After
considering these factors, and in light of the high
degree of variability in historical imports of sugarcane
ethanol, we believe that 100 million gallons is a reasonable projection for 2018.
86
87

“Sugar—World Markets and Trade,” USDA, November 2016.

“Commodity
January 2017.

Markets

Outlook,”

World

Bank

Group,

606a
2. Biodiesel and Renewable Diesel
With regard to biodiesel and renewable diesel, there
are many different factors that could potentially influence the total reasonably attainable volume of these
fuels (including both advanced and non-advanced forms)
used as transportation fuel or heating oil in the U.S.88
These factors could include the availability of qualifying biodiesel and renewable diesel feedstocks, and the
production capacity of biodiesel and renewable diesel
facilities (both in the U.S. and internationally). The
degree to which these and other factors may affect the
total supply of both advanced and conventional forms
of biodiesel and renewable diesel in 2018, is discussed
in a memo to the docket.89
However, the primary considerations in our determination of the reasonably attainable volumes of advanced
biodiesel and renewable diesel for 2018 are data on the
use of advanced biodiesel and renewable diesel in previous years, the uncertain impact of the continued
absence of the biodiesel tax credit and proposed tariffs
on biodiesel from certain countries on biodiesel production and importation, the projected growth in production of advanced biodiesel and renewable diesel feedstocks in 2018.90 A review of the volumes of advanced
88

For a further discussion of the factors that influence the
availability of biodiesel and renewable diesel see Section V.B.2 of
the preamble and a further discussion of these factors from the
2017 final rule (81 FR 89781–89789, December 12, 2016).
89

“Market impacts of biofuels,” memorandum from David
Korotney to docket EPA–HQ–OAR–2017–0091.
90

Throughout this section we refer to advanced biodiesel and
renewable diesel as well as advanced biodiesel and renewable
diesel feedstocks. In this context, advanced biodiesel and renewable diesel refer to any biodiesel or renewable diesel for which RINs
can be generated that satisfy an obligated party’s advanced

607a
biodiesel and renewable diesel used in previous years
is especially useful in projecting the potential for growth
in the production and use of such fuels, since for these
fuels there are a number of complex and inter-related
factors beyond simply the total production capacity for
biodiesel and renewable diesel and ability to distribute
these fuels (including the availability of advanced
feedstocks, the expiration of the biodiesel tax credit,
and other market-based factors) that are likely to affect
the total supply. We also believe the likely growth in
production of feedstocks used to produce these fuels is
an important factor to consider. This is because the
energy security and GHG reduction value associated
with the growth in the use of advanced biofuels is
greater when that growth is associated with an increase
in advanced feedstock production, rather than a switching of existing advanced feedstocks from other uses or
the diversion of advanced biodiesel and renewable diesel from foreign markets if the parties that previously
used the advanced biofuel or feedstocks replace these
oils with low cost palm or petroleum derived products,
as we believe would likely be the case in 2018. Such
feedstock switching or fuel diversion could result
in unintended negative consequences, such as market
disruption in other markets where such oils are used,

biofuel obligation (i.e., D4 or D5 RINs). An advanced biodiesel or
renewable feedstock refers to any of the biodiesel, renewable
diesel, jet fuel, and heating oil feedstocks listed in Table 1 to
§ 80.1426 or in petition approvals issued pursuant to § 80.1416,
that can be used to produce fuel that qualifies for D4 or D5 RINs.
These feedstocks include, for example, soy bean oil; oil from annual cover crops; oil from algae grown photosynthetically; biogenic
waste oils/fats/greases; non-food grade corn oil; camelina sativa
oil; and canola/rapeseed oil (See pathways F, G, and H of Table 1
to § 80.1426).

608a
which could offset some of the anticipated benefits of
the production and use of advanced biofuels.
The volume of advanced biodiesel and renewable
diesel projected to be available based on a consideration of these factors is less than the maximum volume
of biodiesel and renewable diesel we believe could be
produced (based solely on an assessment of the available production capacity) or consumed (based on an
assessment of the ability of the market to distribute
and use biodiesel and renewable diesel). Production
capacity and the ability for the market to distribute
and use biodiesel and renewable diesel are therefore
not constraining factors in our assessment of the reasonably attainable volume of advanced biodiesel and
renewable diesel in 2018.
Before considering the projected growth in the production of qualifying feedstocks that could be used to
produce advanced biodiesel and renewable diesel, it is
helpful to review the volumes of biodiesel and renewable diesel that have been used in the U.S. in recent
years. While historic data and trends alone are insufficient to project the volumes of biodiesel and renewable
diesel that could be provided in future years, historic
data can serve as a useful frame of reference in considering future volumes. Past experience suggests that
a high percentage of the biodiesel and renewable diesel
used in the U.S. (from both domestic production and
imports) qualifies as advanced biofuel.91 In previous
years, biodiesel and renewable diesel produced in the

91

From 2011 through 2016 over 95% of all biodiesel and
renewable diesel supplied to the U.S. (including domesticallyproduced and imported biodiesel and renewable diesel) qualified
as advanced biodiesel and renewable diesel (9,372 million gallons
of the 9,850 million gallons) according to EMTS data.

609a
U.S. has been almost exclusively advanced biofuel.92
Imports of advanced biodiesel have increased in recent
years, however, as seen in Table IV.B.2–1. Volumes of
imported advanced biodiesel and renewable diesel have
varied significantly from year to year, as they are
impacted both by domestic and foreign policies, as well
as economic factors.
TABLE IV.B.2–1—ADVANCED (D4 AND D5)
BIODIESEL AND RENEWABLE
DIESEL FROM 2011 TO 2016
[Million gallons]a

b

92

From 2011 through 2016 over 99.9% of all the domestically
produced biodiesel and renewable diesel supplied to the U.S. qualified as advanced biodiesel and renewable diesel (8,258 million
gallons of the 8,265 million gallons) according to EMTS data.
a

All data for 2011–2016 from EMTS. EPA reviewed all advanced
biodiesel and renewable diesel RINs retired for reasons other
than demonstrating compliance with the RFS standards and subtracted these RINs from the RIN generation totals for each category in the table above to calculate the supply in each year.
b

RFS required volumes for these years were not established
until December 2015.

610a
TABLE IV.B.2–2—CONVENTIONAL (D6)
BIODIESEL AND RENEWABLE
DIESEL FROM 2011 TO 2016
[Million gallons]a

b

Since 2011 the year-over-year changes in the volume of advanced biodiesel and renewable diesel in the
U.S. have varied greatly, from a low of negative 61
million gallons from 2011 to 2012 to a high of 779 million gallons from 2015 to 2016. These changes were
likely influenced by a number of factors such as the
cost of biodiesel feedstocks and petroleum diesel, the
status of the biodiesel blenders tax credit, growth in
marketing of biodiesel at high volume truck stops and
centrally fueled fleet locations, demand for biodiesel
and renewable diesel in other countries, biofuel policies in both the U.S. and foreign countries, and the
volumes of renewable fuels (particularly advanced biofuels) required by the RFS. This historical information
does not indicate that the maximum previously observed
a

All data for 2011–2016 from EMTS. EPA reviewed all conventional biodiesel and renewable diesel RINs retired for reasons
other than demonstrating compliance with the RFS standards and
subtracted these RINs from the RIN generation totals for each
category in the table above to calculate the supply in each year.
b

RFS required volumes for these years were not established
until December 2015.

611a
increase of 779 million gallons of advanced biodiesel
and renewable diesel would be reasonable to expect
from 2017 to 2018, nor does it indicate that the low
growth rates observed in other years represent the
limit of potential growth in 2018. Rather, these data
illustrate both the magnitude of the increases in
advanced biodiesel and renewable diesel in previous
years and the significant variability in these increases.
The historic data indicates that the biodiesel tax policy in the U.S. can have a significant impact on the supply of biodiesel and renewable diesel in any given year.
While the biodiesel blenders tax credit has applied in
each year from 2010–2016, it has only been in effect
during the calendar year in 2011, 2013 and 2016, while
other years it has been applied retroactively. The biodiesel blenders tax credit expired at the end of 2009
and was re-instated in December 2010 to apply retroactively in 2010 and extend through the end of 2011.
Similarly, after expiring at the end of 2011, 2013, and
2014 the tax credit was re-instated in January 2013
(for 2012 and 2013), December 2014 (for 2014), and
December 2015 (for 2015 and 2016).
Each of the years in which the biodiesel blenders tax
credit was in effect during the calendar year (2013 and
2016) resulted in significant increases in the supply of
advanced biodiesel and renewable diesel over the previous year (653 million gallons and 779 million gallons
respectively). However, following this large increase in
2013, the increase in the supply of advanced biodiesel
and renewable diesel in 2014 and 2015 was minimal,
only 33 million gallons from 2013 to 2015. This pattern
is likely the result of both accelerated production and/or
importation of biodiesel and renewable diesel in the
final few months of 2013 to take advantage of the expiring tax credit as well as relatively lower volumes of

612a
biodiesel and renewable diesel production and import
in 2014 and 2015 than would have occurred if the tax
credit had been in place.93
We believe it is reasonable to anticipate a similar
production pattern in 2016 through 2018 as observed
in 2013 through 2015; that increases in the volumes of
advanced biodiesel and renewable diesel will be modest in 2017 and 2018, following the significant increase
in 2016. In 2013 the tax credit was in place through
the entire year. This was followed by two years (2014
and 2015) in which the tax credit was not in place, but
was eventually reinstated retroactively. Similarly, the
tax credit in place through 2016, but at the time of this
rulemaking not applicable to 2017 or 2018.94 Available
RIN generation data further supports this pattern. Very
high volumes of advanced biodiesel and renewable diesel were supplied in the last quarter of 2016, likely
driven by a desire to capture the expiring tax credit,
while significantly smaller volumes of these fuels were
supplied in the first quarter of 2017.95 Data on advanced
biodiesel and renewable diesel RIN generation in 2017
was available through September at the time the
93

We also acknowledge that the fact that EPA did not finalize
the required volumes of renewable fuel under the RFS program
for 2014 and 2015 until December 2015 likely had an impact on
the volume of advanced biodiesel and renewable diesel supplied
in these years.
94

At this time, it is uncertain whether the tax credit would be
retroactively applied to 2017 or applied in any manner (prospectively or retroactively) in 2018.
95

According to data on EPA’s public Web site, RINs were generated for 823 million gallons of biomass-based diesel in the last
quarter of 2016 while RINs were generated for 444 million gallons of biomass-based diesel in the first quarter of 2017. The vast
majority of advanced biodiesel and renewable diesel qualifies as
biomass-based diesel.

613a
analyses were performed for this rulemaking. Our
review of this data suggests that the generation of
RINs for advanced biodiesel and renewable diesel in
2017 (through September) is slightly higher than RIN
generation for these fuels during the same time period
in 2016 (see Figure IV.B.2–1 below). Total 2016 RIN
generation for advanced biodiesel and renewable diesel through September 2016 was 2.76 billion RINs,
while total 2017 RIN generation for these fuels through
September 2017 was 2.82 billion RINs. Total supply of
advanced biodiesel and renewable diesel in 2016 was
2.46 billion gallons, suggesting that a total supply of
approximately 2.5 billion gallons in 2017 (slightly
higher than the volume supplied in 2016) is likely.96
This is consistent with our projection of advanced biodiesel and renewable diesel in the 2017 rule (2.4 billion
gallons) and expectations based on RIN generation patterns in previous years of modest increases in the supply of advanced biodiesel and renewable diesel in the
years following the expiration of the biodiesel tax credit.
This data also supports our expectation that the reasonably attainable volume of advanced biodiesel and renewable diesel in 2018 will reflect modest increases from
the reasonably attainable volumes of these fuels in
2016 and 2017. It is not clear from this data whether
or not higher RFS volume requirements alone would
96

The supply of advanced biodiesel and renewable diesel in
2016 accounts for all RIN generation, as well as all RIN retirements for reasons other than compliance with the annual standards. At this time, we do not have sufficient data to compare RIN
retirements for reasons other than compliance with the annual
standards in 2017 to those in 2016, as this data often lags RIN
generation by several months. However, at this time we have no
reason to believe RINs retired for reasons other than compliance
with the annual standards in 2017 would be significantly different that retirements for the same reasons in 2017.

614a
be sufficient to drive significant increases in the supply of advanced biodiesel and renewable diesel in the
absence of a tax credit.
Figure IV.B.2-1
Cumulative RIN Generation for Advanced Biodiesel
and Renewable Diesel (2016-2017)

After reviewing the historical supply of advanced
biodiesel and renewable diesel and consideration of
the possible impact of the expiration of the biodiesel
tax credit (discussed above), EPA next considered the
expected increase in the availability of advanced biodiesel and renewable diesel feedstocks in 2018. We
acknowledge that an increase in the required use of
advanced biodiesel and renewable diesel could be realized through a diversion of advanced feedstocks from
other uses, or a diversion of advanced biodiesel and
renewable diesel from existing markets in other countries. We perceive the net benefits associated with such
increased advanced biofuel and renewable fuel volumes to be significantly less than the net benefits associated with the production of additional advanced biodiesel and renewable diesel with the use of newly-

615a
available advanced feedstocks due to the likelihood
that parties that previously used advanced biofuel feedstocks will replace them with low cost palm or petroleum derived products. This is both because of the
potential disruption and associated cost impacts to
other industries resulting from feedstock switching,
and a reduced GHG reduction benefit related to use of
feedstocks for biofuel production that would have been
used for other purposes and which must then be backfilled with other feedstocks with potentially greater
GHG emissions. Similarly, increasing the supply of biodiesel and renewable diesel to the U.S. by diverting fuel
that would otherwise have been used in other countries
results in lesser GHG benefits than if the supply
of these fuels was increased through additional biofuel production, especially if this diversion results in
increased consumption of petroleum fuels in the countries that would have otherwise consumed the biodiesel
or renewable diesel. By focusing our assessment of the
potential growth in the reasonably attainable volume
of biodiesel and renewable diesel on the expected growth
in the production of advanced feedstocks (rather than
the total supply of these feedstocks in 2018, which
would include feedstocks currently being used for nonbiofuel purposes), we are attempting to minimize the
incentives for the RFS program to increase the supply
of advanced biodiesel and renewable diesel through
feedstock switching or diverting biodiesel and renewable diesel from foreign market to the U.S.
Advanced biodiesel and renewable diesel feedstocks
include both waste oils, fats and greases and oils from
planted crops. While we believe a small increase in
supply of waste oils, fats, and greases may be possible
in 2018, we believe this increase is limited as most of
these oils, fats, and greases are already being recovered
and used in biodiesel and renewable diesel production

616a
or for other purposes. Many of the planted crops that
supply vegetable oil for advanced biodiesel and renewable diesel production are primarily grown for purposes other than providing feedstocks for biodiesel and
renewable diesel, such as for livestock feed with the oil
that is used as feedstock for renewable fuel production
a co-product or by-product.97 This is true for soy beans
and corn, which are the two largest sources of feedstock from planted crops used for biodiesel production
in the U.S.98 We do not believe that the increased
demand for soybean oil or corn oil will result in an
increase in soybean or corn prices large enough to induce
significant changes in agricultural activity, at least for
the relatively modest changes in advanced biodiesel
and renewable diesel feedstock demand that we envision
as a result of the RVOs we are finalizing in this rule.
The vegetable oils produced are not the primary source
of revenue for these crops, meaning that the planted
acres of these crops are likely to be based on broader
economic factors, rather than on demand for vegetable
oil to produce biofuels or for other markets.
Increasing the demand for advanced biodiesel and
renewable diesel beyond the volumes that could be
made from the projected increase in the feedstocks used
97

For example, corn oil is a co-product of corn grown primarily
for feed or ethanol production, while soy and canola oil are primarily grown as livestock feed.
98

According to EIA data 6,096 million pounds of soy bean oil
and 1,306 million pounds of corn oil were used to produce biodiesel
in the U.S. in 2016. Other significant sources of feedstock were
yellow grease (1,389 million pounds), canola oil (1,130 million
pounds), white grease (578 million pounds), tallow (332 million
pounds), and poultry fat (220 million pounds). Numbers from EIA’s
February 2017 Monthly Biodiesel Production Report. Available
at https://www.eia.gov/biofuels/biodiesel/production/archive/
2016/2016_12/biodiesel.pdf.

617a
to produce these fuels would likely require diverting
volumes of advanced biodiesel and renewable diesel
(or the feedstocks used to produce these fuels) from
existing markets to be used to produce biofuels
supplied to the U.S. Increasing the short-term supply
of advanced biodiesel and renewable diesel to the U.S.
in this manner (simply shifting the end use of
advanced feedstocks to biodiesel and renewable diesel
production and meeting non-biofuel demand for these
feedstocks with conventional renewable and/or petroleum based feedstocks or diverting advanced biodiesel
and renewable diesel from foreign markets to the U.S.)
may not advance the full GHG or energy security goals
of the RFS program. In a worst case scenario, higher
standards could cause supply disruptions to a number
of markets as biodiesel and renewable diesel producers seek additional supplies of advanced feedstocks
and the parties that previously used these feedstocks,
both within and outside of the fuels marketplace, seek
out alternative feedstocks. Similarly, advanced biodiesel and renewable diesel could be diverted to the
U.S. from foreign countries and displaced with petroleum fuels. These actions could result in significant
cost increases, for both biodiesel and renewable diesel
as well as other products produced from renewable oils,
with reduced GHG benefits.
We believe the most reliable source for projecting
the expected increase in vegetable oils in the U.S. is
USDA’s World Agricultural Supply and Demand Estimates (WASDE). According to the September 2017
WASDE report, domestic vegetable oil production is
expected to increase by 0.33 million metric tons in
2018, from 11.42 million metric tons in the 2016/2017
agricultural marketing year to 11.75 million metric

618a
tons in the 2017/2018 agricultural marketing year.99
This quantity of vegetable oils (0.33 million metric tons)
could be used to produce approximately 94 million gallons of advanced biodiesel or renewable diesel.100
In addition to virgin vegetable oils, we also expect
increasing volumes of distillers corn oil 101to be available for use in 2018. The WASDE report does not project
distillers corn oil production, so EPA must use an alternative source to project the growth in the production of
this feedstock. EPA is using the results of the World
Agricultural Economic and Environmental Services
(WAEES) model to project the growth in the production
of distillers corn oil.102 In assessing the likely increase
in the availability of distillers corn oil from 2017 to
2018, the authors of the WAEES model considered the
impacts of an increasing adoption rate of distillers corn
oil extraction technologies at domestic ethanol produc99

For this assessment we have assumed the vegetable oils
produced in the 2017/2018 agricultural marketing year are the
feedstocks most likely to be used to produce biodiesel and
renewable diesel in 2018.
100

To calculate this volume we have used a conversion of 7.7
pounds of feedstock per gallon of biodiesel. This is based on the
expected conversion of soy oil (http://extension.missouri.edu/p/
G1990), which is the largest source of feedstock used to produce
advanced biodiesel and renewable diesel. We believe that it is also
a reasonable conversion factor to use for all virgin vegetable oils.
101

Distillers corn oil is non-food grade corn oil produced by ethanol production facilities
102

For the purposes of this final rule, EPA relied on WAEES
modeling results submitted as comments by the National Biodiesel Board on the 2018 final rule (Kruse, J., ‘‘Implications of an
Alternative Advanced and Biomass Based Diesel Volume Obligation for Global Agriculture and Biofuels”, August 21, 2017, World
Agricultural Economic and Environmental Services (WAEES),
EPA–HQ–OAR–2017–0091–3880).

619a
tion facilities, as well as increased corn oil extraction
rates enabled by advances in this technology. The
WAEES model projects that production of distillers
corn oil in 2018 will increase by 316 million pounds,
from 2,299 million pounds in agricultural marketing
year 2016/2017 to 2,615 million pounds in agricultural
marketing year 2017/2018. According to the WAEES
model, this projected increase in the production of distillers corn oil, if devoted entirely to biofuel production, could be used to produce approximately 39 million gallons of biodiesel or renewable diesel in 2018.
We believe that this is a reasonable projection. While
the vast majority of the increase in advanced biodiesel
and renewable diesel feedstocks produced in the U.S.
from 2016 to 2017 is expected to come from virgin vegetable oils and distillers corn oil, increases in the supply of other sources of advanced biodiesel and renewable diesel feedstocks, such as biogenic waste oils, fats,
and greases, may also occur. These increases, however,
are expected to be modest, as many of these feedstocks
that can be recovered economically are already being
used for the production of biodiesel or renewable diesel,
or in other markets. In total, we expect that increases
in feedstocks produced in the U.S. are sufficient to
produce approximately 150 million more gallons of
advanced biodiesel and renewable diesel in 2018 relative to 2017.103
103

This projection includes a projected increase in the availability fats and oils other than virgin vegetable oils and distillers
corn oil sufficient to produce approximately 15 million gallons of
biodiesel. The WAEES model projects an increase in the quantity
of ‘‘other fats and oils” (including inedible tallow, lard & white
grease, yellow grease, brown grease, poultry fat, and other) sufficient to produce 31 million gallons of biodiesel. It is not clear from
the WAEES model, however, if the projected increased use of
other fats and oils as feedstock for biodiesel production is the

620a
We have also considered the expected increase in the
imports of advanced biodiesel and renewable diesel
produced in other countries. In previous years, significant volumes of foreign produced advanced biodiesel
and renewable diesel have been supplied to markets in
the U.S. (see Table IV.B.2–1 above). These significant
imports were likely the result of a strong U.S. demand
for advanced biodiesel and renewable diesel, supported
by the RFS standards, the LCFS in California, the
biodiesel blenders tax credit, and the opportunity for
imported biodiesel and renewable diesel to realize
these incentives. At this time the impact of the expiration of the biodiesel blenders tax credit on the volumes
of foreign-produced biodiesel and renewable diesel
imported into the U.S., is highly uncertain. Additionally, in August 2017 the Department of Commerce
announced a preliminary determination that it would
be appropriate to place countervailing duties of 41 percent to 68 percent on biodiesel imported from Argentina
and Indonesia. According to data from EIA, biodiesel
imports from Argentina were 10,679 thousand barrels
in 2016 (approximately 449 million gallons) and 5,601
billion barrels (approximately 235 million gallons)
through July 2017 (the most recent month for which
data were available at the time of this assessment).
result of increased production/collection of these feedstocks or
diverting them from other uses. We therefore think our slightly
more conservative projected increase in these feedstocks sufficient to produce 15 million gallons of biodiesel (without diverting
feedstocks from existing uses) is appropriate. We note, however,
using the slightly higher projection from the WAEES model (feedstock increase sufficient to produce 31 million gallons of biodiesel)
has a very minimal impact on our assessment of the reasonably
attainable volume of advanced biodiesel and renewable diesel in
2018, and would have no impact on the required volume of advanced
biofuel for 2018.

621a
Biodiesel imports from Indonesia were 2,554 thousand
barrels in 2016 (approximately 107 million gallons),
with no biodiesel imported in 2017 through July 2017.
At this time, it is uncertain whether or not the preliminary determination by the Department of Commerce
will be finalized, and it is uncertain what impact the
finalization of these duties would have on overall
imports of advanced biodiesel and renewable diesel to
the U.S. In recent years imports of advanced biodiesel
and renewable diesel have increased year-over-year, and
absent these actions it may be reasonable to anticipate
continued increases in the imported volume of these
fuels. In light of this uncertainty, however, we do not
believe it would be reasonable at this point to either
increase or decrease our projection of the reasonably
attainable volume of biodiesel and renewable diesel for
2018 as compared to the levels we projected for 2017.104
After a careful consideration of the factors discussed
above, EPA has determined, for the purposes of this
final rule, that approximately 2.55 billion gallons of
advanced biodiesel and renewable diesel is reasonably
attainable for use in our determination of the appropriate applicable volume of advanced biofuel to require
for 2018. This volume is 150 million gallons higher
than the volume of advanced biodiesel and renewable
diesel determined to be reasonably attainable and
appropriate for the purposes of deriving the advanced
biofuel standard in 2017.

104

We further note that there have been recent efforts to
reinstate the biodiesel tax credit as a producers’ tax credit, rather
than a blenders tax credit. If the biodiesel tax credit were reinstated as a producers’ tax credit it would not apply to foreign
biodiesel producers, further limiting the likely supply of imported
advanced biodiesel and renewable diesel.

622a
The 150 million gallon increase in advanced biodiesel
and renewable diesel that we project will be reasonably attainable for 2018 represents a smaller annual
increase in advanced biodiesel and renewable diesel
than we assumed in deriving the 2017 advanced biofuel
standard (approximately 300 million gallons over 2016
levels). We believe that this reflects that the circumstances presented with respect to 2018 are different
from those we anticipated for 2017. The primary differences are a smaller projected increase in advanced
feedstock production in the U.S., the continued absence
of the biodiesel tax credit, and the preliminary determination placing duties on biodiesel imported from
Argentina and Indonesia.
3. Other Advanced Biofuel
In addition to cellulosic biofuel, imported sugarcane
ethanol, and advanced biodiesel and renewable diesel,
there are other advanced biofuels that can be counted
in the determination of reasonably attainable volumes
of advanced biofuel for 2018. These other advanced
biofuels include biogas, naphtha, heating oil, butanol,
jet fuel, and domestically-produced advanced ethanol.105
However, the supply of these fuels has been relatively
low in the last several years.

105

Advanced biofuel with a D code of 5.

623a
TABLE IV.B.3–1—HISTORICAL SUPPLY OF
OTHER ADVANCED BIOFUELS
[Million ethanol-equivalent gallons]

a

The downward trend over time in biogas as advanced
biofuel with a D code of 5 is due to the re-categorization
in 2014 of landfill biogas from advanced (D code 5) to
cellulosic (D code 3).106 Apart from biogas, total supply
of advanced biofuel other than imported sugarcane
ethanol has been relatively constant during 2014–
2016. Based on this historical record, we find that 60
million gallons would be reasonably attainable in
2018.107 This represents the approximate average of the
two most recent years (2015 and 2016) for which complete data are available.
We recognize that the potential exists for additional
volumes of advanced biofuel from sources such as jet
fuel, liquefied petroleum gas (LPG), and liquefied natural gas (as distinct from compressed natural gas), as
well as non-cellulosic biogas such as from digesters.
However, since they have been produced in only de minimis and sporadic amounts in the past, we do not have
a

Some renewable diesel generates D5 rather than D4 RINs as
a result of being produced through co-processing with petroleum
or being produced from the non-cellulosic portions of separated
food waste or annual cover crops.
106
107

79 FR 42128, July 18, 2014.

For the purposes of determining the availability of total
renewable fuel, we are using a volume of 40 million gallons of nonethanol other advanced biofuel and 20 million gallons of advanced
domestic ethanol (see discussion in Section V.B.2).

624a
a basis for projecting substantial volumes from these
sources in 2018.108
4. Total Advanced Biofuel
The total volume of advanced biofuel that we believe
is reasonably attainable in 2018 is the combination of
cellulosic biofuel and the sources described above:
imported sugarcane ethanol, biodiesel and renewable
diesel which qualifies as BBD, and other advanced biofuels such as advanced biogas that does not qualify
as cellulosic biofuel, heating oil, naphtha, domestic
advanced ethanol, and advanced renewable diesel that
does not qualify as BBD. Our assessment of the reasonably attainable volumes of these sources, discussed
in the preceding sections, is summarized below. We
note that the reasonably attainable volumes of each of
these advanced biofuels cannot themselves be viewed
as volume requirements. The volumes for each advanced
biofuel type represent one significant factor that is
considered in the analysis used to determine the
reasonably attainable volumes of advanced biofuel. As
discussed in more detail in a memorandum to the
docket, there are many ways that the market could
respond to the percentage standards we establish,
including use of higher or lower volumes of these fuel
types than discussed in this section.109 In addition, as
discussed below, we do not believe it would be appropriate to require use of all volumes we have determined
to be reasonably attainable.

108

For instance, no RIN-generating volumes of these other
advanced biofuels were produced in 2016, and less than 1 mill gal
total in prior years.
109

“Market impacts of biofuels,” memorandum from David
Korotney to docket EPA–HQ–OAR–2017–0091.

625a
TABLE IV.B.4–1—REASONABLY ATTAINABLE
VOLUMES OF ADVANCED BIOFUEL IN 2018
[Million ethanol-equivalent gallons except as noted]
Cellulosic biofuel ...................................
Advanced biodiesel and
renewable diesel (ethanolequivalent volume/physical volume) ....
Imported sugarcane ethanol ..................
Other advanced .....................................
Total advanced biofuel ..........................

288

3,953/2,550
100
60
4,401

C. Exercise of Cellulosic Waiver Authority
for Advanced Biofuel
Based on the information presented above, we believe
that 4.40 billion gallons of advanced biofuel would be
reasonably attainable in 2018. This volume is 110
million gallons higher than the 4.29 billion gallons
that would result from reducing the applicable volume
of advanced biofuel by the same amount as the reduction to the statutory applicable volume of cellulosic
biofuel (see Section III for a discussion of the cellulosic
biofuel volume requirement for 2018). In exercising
the cellulosic waiver authority in past years, we determined it was appropriate to require a partial backfilling of missing cellulosic volumes with volumes of noncellulosic advanced biofuel we determined to be reasonably attainable and appropriate, notwithstanding
the increase in costs associated with this decision.110
However, this year we are balancing the various considerations in a different manner in setting the 2018

110

See, e.g., Response to Comments Document for the 2014–16
Rule, pages 628–631, available at https://www.epa.gov/sites/
production/files/2015-12/documents/420r15024.pdf.

626a
standards, placing a greater emphasis on cost considerations.111
In Section IV.E we present illustrative cost projections for sugarcane ethanol and soybean biodiesel in
2018, the two advanced biofuels that would be most
likely to provide the marginal increase in volumes of
advanced biofuel in 2018 in comparison to 2017.
Sugarcane ethanol results in a cost increase compared
to gasoline that ranges from $0.61–$1.56 per ethanolequivalent gallon.112 Soybean biodiesel results in a cost
increase compared to diesel fuel that ranges from $0.95–
$1.30 per ethanol-equivalent gallon.113 The cost of these
renewable fuels is high as compared to the petroleum
fuels they displace. In light of these comparative costs,
we believe it is reasonable to forgo the marginal benefit
that might be achieved by establishing the advanced
biofuel standard to require an additional 110 million
111

EPA notes that while the factors considered under the cellulosic waiver authority to reduce volumes could apply to volumes
beyond the reduction in cellulosic biofuel, EPA is limited in the
exercise of its cellulosic waiver authority to reductions up to the
amount of the reduction in cellulosic biofuel. Any further reductions would require a determination under the general waiver
authority that the volumes would result in severe economic or
environmental harm, or that there is an inadequate domestic
supply, as discussed in Section V below.
112

Sugarcane ethanol results in a projected cost increase of
$0.92–$2.34 per gasoline-equivalent gallon. The projected cost of
gasoline in 2018 is $1.64 per gallon based on EIA Short-Term
Energy Outlook, October 2017, Custom Table Builder, “Refiner
Wholesale Gasoline Price.”
113

Soybean biodiesel results in a projected cost increase of $1.62–
$2.22 per diesel-equivalent gallon. The projected cost of diesel in
2018 is $1.74 per gallon based on EIA Short-Term Energy Outlook,
October 2017, Custom Table Builder, “Diesel Fuel Refiner Wholesale Price.”

627a
gallons. See Section IV.E for a further discussion of the
projected cost of this final rule.
Based on consideration of the volumes that may be
reasonably attainable in 2018, along with a balancing
of the costs and benefits associated with the option of
setting the advanced biofuel standard at a level that
would require use of all volumes that we have estimated
could be reasonably attainable, we are exercising our
cellulosic waiver authority to reduce advanced biofuel
volumes to 4.29 billion gallons for 2018.114 This advanced
biofuel volume requirement for 2018 is similar to the
requirement for 2017 when we allowed a portion of the
shortfall in cellulosic biofuel to be backfilled with other
advanced biofuel.
It should be noted that by exercising the full cellulosic waiver authority for advanced biofuel, the implied
statutory volume target for non-cellulosic advanced
biofuel of 4.0 billion gallons in 2018 is maintained.
Although the implied volume for non-cellulosic advanced
biofuel in the statute increases from 3.5 billion gallons
in 2017 to 4.0 billion gallons in 2018, the applicable
volume requirements for 2017 as finalized by EPA
included an allowance for 4.0 billion gallons of noncellulosic advanced biofuel, one year before envisioned
by the statute. Through our 2017 action, we effectively
required early use of the 0.5 billion gallon increment
of non-cellulosic advanced volume that Congress envisioned would be first used in 2018. The net result of
our action for 2018, after deciding that no further reductions beyond those obtained by exercise of the cellulo114

EPA also considered the availability of advanced carryover
RINs in determining whether reduced use of the cellulosic waiver
authority would be warranted. For the reasons described in Section
II.B, we do not believe this to be the case.

628a
sic waiver authority are appropriate (see Section V), is
that the advanced biofuel volume requirement for
2018 is 10 million gallons higher than the advanced
biofuel volume requirement for 2017, but the portion
of this volume requirement that may be satisfied with
non-cellulosic biofuels remains constant.
D. Exercise of Cellulosic Waiver Authority for
Total Renewable Fuel
As discussed in Section II.A.1, we believe that the
cellulosic waiver provision is best interpreted to provide equal reductions in advanced biofuel and total
renewable fuel. We have consistently articulated this
interpretation.115 We believe this interpretation is consistent with the statutory language and best effectuates the objectives of the statute. If EPA were to
reduce the total renewable fuel volume requirement
by a lesser amount than the advanced biofuel volume
requirement, we would effectively increase the opportunity for conventional biofuels to participate in the
RFS program beyond the implied statutory cap of 15
billion gallons.116

115

For instance, see discussion in the final rules setting the
2013, 2014–2016, and 2017 standards: 78 FR 49809–49810, August
15, 2013; 80 FR 77434, December 14, 2015; 81 FR 89752–89753,
December 12, 2016. We incorporate by reference the rationale for
this interpretation that was articulated in these prior rules.
116

Since the advanced biofuel volume requirement is nested
within the total renewable fuel volume requirement, the statutory implied volume for conventional renewable fuel in the statutory tables can be discerned by subtracting the applicable volume
of advanced biofuel from that of total renewable fuel. Performing
this calculation with respect to the tables in CAA section
211(o)(2)(B) indicates a Congressional expectation that in the
time period 2015–2022, advanced biofuel volumes would grow from

629a
Applying an equal reduction of 6.71 billion gallons
to both the statutory target for advanced biofuel and
the statutory target for total renewable fuel results in
a total renewable fuel volume of 19.29 billion gallons
as shown in Table IV.A–1.117 If we were to determine
that there is a basis to exercise the general waiver
authority or the biomass-based diesel waiver authority,
we could provide further reductions to the total renewable fuel volume. However, as described in more detail
below in Section V, we believe that there is not sufficient justification for such further reductions in 2018.
E. Impacts of 2018 Standards on Costs
In this section, EPA presents its assessment of the
illustrative costs of the final 2018 RFS rule. It is
important to note that these illustrative costs do not
attempt to capture the full impacts of this final rule.
These estimates are provided solely for the purpose of
showing how the cost to produce a gallon of a “representative” renewable fuel compares to the cost of petroleum fuel. There are a significant number of caveats
that must be considered when interpreting these cost
estimates. There are a number of different feedstocks
that could be used to produce biofuels, and there is a
significant amount of heterogeneity in the costs associated with these different feedstocks and fuels. Some
renewable fuels may be cost competitive with the petroleum fuel they replace; however, we do not have cost
data on every type of feedstock and every type of fuel.
5.5 to 21 billion gallons, while the implied volume for conventional renewable fuel would remain constant at 15 billion gallons.
117

EPA also considered the availability of carryover RINs in
determining whether reduced use of the cellulosic waiver authority would be warranted. For the reasons described in Section II.B,
we do not believe this to be the case.

630a
Therefore, we do not attempt to capture this range of
potential costs in our illustrative estimates.
The annual standard-setting process encourages consideration of the RFS program on a piecemeal (i.e.,
year-to-year) basis, which may not reflect the full,
long-term costs and benefits of the program. For the
purposes of this final rule, other than the estimates of
costs of producing a “representative” renewable fuel
compared to cost of petroleum fuel, EPA did not
quantitatively assess other direct and indirect costs or
benefits of changes in renewable fuel volumes. These
direct and indirect costs and benefits include infrastructure costs, investment, GHG emissions and air quality
impacts, or energy security benefits, which all are to
some degree affected by the annual standards. While
some of these impacts were analyzed in the 2010 final
rulemaking that established the current RFS program,118 we have not analyzed these impacts for the
2018 volume requirements. We framed the analyses
we have performed for this final rule as “illustrative” so
as not to give the impression of comprehensive estimates.
1. Illustrative Cost Savings Associated With
Reducing Statutory Cellulosic Volumes
To provide an illustrative estimate of the cost of the
2018 cellulosic biofuel requirements, EPA has compared the 2018 cellulosic biofuel volume requirements
to the statutory volume that would be required absent
the exercise of our cellulosic waiver authority under

118

RFS2 Regulatory Impact Analysis (RIA). U.S. EPA 2010,
Renewable Fuel Standard Program (RFS2) Regulatory Impact
Analysis. EPA–420–R–10–006. February 2010. Docket EPA–HQ–
OAR–2009–0472–11332.

631a
CAA section 211(o)(7)(D)(i).119 As described in other
sections of this final rule, we believe that the additional 6.71 billion gallons of cellulosic biofuel envisioned by the statute will not be produced in 2018.
Therefore, estimating costs of this volume reduction is
inherently challenging. However, we have taken the
relatively straightforward methodology of multiplying
the per-gallon costs associated with the volumes that
would be required under this final rule by the amount
of cellulosic renewable fuel that is being waived. This
comparison results in a cost savings estimated to be
$5.3–$15.9 billion.
To estimate the overall cost savings from waiving the
cellulosic biofuel volumes, EPA has taken the following steps. First, EPA determined the magnitude of the
volume reduction of cellulosic biofuel we are establishing in this rule, relative to the statutory volume. In
this rule we are reducing the required volume of cellulosic biofuel by 6.71 billion gallons, with corresponding
reductions in the advanced biofuel and total renewable
fuel standards. Second, we estimated the per-gallon
costs of producing cellulosic ethanol derived from corn
kernel fiber that would be expected in complying with
the standards. Third, the per-gallon costs of cellulosic
biofuel from corn fiber were multiplied by 6.71 billion
gallons.
While there may be growth in other cellulosic biofuel
sources, for this exercise we believe it is appropriate to
use corn kernel fiber as the representative cellulosic
biofuel. The majority of liquid cellulosic biofuel in 2018
119

EPA is also using its discretion to reduce the advanced
biofuel and total renewable fuel requirements using the cellulosic
waiver authority. This discretionary action is based partially on
the costs of advanced biofuels and provides additional cost savings.

632a
is expected to be produced using this technology, and
application of this technology in the future could result
in significant incremental volumes of cellulosic biofuel.
In addition, as explained in Section III.D.2, we believe
that production of the major alternative cellulosic
biofuel—CNG/LNG derived from biogas—is limited to
approximately 580 million gallons due to a limitation
in the number of vehicles capable of using this form of
fuel.120
EPA uses a “bottom-up” engineering cost analysis to
quantify the costs of producing a gallon of cellulosic
ethanol derived from corn kernel fiber. There are multiple processes that could yield cellulosic ethanol from
corn kernel fiber. EPA assumes a cellulosic ethanol
production process that generates biofuel using distiller’s grains, a co-product of generating corn starch
ethanol that is commonly dried and sold into the feed
market as distillers dried grains with solubles (DDGS),
as the renewable biomass feedstock. We assume an
enzymatic hydrolysis process with cellulosic enzymes
to break down the cellulosic components of the distiller’s grains. This process for generating cellulosic
ethanol is similar to approaches currently used by industry to generate cellulosic ethanol at a commercial scale,
and we believe these costs estimates are likely representative of the range of different technology options
being developed to produce ethanol from corn kernel
120

To calculate this estimate, EPA used the Natural Gas Vehicle Use from the STEO Custom Table Builder (0.12 billion cubic
feet/day in 2018). This projection includes all CNG/LNG used as
transportation fuel from both renewable and non-renewable
sources. EIA does not project the amount of CNG/LNG from biogas
used as transportation fuel. To convert billion cubic feet/day to
ethanol-equivalent gallons, EPA used conversion factors of 1020
BTU per cubic foot of natural gas and 77,000 BTU of natural gas
per ethanol-equivalent gallon.

633a
fiber. We then compare the per-gallon wholesale costs
of the cellulosic ethanol to the petroleum fuels that
would be replaced.
These cost estimates do not consider taxes, retail
margins, or other costs or transfers that occur at or
after the point of blending (transfers are payments
within society and are not additional costs). We do not
attempt to estimate potential cost savings related to
avoided infrastructure costs (e.g., the cost savings of
not having to provide pumps and storage tanks associated with higher-level ethanol blends). When estimating per-gallon costs, we consider the costs of gasoline
on an energy equivalent basis as compared to ethanol,
since more ethanol gallons must be consumed to go the
same distance as gasoline due to the ethanol’s lower
energy content.
Table IV.E.1–1 below presents the cost savings associated with this final rule that are estimated using this
approach.121 The statutory cellulosic biofuel target in
EISA for 2018 is seven billion gallons (ethanol equivalent). The cellulosic biofuel volume used in this rule to
establish the 2018 cellulosic biofuel percentage standard is 288 million gallons. The amount of cellulosic
biofuel being waived is 6.71 billion gallons. The pergallon cost difference estimates for cellulosic ethanol
ranges from $0.79–$2.37 per ethanol equivalent gallon.122 Given that cellulosic ethanol production is just
121

Details of the data and assumptions used can be found in a
Memorandum available in the docket entitled “Cost Impacts of
the Final 2018 Annual Renewable Fuel Standards”, Memorandum from Michael Shelby, Dallas Burkholder, and Aaron Sobel
to EPA Docket EPA–HQ–OAR–2017–0091.
122

For the purposes of the cost estimates in this section, EPA
has not attempted to adjust the price of the petroleum fuels to
account for the impact of the RFS program, since the changes in

634a
starting to become commercially available, the cost
estimates have a significant range. Multiplying those
per-gallon cost differences by the amount of cellulosic
biofuel waived in this final rule, 6.71 billion gallons,
results in approximately $5.3–$15.9 billion in cost
savings.
TABLE IV.E–1—IMPACTS OF THE
DIFFERENCE BETWEEN EISA VOLUMES FOR
THE CELLULOSIC BIOFUEL STANDARD AND
FINAL CELLULOSIC VOLUME IN 2018

123, 124, 125

2. Illustrative Cost Analysis of Advanced
Biofuels Using 2017 as the Baseline
We recognize that for the purpose of estimating the
cost of the 2018 RFS volume requirements that a number of different scenarios using different “baselines”
would be of interest to stakeholders. Therefore, in this
section, we are also providing an illustrative cost analysis that shows the costs of the advanced biofuel standthe renewable fuel volume are relatively modest. Rather, we have
simply used the wholesale price projections for gasoline and diesel as reported in EIA’s October 2017 STEO.
123

Overall fuel volumes may not match due to rounding.

124

Approximate costs are rounded to the cents place.

125

Approximate costs are rounded to the first decimal place.

635a
ard as compared to those associated with the preceding
year’s standard, which as discussed in section IV.C.
will lead to an increase of 10 million gallons of advanced
biofuel in 2018 in comparison to 2017.126
EPA is providing an illustrative cost analysis for the
increase in the overall advanced biofuel volume of 10
million ethanol equivalent gallons (as compared to
2017 volumes) using four different scenarios, assuming
this increase in advanced biofuel volumes is comprised
of: (1) cellulosic biofuel from CNG/LNG, (2) cellulosic
biofuel from corn kernel fiber, (3) soybean oil BBD, or
(4) sugarcane ethanol from Brazil. Showing the illustrative costs of soybean oil BBD and sugarcane ethanol is consistent with the methodology EPA developed
for previous rulemakings. However, this discussion
should not be interpreted as suggesting that the various renewable fuel types discussed are necessarily
available in the marketplace. The availability of different types of renewable fuel is discussed in other
sections of this preamble; in this section we assess
costs as if the different fuel types are available, without intending to suggest that they are.
In previous annual RFS rules, EPA provided an
illustrative cost estimate for the entire change in the
total renewable fuel volume standard assuming it was
satisfied with conventional (i.e., non-advanced) corn
ethanol. As there is no change in the 2018 implied conventional volume relative to the 2017 volume, all of the
changes in both the advanced and total renewable fuel
volumes are properly attributed to advanced biofuel.
126

There is also an increase of 10 million gallons in the 2018
applicable volume of total renewable fuel as compared to the 2017
volume. However, in light of the nested standards, that increase
is entirely attributable to the increase in the advanced volume.

636a
As described earlier, we are focusing on the wholesale level in our cost scenarios, and do not consider taxes,
retail margins, additional infrastructure, or other costs
or transfers that occur at or after the point of blending.
More background information on this section, including details of the data sources used and assumptions
made for each of the scenarios, can be found in a memorandum available in the docket.127
Table IV.E.2–1 below presents estimates of per
energy-equivalent gallon costs for producing soybean
biodiesel, Brazilian sugarcane ethanol, CNG/LNG
derived from landfill biogas, and cellulosic ethanol
derived from corn fiber relative to the petroleum fuels
they replace at the wholesale level. For each of the four
scenarios, these per-gallon costs are then multiplied
by the 10 million ethanol-equivalent gallon increase in
the 2018 advanced standard relative to the previous
2017 standard to obtain an overall cost estimate.

127

“Cost Impacts of the Final 2018 Annual Renewable Fuel
Standards”, Memorandum from Michael Shelby, Dallas Burkholder, and Aaron Sobel to EPA Docket EPA–HQ–OAR–2017–
0091.

637a
TABLE IV.E.2–1—ILLUSTRATIVE COSTS OF THE 10
MILLION GALLON INCREASE IN THE ADVANCED
BIOFUEL VOLUME REQUIREMENT IN 2018
RELATIVE TO THE 2017 VOLUME REQUIREMENT

128, 129, 130

Based on this illustrative analysis of four separate
hypothetical scenarios, EPA estimates that the costs
for changes in the advanced fuel volumes compared to
2017 could range from $(0.4)–$24 million in 2018. It is
important to note that these illustrative costs do not
take into consideration the benefits of the program.131
For the purpose of this annual rulemaking, we have
not quantified benefits for the 2018 standards. For
128

Per-gallon cost differences compare illustrative biofuels to
their petroleum fuel counterparts on an ethanol gallon equivalent
(EGE) basis, accounting for the differences in energy content
between fuels, and then multiplied by the total RINs needed to
meet the change in volume obligations.
129

Overall costs may not match per-gallon costs times volumes
due to rounding.
130

CNG/LNG derived from biogas and natural gas costs are compared on an ethanol gallon equivalent (EGE) energy content basis.
131

The small negative cost estimate is likely a result of the
methodology undertaken for these illustrative costs.

638a
example, we do not have a quantified estimate of the
GHG or energy security benefits for a single year (e.g.,
2018). Also, there are impacts that are difficult to quantify, such as rural economic development and employment changes from more diversified fuel sources, that
are not quantified in this rulemaking.
V. Consideration of Additional Reductions
Using Other Waiver Authorities
As discussed in previous sections, we are reducing
the statutory volume target for cellulosic biofuel to
reflect the projected production volume of that fuel
type in 2018, and we are reducing both advanced biofuel and total renewable fuel by the maximum permissible amount authorized under the cellulosic waiver
authority in CAA section 211(o)(7)(D)(i).
We have also considered whether it would be appropriate to provide further reductions for these renewable fuel categories pursuant to the general waiver
authority in CAA section 211(o)(7)(A), or for these
renewable fuel categories and the 2018 BBD using the
BBD waiver authority in CAA section 211(o)(7)(E). We
have concluded that further reductions in volumes using
any of these other waiver authorities are not warranted.
We note that in the October 4 Federal Register document we solicited comment on possible new interpretations of the general waiver authority for inadequate
domestic supply and severe economic harm and of the
biomass-based diesel waiver authority.132 We find it
unnecessary to resolve whether to adopt such interpretations at this point in time because under any approach
we would find exercise of these waiver authorities not
appropriate based on the record before us.
132

82 FR 46174, October 4, 2017.

639a
As a result, we are finalizing advanced biofuel and
total renewable fuel volume requirements resulting
from the exercise of the cellulosic biofuel waiver authority alone, and we are not modifying the 2018 BBD applicable volume of 2.1 billion gallons established through
a prior rulemaking. The implied volume for conventional renewable fuel (calculated by subtracting the
advanced volume from the total volume) will be 15.0
billion gallons, consistent with the statutory target
provided in the statute for 2018.
A. Inadequate Domestic Supply
On July 21, 2017, we proposed to reduce the 2018
statutory volume targets for advanced biofuel and
total renewable fuel by the maximum permissible
amount using the cellulosic waiver authority, and not
to reduce these volumes further using other authorities. However, we requested comment on the possible
additional use of the general waiver authority or other
authorities to provide further reductions in the proposed volume requirements.133 To evaluate the possibility for using the general waiver authority on the
basis of a finding of inadequate domestic supply, we
considered the projected volumes of renewable fuel
that can be supplied to refiners, importers, and blenders in 2018 from both domestic production and imports.
In addition, consistent with the approach identified for
consideration in the October 4 document, we considered the projected volumes of renewable fuel that can
be supplied to refiners and blenders solely from domestic
production. Under either approach we conclude a waiver
is not warranted.
In Section III we discussed our projection that 288
million gallons of cellulosic biofuel will be made
133

82 FR 34206 at 34213, October 4, 2017.

640a
available in 2018. In Section IV we described our
assessment that about 4.40 billion gallons of advanced
biofuel would be reasonably attainable in 2018 from
both domestic production and imports but that, after
considering a number of factors, such as the potential
for feedstock/fuel diversions and cost of advanced biofuel, we would exercise our discretion to use the full
cellulosic waiver authority to reduce the applicable
volume to 4.29 billion gallons.134 As a result, we do not
anticipate an inadequate domestic supply of advanced
biofuels to meet a volume requirement of 4.29 billion
gallons for advanced biofuel, when both domestic production and imports are considered.
Having determined that there will not be an inadequate domestic supply of advanced biofuel, we further
considered whether there may be an inadequate domestic supply to satisfy the portion of the total renewable
fuel volume requirement that can be satisfied with
non-advanced (conventional) renewable fuel. After
application of the full cellulosic waiver authority to the
advanced biofuel and total renewable fuel statutory
volume targets, the implied statutory volume for conventional renewable fuel is 15.0 billion gallons. The
total domestic production capacity of corn ethanol in
the U.S. is about 16 billion gallons, and total production of denatured and undenatured ethanol from these
facilities in 2016 exceeded 15 billion gallons.135 As a
134

Because EPA’s authority under the cellulosic waiver authority affords EPA more discretion to reduce volumes of advanced
and total renewable fuel than the general waiver authority under
an evaluation of inadequate domestic supply, EPA has evaluated
the supply of advanced biofuel for purposes of a determination on
the adequacy of supply without consideration of these factors.
135

“2017 Ethanol Industry Outlook” by the Renewable Fuels
Association indicates that 2017 nationwide production capacity is

641a
result, there does not appear to be an inadequate domestic supply of renewable fuel to satisfy the implied 15
billion gallon conventional renewable fuel volume that
results from full application of the cellulosic waiver
authority to reduce statutory volume targets for
advanced biofuel and total renewable fuel. We note
that this assessment does not include imported volumes of fuel, such as conventional biodiesel, which
could also be used to satisfy the volume requirements.
In light of this finding, we conclude that there is not
an inadequate domestic supply of volumes than can be
used to meet the 15 billion gallon implied volume for
conventional renewable fuel, and thus that further
reductions of the 19.29 billion gallon total renewable
fuel volume requirement derived through use of the
cellulosic waiver authority would not appropriate
when taking into account both domestic production
and imports.
In the October 4 document, we discussed comments
on the proposal suggesting that EPA should interpret
the undefined term “domestic” in the phrase “inadequate domestic supply” to account for only volumes of
renewable fuel that are produced domestically. If EPA
were to adopt this interpretation, we could exclude
potential imports of renewable fuel in our assessment
of domestic supply but, even if we found domestic
supply to be inadequate, could take factors such as
potential imports and the availability of carryover
RINs into account in determining the extent to which
16.0 bill gal and actual production in 2016 was 15.25 bill gal. “US
Fuel Ethanol Plant Production Capacity from EIA,” estimates
2017 nameplate production capacity at 15.51 bill gal. In “Ethanol
Production in 2016 from EIA,” EIA indicates that 2016 actual
production was 15.45 bill gal. All documents are available in
docket EPA–HQ–OAR–2017–0091.

642a
we should exercise our discretion to grant a waiver on
the basis of inadequate domestic supply.136 As described
in more detail in the RTC document, stakeholders who
addressed this issue provided varying perspectives on
the extent to which such an interpretation would have
a relevant impact on renewable fuel supply.
In light of the fact that the domestic production
capacity of conventional biofuel volumes is in excess of
15 billion gallons, whether we were to exclude imported
biofuels from our consideration of domestic supply
would primarily impact our assessment of the supply
of cellulosic biofuel and advanced biofuel volumes, not
conventional renewable fuel. With respect to cellulosic
biofuel, we note that the vast majority of the supply in
2018 is expected to come from domestic sources. In fact,
if EPA excluded consideration of projected cellulosic
biofuel imports, our projection of the available volume
of cellulosic biofuel in 2018 would be reduced by only
2 million gallons or less than 1 percent of our projection that 288 million cellulosic biofuel gallons will be
made available in 2018. Given the importance that
Congress placed on the growth of cellulosic biofuel
volumes, our projection that compliance with a 288 million gallon requirement is feasible using RINs generated in 2018, and the availability of carryover cellulosic biofuel RINs and cellulosic waiver credits for additional compliance flexibility, EPA would not exercise
its discretion to lower the 288 million gallon projected
cellulosic biofuel volume by 2 million gallons even if

136

EPA’s current regulations provide that qualifying imported
biofuel may be used for compliance with the RFS standards; EPA’s
response to comments on this approach to imported biofuels is
provided in the RTC document.

643a
EPA were to interpret the term “domestic supply” to
exclude imported volumes.
With respect to the available supply of advanced
biofuel in 2018 in the context of an interpretation of
inadequate domestic supply that excludes imports,
several commenters noted the data provided by EPA
in the October 4 document indicating that a significant
portion of the advanced biofuel available in previous
years has been from imported biofuels, particularly
imported biodiesel and renewable diesel. Some commenters pointed to total domestic production capacity
and feedstock availability to argue that domestic
producers are capable of compensating for volumes
that would not be provided through imports, so that
even under an interpretation of “domestic supply” that
excluded imports, EPA would not be justified in
reducing volumes on the basis of inadequate domestic
supply to a level below what was proposed. Others
suggested that, without imported volumes, the domestic industry could not ramp up production quickly
enough to compensate for the exclusion of imports from
our analysis and provide a “domestic supply” equal to
the proposed 2018 volume requirements.137 We believe,
based on the record before us, that there is uncertainty
regarding the capability of the domestic advanced
137

The “domestic supply” of BBD for 2018 would likely be adequate to meet the 2018 standard of 2.1 billion gallons. Domestic
production of BBD would need to increase by approximately 300
million gallons as compared to the 2016 production. As discussed
above, EPA believes this increase is possible and received comments suggesting this volume increase could be met by domestic
production. Additionally, carryover RINs and imported volumes
could still be used to meet the standard. Therefore, EPA would
not chose to exercise its authority to grant a waiver on the basis
of inadequate domestic supply for BBD for 2018 even if it interpreted the term “domestic supply” to exclude imports.

644a
biofuel industry to compensate in 2018 for volumes
that would not be provided through imports. Taking
this uncertainty into account (including the distinct
possibility that the domestic industry could compensate for exclusion of imports), as well as the availability of imported volumes and carryover RINs, EPA
would not choose to exercise its authority to grant a
waiver on the basis of inadequate domestic supply for
2018 even if it interpreted the term “domestic supply”
to exclude imports. In light of this determination, we
need not resolve at this time the interpretive issue
regarding whether the term “domestic supply” should
include consideration of imports.
B. Severe Economic Harm
The proposal and October 4 document requested
comment on the possibility of further reductions in the
proposed volume requirements, including on the basis
of a severe economic harm. We received comments from
stakeholders both in support of, and opposed to, further reductions in the advanced biofuel and/or total
renewable fuel volume requirements based on a finding of severe economic harm. For instance, several obligated parties stated that the purchase of RINs to comply
with the applicable standards represents a significant
economic burden to their companies. Some also indicated that they are considering filing for bankruptcy.
However, these commenters did not provide sufficient
evidence that the purchase of RINs, as opposed to
other market factors, is responsible for the company’s
difficult economic circumstances, or why they cannot
recoup the cost of RINs through higher prices of their
products, or the arguments presented were unconvinc-

645a
ing. None of the commenters provided compelling
evidence that the proposed RFS volume requirements
for 2018 would be likely to cause severe economic harm
to a region, State, or the U.S.139 Further discussion of
these comments can be found in the RTC document.
138

In addition to reviewing comments on the proposed
rule and the October 4 document, EPA also reviewed
market data from 2017 and previous years to see if
there was evidence that the RFS standards are currently causing severe economic harm, or would be
likely to cause severe economic harm in 2018. Given
that the 2018 volumes generated through the maximum reduction permitted under the cellulosic waiver
authority are nearly the same as the volume requirements for 2017, we considered:
1. Whether severe economic harm has
occurred to date or is likely to occur in
2017, and

138

We further note that before exercising the general waiver
authority on the basis of severe economic harm to a State, a Region
or the U.S., EPA would need to consider whether a waiver that
would affect the standards applicable to all obligated parties, and
would take into account any negative economic impacts to farmers and biofuel producers from a waiver, would be of significant
benefit to individual obligated parties facing financial difficulties.
139

In the October 4 document, we solicited comment on EPA’s
prior interpretation of the term “severe economic harm.” As discussed in the RTC document accompanying this action, we believe
that the evidence in the record would be insufficient to support a
finding of severe economic harm under any reasonable interpretation of the phrase advanced by commenters, so do not find it
necessary to assess changes to our interpretation of the phrase at
this time.

646a
2. whether the economic conditions in 2018
might be expected to be substantially different than those in 2017.
To determine whether severe economic harm has
occurred to date or is likely to occur in in 2017, we
investigated several possible indicators. These included
RIN generation for 2017 relative to 2016, refinery closures, retail fuel prices, and corn and soybean prices.
Based on our investigation, we do not believe that
severe economic harm has occurred thus far in 2017 to
any State, region, or the U.S. as a result of the 2017
standards, or is likely occur by the end of 2017. Details
of this investigation can be found in a memorandum to
the docket.140
To determine whether the economic conditions in
2018 might be expected to be substantially different
than those in 2017 in ways that could affect the economic impact of compliance with the RFS program, we
investigated projections of two primary drivers of the
cost of compliance: Crop-based feedstock futures prices,
and projected gasoline demand. We also investigated
the potential market impacts of the final 2018 standards, most specifically in terms of ethanol and biodiesel
consumption.141
Based on the record before us, we do not believe that
there is sufficient evidence to conclude that severe
economic harm is occurring currently in 2017 in any
State, region, or the United States, and we do not
believe that market conditions in 2018 are likely to
140

“Assessment of waivers for severe economic harm or BBD
prices for 2018,” memorandum from David Korotney to docket
EPA–HQ–OAR–2017–0091.
141

“Market impacts of biofuels,” memorandum from David
Korotney to docket EPA–HQ–OAR–2017–0091.

647a
cause compliance with the applicable standards to be
more economically challenging than it is in 2017.
Given that the 2018 standards are very similar to the
2017 standards, then, we do not believe that further
reductions in the 2018 volume requirements on the
basis of severe economic harm are warranted.
C. Severe Environmental Harm
EPA received comments in response to the proposal
asserting that there are negative environmental impacts
that may be associated with the RFS program. A significant portion of these concerns center on feedstock
production. Although we are authorized to reduce the
statutory volume targets on the basis of a finding that
the requirements would “severely harm the . . . environment of a State, region, or the United States,”
commenters have not presented evidence sufficient to
support a determination to make a reduction on this
basis for 2018. EPA is not making reductions on this
basis for 2018. EPA’s response to comments related to
perceived environmental harms of the RFS program is
set forth in the RTC document accompanying this rule.
D. Biomass-Based Diesel Waiver Authority
The BBD waiver authority in CAA section
211(o)(7)(E)(ii) provides that if EPA determines that
there is a significant renewable feedstock disruption
or other market circumstance that would make the
price of BBD increase significantly, then EPA shall, in
consultation with the Secretary of Energy and the
Secretary of Agriculture, issue an order to reduce, for
up to a 60-day period, the annual volume requirement
for BBD by an appropriate quantity that does not
exceed 15 percent. If EPA reduces the annual volume
requirement for BBD using this waiver authority, we
may also reduce the applicable volume of advanced

648a
biofuel and total renewable fuel by an equal or lesser
volume than the reduction in BBD. In the October 4
document we requested comment on the expected
impact on the price of BBD of the expiration of the
biodiesel blenders tax credit, proposed import duties
on biodiesel from Argentina and Indonesia, or any other
factors. We further requested comment on whether
any expected impacts should be considered significant
for the purposes of the BBD waiver authority.
To investigate whether a reduction in the 2018 BBD
volume requirement would be warranted under CAA
section 211(o)(7)(E)(ii), we considered current and historical prices of unblended biodiesel (B100), the price
of blended biodiesel (in particular, B20), and BBD (D4)
RIN prices. The results of this investigation are
described in a memorandum to the docket.142 EPA discussed in the October 4 document the fact that the
Department of Commerce had imposed preliminary tariffs on biodiesel imported from Argentina and Indonesia,
and that such tariffs could impact the price of BBD.
However, these tariffs have not yet been finalized,
nor has EPA observed any significant impact of the
announcement of the preliminary tariffs on the price
of biomass-based diesel.143
Based on the information before us, including the
results of our investigation and information and comments submitted in response to the October 4 document, we have concluded that there is not sufficient
142

“Assessment of waivers for severe economic harm or BBD
prices for 2018,” memorandum from David Korotney to docket EPAHQ-OAR-2017-0091.
143

“Assessment of waivers for severe economic harm or BBD
prices for 2018,” memorandum from David Korotney to docket EPAHQ-OAR-2017-0091.

649a
evidence of a significant increase to the price of BBD
due to feedstock disruption or other relevant market
circumstances to justify reductions to the 2018 BBD
volume requirement using the biomass-based diesel
waiver authority.
[Content Omitted]
VII. Percentage Standards for 2018
The renewable fuel standards are expressed as volume percentages and are used by each obligated party
to determine their Renewable Volume Obligations
(RVOs). Since there are four separate standards under
the RFS program, there are likewise four separate RVOs
applicable to each obligated party. Each standard
applies to the sum of all non-renewable gasoline and
diesel produced or imported. The percentage standards are set so that if every obligated party meets the
percentages by acquiring and retiring an appropriate
number of RINs, then the amount of renewable fuel,
cellulosic biofuel, BBD, and advanced biofuel used will
meet the applicable volume requirements on a nationwide basis.
Sections III through V provide our rationale and
basis for the volume requirements for 2018.156 The volumes used to determine the percentage standards are
shown in Table VII–1.

156

The 2018 volume requirement for BBD was established in
the 2017 final rule.

650a
TABLE VII–1—VOLUMES FOR USE IN SETTING THE
2018 APPLICABLE PERCENTAGE STANDARDS
[Billion gallons]
Cellulosic biofuel .......................................
Biomass-based diesel a ................................
Advanced biofuel .......................................
Renewable fuel ..........................................
a

0.288
2.10
4.29
19.29

Represents physical volume.

For the purposes of converting these volumes into
percentage standards, we generally use two decimal
places to be consistent with the volume targets as given
in the statute, and similarly two decimal places in the
percentage standards. However, for cellulosic biofuel
we use three decimal places in both the volume requirement and percentage standards to more precisely capture the smaller volume projections and the unique
methodology that in some cases results in estimates of
only a few million gallons for a single producer.
A. Calculation of Percentage Standards
To calculate the percentage standards we are following the same methodology for 2018 as we have in all
prior years. The formulas used to calculate the percentage standards applicable to producers and importers of gasoline and diesel are provided in 40 CFR
80.1405. The formulas rely on estimates of the volumes
of gasoline and diesel fuel, for both highway and nonroad uses, which are projected to be used in the year
in which the standards will apply. The projected gasoline and diesel volumes are provided by EIA, and include
projections of ethanol and biodiesel used in transportation fuel. Since the percentage standards apply only
to the non-renewable gasoline and diesel produced or
imported, the volumes of ethanol and biodiesel are

651a
subtracted out of the EIA projections of gasoline and
diesel.
Transportation fuels other than gasoline or diesel,
such as natural gas, propane, and electricity from fossil fuels, are not currently subject to the standards,
and volumes of such fuels are not used in calculating
the annual percentage standards. Since under the regulations the standards apply only to producers and
importers of gasoline and diesel, these are the transportation fuels used to set the percentage standards,
as well as to determine the annual volume obligations
of an individual gasoline or diesel producer or importer.
As specified in the RFS2 final rule,157 the percentage
standards are based on energy-equivalent gallons of
renewable fuel, with the cellulosic biofuel, advanced
biofuel, and total renewable fuel standards based on
ethanol equivalence and the BBD standard based on
biodiesel equivalence. However, all RIN generation is
based on ethanol-equivalence. For example, the RFS
regulations provide that production or import of a
gallon of qualifying biodiesel will lead to the generation of 1.5 RINs. The formula specified in the regulations for calculation of the BBD percentage standard
is based on biodiesel-equivalence, and thus assumes
that all BBD used to satisfy the BBD standard is biodiesel and requires that the applicable volume requirement be multiplied by 1.5. However, BBD often contains
some renewable diesel, and a gallon of renewable diesel typically generates 1.7 RINs.158 In addition, there
is often some renewable diesel in the conventional
renewable fuel pool. As a result, the actual number of
157
158

See 75 FR 14670 (March 26, 2010).

Although in some cases a gallon of renewable diesel generates either 1.5 or 1.6 RINs.

652a
RINs generated by biodiesel and renewable diesel is
used in the context of our assessing reasonably attainable volumes for purposes of deriving the applicable
volume requirements and associated percentage standards for advanced biofuel and total renewable fuel, and
likewise in obligated parties’ determination of compliance with any of the applicable standards. While there
is a difference in the treatment of biodiesel and renewable diesel in the context of determining the percentage standard for BBD versus determining the percentage standard for advanced biofuel and total renewable
fuel, it is not a significant one given our approach to
determining the BBD volume requirement. Our intent
in setting the BBD applicable volume is to provide a
level of guaranteed volume for BBD, but as described
in Section VI.B, we do not expect the BBD standard to
be binding. That is, we expect that actual supply of
BBD, as well as supply of conventional biodiesel and
renewable diesel, will be driven by the advanced biofuel and total renewable fuel standards.
B. Small Refineries and Small Refiners
In CAA section 211(o)(9), enacted as part of the
Energy Policy Act of 2005, and amended by the Energy
Independence and Security Act of 2007, Congress
provided a temporary exemption to small refineries159
through December 31, 2010. Congress provided that
small refineries could receive a temporary extension of
the exemption beyond 2010 based either on the results
of a required DOE study, or based on an EPA determination of “disproportionate economic hardship” on a
case-by-case basis in response to small refinery
petitions. In reviewing petitions, EPA, in consultation
159

A small refiner that meets the requirements of 40 CFR
80.1442 may also be eligible for an exemption.

653a
with the Department of Energy, evaluates whether
the small refinery has demonstrated either disproportionate impacts or viability impairment, and may grant
refineries exemptions upon demonstration of either
criterion.
EPA has granted exemptions pursuant to this process in the past. However, at this time no exemptions
have been approved for 2018, and therefore we have
calculated the percentage standards for 2018 without
any adjustment for exempted volumes. EPA is maintaining its approach that any exemptions for 2018 that
are granted after the final rule is released will not be
reflected in the percentage standards that apply to all
gasoline and diesel produced or imported in 2018.160
C. Final Standards
The formulas in 40 CFR 80.1405 for the calculation
of the percentage standards require the specification
of a total of 14 variables covering factors such as the
renewable fuel volume requirements, projected gasoline and diesel demand for all states and territories
where the RFS program applies, renewable fuels projected by EIA to be included in the gasoline and diesel
demand, and exemptions for small refineries. The values of all the variables used for this final rule are
shown in Table VII.C–1.161

160

Further discussion of this issue can be found in the Response
to Comments document in the docket for this action.
161

To determine the 49-state values for gasoline and diesel,
the amounts of these fuels used in Alaska is subtracted from the
totals provided by DOE because petroleum based fuels used in
Alaska do not incur RFS obligations. The Alaska fractions are determined from the June 29, 2016 EIA State Energy Data System
(SEDS), Energy Consumption Estimates.

654a
TABLE VII.C–1—VALUES FOR TERMS IN
CALCULATION OF THE 2018 STANDARDS162
[Billion gallons]

Projected volumes of gasoline and diesel, and the
renewable fuels contained within them, were provided
by EIA on October 11, 2017, as required in the statute
at CAA section 211(o)(3)(A).
Using the volumes shown in Table VII.C–1, we have
calculated the percentage standards for 2018 as shown
in Table VII.C–2.
TABLE VII.C–2—FINAL PERCENTAGE
STANDARDS FOR 2018
Cellulosic biofuel .......................................
Biomass-based diesel ................................
Advanced biofuel .......................................
Renewable fuel ..........................................

162

0.159
1.74
2.37
10.67

See “Calculation of final % standards for 2018” in docket EPA–
HQ–OAR–2017–0091.

655a
VIII. Administrative Actions
A. Assessment of the Domestic Aggregate Compliance Approach
The RFS regulations specify an “aggregate compliance” approach for demonstrating that planted crops
and crop residue from the U.S. complies with the
“renewable biomass” requirements that address lands
from which qualifying feedstocks may be harvested.163
In the 2010 RFS2 rulemaking, EPA established a baseline number of acres for U.S. agricultural land in 2007
(the year of EISA enactment) and determined that as
long as this baseline number of acres was not exceeded,
it was unlikely that new land outside of the 2007 baseline would be devoted to crop production based on historical trends and economic considerations. The regulations specify, therefore, that renewable fuel producers using planted crops or crop residue from the U.S.
as feedstock in renewable fuel production need not
undertake individual recordkeeping and reporting related to documenting that their feedstocks come from qualifying lands, unless EPA determines through one of its
annual evaluations that the 2007 baseline acreage of
402 million acres agricultural land has been exceeded.
In the 2010 RFS2 rulemaking, EPA committed to
make an annual finding concerning whether the 2007
baseline amount of U.S. agricultural land has been
exceeded in a given year. If the baseline is found to
have been exceeded, then producers using U.S. planted crops and crop residue as feedstocks for renewable
fuel production would be required to comply with individual recordkeeping and reporting requirements to
verify that their feedstocks are renewable biomass.

163

40 CFR 80.1454(g).

656a
The Aggregate Compliance methodology provided
for the exclusion of acreage enrolled in the Grassland
Reserve Program (GRP) and the Wetlands Reserve Program (WRP) from the estimated total U.S. agricultural
land. However, the 2014 Farm Bill terminated the GRP
and WRP as of 2013 and USDA established the Agriculture Conservation Easement Program (ACEP) with
wetlands and land easement components. The ACEP
is a voluntary program that provides financial and technical assistance to help conserve agricultural lands
and wetlands and their related benefits. Under the
Agricultural Land Easements (ACEP–ALE) component,
USDA helps Indian tribes, state and local governments,
and non-governmental organizations protect working
agricultural lands and limit non-agricultural uses of
the land. Under the Wetlands Reserve Easements
(ACEP–WRE) component, USDA helps to restore,
protect and enhance enrolled wetlands. The WRP was
a voluntary program that offered landowners the opportunity to protect, restore, and enhance wetlands on
their property. The GRP was a voluntary conservation
program that emphasized support for working grazing
operations, enhancement of plant and animal biodiversity, and protection of grassland under threat of conversion to other uses.
USDA and EPA concur that the ACEP–WRE and
ACEP–ALE represent a continuation in basic objectives and goals of the original WRP and GRP. Therefore, in preparing this year’s assessment of the total
U.S. acres of agricultural land, the acreage enrolled in
the ACEP–WRE and ACEP–ALE was excluded.
Based on data provided by the USDA Farm Service
Agency (FSA) and Natural Resources Conservation
Service (NRCS), we have estimated that U.S. agricultural land reached approximately 376 million acres in

657a
2017, and thus did not exceed the 2007 baseline acreage. This acreage estimate is based on the same methodology used to set the 2007 baseline acreage for U.S.
agricultural land in the RFS2 final rulemaking, with
the GRP and WRP substitution as noted above. Specifically, we started with FSA crop history data for 2017,
from which we derived a total estimated acreage of
379,220,752 acres. We then subtracted the ACEP–
ALE and ACEP–WRE enrolled areas by the end of
Fiscal Year 2017, 2,777,887 acres, to yield an estimate
of 376,442,865 acres or approximately 376 million acres
of U.S. agricultural land in 2017. The USDA data used
to make this derivation can be found in the docket to
this rule.164
B. Assessment of the Canadian Aggregate Compliance Approach
The RFS regulations specify a petition process
through which EPA may approve the use of an aggregate compliance approach for planted crops and crop
residue from foreign countries.165 On September 29,
2011, EPA approved such a petition from the Government of Canada.
The total agricultural land in Canada in 2017 is
estimated at 117.8 million acres. This total agricul164

As in 2016, USDA again provided EPA with 2017 data from
the discontinued GRP and WRP programs. Given this data, EPA
estimated the total U.S. agricultural land both including and omitting the GRP and WRP acreage. In 2017, combined land under
GRP and WRP totaled 349,146 acres. Subtracting the GRP, WRP,
ACEP–WRE, and ACEP–ALE acreage yields an estimate of
376,093,719 acres or approximately 376 million total acres of U.S.
agricultural land in 2017. Omitting the GRP and WRP data
yields approximately the same 376 million acres of U.S. agricultural land in 2017.
165

40 CFR 80.1457.

658a
tural land area includes 95.5 million acres of cropland
and summer fallow, 12.5 million acres of pastureland
and 9.8 million acres of agricultural land under conservation practices. This acreage estimate is based
on the same methodology used to set the 2007 baseline
acreage for Canadian agricultural land in EPA’s
response to Canada’s petition. The data used to make
this calculation can be found in the docket to this rule.
C. RIN Market Operation
Some stakeholders have expressed concerns that the
current regulatory provisions related to RIN trading
render the RFS program vulnerable to market manipulation. The EPA takes such issues seriously. The RIN
system was originally designed with an open trading
market in order to maximize its liquidity and ensure a
robust marketplace for RINs. However, the EPA is
interested in assessing whether and how the current
trading structure provides an opportunity for market
manipulation. To that effect, the EPA sought comment
and input on this issue, including on potential changes
to the RIN trading system that might help address
these concerns. We received comments from stakeholders suggesting a number changes to the RIN
trading system. While EPA received many comments
that are helpful to highlight opportunities for improvement to the RIN system, we are not in a position to
make significant changes to the RIN system at this
time. However, we intend to explore these suggested
changes and are open to suggestions for making changes
in the future that are within our authority and would
help to improve the function and liquidity of the RIN
system.
Separate from evaluating the RIN trading options in
the RFS program, the EPA is working with appropriate market regulators to analyze targeted concerns of

659a
some stakeholders. Although the EPA has not seen evidence of manipulation in the RIN market, the EPA is
not a commodity market regulatory agency, and thus
we do not have expertise in this field. Claims of market
manipulation prompted the EPA to execute a memorandum of understanding (MOU) with the U.S. Commodity Futures Trading Commission (CFTC), which
has the authority and expertise to investigate such
claims.
In the meantime, the EPA has continued to explore
additional ways to increase program transparency in
order to support the program and share data with all
stakeholders. The EPA already publishes RFS program
data on our Web site, including data related to RIN
generation, sales and holdings, and annual compliance.166 We are interested in providing more information, to the extent consistent with our obligations
to protect confidential business information (CBI). The
EPA sought comment on specific data elements and
posting frequency that stakeholders believe would be
useful to help with market transparency and liquidity.
We received comments from stakeholders suggesting
a number of different types of data that commenters
suggested would be useful to the industry and public.
The EPA will need to further evaluate each of these
suggestions to determine which information we can be
post and, if so, whether we can post it at the frequency
that was suggested by the commenters. Our decisions
with respect to these suggestions must necessarily
strike a balance between achieving the greatest transparency possible, while working within the limitations
of our authority and resources (including technology
166

For public data on the RFS and other EPA fuel programs,
refer to: https://www.epa.gov/fuels-registration-reporting-and-com
pliance-help/public-data-and-registration-lists-fuel-programs.

660a
systems), and protecting information that is claimed
as CBI.
IX. Public Participation
Many interested parties participated in the rulemaking process that culminates with this final rule.
This process provided opportunity for submitting written public comments following the proposal that we
published on July 21, 2017 (82 FR 34206), and we also
held a public hearing on August 1, 2017, at which
many parties provided both verbal and written testimony. All comments received, both verbal and written,
are available in Docket ID No. EPA–HQ–OAR–2017–
0091 and we considered these comments in developing
the final rule. Public comments and EPA responses
are discussed throughout this preamble and in the
accompanying Response to Comment document, which
is available in the docket for this action.
X. Statutory and Executive Order Reviews
A. Executive Order 12866: Regulatory Planning
and Review and Executive Order 13563:
Improving Regulation and Regulatory Review
This action is an economically significant regulatory
action that was submitted to the Office of Management and Budget (OMB) for review. Any changes
made in response to OMB recommendations have been
documented in the docket. The EPA prepared an
analysis of illustrative costs associated with this
action. This analysis is presented in Section IV.E of
this preamble.
B. Executive Order 13771: Reducing Regulations and Controlling Regulatory Costs
This action is considered an Executive Order 13771
regulatory action. Details on the estimated costs of this

661a
final rule can be found in EPA’s analysis of the illustrative costs associated with this action. This analysis
is presented in Section IV.E of this preamble.
C. Paperwork Reduction Act (PRA)
This action does not impose any new information
collection burden under the PRA. OMB has previously
approved the information collection activities contained
in the existing regulations and has assigned OMB
control numbers 2060–0637 and 2060–0640. The final
standards will not impose new or different reporting
requirements on regulated parties than already exist
for the RFS program.
D. Regulatory Flexibility Act (RFA)
I certify that this action will not have a significant
economic impact on a substantial number of small
entities under the RFA. In making this determination,
the impact of concern is any significant adverse economic impact on small entities. An agency may certify
that a rule will not have a significant economic impact
on a substantial number of small entities if the rule
relieves regulatory burden, has no net burden, or
otherwise has a positive economic effect on the small
entities subject to the rule.
The small entities directly regulated by the RFS program are small refiners, which are defined at 13 CFR
121.201. We have evaluated the impacts of this final
rule on small entities from two perspectives: As if the
2018 standards were a standalone action or if they are
a part of the overall impacts of the RFS program as a
whole.
When evaluating the standards as if they were a
standalone action separate and apart from the original
rulemaking which established the RFS2 program, then

662a
the standards could be viewed as increasing the
advanced and total renewable fuel volumes required of
obligated parties by 10 million gallons between 2017
and 2018. To evaluate the impacts of the volume
requirements on small entities relative to 2017, EPA
has conducted a screening analysis167 to assess whether
it should make a finding that this action would not
have a significant economic impact on a substantial
number of small entities. Currently available information shows that the impact on small entities from
implementation of this rule would not be significant.
EPA has reviewed and assessed the available information, which shows that obligated parties, including
small entities, are generally able to recover the cost of
acquiring the RINs necessary for compliance with the
RFS standards through higher sales prices of the
petroleum products they sell than would be expected
in the absence of the RFS program.168 169 This is true
whether they acquire RINs by purchasing renewable
fuels with attached RINs or purchase separated RINs.
The costs of the RFS program are thus generally being
passed on to consumers in the highly competitive
167

“Screening Analysis for the Final Renewable Fuel Standard
Program Renewable Volume Obligations for 2018,” memorandum
from Dallas Burkholder, Nick Parsons, and Tia Sutton to EPA
Air Docket EPA–HQ–OAR–2017–0091.
168

For a further discussion of the ability of obligated parties to
recover the cost of RINs see “A Preliminary Assessment of RIN
Market Dynamics, RIN Prices, and Their Effects,” Dallas Burkholder, Office of Transportation and Air Quality, US EPA. May
14, 2015, EPA Air Docket EPA–HQ–OAR–2015–0111.
169

Knittel, Christopher R., Ben S. Meiselman, and James H.
Stock. “The Pass-Through of RIN Prices to Wholesale and Retail
Fuels under the Renewable Fuel Standard.” Working Paper 21343.
NBER Working Paper Series. Available online at http://www.
nber.org/papers/w21343.pdf.

663a
marketplace. Even if we were to assume that the cost
of acquiring RINs were not recovered by obligated
parties, and we used the maximum values of the illustrative costs discussed in Section IV.E of this preamble
and the gasoline and diesel fuel volume projections
and wholesale prices from the October 2017 version of
EIA’s Short-Term Energy Outlook, and current
wholesale fuel prices, a cost-to-sales ratio test shows
that the costs to small entities of the RFS standards
are far less than 1 percent of the value of their sales.
While the screening analysis described above supports a certification that this rule would not have a
significant economic impact on small refiners, we
continue to believe that it is more appropriate to
consider the standards as a part of ongoing implementation of the overall RFS program. When considered
this way, the impacts of the RFS program as a whole
on small entities were addressed in the RFS2 final rule
(75 FR 14670, March 26, 2010), which was the rule
that implemented the entire program required by the
Energy Independence and Security Act of 2007 (EISA
2007). As such, the Small Business Regulatory Enforcement Fairness Act (SBREFA) panel process that took
place prior to the 2010 rule was also for the entire RFS
program and looked at impacts on small refiners
through 2022.
For the SBREFA process for the RFS2 final rule,
EPA conducted outreach, fact-finding, and analysis of
the potential impacts of the program on small refiners,
which are all described in the Final Regulatory Flexibility Analysis, located in the rulemaking docket
(EPA–HQ–OAR–2005–0161). This analysis looked at
impacts to all refiners, including small refiners, through
the year 2022 and found that the program would not
have a significant economic impact on a substantial

664a
number of small entities, and that this impact was
expected to decrease over time, even as the standards
increased. For gasoline and/or diesel small refiners
subject to the standards, the analysis included a costto-sales ratio test, a ratio of the estimated annualized
compliance costs to the value of sales per company.
From this test, it was estimated that all directly regulated small entities would have compliance costs that
are less than one percent of their sales over the life of
the program (75 FR 14862, March 26, 2010).
We have determined that this final rule will not
impose any additional requirements on small entities
beyond those already analyzed, since the impacts of
this rule are not greater or fundamentally different
than those already considered in the analysis for the
RFS2 final rule assuming full implementation of the
RFS program. This rule establishes the 2018 advanced
and total renewable fuel volume requirements at levels 10 million gallons higher than the 2017 volume
requirements, and significantly below the statutory
volume targets. This exercise of EPA’s waiver authority reduces burdens on small entities, as compared to
the burdens that would be imposed under the volumes
specified in the Clean Air Act in the absence of waivers—
which are the volumes that we assessed in the screening analysis that we prepared for implementation of
the full program. Regarding the BBD standard, we are
maintaining the volume requirement for 2019 at the
same level as 2018. While this volume is an increase
over the statutory minimum value of 1 billion gallons,
the BBD standard is a nested standard within the
advanced biofuel category, which we are significantly
reducing from the statutory volume targets. As discussed in Section VI, we are setting the 2019 BBD
volume requirement at a level below what is anticipated will be produced and used to satisfy the reduced

665a
advanced biofuel requirement. The net result of the
standards being established in this action is a reduction in burden as compared to implementation of the
statutory volume targets, as was assumed in the RFS2
final rule analysis.
While the rule will not have a significant economic
impact on a substantial number of small entities, there
are compliance flexibilities in the program that can
help to reduce impacts on small entities. These flexibilities include being able to comply through RIN
trading rather than renewable fuel blending, 20 percent RIN rollover allowance (up to 20 percent of an
obligated party’s RVO can be met using previous-year
RINs), and deficit carry-forward (the ability to carry
over a deficit from a given year into the following year,
providing that the deficit is satisfied together with the
next year’s RVO). In the RFS2 final rule, we discussed
other potential small entity flexibilities that had been
suggested by the SBREFA panel or through comments, but we did not adopt them, in part because we
had serious concerns regarding our authority to do so.
Additionally, as we realize that there may be cases
in which a small entity may be in a difficult financial
situation and the level of assistance afforded by the
program flexibilities is insufficient. For such circumstances, the program provides hardship relief provisions for small entities (small refiners), as well as for
small refineries.170 As required by the statute, the RFS
regulations include a hardship relief provision (at 40
CFR 80.1441(e)(2)) that allows for a small refinery to
petition for an extension of its small refinery exemption at any time based on a showing that compliance
with the requirements of the RFS program would result
170

See CAA section 211(o)(9)(B).

666a
in the refinery experiencing a “disproportionate economic hardship.” EPA regulations provide similar
relief to small refiners that are not eligible for small
refinery relief (see 40 CFR 80.1442(h)). EPA evaluates
these petitions on a case-by-case basis and may approve
such petitions if it finds that a disproportionate economic hardship exists. In evaluating such petitions,
EPA consults with the U.S. Department of Energy,
and takes the findings of DOE’s 2011 Small Refinery
Study and other economic factors into consideration.
EPA successfully implemented these provisions by
evaluating petitions for exemption from 14 small
refineries for the 2016 RFS standards.171
Given that this final rule would not impose additional requirements on small entities, would decrease
burden via a reduction in required volumes as compared to statutory volume targets, would not change
the compliance flexibilities currently offered to small
entities under the RFS program (including the small
refinery hardship provisions we continue to successfully implement), and available information shows
that the impact on small entities from implementation
of this rule would not be significant viewed either from
the perspective of it being a standalone action or a part
of the overall RFS program, we have therefore concluded that this action would have no net regulatory
burden for directly regulated small entities.
E. Unfunded Mandates Reform Act (UMRA)
This action does not contain an unfunded mandate
of $100 million or more as described in UMRA, 2 U.S.C.
1531–1538, and does not significantly or uniquely affect
small governments. This action implements mandates
171

EPA is currently evaluating 2 additional 2016 petitions,
bringing the total number of petitions for 2016 to 16.

667a
specifically and explicitly set forth in CAA section 211(o)
and we believe that this action represents the least
costly, most cost-effective approach to achieve the statutory requirements of the rule.
F. Executive Order 13132: Federalism
This action does not have federalism implications. It
will not have substantial direct effects on the states,
on the relationship between the national government
and the states, or on the distribution of power and
responsibilities among the various levels of government.
G. Executive Order 13175: Consultation and
Coordination With Indian Tribal Governments
This action does not have tribal implications as specified in Executive Order 13175. This final rule will be
implemented at the Federal level and affects transportation fuel refiners, blenders, marketers, distributors, importers, exporters, and renewable fuel producers
and importers. Tribal governments would be affected
only to the extent they produce, purchase, and use
regulated fuels. Thus, Executive Order 13175 does not
apply to this action.
H. Executive Order 13045: Protection of Children From Environmental Health Risks and
Safety Risks
The EPA interprets Executive Order 13045 as
applying only to those regulatory actions that concern
environmental health or safety risks that the EPA has
reason to believe may disproportionately affect children, per the definition of “covered regulatory action”
in section 2–202 of the Executive Order. This action is
not subject to Executive Order 13045 because it imple-

668a
ments specific standards established by Congress in
statutes (CAA section 211(o)) and does not concern an
environmental health risk or safety risk.
I. Executive Order 13211: Actions Concerning
Regulations That Significantly Affect Energy
Supply, Distribution, or Use
This action is not a “significant energy action” because
it is not likely to have a significant adverse effect on
the supply, distribution, or use of energy. This action
establishes the required renewable fuel content of the
transportation fuel supply for 2018, consistent with
the CAA and waiver authorities provided therein. The
RFS program and this rule are designed to achieve
positive effects on the nation’s transportation fuel supply, by increasing energy independence and lowering
lifecycle GHG emissions of transportation fuel.
J. National Technology Transfer and Advancement Act (NTTAA)
This rulemaking does not involve technical standards.
K. Executive Order 12898: Federal Actions To
Address Environmental Justice in Minority
Populations and Low-Income Populations
The EPA believes that this action does not have
disproportionately high and adverse human health or
environmental effects on minority populations, lowincome populations, and/or indigenous peoples, as specified in Executive Order 12898 (59 FR 7629, February
16, 1994). This final rule does not affect the level of
protection provided to human health or the environment by applicable air quality standards. This action
does not relax the control measures on sources regulated by the RFS regulations and therefore will not
cause emissions increases from these sources.

669a
L. Congressional Review Act (CRA)
This action is subject to the CRA, and the EPA will
submit a rule report to each House of the Congress and
to the Comptroller General of the United States. This
action is a “major rule” as defined by 5 U.S.C. 804(2).
XI. Statutory Authority
Statutory authority for this action comes from section 211 of the Clean Air Act, 42 U.S.C. 7545. Additional support for the procedural and compliance
related aspects of this final rule comes from sections
114, 208, and 301(a) of the Clean Air Act, 42 U.S.C.
7414, 7542, and 7601(a).
List of Subjects in 40 CFR Part 80
Environmental protection, Administrative practice
and procedure, Air pollution control, Diesel fuel, Fuel
additives, Gasoline, Imports, Oil imports, Petroleum,
Renewable fuel.
Dated: November 30, 2017.
E. Scott Pruitt,
Administrator.
For the reasons set forth in the preamble, EPA
amends 40 CFR part 80 as follows:
PART 80—REGULATION OF FUELS AND FUEL
ADDITIVES


1. The authority citation for part 80
continues to read as follows:

Authority: 42 U.S.C. 7414, 7521, 7542, 7545, and
7601(a).
Subpart M—Renewable Fuel Standard



670a
2. Section 80.1405 is amended by adding
paragraph (a)(9) to read as follows:

§80.1405 What are the Renewable Fuel Standards?
(a) * * *
(9) Renewable Fuel Standards for 2018.
(i) The value of the cellulosic biofuel standard
for 2018 shall be 0.159 percent.
(ii) The value of the biomass-based diesel
standard for 2018 shall be 1.74 percent.
(iii) The value of the advanced biofuel standard for 2018 shall be 2.37 percent.
(iv) The value of the renewable fuel standard
for 2018 shall be 10.67 percent.
*

*

*

*

*

[FR Doc. 2017–26426 Filed 12–11–17; 8:45 am]
BILLING CODE 6560–50–P

